<html>
<title> - TO REVIEW PROPOSALS TO IMPROVE CHILD PROTECTIVE SERVICES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                          TO REVIEW PROPOSALS

                  TO IMPROVE CHILD PROTECTIVE SERVICES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2006

                               __________

                           Serial No. 109-73

                               __________

         Printed for the use of the Committee on Ways and Means

















                    U.S. GOVERNMENT PRINTING OFFICE

30-447                      WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


















                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

E. CLAY SHAW, JR., Florida           CHARLES B. RANGEL, New York
NANCY L. JOHNSON, Connecticut        FORTNEY PETE STARK, California
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
PHIL ENGLISH, Pennsylvania           WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona               JOHN S. TANNER, Tennessee
JERRY WELLER, Illinois               XAVIER BECERRA, California
KENNY C. HULSHOF, Missouri           LLOYD DOGGETT, Texas
RON LEWIS, Kentucky                  EARL POMEROY, North Dakota
MARK FOLEY, Florida                  STEPHANIE TUBBS JONES, Ohio
KEVIN BRADY, Texas                   MIKE THOMPSON, California
THOMAS M. REYNOLDS, New York         JOHN B. LARSON, Connecticut
PAUL RYAN, Wisconsin                 RAHM EMANUEL, Illinois
ERIC CANTOR, Virginia
JOHN LINDER, Georgia
BOB BEAUPREZ, Colorado
MELISSA A. HART, Pennsylvania
CHRIS CHOCOLA, Indiana
DEVIN NUNES, California

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        JIM MCDERMOTT, Washington
BOB BEAUPREZ, Colorado               BENJAMIN L. CARDIN, Maryland
MELISSA A. HART, Pennsylvania        FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               XAVIER BECERRA, California
DAVE CAMP, Michigan                  RAHM EMANUEL, Illinois
PHIL ENGLISH, Pennsylvania
DEVIN NUNES, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 12, 2006, announcing the hearing.................     2

                               WITNESSES

U.S. Government Accountability Office, Cornelia Ashby............     7
Zero to Three, Hon. Constance Cohen, Associate Juvenile Judge, 
  Fifth Judicial District of Iowa, Des Moines, Iowa..............    20
Child Welfare League of America, Linda Spears....................    28
National Indian Child Welfare Association, Terry Cross, Portland, 
  Oregon.........................................................    37
American Academy of Pediatrics, Kent Hymel, M.D., Falls Church, 
  Virginia.......................................................    41
National Council for Adoption, Thomas Atwood, Alexandria, 
  Virginia.......................................................    46

                                 ______

American Public Human Services Association, Hon. Cari DeSantis, 
  Wilmington, Delaware...........................................    61
University of Baltimore School of Law, Daniel Hatcher, Baltimore, 
  Maryland.......................................................    66
Casey Family Programs, William Bell, Seattle, Washington.........    70
National Coalition for Child Protection Reform, Richard Wexler, 
  Alexandria, Virginia...........................................    77
National Association of Social Workers, Ikeita Cantu Hinojosa....    88
American Family Rights Association, William Tower, Fair Oaks, 
  California.....................................................    94
Coalition for Residential Education, Heidi Goldsmith, Silver 
  Spring, Maryland...............................................    99

                       SUBMISSIONS FOR THE RECORD

Children's Defense Fund, Mary Lee Allen, statement...............   117
American Federation of State, County and Municipal Employees, 
  statement......................................................   123
Brown, Tim, Waco, TX, letter.....................................   125
Bryan, Barbara, Davidson, NC, letter.............................   126
Butts, Donna, Generations United, statement......................   130
Citizens Commission on Human Rights New England, Boston, MA, 
  letter.........................................................   132
Sutter County Sheriff's Department, Jim Denney, Yuba City, CA, 
  statement......................................................   132
Gladwell, Lisa, River Edge, NJ, letter...........................   135
Groh, Alicia, Voice for Adoption, statement......................   136
Haymon, Gail, Columbus, OH, letter...............................   137
Holder, Helen, Walton, KY, letter................................   140
Kroll, Joe, North American Council on Adoptable Children, St. 
  Paul, MN, statement............................................   140
Mecca, Frank J., County Welfare Directors Association of 
  California, Sacramento, CA, statement..........................   146
National Indian Child Welfare Association, Portland, OR, letter..   151
Prevent Child Abuse America, Chicago, IL, statement..............   153
Shipman, C. Edward, Happy Hill Farm Academy, Granbury, TX, letter   156










 
                         TO REVIEW PROPOSALS
                  TO IMPROVE CHILD PROTECTIVE SERVICES

                              ----------                              


                         TUESDAY, MAY 23, 2006

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
May 12, 2006
HR-9

              Herger Announces Hearing to Review Proposals

                  to Improve Child Protective Services

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to review proposals to improve child 
protective services. The hearing will take place on Tuesday, May 23, 
2006, in room B-318 Rayburn House Office Building, beginning at 2:00 
p.m.
      
    Oral testimony at this hearing will be from both invited and public 
witnesses. Invited witnesses will include a representative from the 
U.S. Government Accountability Office and other experts in how States 
use Federal funds for child protective services. Any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Subcommittee and for possible 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Child Welfare Services (CWS) program and the Promoting Safe and 
Stable Families (PSSF) program (both authorized under Title IV-B of the 
Social Security Act) provide approximately $700 million in annual 
Federal funds to support services to ensure children are raised in 
safe, loving families. Combined, this is the largest source of Federal 
funds provided to States to assist at-risk families, further protect 
children from abuse and neglect, and prevent the unnecessary separation 
of children from their parents. Since the program's inception in the 
1930s, States have had considerable flexibility in the use of CWS 
funds. However, concern that few States were spending CWS funds for 
targeted services to help at-risk families resulted in Congress 
creating the PSSF program in 1993 (P.L. 103-66). Funds from the PSSF 
program must be spent for family support services, family preservation 
services, time-limited reunification services, or post-adoption 
services. While the CWS program is indefinitely authorized, the 
authorization of the PSSF program expires at the end of fiscal year 
2006, requiring Congressional action this year to extend or otherwise 
improve the PSSF program.
      
    The U.S. Department of Health and Human Services recently completed 
initial Child and Family Service Reviews (CFSRs) in each State. The 
CFSRs are designed to assess each State's child protection program to 
ensure the program promotes the safety, permanency, and well-being of 
children, such as through services supported by CWS and PSSF funds. 
Significantly, as established in a May 13, 2004 Subcommittee hearing, 
no State was in full compliance with all measures of the CFSRs. The 
CFSRs revealed States need to work to prevent repeat abuse and neglect 
of children; improve services provided to families to reduce the risk 
of future harm, including better monitoring of families' participation 
in services; strengthen upfront services provided to families to 
prevent unnecessary family break-up and protect children who remain at 
home; improve ways States assess the needs of family members and 
provide services; and better engage parents and children when 
developing case plans outlining necessary services to assist families.
      
    In light of these findings, there is considerable interest in 
ensuring States utilize CWS and PSSF funds to improve child protection 
programs and ensure at-risk families receive appropriate services. In 
the course of considering potential PSSF reauthorization legislation, 
the Committee is interested in learning about: (1) services provided to 
families that have been evaluated and shown to achieve improved child 
outcomes; (2) how families have been assisted by these programs; and 
(3) what additional steps Congress should take to ensure Federal funds 
support local services that allow children to safely remain in their 
own communities. The Committee is especially interested in hearing from 
families or former foster youth who have direct experience with such 
services.
      
    In announcing the hearing, Chairman Herger stated, ``It is 
important that we do all we can to help families receive services to 
prevent child abuse and neglect. I look forward to learning about how 
Federal funds have been used to provide services to protect children, 
whether those services are effective, and what else we can do to 
improve how we protect vulnerable children from harm. Based on the 
record to date, much more work needs to be done.''
      

FOCUS OF THE HEARING:

      
    The focus of this hearing will be to review proposals to improve 
child protective services.
      

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

      
    Requests to be heard at the hearing must be made by telephone to 
Matthew Turkstra or Cooper Smith at (202) 225-1721 no later than the 
close of business, Wednesday, May 17, 2006. The telephone request 
should be followed by a formal written request faxed to Allison Giles, 
Chief of Staff, Committee on Ways and Means, U.S. House of 
Representatives, 1102 Longworth House Office Building, Washington, D.C. 
20515, at (202) 225-2610. The staff of the Committee will notify by 
telephone those scheduled to appear as soon as possible after the 
filing deadline. Any questions concerning a scheduled appearance should 
be directed to the Committee staff at (202) 225-1721.
      
    In view of the limited time available to hear witnesses, the 
Committee may not be able to accommodate all requests to be heard. 
Those persons and organizations not scheduled for an oral appearance 
are encouraged to submit written statements for the record of the 
hearing in lieu of a personal appearance. All persons requesting to be 
heard, whether they are scheduled for oral testimony or not, will be 
notified as soon as possible after the filing deadline.
      
    Witnesses scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. THE FIVE-MINUTE RULE WILL BE STRICTLY ENFORCED. The full 
written statement of each witness will be included in the printed 
record, in accordance with House Rules.
      
    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all witnesses scheduled to appear 
before the Committee are required to submit 100 copies, along with an 
IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, of 
their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee office, B-318 Rayburn House 
Office Building, no later than close of business on Friday, May 19, 
2006. The 100 copies can be delivered to the Subcommittee staff in one 
of two ways: (1) Government agency employees can deliver their copies 
to B-318 Rayburn House Office Building in an open and searchable box, 
but must carry with them their respective government issued 
identification to show the U.S. Capitol Police, or (2) for non-
government officials, the copies must be sent to the new Congressional 
Courier Acceptance Site at the location of 2nd and D Streets, N.E., at 
least 48 hours prior to the hearing date. Please ensure that you have 
the address of the Subcommittee, B-318 Rayburn House Office Building, 
on your package, and contact the staff of the Subcommittee at (202) 
225-1025 of its impending arrival. Due to new House mailing procedures, 
please avoid using mail couriers such as the U.S. Postal Service, UPS, 
and FedEx. When a couriered item arrives at this facility, it will be 
opened, screened, and then delivered to the Committee office, within 
one of the following two time frames: (1) expected or confirmed 
deliveries will be delivered in approximately 2 to 3 hours, and (2) 
unexpected items, or items not approved by the Committee office, will 
be delivered the morning of the next business day. The U.S. Capitol 
Police will refuse all non-governmental courier deliveries to all House 
Office Buildings.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``109th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=17). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Tuesday, 
June 6, 2006. Finally, please note that due to the change in House mail 
policy, the U.S. Capitol Police will refuse sealed-package deliveries 
to all House Office Buildings. For questions, or if you encounter 
technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Good afternoon, and welcome to today's 
hearing. The purpose of this hearing is to review State and 
community-based efforts to assist at-risk families, protect 
children from abuse and neglect, and prevent the unnecessary 
separation of children from their parents. Those services are 
supported by Federal funding from two major programs, both 
under this Subcommittee's jurisdiction. The first, known as 
Child Welfare Services (CWS), was created in the thirties. The 
second, called the Promoting Safe and Stable Families Program 
(PSSF), was added in the nineties. Together, these two programs 
provide States about $700 million per year for services 
intended to ensure the safety, permanency and well-being of 
children. Combined, these programs are considered the largest 
source of targeted Federal funding in the child protection 
system used for prevention. That is for services to ensure that 
children are not abused or neglected and when possible, to 
ensure these children can remain safely with their families.
    We know the costs in children's lives and well-being are 
far greater when prevention efforts fail. We also know the 
costs to Federal taxpayers increase if prevention efforts fail. 
The Congressional Budget Office projects that Federal taxpayers 
will spend almost $35 billion over the next 5 years to support 
children in foster and adoptive homes and otherwise support 
State administration of these programs. In addition to 
society's obvious interest of protecting children and 
strengthening families, Federal and State taxpayers all have an 
interest in ensuring the prevention dollars work to keep kids 
safely with their own parents, if at all possible. All of which 
begs several questions, which are the focus of today's hearing. 
What services are States funding through the CWS and promoting 
safe and stable programs? How effective are these services at 
preventing child abuse and neglect and assisting at-risk 
families? And what more can Congress do to encourage States to 
invest in proven outcome-based services that protect children 
and support families at risk of abuse and neglect? The PSSF 
expires at the end of fiscal year 2006, requiring congressional 
action this year. If we reauthorize this program and the CWS 
programs, for 5 years, as has been our custom, we will make 
available more than $3.5 billion in Federal funds for States to 
ensure that children are protected whether they live with their 
parents or in foster or adoptive homes. That includes a $200 
million increase in funding provided under the Deficit 
Reduction Act (P.L. 109-171), which the President signed in 
February.
    I am pleased that we have before us today a wide range of 
individuals to help us better understand the effectiveness of 
these programs and what more needs to be done. They will 
provide useful context about the services currently provided 
and what changes Congress should consider to better protect 
children. I have shared with the witnesses draft legislation 
developed in a bipartisan manner with our colleagues. I look 
forward to hearing from all of our witnesses today about ways 
to better ensure these programs promote the safety, permanency 
and well-being of all children. Without objection, each Member 
will have the opportunity to submit a written statement and 
have it included in the record. At this point, Mr. McDermott, 
would you care to make a statement?
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Good morning--or 
good afternoon, I guess it is. Good day to make a difference in 
the lives of vulnerable children. I welcome the opportunity for 
us to work together, as we have on this bill, as concerned 
leaders, not as political adversaries. Sometimes we are a 
little adversarial in here. The Members on this dais and the 
familiar faces I see in the audience share a common goal, 
helping America's vulnerable kids by strengthening America's 
lifeline of hope, the Nation's CWS. Now, it is up to us to find 
some common ground. There is a lot we don't know, and we need 
to learn when we consider ways to improve the CWS and the 
reauthorization of the PSSF. What we do know is troubling, 40 
percent of kids who have been abused or neglected never receive 
follow-up care, 40 percent. We also know that this Act needs 
more than a well-intentioned title. It needs to be strengthened 
through its reauthorization--that means money. Now, right now, 
this bill is the single largest source of money for preventing 
child abuse and neglect. Yet it is barely one-tenth the size of 
the programs that fund foster care. Once a family--a child is 
removed from a home.
    The witnesses here today can both educate us and advocate 
for the real-world solutions that we can incorporate into this 
reauthorization. In some ways, this is draft legislation so you 
can give us some ideas before we actually put it in print. We 
have before us a draft--and it really is for your comment 
today. There remain questions that needs to be answered and 
concerns that need to be addressed, but the draft is a good 
starting point. The chairman has directed his staff to work 
with my staff, and they have been working for some time to 
discuss the challenges that face the CWS and ways we can 
improve it for vulnerable kids. I am pleased that we have been 
able to generally agree on the need to invest more in the 
people who implement child welfare policy. People make all the 
difference. It really is a people business. We can do more to 
help child--State child welfare agencies attract and retain 
quality staff. As we discuss the reauthorization, that is the 
money, we all recognize the need for much more comprehensive 
reform of Federal welfare financing. We discussed this at least 
for 6 years without making any progress, and it is time we do. 
I am pleased that we are here today. Administration and some of 
my colleagues across the aisle support blocked grants. In fact, 
the administration's gone so far as to block the extension of 
the title IV-B--IV-E waiver authority to put added pressure on 
States to support a block grant as the only option for fiscal 
and programmatic flexibility. We can do better than that in my 
view. We know from history that block grants are a favorite 
target for budget cuts. Once you got it all blocked together, 
it is easy to whack off ten percent. We are seeing it today 
with the administration's effort to cut the social service 
block grant. The system is significantly under-funded and yet a 
concerted effort is under way to make matters worse. In reading 
the prepared testimony of the panelists, I was pleased to see a 
strong plea for Congress to maintain the title IV-E 
entitlement. If we are to improve the lives of vulnerable kids, 
we need to partner with the States to create the meaningful 
reforms we want. As the panelists comment on the proposal to 
reauthorize this bill, I hope they will help us understand the 
larger context of child welfare financing and the changes 
required to ensure that we are adequately caring for our 
Nation's most vulnerable kids. The draft proposal, in my view, 
is the first step and it is in the right direction. I hope that 
Mr. Herger and I can make a second step after this hearing. Our 
common goal should be a bipartisan reauthorization of this Act 
that meets the real-world needs of the system. We can find 
common ground if we try, and I am glad we are here to begin. 
Thank you.
    Chairman HERGER. Thank you, Mr. McDermott. Before we move 
on to our testimony, I want to remind our witnesses to limit 
their oral statement to 5 minutes. However, without objection, 
all the written testimony will be made a part of the permanent 
record. Our first panel today we will be hearing from Cornelia 
Ashby, Director of Education, Workforce and Income Security 
Issues at the U.S. Government Accountability Office; the 
Honorable Constance Cohen, Associate Juvenile Judge in the 
Fifth Judicial District of Iowa on behalf of the Zero to Three; 
Linda Spears, Vice President of Corporate Communications and 
Development of the Child Welfare League of America; Terry 
Cross, Executive Director of the National Indian Child Welfare 
Association; Dr. Kent Hymel on behalf of the American Academy 
of Pediatrics; and Thomas Atwood, President and Chief Executive 
Officer for the National Council For Adoption. Ms. Ashby, 
please proceed with your testimony.

 STATEMENT OF CORNELIA ASHBY, DIRECTOR OF EDUCATION, WORKFORCE 
       AND INCOME SECURITY ISSUES AT THE U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. ASHBY. Mr. Chairman and Members of the Subcommittee, I 
am pleased to be here today to present information from our 
2003 report on States' use of title IV-B funds. Specifically, 
my comments will focus on: One, how States use IV-B dollars to 
serve families; two, the extent the Federal oversight ensured 
State compliance with spending requirements under subpart one; 
and three, what research said about the effectiveness of 
services States have provided to families using IV-B funds. 
While overlap exists and it is difficult to clearly 
differentiate among the various service categories and 
populations served, States reported using subpart one funds 
primarily to staff and administer child welfare programs and 
serve families in the foster care system and subpart two funds 
primarily for prevention and support services for families at 
risk of child abuse and neglect. Use of subpart one funds is 
limited in that the total of subpart one funds used for foster 
care maintenance, adoption assistance, and child care cannot 
exceed a State's total 1979 subpart one expenditures for all 
types of services. However, the range of services allowed under 
subpart two is more limited than under subpart one. Generally, 
as you know, States must spend at least 20 percent of their 
subpart two funds on each of four service categories. States 
can spend no more than ten percent of subpart two funds on 
administrative costs and under subpart two, family 
reunification services can only be provided during a child's 
first 15 months in foster care. State child welfare directors 
responding to our survey reported that flexibility was 
important to meet the needs of their child welfare systems. 
Therefore, they generally preferred the financing structure of 
subpart one over subpart two.
    Despite the statutory limitation on State expenditures for 
Federal funds under subpart one for foster care maintenance, 
adoption assistance, and child care, U.S. Department of Health 
and Human Services (HHS) provided relatively little oversight 
of State use of Federal funds under subpart one; and therefore, 
could not ensure State compliance with the subpart one spending 
requirements. HHS does not collect data on subpart one 
expenditures, relying instead on cursory reviews of plans 
submitted by States that discuss how they intend to use their 
subpart one funds in the coming year. We found that HHS 
regional offices have paid little attention to statutory limits 
in reviewing States' planned use of subpart one funds. In 
response to our survey, ten State child welfare directors 
reported actual 2002 subpart one expenditures that exceeded the 
spending limits by over $15 million in total. Furthermore, at 
the time we conducted our study, research had provided little 
information on the effectiveness of services provided in the 
subpart one, and HHS evaluations of services funded under 
subpart two had generally shown no or little effect on 
children's outcomes.
    In our survey, 22 States reported providing services other 
than maintenance payments, staff salaries or administration 
under subpart one. However, none of these States had evaluated 
the outcomes of these services. Similarly, our literature 
review showed that few evaluations had been conducted, and 
evaluations that had been conducted produced mixed results. In 
conclusion, I would like to summarize the recommendations we 
made in our 2003 report and HHS's response to them. We 
recommended that the Secretary of HHS: One, provide the 
necessary guidance to ensure compliance with statutory 
restrictions on the use of subpart one funds. Two, consider the 
feasibility of collecting and using data on States' use of 
these funds to facilitate program oversight and analysis of how 
States' spending patterns correlate with child outcomes. Three, 
use the information gained through enhanced oversight of 
subpart one expenditures as well as any available information 
on States' use of subpart two funds to inform the design of an 
alternative financing option that would give States more 
flexibility in spending child welfare funds. Well, HHS agreed 
with the first recommendation and provided guidance to States, 
reminding them of the statutory requirements for subpart one 
spending. However, HHS disagreed that it should collect data on 
States' use of subpart one funds and stated that its level of 
oversight was commensurate with the scope and intent of subpart 
one. Also, HHS did not comment on the merits of having enhanced 
oversight and information to inform the design of an 
alternative financing option. Mr. Chairman, this completes my 
prepared statement. I would be happy to answer any questions 
you or other Members of the Subcommittee may have.
    [The prepared statement of Ms. Ashby follows:]
Statement of Cornelia Ashby, Director, Education, Workforce, and Income 
            Security, U.S. Government Accountability Office
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to present information from our 2003 
report on how states used funds authorized under Title IV-B of the 
Social Security Act to help families address problems that lead to 
child abuse and neglect and subsequent separation of children from 
their families.\1\ For federal fiscal year 2004, child protective 
services (CPS) staff in state and local child welfare agencies reported 
investigating or assessing an estimated 3 million allegations of child 
maltreatment and determined that approximately 872,000 children had 
been the victims of child abuse or neglect by their parents or other 
caregivers. Established in 1935, Title IV-B first authorized funds to 
states that could be used to provide a wide array of child welfare 
services including those necessary to investigate reports of child 
maltreatment, remove children from their home and place them with a 
temporary foster family, help preserve or reunify families, and place 
children who cannot be safely reunified with their families in an 
adoptive home.
---------------------------------------------------------------------------
    \1\ GAO, Child Welfare: Enhanced Federal Oversight of Title IV-B 
Could Provide States Additional Information to Improve Services, GAO-
03-956 (Washington, D.C.: Sept. 12, 2003).
---------------------------------------------------------------------------
    The Congress has passed various laws over the years emphasizing the 
need for states to use Title IV-B funding to provide supportive 
services to preserve and reunify families. In 1980, for example, the 
Adoption Assistance and Child Welfare Act established a dollar cap on 
the amount of child welfare funds that states could use under Title IV-
B for foster care and certain other activities to encourage states to 
use additional funding for services to families. In 1993, the Congress 
established the family preservation and family support services program 
under Title IV-B subpart 2, authorizing funding to states for family 
preservation and community-based family support services. The Adoption 
and Safe Families Act of 1997 further encouraged spending on family 
support services by reauthorizing subpart 2, renaming it Promoting Safe 
and Stable Families, and expanding the types of programs on which 
states were authorized to spend Title IV-B funds to include adoption 
promotion and support services and time-limited family reunification 
services. In fiscal year 2006, the Congress appropriated $287 million 
for child welfare services under subpart 1 and $394 million for family 
support services under subpart 2.\2\ These funds are administered to 
states by the Department of Health and Human Services' (HHS) 
Administration for Children and Families (ACF).
---------------------------------------------------------------------------
    \2\ States are required to provide matching funds in order to 
receive federal Title IV-B funding.
---------------------------------------------------------------------------
    My testimony today is primarily based on information included in 
our 2003 report. Specifically, I will be discussing: (1) how states 
used Title IV-B dollars to serve families under subparts 1 and 2; (2) 
the extent that federal oversight ensured state compliance with 
spending requirements under subpart 1; and (3) what the research said 
about the effectiveness of services states have provided to families 
using Title IV-B funds.
    In summary, while overlap exists, states reported using Title IV-B 
subpart 1 funds primarily to staff and administer child welfare 
programs and serve families in the foster care system, while states 
reported using subpart 2 funds primarily for prevention and support 
services for families at risk of child abuse and neglect. It is 
difficult, however, to clearly differentiate among the various service 
categories and populations served. HHS provided relatively little 
oversight in how states spent federal funds under subpart 1, and at 
least 10 states spent a total of over $15 million over the legislated 
cap for foster care and adoption assistance payments. Although the 
predominance of federal funding spent for foster care and adoption 
assistance has long been cited as providing a disincentive to preserve 
and reunify families, little research is available on the effectiveness 
of the services subpart 1 funds provide and HHS evaluations of services 
funded under subpart 2 have generally shown no or little effect. 
Similarly, the extent that differences in how states spent funds to 
support children and families resulted in better or worse outcomes for 
children is unknown.
    To help address this information gap, our 2003 report recommended 
that the Secretary of HHS consider the feasibility of collecting and 
using data on states' use of Title IV-B subpart 1 funds. We made this 
recommendation not only to facilitate federal oversight and analysis of 
how states' spending patterns correlate to child outcomes, but also so 
that HHS could use this data to inform the design of alternative 
funding proposals that would give states more flexibility in spending 
federal child welfare funds. We also recommended that the Secretary 
provide the necessary guidance to ensure compliance with statutory 
restrictions on the use of Title IV-B subpart 1funds. ACF agreed with 
our findings and implemented guidance to states reminding them of the 
statutory requirements for subpart 1 spending. However, ACF disagreed 
with our recommendation to consider collecting data on subpart 1 
expenditures. ACF believed that its level of oversight was commensurate 
with the scope and intent of subpart 1, noting that its oversight 
efforts were more appropriately focused on reviews of the states' 
overall child welfare systems. ACF did not comment on our 
recommendation to use such data to inform the design of an alternative 
financing option.
    Our review was based on two surveys to child welfare directors to 
obtain information on how they use Title IV-B funds. We also visited 
four states--California, New Jersey, Ohio, and Washington--where we 
interviewed state and local officials and service providers. We also 
held discussions with HHS headquarters and regional office officials 
and child welfare experts. We reviewed results from HHS's assessments 
of state child welfare agencies as well as the literature assessing the 
effectiveness of various child welfare services.
Background
    Title IV-B of the Social Security Act authorizes funds to states to 
provide an array of child welfare services to prevent the occurrence of 
abuse, neglect, and need to place children in foster care. The 
Administration for Children and Families within HHS is responsible for 
the administration and oversight of federal funding to states for child 
welfare services under Title IV-B. HHS headquarters staff are 
responsible for developing appropriate policies and procedures for 
states to follow in obtaining and using federal child welfare funds, 
while staff in HHS's 10 regional offices are responsible for providing 
direct oversight of state child welfare systems. No federal eligibility 
criteria apply to the children and families receiving services funded 
under Title IV-B. The amount of subpart 1 funds a state receives is 
based on its population under the age of 21 and the state per capita 
income, while subpart 2 funding is determined by the percentage of 
children in a state whose families receive food stamps.
    Subpart 1 provides grants to states for child welfare services, 
that are broadly defined. Subpart 1 funds are intended for services 
that are directed toward the accomplishment of the following purposes:

    <bullet>  protect and promote the welfare of all children;
    <bullet>  prevent or remedy problems that may result in the abuse 
or neglect of children;
    <bullet>  prevent the unnecessary separation of children from their 
families by helping families address problems that can lead to out-of-
home placements;
    <bullet>  reunite children with their families;
    <bullet>  place children in appropriate adoptive homes when 
reunification is not possible; and
    <bullet>  ensure adequate care to children away from their homes in 
cases in which the child cannot be returned home or cannot be placed 
for adoption.

    Subpart 2 services are similar to those allowed under subpart 1, 
although the range of services allowed under subpart 2 is more limited 
in some cases. For example, time-limited family reunification services 
can only be provided during a child's first 15 months in foster care, 
while no such restriction is placed on the use of subpart 1 funds. In 
addition, states must spend a ``significant portion'' of their subpart 
2 funds on each of four service categories: \3\
---------------------------------------------------------------------------
    \3\ HHS program instructions require states to spend at least 20 
percent of their subpart 2 funds on each of the four service 
categories, unless a state has a strong rationale for some other 
spending patterns. By statute, states can spend no more than 10 percent 
of subpart 2 funds on administrative costs.

    <bullet>  Family preservation service. Services designed to help 
families at risk or in crisis, including services to (1) help reunify 
children with their families when safe and appropriate; (2) place 
children in permanent homes through adoption, guardianship, or some 
other permanent living arrangement; (3) help children at risk of foster 
care placement remain safely with their families; (4) provide follow-up 
assistance to families when a child has been returned after a foster 
care placement; (5) provide temporary respite care; and (6) improve 
parenting skills.
    <bullet>  Family support services. Community-based services to 
promote the safety and well-being of children and families designed to 
increase the strength and stability of families, to increase parental 
competence, to provide children a safe and supportive family 
environment, to strengthen parental relationships, and to enhance child 
development. Examples of such services include parenting skills 
training and home visiting programs for first time parents of newborns.
    <bullet>  Time-limited family reunification services. Services 
provided to a child placed in foster care and to the parents of the 
child in order to facilitate the safe reunification of the child within 
15 months of placement. These services include counseling, substance 
abuse treatment services, mental health services, and assistance to 
address domestic violence.
    <bullet>  Adoption promotion and support services: Services 
designed to encourage more adoptions of children in foster care when 
adoption is in the best interest of the child, including services to 
expedite the adoption process and support adoptive families.

    Federal child welfare funding has long been criticized for 
entitling states to reimbursement for foster care placements, while 
providing little funding for services to prevent such placements. When 
the Congress enacted the Adoption Assistance and Child Welfare Act of 
1980, it created a new funding source for foster care and adoption 
assistance under Title IV-E of the Social Security Act. Title IV-E 
provides an open-ended entitlement for foster care maintenance payments 
to cover a portion of the food, housing, and incidental expenses for 
all foster children whose parents meet certain federal eligibility 
criteria.\4\ Title IV-E also provides payments to adoptive parents of 
eligible foster children with special needs.\5\ While states could 
still use Title IV-B funding for foster care and adoption assistance 
for children ineligible under Title IV-E, the law established a dollar 
cap on the amount of Title IV-B funds that states could use for three 
categories of service: foster care maintenance payments, adoption 
assistance payments, and child care related to a parent's employment or 
training. The law requires that the total of subpart 1 funds used for 
these categories cannot exceed a state's total 1979 subpart 1 
expenditures for all types of services. The intent of this restriction, 
according to a congressional document, was to encourage states to 
devote increases in subpart 1 funding as much as possible to supportive 
services that could prevent the need for out-of-home placements.\6\ 
However, this restriction applies only to the federal portion of 
subpart 1 expenditures, as the law provides that states may use any or 
all of their state matching funds for foster care maintenance payments.
---------------------------------------------------------------------------
    \4\ States are entitled to Title IV-E reimbursement on behalf of 
children who would have been eligible for Aid to Families with 
Dependent Children (AFDC) (as AFDC existed on July 16, 1996), but for 
the fact that they were removed from the home of certain specified 
relatives. While the AFDC program was replaced by the Temporary 
Assistance for Needy Families program in 1996, eligibility for Title 
IV-E payments remains tied to the income eligibility requirements of 
the now defunct AFDC program. In addition, certain judicial findings 
must be present for the child, and all other requirements included in 
section 472 (a) and (b) of the Social Security Act must be met, in 
order for the child to be eligible for Title IV-E foster care 
maintenance payments.
    \5\ Special needs are characteristics that can make it difficult 
for a child to be adopted and may include emotional, physical, or 
mental disabilities, emotional disturbance, age, or being a member of a 
minority race. To qualify for an adoption subsidy under Title IV-E, a 
state must determine that the child cannot or should not return home; a 
state must make a reasonable, but unsuccessful effort to place the 
child without the subsidy; and a specific factor or condition must 
exist that makes it difficult to place the child without a subsidy.
    \6\ Staff of the House Committee on Ways and Means, 106th Congress, 
Background Material and Data on Programs Within the Jurisdiction of the 
Committee on Ways and Means (Comm. Print 2000).
---------------------------------------------------------------------------
    For the fourth consecutive year, the President's budget proposes a 
Child Welfare Program Option. HHS developed the proposal to give states 
more flexibility in using Title IV-E foster care funds for preventive 
services such as those under Title IV-B. Under this proposal, states 
could voluntarily choose to receive a fixed IV-E foster care allocation 
(based on historic expenditure rates) over a 5-year period, rather than 
receiving a per child allocation. States could use this allocation for 
any services provided under Titles IV-B and IV-E, but would also have 
to fund any foster care maintenance payments and associated 
administrative costs from this fixed grant or use state funds. No 
legislation to enact this option has been introduced.
States Used Subparts 1 and 2 to Support Similar Services and 
        Populations, but Funding Emphasis Differed
    While overlap exists, states reported using subpart 1 funding 
primarily for costs to staff and administer child welfare programs and 
serve families in the foster care system, while states reported using 
subpart 2 funding for family support services and to serve families at 
risk for child abuse and neglect. Officials in almost all of HHS's 
regional offices supported retaining the current balance between 
allowing states some flexibility in use of funds and targeting some 
resources toward prevention. States reported in our survey that 
flexibility was important to meet the needs of their child welfare 
systems, and thus generally preferred the financing structure of 
subpart 1 over subpart 2
States Emphasized Different Services under Subparts 1 and 2
    While states funded similar services under subparts 1 and 2, most 
states reported using subpart 1 funds primarily to pay for costs 
associated with operating child welfare programs, while most states 
reported using subpart 2 funds for family services as shown in table 1. 
For example, states used over 44 percent of subpart 1 funds to pay for 
staff salaries and costs to administer and manage programs. In 
contrast, states spent over 71 percent of subpart 2 funds for services 
to support, preserve, and reunify families.

                Table 1: States' Reported Use of Federal Funds Under Title IV-B, fiscal year 2002
----------------------------------------------------------------------------------------------------------------
                                               Subpart 1                               Subpart 2
----------------------------------------------------------------------------------------------------------------
                                   Number of                            Number of
        Service Category            states      Amount      Percent      states      Amount\a\      Percent\b\
----------------------------------------------------------------------------------------------------------------
Child Protective Services         17          $40,543,00  15.8         5           $2,248,690     0.9
                                               0
----------------------------------------------------------------------------------------------------------------
Program Operation
----------------------------------------------------------------------------------------------------------------
Staff positions                   25          $70,965,57  27.6         17          $6,229,058     2.4
                                               8
----------------------------------------------------------------------------------------------------------------
Administration and management     16          43,143,097  16.8         18          11,614,667     4.5
----------------------------------------------------------------------------------------------------------------
    Subtotal                      n/a         $114,108,6  44.4         n/a         $17,843,725    6.9
                                               75
----------------------------------------------------------------------------------------------------------------
Family Services
----------------------------------------------------------------------------------------------------------------
Family support/prevention         17          19,840,891  7.7          28          127,430,496    49.8
----------------------------------------------------------------------------------------------------------------
Counseling and mental health      2           8,350,562   3.2          5           1,354,763      0.5
 services
----------------------------------------------------------------------------------------------------------------
Family preservation               7           5,986,045   2.3          23          30,308,896     11.8
----------------------------------------------------------------------------------------------------------------
Family reunification              4           2,446,570   1.0          26          23,625,973     9.2
----------------------------------------------------------------------------------------------------------------
    Subtotal                      n/a         $36,624,06  14.2         n/a         182,720,128    71.3
                                               8
----------------------------------------------------------------------------------------------------------------
Foster care and adoption
----------------------------------------------------------------------------------------------------------------
Foster care maintenance payments  17          27,890,783  10.8         2           647,154        0.3
----------------------------------------------------------------------------------------------------------------
Adoption subsidy payments         7           4,657,546   1.8          2           737,412        0.3
----------------------------------------------------------------------------------------------------------------
Recruitment and training for      9           2,260,061   0.9          16          6,828,885      2.7
 foster/adoptive parents
----------------------------------------------------------------------------------------------------------------
Adoption support and              2           446,877     0.2          27          28,481,585     11.1
 preservation services
----------------------------------------------------------------------------------------------------------------
    Subtotal                      n/a         $35,255,26  13.7         n/a         $36,695,036    14.4
                                               7
----------------------------------------------------------------------------------------------------------------
Miscellaneous
----------------------------------------------------------------------------------------------------------------
Multiple responses\c\             8           25,806,347  10.0         4           3,503,585      1.4
----------------------------------------------------------------------------------------------------------------
Other                             11          4,817,180   1.9          15          12,795,915     5.0
----------------------------------------------------------------------------------------------------------------
    Subtotal                      n/a         $30,623,52  11.9         n/a         $16,299,500    6.4
                                               7
----------------------------------------------------------------------------------------------------------------
      Total\d\                    n/a         $257,154,5  100.0                    $255,807,079   100.0
                                               37
----------------------------------------------------------------------------------------------------------------
Source: GAO survey.
Notes: Percentages do not always total to 100 due to rounding.

    Data on subpart 1 expenditures are based on survey responses from 
46 states and data on subpart 2 expenditures are based on survey 
responses from 44 states. While Pennsylvania responded to our survey, 
it did not provide expenditure data for subparts 1 or 2.

    <bullet>  When providing data for our survey, states were asked to 
indicate the single service category that best described the type of 
program funded by subparts 1 and 2. States may not have been consistent 
in categorizing services. For example, several HHS officials told us 
that the delineation between family support and family preservation 
services is not clear, thus two states providing the same services to 
the same types of families may report them in different categories. 
Inconsistencies such as these could have an effect on any measured 
differences among service categories.
    <bullet>  States may spend less than 20 percent of their subpart 2 
funds on any of the required service categories if they have a strong 
rationale. Some HHS regional officials said that they approve 
exceptions to the 20 percent requirement if a state is spending a 
significant amount of nonfederal funds on a subpart 2 service category.
    <bullet>  Although states were asked to indicate the single service 
category that best described the type of program funded by subparts 1 
and 2, several states selected multiple program categories when 
responding to our survey. For example, Rhode Island reported that it 
funded a home visitation program and indicated that this program 
includes family support, health, and family reunification services. 
Thus, the responses from states that reported multiple categories for a 
program are represented by this category.
    <bullet>  The aggregate dollars reported in the service categories 
do not match the total allocations for subparts 1 and 2 in fiscal year 
2002. States have 2 years to spend their Title IV-B allocations. As a 
result, expenditures in fiscal year 2002 may include dollars from a 
state's fiscal year 2001 Title IV-B allocation, as well as its fiscal 
year 2002 Title IV-B allocation. Similarly, some fiscal year 2002 
allocations may not have been spent until fiscal year 2003.
Subpart 1 Services
    The majority of subpart 1 funds were spent on staff salaries, and 
Washington officials said that in their state, over half of these costs 
paid for staff providing direct services to children and families. 
Overall, states reported that nearly half of Title IV-B funds used for 
staff salaries supported social worker positions in child protective 
services. Another 20 percent of funds supported positions for other 
social workers. The remaining costs supported other staff including 
those providing supervision of caseworkers and legal services. (See 
fig. 1.)
Figure 1: Proportion of Title IV-B Funds States Reported Using to 
        Support Staff Salaries under Subpart 1 by Position, Fiscal Year 
        2002

        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        
    Notes: Some states spent subpart 1 funds on salaries, but could not 
provide information on the types of staff positions included.
    Percentages do not total to 100 due to rounding.

    The remaining subpart 1 funds were split fairly evenly among 
administration and management, child protective services, and foster 
care maintenance payments:

    <bullet>  Administration and management comprised the second 
largest category of subpart 1 expenditures, accounting for almost 17 
percent of subpart 1 dollars. These services included rent and 
utilities for office space, travel expenses for agency staff, and staff 
training.\7\
---------------------------------------------------------------------------
    \7\ This amount may be understated since some states may not have 
separately reported administrative expenses associated with a specific 
program. For example, officials in one state reported that the total 
spending for a family support program included salaries for agency 
staff, overhead expenses, and related staff travel.
---------------------------------------------------------------------------
    <bullet>  Child protective services represent the third largest 
category of subpart 1 expenditures. States reported using about 16 
percent of their subpart 1 funds to provide a variety of CPS services, 
such as telephone hotlines for the public to report instances of child 
abuse and neglect, emergency shelters for children who needed to be 
removed from their homes, and investigative services.
    <bullet>  States reported using nearly 11 percent of their subpart 
1 funds to make recurring payments for the room and board of foster 
children who were not otherwise eligible for federal reimbursement. For 
example, New Jersey officials reported spending over half of the 
state's subpart 1 funds on foster care maintenance payments.
Subpart 2 Services
    States reported using over 70 percent of their subpart 2 dollars on 
serving families, with nearly half of these funds used to fund family 
support and prevention services. These services included mentoring 
programs to help pregnant adolescents learn to be self-sufficient, 
financial assistance to low-income families to help with rent and 
utilities, parenting classes, child care, and support groups provided 
by community-based resource centers.
    The remaining subpart 2 funds were split fairly evenly among family 
preservation, family reunification, and services to support and 
preserve adoptive families.

    <bullet>  Family preservation services accounted for nearly 12 
percent of subpart 2 dollars. Services provided by Washington state in 
this category included counseling and parent training services for up 
to 6 months for families with children who were at risk of being placed 
in foster care.
    <bullet>  Adoption support and preservation services accounted for 
over 11 percent of subpart 2 dollars. With these funds, states provided 
services such as counseling for children who were going to be adopted, 
family preservation services to adoptive families, and respite care for 
adoptive families. Officials in Ohio reported using almost half of its 
subpart 2 dollars for adoption services, including post adoption 
services and services to recruit families for children in need of 
homes.
    <bullet>  Family reunification services accounted for over 9 
percent of subpart 2 funds. These services included supervised 
visitation centers for parents to visit with their children who were in 
foster care and coordinators for alcohol and drug treatment services 
for families whose primary barrier to reunification was substance 
abuse. New Jersey funded a supervised visitation program that offered 
parenting education, counseling, transportation, and support groups and 
was located in a private home, allowing families to visit together in a 
homelike setting and engage in more natural interactions.
States Emphasized Different Populations Served Under Subparts 1 and 2
    States served similar populations under subparts 1 and 2; however, 
states reported using most subpart 1 funds primarily to serve families 
whose children had been removed from the home, while most subpart 2 
funds were reported to serve families with children at risk of removal 
due to child abuse or neglect, as shown in table 2. For example, states 
used 42 percent of subpart 1 funds to serve children in foster care 
and/or their parents. In contrast, states used 44 percent of subpart 2 
funds for children at risk of child abuse and neglect and/or their 
parents.

    Table 2: Populations Served under Subparts 1 and 2 of Title IV-B as Reported by States, Fiscal Year 2002
----------------------------------------------------------------------------------------------------------------
                                                 Subpart 1                               Subpart 2
----------------------------------------------------------------------------------------------------------------
                                    Number of    Amount of    Percent of    Number of    Amount of    Percent of
        Population served           services      funding      funding      services      funding      funding
----------------------------------------------------------------------------------------------------------------
Children in foster care and/or    33            $34,732,673  42           46            $15,218,065  9
 their parents
----------------------------------------------------------------------------------------------------------------
Children at risk of child abuse   28            13,751,328   17           133           73,996,404   44
 and neglect and/or their
 parents
----------------------------------------------------------------------------------------------------------------
Multiple populations              21            11,949,444   14           43            18,119,756   11
----------------------------------------------------------------------------------------------------------------
Children at risk of child abuse   12            7,077,448    9            39            17,606,172   11
 or neglect and/or their parents
 and children living in foster
 care and/or their parents
----------------------------------------------------------------------------------------------------------------
All populations                   5             7,513,368    9            7             11,028,464   7
----------------------------------------------------------------------------------------------------------------
Children waiting for adoption,    9             4,153,271    5            54            27,340,372   16
 adopted children, and adoptive
 parents
----------------------------------------------------------------------------------------------------------------
Other populations, such as        10            3,492,142    4            16            3,336,070    2
 delinquent teens and foster
 parents
----------------------------------------------------------------------------------------------------------------
    Total\a\                      118           $82,669,674  100          338           $166,645,30  100
                                                                                         1
----------------------------------------------------------------------------------------------------------------
Source: GAO survey.
Note: This analysis is based on survey responses from 35 states with state-administered child welfare systems
  that provided population data for their subpart 1 services and 39 states with state-administered child welfare
  systems that provided population data for their subpart 2 services. Therefore, these data can only be
  generalized to states with state-administered child welfare systems.


    The dollar totals in this table do not match those in table 1 
because we do not have population data from states that completed the 
county-administered survey. Due to the differences in information 
available from states with county-administered child welfare systems, 
we did not request data from these states on the types of children and 
families who received services funded by Title IV-B. In addition, we 
did not collect data on the populations served for the category of 
staff salaries, and we excluded population data for the category of 
administration and management expenses since these expenses are not 
targeted to a particular population of children and families.
    In our survey, we asked states for more detailed information about 
the populations served by programs under subparts 1 and 2, such as 
demographic and socioeconomic characteristics. However, few states were 
able to provide this data. For selected subpart 1 services, 10 states 
were able to estimate the extent to which the same children and 
families also received services under subpart 2:

    <bullet>  four states reported that generally none or almost none 
of the recipients also received a service funded by subpart 2,
    <bullet>  three states reported that generally less than half of 
the recipients received subpart 2 services,
    <bullet>  one state reported that all or almost all recipients 
received subpart 2 services,
    <bullet>  and two states provided varying estimates for different 
subpart 1 services.
HHS Officials and States Supported Flexibility of Title IV-B Funding
    Officials in almost all of HHS's regional offices supported 
retaining the current balance between allowing states some flexibility 
in use of funds and targeting some resources toward prevention, 
regardless of whether federal funding sources are combined under 
alternative financing options. One regional official noted that the 
current financing structure of subpart 1 gives states the flexibility 
to address unexpected circumstances affecting the child welfare 
system--for example, the need to develop substance abuse treatment 
programs for parents affected by the cocaine epidemic of the 1980s.\8\ 
Other regional officials noted that the spending requirements under 
subpart 2 helped ensure that states used some funds on family support 
services and prevention activities to help preserve families and keep 
children from entering foster care.
---------------------------------------------------------------------------
    \8\ States face similar challenges addressing the service needs of 
families caused by the current epidemic of methamphetamine use.
---------------------------------------------------------------------------
    States reported in our survey that flexibility was important to 
meet the needs of their child welfare systems, and thus generally 
preferred the financing structure of subpart 1 over subpart 2, as shown 
in figure 2.
    Figure 2: State Reported Preferences for Financing Structure of 
Subparts 1 and 2 of Title IV-B

        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Note: Data on state preferences are based on responses from 46 
states, although they did not all respond to each item.
Federal Oversight Insufficient to Ensure State Compliance with Title 
        IV-B Spending Requirements under Subpart 1
    HHS provided relatively little oversight specific to state spending 
under subpart 1. HHS does not collect data on subpart 1 expenditures, 
relying instead on cursory reviews of plans submitted by states that 
discuss how they intend to use their subpart 1 funds in the coming 
year. HHS regional officials reported that they review these plans for 
relatively limited purposes because there are few restrictions on how 
states can spend subpart 1 dollars. We also found that HHS regional 
offices had paid little attention to statutory limits in states' 
planned use of subpart 1 funds. In response to our survey, 10 states 
reported actual 2002 subpart 1 expenditures that exceeded the spending 
limits by over $15 million in total.
HHS Had Little Information about States' Use of Subpart 1 Funds
    HHS received forms from states each year that showed how they 
planned to spend subpart 1 funds, but had little information on how 
states actually spent these funds. Officials from four HHS regional 
offices said that they generally reviewed the forms to ensure that 
states were requesting the total amount of subpart 1 funds to which 
they were entitled, and that they complied with the requirement to 
match 25 percent of subpart 1 funds with state funds. Most regional 
offices indicated that their review of the state submitted forms 
focused more on subpart 2 than subpart 1. For example, they reported 
reviewing planned subpart 2 spending to ensure that states complied 
with the requirement to spend at least 20 percent of funds on each of 
the service categories and spend no more than 10 percent of funds for 
administrative purposes. Several HHS officials said that they did not 
monitor subpart 1 funds as closely as other federal child welfare funds 
due to the relatively small funding amount and the lack of detailed 
requirements about how these funds could be spent.
    Oversight of subpart 1 was further limited because spending plans 
states provided on the annual forms may not reliably show how states 
actually spent Title IV-B funds. HHS officials explained that states' 
actual expenditures may vary from planned expenditures as states 
address unforeseen circumstances. The timing for submitting the annual 
forms also affected how well states could plan Title IV-B spending. HHS 
required states to submit their initial spending plans for the upcoming 
year by June 30, prior to states receiving information on program 
appropriations for the upcoming year. While we did not conduct a review 
comparing state submitted planned expenditures to actual expenditures 
for previous years, we did identify instances that suggested 
differences in planned and actual expenditures as well as data on 
actual expenditures that were not always accurate. For example, two 
states with county-administered child welfare systems said they could 
not reliably estimate planned spending by service category because the 
states did not collect expenditure data from county child welfare 
agencies that administer Title IV-B funds.\9\
---------------------------------------------------------------------------
    \9\ Most states administer their child welfare systems at the state 
level; however a few states delegate administrative responsibility and 
control to counties or other local entities. Several large states, such 
as California, New York, Ohio, and Pennsylvania, are county-
administered.
---------------------------------------------------------------------------
    One regional official explained that the only way to determine how 
a state actually used its Title IV-B funds was to review its financial 
accounts. At the time of our review, three regional offices had 
indicated that they had begun asking states to provide Title IV-B 
expenditure data.
HHS Regional Offices Were Unaware of Spending Limits or Did Not Enforce 
        Them
    HHS regional offices paid little attention to the statutory limits 
on the use of subpart 1 funds for foster care maintenance and adoption 
assistance. Officials in only 1 of HHS's 10 regional offices said that 
they ensured state plans complied with statutory spending limits for 
subpart 1. In contrast, 5 regional offices were unaware that any limits 
on the use of subpart 1 funds existed. Four other regional offices were 
aware that some limitations existed, but did not ensure state 
compliance with them.
    Two regional offices said they did not monitor planned expenditures 
for subpart 1 because they had no data to calculate the spending limit 
for each state, and HHS had not provided guidance on how to enforce the 
limits. Officials in another region said that their office discontinued 
subpart 1 compliance reviews because they considered the limits to be 
meaningless because state and federal funds are fungible and state 
funds spent on child welfare services greatly exceeded subpart 1 
federal funds. In other words, any attempt to enforce the limits, 
according to these officials, would only lead to changes in how states 
accounted for state and federal funds.
    Some states reported in our survey that they spent 2002 subpart 1 
funds in excess of the statutory authority for foster care maintenance 
and adoption assistance payments. (See fig. 4.) While spending excesses 
were small in some states, they were large in others, ranging from a 
low of $27,000 in New Hampshire to nearly $4 million in Michigan. In 
total, reported actual spending by the 10 states exceeded the statutory 
limit by over $15 million.
    Figure 4: States Reporting Actual Expenditures in Excess of 
Statutory Authority for Foster Care Maintenance and Adoption Assistance 
Payments under Title IV-B, Subpart 1, Fiscal Year 2002


        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Subsequent to our review, ACF issued guidance to states reminding 
them of the statutory spending limits for Title IV-B subpart 1 funds in 
November 2003. This guidance included information needed by each state 
to calculate its spending limit for foster care and adoption assistance 
payments, and day care related to employment or training.
Litttle Research Existed on the Effectiveness of Title IV-B Services
    Research on the effectiveness of services provided under subpart 
1of Title IV-B was limited, and HHS evaluations of subpart 2 services 
showed no or little effect on children's outcomes. In our survey, 22 
states reported providing services other than maintenance payments, 
staff salaries, or administration under subpart 1; however, none of 
these states had evaluated the outcomes of these services. One state 
official said that few states could afford to divert resources away 
from direct services to families in order to conduct formal program 
evaluations, given the tremendous service needs of families involved in 
the child welfare system.
    Similarly, our literature review showed that few evaluations had 
been conducted, and evaluations that had been conducted produced mixed 
results. For example, one study evaluating a program \10\ in Texas to 
increase family literacy and prevent child abuse by enhancing parent-
child interactions cited results showing positive effects on children's 
measured competence and classroom behavior. However, evaluation of the 
same program in New York did not consistently show differences in 
outcomes for children and parents in the program compared to those in a 
control group.
---------------------------------------------------------------------------
    \10\ The Home Instruction for Parents of Preschool Youngsters 
(HIPPY) program has a goal to prevent academic underachievement of 
children when they enter school. HIPPY works with parents in their 
homes or in parent groups to increase the degree of literacy in the 
home. The program also seeks to prevent child abuse by enhancing child-
parent interactions and focuses on economically disadvantaged parents 
who may not be involved in parenting programs.
---------------------------------------------------------------------------
    HHS evaluations of subpart 2 services also have shown no or little 
effect, as reported by the Congressional Research Service.\11\ The 
Congress required HHS to evaluate the effectiveness of programs funded 
under subpart 2 as part of its initial approval of funding for family 
preservation and family support services. HHS focused on the use of 
subpart 2 funds in three large-scale evaluations. One looked at overall 
implementation issues for the program, the second looked at the 
effectiveness of two models of family preservation services (both 
providing relatively intensive casework), and the third looked at the 
effectiveness of a wide range of family support services. Overall, the 
findings were similar across all evaluation sites showing subpart 2 
services provided no or little effect in reducing out-of-home 
placement, maltreatment recurrence, or improved family functioning 
beyond what normal casework services achieved.\12\ No similar large 
scale evaluations of time-limited reunification services or of adoption 
promotion and support services have been made.
---------------------------------------------------------------------------
    \11\ Congressional Research Service, The Promoting Safe and Stable 
Families Program: Reauthorization in the 109th Congress, April 7, 
2006., pp. 10-18.
    \12\ U.S. Department of Health and Human Services, Evaluation of 
Family Preservation and Reunification Programs, Final Report (Volumes 1 
and 2), Dec. 2002.
---------------------------------------------------------------------------
Prior Recommendations
    Our 2003 report recommended that the Secretary of HHS provide the 
necessary guidance to ensure that HHS regional offices are providing 
appropriate oversight of subpart 1, consider the feasibility of 
collecting data on states' use of these funds to facilitate program 
oversight and guidance to states, and use the information gained 
through enhanced oversight of subpart 1 to inform its design of 
alternative child welfare financing options. ACF agreed with our 
findings and implemented guidance to states reminding them of the 
statutory requirements for subpart 1 spending. ACF disagreed with our 
recommendation to consider collecting data on subpart 1 expenditures. 
ACF believed that its level of oversight was commensurate with the 
scope and intent of subpart 1, noting that its oversight efforts are 
more appropriately focused on reviews of the states' overall child 
welfare systems. ACF did not comment on our recommendation to use such 
data to inform the design of an alternative financing option.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of the 
Subcommittee may have.

                                 <F-dash>

    Chairman HERGER. Thank you. Thank you, Ms. Ashby. The 
Honorable Cohen to testify.

STATEMENT OF THE HONORABLE CONSTANCE COHEN, ASSOCIATE JUVENILE 
JUDGE IN THE FIFTH JUDICIAL DISTRICT OF IOWA, ON BEHALF OF THE 
                         ZERO TO THREE

    Ms. COHEN. Thank you very much, Mr. Chairman and Members of 
the Subcommittee. My name is Constance Cohen. I have been on 
the Juvenile Court bench in Des Moines, Iowa for the past 12 
years. My jurisdiction includes dependency termination, 
parental rights, child welfare, and adoption rights. I 
appreciate the opportunity to speak to you today on behalf of 
the Zero to Three Foundation. I commend you, Mr. Chairman, for 
taking the time to hold this hearing to address the challenges 
of improving child protection programs, and I also would like 
to thank Congressman Melissa Hart, who I know is a Member of 
your Committee, for her recent support of Court Teams and 
bringing the project to Allegheny County. Like so many of my 
colleagues on the bench, my judicial and legal training did 
little to prepare me to make the best decisions for maltreated 
children and their families. I was a teacher before I entered 
law school. For 12 years I taught, and so I had some child 
development training, and I was also a pig farmer. I didn't 
come to pig farming because my parents were pig farmers. I 
didn't know a darn thing about pig farming. I was a suburb girl 
from St. Louis, Missouri. Pig farming, like any other 
profession, requires practical and scientific expertise. Not 
everyone has that expertise. Do you know the gestational period 
for pigs? Do you know how to pick up a baby pig? I see you are 
nodding your head. It would be irresponsible to get into a 
business like that if you didn't know that information. I was 
fortunate because I was mentored by people who knew that, and I 
was a fairly successful pig farmer. I needed to know those 
things before I committed precious resources and time to this 
project. Most people would never consider investing at that 
level in a venture which required skills that they didn't 
possess, but that is exactly what most legally trained judges 
and lawyers do when it comes to child development and mental 
health issues for children in the system. They need a child 
development or mental health expert to provide them with the 
training and consultation that I was able to benefit from my 
neighbors.
    I want to talk to you today about a project that fixes that 
disconnect, a project called Court Teams For Maltreated Infants 
and Toddlers. Knowledge about babies development is crucial in 
my work. Every day in the United States, 118 babies leave their 
homes because their parents cannot take care of them. Children 
between birth and three have the highest rates of abuse and 
neglect victimization. Their rapidly developing brains mean 
infants and toddlers in child welfare are at a great risk of 
compromised development. Without help, they face life-long 
implications. These implications include school failure and 
juvenile delinquency. Too many of the young children I see in 
my court do not receive appropriate services. Increasingly in 
Iowa, these children are primary and secondary victims of the 
rapid proliferation of methamphetamines. In Polk County, Iowa, 
a total of 1,300 children younger than 5 in the CWS and 
approximately 90 percent of those children have cases that 
involve methamphetamines. Our Nation's CWS is not meeting the 
needs of our most vulnerable children, as confirmed by the 
Child and Family Services reviews, findings of shortcoming in 
permanency and stability in capacity. Like other States, I was 
struggling to meet the outcome related to physical and mental 
health services. In fact, child welfare, substance abuse 
treatment, and mental health agencies were not even talking to 
each other. We know what works. An array of interrelated 
factors such as parent-child visits, caseworker consistency and 
reasonable caseloads and few replacements for children all help 
lead to permanency more quickly and underscore the need for a 
stronger, more coordinated system of child and family services. 
Child protective services alone cannot achieve these goals for 
children. It takes judicial leadership and collaboration.
    Permit me to describe this partnership model using a 
collaborative approach to achieve better family outcomes. Court 
Teams For Maltreated Infants and Toddlers is a model, grounded 
in the innovative approach taken by Judge Cindy Lederman of the 
Juvenile Court in Miami, Dade County, Florida and Dr. Joy 
Osofsky of the Louisiana State University Health Sciences 
Center. Three years of data in their parent-child intervention 
show substantial gains in improving child and parent 
interaction and prospects for reunification. Front loading and 
coordinating early intervention services have resulted in 
nearly 100 percent safe reunification without reabuse. Taking a 
lesson from my farmer days, Court Team starts with training on 
a baby's developmental needs and building community 
collaborations to put this knowledge to good use. Members of my 
Court Team include other judges, pediatricians, child welfare 
workers, attorneys, mental health and drug treatment 
professionals, foster parents, Early Head Start, child care 
providers and court-implemented project staff, as well as 
others. With support and training from Zero to Three, my Court 
Team is ensuring that infants and toddlers have expedited 
access to services by monitoring these cases every month. 
Already solid collaborations be among community collaborators 
are leading to flexible ways to communicate to our children in 
the very first days after court intervenes. Court Teams help 
promote reunification or other permanent arrangements and 
improve the way juvenile and family courts function by creating 
more effective collaboration and greater understanding of the 
needs of children and families, our Court Team is also 
enhancing our community's capacity for prevention.
    The Court Team's project is in four other communities 
besides Des Moines, and many other judges would like to 
participate. Our roles as leaders of our Court Teams are 
consistent with our responsibilities as juvenile and family 
court judges for the well-being of the children in our courts, 
and for ensuring they receive the resources and supports that 
they need as well as to fulfill our mandates under the 
Adoptions and Safe Families Act 1997 (P.L. 105-89). In 
conclusion, I cannot overstate the developmental importance of 
the first years of life. To ignore the science of brain 
development and attachment needs of infants and toddlers when 
they come into the CWS is practically to guarantee that they 
will experience difficulties later on. Court Teams is not a 
global solution to the problems of the CWS, Mr. Chairman, but 
it is a proven concrete approach to addressing a critical need 
at every local level. As the Subcommittee looks at ways to 
improve child welfare systems, I encourage you to expand Court 
Teams and provide other judges with the opportunities similar 
to the one I have in my court, to improve the lives of young 
children. Thank you so much for your time and for your 
commitment to our Nation's most vulnerable infants and 
toddlers.
    [The prepared statement of Ms. Cohen follows:]
 Statement of The Honorable Constance Cohen, Associate Juvenile Judge, 
Fifth Judicial District of Iowa, Des Moines, Iowa, on behalf of Zero to 
                                 Three
    Mr. Chairman and Members of the Subcommittee:
    My name is Constance Cohen. For the last 12 years I have sat on the 
Juvenile Court bench in the Fifth Judicial District of Iowa. My 
jurisdiction includes dependency, delinquency, termination of parental 
rights, involuntary juvenile commitments, and adoption. I appreciate 
the opportunity to speak to you today on behalf of ZERO TO THREE on 
ways to improve child protective services and to ensure the safety and 
permanency of very young children in the child welfare system. I 
commend you, Mr. Chairman, and Members of the Subcommittee for holding 
a hearing on the challenges of improving child protection programs and 
ensuring that at-risk families receive the services they so desperately 
need.
    Like so many of my colleagues on the bench, my judicial and legal 
training did not prepare me to make the best decisions for maltreated 
children and their families. Before I was a juvenile court judge and 
before I was a teacher, I was a pig farmer. Pig farming, like any other 
profession, requires practical and scientific expertise. Not everyone 
has that expertise. I know the gestational period for pigs. I know how 
to pick up a baby pig. I know these things because I received training. 
I needed to know those things to be a competent pig farmer. Most people 
would never consider investing in a venture which required knowledge 
and skills they didn't possess. But that's exactly what most legally 
trained judges do when they don't have a child development/mental 
health expert to provide them with training and consultation. I want to 
talk to you today about a project that fixes that disconnect, a project 
called Court Teams for Maltreated Infants and Toddlers.
    The Court Teams project focuses on the youngest and most frequent 
victims of abuse and neglect and the only ones without words to tell us 
that they hurt--babies and toddlers. In the time it takes to watch an 
episode of Law and Order SVU, five U.S. infants are being removed from 
their homes for abuse or neglect or both. During the time you're 
getting ready to go to work, another five babies move into foster care. 
Every day in the United States, 118 babies leave their homes because 
their parents cannot take care of them.\1\ The quality of their entire 
lives--at home and in foster care--is deeply troubling.
---------------------------------------------------------------------------
    \1\ Administration for Children & Families. (August 2005) The 
AFCARS Report: Preliminary FY 2003 Estimates as of April 2005 (10) What 
were the ages of the children who entered care during FY 2003? U.S. 
Department of Health and Human Services, http://www.acf.hhs.gov/
programs/cb/stats_research/afcars/tar/report10.htm, retrieved January 
23, 2006.
---------------------------------------------------------------------------
    Increasingly in Iowa, these children are victims of the rapid 
proliferation of methamphetamines. In Polk County, Iowa, a total of 
1,300 children younger than five are in the child welfare system; and 
approximately 90% of those cases involve methamphetamine use and/or 
manufacture. In recent years, Iowa's infants and toddlers have been 
maltreated at twice the national average. Like many states, Iowa has 
imposed new controls on pseudephedrine products. This law has 
significantly reduced the number of ``mom and pop'' meth labs. However, 
meth addiction is so profound that users are substituting purer and 
even more toxic forms of the chemical, such as imported crystal meth, 
and addiction is on the rise.
    Even in the face of these daunting conditions, I believe we are 
changing the outlook for young children. So I also want to tell you 
about my Court Team, a promising community-level solution to breaking 
the cycle of child maltreatment that I have adopted in my court. In my 
role as a juvenile and family court judge, I partner with a child 
development specialist to convene a Court Team that literally changes 
the way we approach the needs of very young children. Members of my 
Court Team include other judges; pediatricians; child welfare workers; 
attorneys representing children, parents, and the child welfare system; 
Court Appointed Special Advocates (CASAs); Guardians Ad Litems (GALs); 
mental health professionals; substance abuse treatment providers; 
representatives of foster parent organizations and children's advocacy 
groups; Early Head Start and child care providers; and Court 
Improvement Project staff. By working together, with support and 
training from ZERO TO THREE, my Court Team is leading our community to 
ensure that infants and toddlers have expedited access to the services 
they need for healthy development and their parents have the 
opportunity to learn to create a safe home for their children.
    I believe Court Teams greatly enhances our community's ability to 
meet the goals of Promoting Safe and Stable Families. Court Teams are 
coordinated programs of community-based family support services that 
work diligently with birth, foster, and adoptive parents to achieve the 
best outcomes for children. I also believe that the collaboration and 
systems change that is the core of the Court Teams approach can 
increase our community's capacity for helping families succeed before 
they come into the child welfare system.
Portrait of Infants and Toddlers in Foster Care
    To understand why it is so important to focus on infants and 
toddlers, one only has to look at the compelling statistics about what 
happens to them when they are abused or neglected and enter the child 
welfare system. Children between birth and three years have the highest 
rates of abuse and neglect victimization. Although infants only account 
for 5.6% of the child population, they represent double that percent of 
all child maltreatment victims.\2\ Children ages three and younger are 
also 32% more likely to be placed in foster care than children ages 
four to 11.\3\ Once they have been removed from their homes and placed 
in foster care, infants stay in foster care longer than older 
children.\4\ Half of the babies who enter foster care before they are 
three months old spend 31 months or longer in placement.\5\ And one-
third of all infants discharged from foster care re-enter the child 
welfare system.\6\ When we consider the dramatic brain development that 
occurs during the first three years of life, it is clear that far too 
many children are spending these critical early years in a most 
precarious living arrangement.
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. (2006) Child Maltreatment 2004, 
Washington, DC: U.S. Government Printing Office, Table 3-10.
    \3\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. (2006) Child Maltreatment 2004, Table 4-
8, retrieved on May 19, 2006 from http://www.acf.hhs.gov/programs/cb/
pubs/cm04/table6_8.htm.
    \4\ Wulczyn, F. & Hislop, K. (2002) Babies in foster care: The 
numbers call for attention. ZERO TO THREE Journal, (22) 4, 14-15.
    \5\ Ibid.
    \6\ Wulczyn, F. & Hislop, K. B. (2000). The placement of infants in 
foster care. Chicago, IL: Chapin Hall Center, for Children, University 
of Chicago.
---------------------------------------------------------------------------
Developmental Impact of Child Abuse and Neglect on Very Young Children
    Infants and toddlers who come into contact with the child welfare 
system are at great risk of compromised development.\7\ Despite their 
vulnerability, too many of the young children I see in my court on 
child abuse or neglect cases or other dependency matters do not receive 
services that can address and ameliorate these risks. A significant 
percentage of children in foster care do not even receive basic health 
care, such as immunizations, dental services, hearing and vision 
screening, and testing for exposure to lead and communicable 
diseases.\8\ Approximately 42% of them are developmentally delayed, 
many of them so delayed that pediatricians consider them 
developmentally impaired.\9\
---------------------------------------------------------------------------
    \7\ Family Life Development Center, College of Human Ecology. (Fall 
2004) NSCAW Documents High Risk Level of Children in Child Welfare 
System. The NDACAN Update, Vol. 15, Ithaca, NY: Cornell University, 
page 4.
    \8\ Stahmer, A.C., Leslie, L.K., Hurlburt, M., Barth, R.P., Webb, 
M.B., Landsverk, J., and Zhang, J. (2005) Developmental and Behavioral 
Needs and Service Use for Young Children in Child Welfare. Pediatrics, 
vol. 116, no. 4. Grove Village, IL: American Academy of Pediatrics. 
Pages 891-900.
    \9\ Ibid.
---------------------------------------------------------------------------
    Infants and toddlers are the most vulnerable to the effects of 
maltreatment, and its impact on all aspects of their development can 
have life-long implications if not properly addressed \10\ \11\ 
Research shows that young children who have experienced physical abuse 
have deficits in IQ scores, language ability, and school performance, 
even when the effects of social class are controlled.\12\ Physical 
abuse extracts a substantial toll on young children's social 
adjustment, as seen in elevated levels of aggression that are apparent 
even in toddlers.\13\ Long-term negative outcomes include school 
failure, juvenile delinquency, substance abuse, and the continuation of 
the cycle of maltreatment into new generations. By waiting until 
children enter school, we are missing the most critical opportunity for 
prevention and intervention.\14\
---------------------------------------------------------------------------
    \10\ Cicchetti, D., and V. Carlson, Eds. Child Maltreatment: Theory 
and Research on the Causes and Consequences of Child Abuse and Neglect. 
New York, Cambridge University Press, 1989; National Research Council. 
Understanding Child Abuse and Neglect. Panel on the Understanding and 
Control of Violent Behavior. A.J. Reiss, Jr., and J.A. Roth, eds. 
Commission on Behavioral and Social Sciences and Education. Washington, 
DC: National Academy Press (1993).
    \11\ Kolko, D.J. ``Child physical abuse.'' Pp. 21-50 in The APSAC 
Handbook on Child Maltreatment. J. Briere and L. Berliner, eds. 
Thousand Oaks, CA: Sage Publications, Inc. (1996).
    \12\ Shonkoff, J., & Phillips, D. (Eds.). (2000) From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \13\ George, C., and M. Main (1995). ``Social interactions of young 
abused children: Approach, avoidance, and aggression.'' Child 
Development, ( 50) 2, pp. 306-318.
    \14\ Infant Mental Health Project, Center for Prevention and Early 
Intervention Policy, Florida State University, Tallahassee.
---------------------------------------------------------------------------
The Challenge: Ensuring Safety, Permanency and Well-Being
    It is clear that our nation's child welfare system is not meeting 
the needs of our most vulnerable children. As you know, the federal 
government, through Child and Family Services Reviews (CFSR), monitors 
the states' performances on 14 child welfare outcomes. These outcomes 
include seven measures addressing safety, permanency, the children's 
well-being, and seven outcomes focused on system readiness (e.g. 
statewide information systems, case review systems, and training). 
After completing the first round of reviews in 2004, the Children's 
Bureau reported \15\ that no state was in substantial compliance with 
the requirements regarding permanency and stability in children's 
living arrangements and enhanced capacity of families to meet 
children's needs.
---------------------------------------------------------------------------
    \15\ The following data is drawn from a Children's Bureau Power 
Point presentation found on the internet at: http://www.acf.dhhs.gov/
programs/cb/cwrp/results/statefindings/statefindings.ppt.
---------------------------------------------------------------------------
    In specifically looking at children five and under, the Children's 
Bureau found that only slightly over half had permanency and stability 
in their living arrangements. In a study of 19 states' performances on 
CFSR indicators, no state achieved all specified outcomes and all 
failed to meet the outcome related to the provision of physical and 
mental health services. These dismal findings are particularly 
troubling for infants and toddlers. We know that future development in 
key domains--social, emotional, and cognitive--is based on the 
experiences and relationships formed during these earliest years.
    Like all 19 states in the study referenced above, my state of Iowa 
was not meeting the outcome related to the provision of physical and 
mental health services. Without prompt and adequate assessment and 
treatment for the developmental and social problems that are endemic to 
children who have experienced maltreatment \16\ the consequences of 
maltreatment will go unchecked and lead to academic, professional, and 
personal problems that will plague them throughout their lives.\17\ 
\18\ \19\ I would also like to note that in a 2004 report on substance 
abuse issues covered in Iowa's Child and Family Service Reviews, 
``stakeholders noted that there is a considerable communication barrier 
among child welfare, substance abuse treatment and mental health. A 
family could be involved with all three agencies and no one would know 
that.'' \20\
---------------------------------------------------------------------------
    \16\ Stahmer, A.C., Leslie, L.K., Hurlburt, M., Barth, R.P., Webb, 
M.B., Landsverk, J., and Zhang, J. (2005). Op cit.
    \17\ Halfon, N.; Mendonca, A.; & Berkowitz, G. (1995). Health 
status of children in foster care: The experience of the Center for the 
Vulnerable Child. Archives of Pediatric and Adolescent Medicine, 
149(4), 386-391.
    \18\ Osofsky, J.D., Maze, C.L., Lederman, C.S., Grace, M., Dicker, 
S. (2004). Questions every judge and lawyer should ask about infants 
and toddlers in the child welfare system, Juvenile and Family Court 
Journal, 55 (2), 47.
    \19\ Malbin, D.V. (2004). Fetal alcohol spectrum disorder (FASD) 
and the role of family court judges in improving outcomes for children 
and families. Juvenile and Family Court Journal, 55 (2), 53-63.
    \20\ Young, N.K., Gardner, S.L., Whitaker, B., Yeh, S. (September 
2004). A Preliminary Review of Alcohol and Other Drug Issues in the 
States' Child and Family Services Reviews and Program Improvement 
Plans. Irvine, California: National Center on Substance Abuse and Child 
Welfare, page 17.
---------------------------------------------------------------------------
    Clearly, the CFSR's identified many needs and gaps in child 
welfare. I know the Committee is considering how to use the $40 million 
in new funding for Promoting Safe and Stable Families included in the 
Deficit Reduction Act to address some of these shortcomings and must 
choose among many possible uses. I understand that one proposal is to 
use the new funds as an incentive for states to ensure monthly 
caseworker visits with children in care. Although strong casework is 
certainly a factor in good outcomes for children, I am concerned that 
unless resources are adequate to reduce caseloads the proposed monthly 
visits by caseworkers will likely be perfunctory, meeting the letter of 
the law but not the needs of the young child. Moreover, there is an 
array of interrelated factors that help lead to permanency more 
quickly, and we need to build a stronger, more coordinated system of 
child and family services in which these factors can be addressed.
    A few of the factors that influence the speed at which children 
move through the child welfare system include: \21\
---------------------------------------------------------------------------
    \21\ National Clearinghouse on Child Abuse and Neglect Information 
(2005). Concurrent planning: What the evidence shows. Washington, DC: 
U.S. Department of Health and Human Services.

    <bullet>  Caseworker consistency: Any changes in the caseworker 
decrease the likelihood of permanence in a year by 52%. Children and 
parents are better served when they are able to develop a relationship 
with the person who is supposed to help them navigate their journey 
through the child welfare system.
    <bullet>  Fewer placements: Every time a child is moved from one 
caregiver to another it reduces the chances of achieving permanence in 
a year by 32%. In addition to this short term negative consequence, we 
also know that these moves have damaging long term emotional 
consequences for very young children.
    <bullet>  Increased parent/child visits per week: Very young 
children need to see their parents many times each week if they are 
going to build a positive and loving bond with them. The research shows 
that each additional visit between foster children and their birth 
parents triples the likelihood of reaching permanence within a year.

    In addition, in Iowa we proceed from Day One of each maltreatment 
case with a Plan A, which is usually reunification, AND a Plan B, which 
involves another possible permanent placement for the child. The 
literature suggests that concurrent planning leads to faster permanent 
homes for children.
    Unquestionably, there needs to be more research on effective 
interventions that lead to positive outcomes for children in the child 
welfare system. But clearly, it is no longer reasonable to ask our 
overburdened child protective services workers to bear alone the 
responsibility for achieving the best possible outcomes for children. 
Instead, let me describe a new partnership model that speaks to the 
state Program Improvement Plans and a collaborative approach to 
achieving the child and family outcomes codified in the CFSR.
A Promising Solution: Infant-Toddler Court Teams
    As a former educator, I know the critical importance of the first 
years of a child's life. So I was most eager to take advantage of the 
unique opportunity Court Teams provide to improve the well-being of 
infants and toddlers in the child welfare system. My role as the leader 
of our Court Team is consistent with my role as a Juvenile and Family 
Court Judge, especially as expanded under the Adoption and Safe 
Families Act (ASFA). In both instances, I am responsible for the well-
being of the children in my court and must ensure they receive the 
resources and supports they need to address their special needs. I 
could not in good conscience sit by, waiting for the child welfare 
system to be reformed from the top down. Just as I sought to be a 
better pig farmer by learning the business, I as well as other legal 
and social service professionals involved with very young children in 
our community have welcomed Court Teams' training and education on 
babies' developmental needs. With this knowledge, we are helping to 
create better outcomes for babies and reduce the recurrence of abuse 
and neglect through improved coordination and collaboration among Court 
Team members who represent community service providers and stakeholders 
in Polk County.
    Iowa's social workers have extremely high caseloads, among the 
highest in the nation. The CFSR reviewers said they were ``blown away'' 
by the collaborative spirit in Polk County in light of the 
extraordinarily high caseloads. Our project has enabled us to enhance 
the attention families receive from the very beginning of pilot cases 
in which babies and toddlers have been removed from parents. Our system 
is very complicated, and we have employed a navigator to help parents 
connect to services such as visitation, transportation, and 
evaluations, within five to ten days of removal.
    Court Teams can help states and communities meet the purpose of the 
Promoting Safe and Stable Families program directed at addressing the 
problems of families whose children have been placed in foster care so 
that reunification may occur in a safe and stable manner as well as 
helping to improve the way juvenile and family courts function to 
provide for the safety, well-being and permanence of children in foster 
care. These are exactly the areas Court Teams addresses. Many of the 
services and organizations involved with Court Team families are also 
the keys to preventing families from crossing the line where their 
children must be removed from their homes--or of coming to the 
attention of the child welfare system in the first place. By promoting 
better collaboration and greater understanding of the needs of children 
and families, our Court Team is enhancing our community's capacity for 
prevention.
    The Court Team model is grounded in the innovative approach taken 
by the Honorable Cindy Lederman, Presiding Judge of the Juvenile Court 
in Miami-Dade County, Florida, and Dr. Joy Osofsky, of the Louisiana 
State University Health Sciences Center, to address the well-being of 
infants, toddlers and their families. The Miami-Dade project grew out 
of the science of child development and focuses on ensuring young 
children have access to high-quality services as well as improving how 
they and their parents interrelate. A collaborative initiative 
involving the Miami-Dade Juvenile Court, Louisiana State University and 
the Linda Ray Center has provided parent-child therapeutic 
interventions to mothers and babies. Three years of data in the Miami-
Dade Juvenile Court show substantial gains in improving parental 
sensitivity, child and parent interaction, and behavioral and emotional 
parental and child responsiveness. For those families completing 
treatment, 58 percent of children improved in their developmental 
functioning.\22\ There were no new substantiated reports of abuse or 
neglect.\23\ And 100 percent of infants were reunified with their 
families.\24\
---------------------------------------------------------------------------
    \22\ Adams, S., Osofsky, J., Hammer, J., & Graham, M. (2003). 
Program Evaluation Florida Infant & Young Child Mental Health Pilot 
Project, Year 3, Final Report. Tallahassee, FL: Florida State 
University Center for Prevention & Early Intervention Policy.
    \23\ Ibid.
    \24\ Ibid.
---------------------------------------------------------------------------
    Research is confirming the effectiveness of the approach used in 
the Miami-Dade Juvenile Court, and I have adopted a similar approach in 
my system. The first step is to form a team from committed service 
providers in the community. This Court Team then works to start 
services right away. These services include developmental and health 
assessments, frequent visitation, and supports to ensure stable 
placements. In addition, we monitor these cases each month, and 
institute additional services to better promote child well-being. Our 
Court Team has already formed solid collaborations among community 
providers. The Early Access Early Intervention Project, Drake Head 
Start, and the Child Guidance Center (a mental health center for 
children) are formulating flexible ways to deliver services to the 
population of children in our project. As I mentioned, we are also 
undertaking the education of community members on the development and 
needs of infants and toddlers. Just last week, our Court Team, in 
collaboration with the Drake University School of Law and the Middleton 
Children's Rights Center, held a joint conference to educate students 
and professionals in the fields of law and social work on ways to 
improve the system of services for very young children. Ultimately, it 
is my hope that mental health interventions similar to the one used in 
Miami-Dade will be available in my jurisdiction to help improve 
parents' interactions with infants and toddlers, speed final decisions 
concerning the futures of young children and break the 
intergenerational transmission of abuse and neglect.
Widespread Interest in Court Teams Approach
    The Court Teams project is in four other communities besides Des 
Moines, Iowa--Fort Bend County, Texas; Hattiesburg, Mississippi; 
Allegheny County, Pennsylvania;and New Orleans, Louisiana. In each 
jurisdiction a judge is partnering with a child development specialist 
to create a team of child welfare and health professionals, child 
advocates and community leaders who provide services to abused and 
neglected infants and toddlers. By working together, with support and 
training from ZERO TO THREE, our teams are developing and enacting 
comprehensive approaches to meet young children's complex needs, 
swiftly and effectively. We are all working to enhance and better 
coordinate services for these children and their families. Court orders 
for cases involving young children are now being written to include 
services for the children as well as the parents, and monthly reviews 
are ensuring that court-ordered referrals are implemented as ordered. 
Our ultimate goal is to stop the intergenerational cycle of abuse and 
neglect, heal these children and families and assure their safety and 
well-being.
    The promising developments in our initial sites are only the 
beginning. We are starting to see more and more critical developmental 
services being provided to infants and toddlers and, just as important, 
increasing evidence of systemic change in the way communities respond 
to these children's needs. As word of the Court Teams project has 
spread, my colleagues around the country have become enthusiastic about 
the approach and are seeking to incorporate it into their own court 
procedures. However, they lack the resources without outside support.
Conclusion
    We must ensure that infants in the child welfare system are healthy 
and safe. During the first years of life, children rapidly develop 
foundational capabilities--cognitive, social and emotional--on which 
subsequent development builds. The amazing growth that takes place 
during these early years creates vulnerability and promise for all 
children. These years are even more important for maltreated infants 
and toddlers. We know from the science of early childhood development 
what infants and toddlers need for healthy social, emotional and 
cognitive development. We also know that infants and toddlers in the 
child welfare system are at great risk for poor outcomes. We must 
continue to seek support for services and programs that ensure that our 
nation's youngest and most vulnerable children are safe and that 
promote and improve all aspects of their health and development.
    Although ASFA made states accountable for providing services to 
address the ``safety, permanency and well-being of children and 
families,'' we know that states are struggling to comply with the law's 
requirements. While ASFA has revolutionized the child welfare system 
for the better overall, we also know that the best possible outcome for 
a child caught up in this system is to be reunified as soon as possible 
with parents who can provide a safe and stable permanent home. Given 
what we know about the time it takes to resolve a methamphetamine 
addiction, families enter the system with two strikes against them. The 
scientists tell us it takes about a year after a parent stops using for 
the brain to begin to function as it did before meth use. We have 
fifteen months from the time of removal to help families reunify 
safely. Fifteen months is a very long time in the life of a toddler, 
but not very long in the life of a recovering parent. ASFA is good for 
children. But it also imposes a responsibility--to frontload the system 
as Judge Lederman did in Miami, for children everywhere--a 
responsibility that we have not accepted due to lack of resources. 
Policies and funding must be directed toward preventing harm to 
maltreated young children and assuring that they are safe in permanent 
and stable living arrangements--and beginning these efforts as soon as 
they come into care and the ASFA clock starts ticking. I urge the 
Subcommittee to make the investment now to ensure that the current ill-
equipped child welfare system can better protect very young children.
    Court Teams is not a global solution to the problems of the child 
welfare system, Mr. Chairman. But it is a very concrete approach to 
addressing a critical need at the local level. To ignore the needs of 
infants and toddlers when they come into the child welfare system in 
the earliest stages of life is practically to guarantee that they will 
experience difficulties later on. As the Subcommittee looks at ways to 
operate coordinated programs of community-based family support 
services, I encourage you to consider the Court Teams approach and 
provide other judges with opportunities similar to the one I have in my 
court--to improve the lives of young children under their courts' 
jurisdiction.
    Thank you for your time and for your commitment to our nation's 
most vulnerable infants and toddlers.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Cohen. Ms. Spears to 
testify.

    STATEMENT OF LINDA SPEARS, VICE PRESIDENT OF CORPORATE 
COMMUNICATIONS AND DEVELOPMENT, CHILD WELFARE LEAGUE OF AMERICA

    Ms. SPEARS. Thank you so much. I am honored to be here 
today to speak on behalf of the Child Welfare League of America 
and our nine other member agencies around the country. I am 
deeply grateful to the Chairman and Members of the 
Subcommittee. We at CWLA believe that the country must affirm 
our commitment to prevent abuse and neglect and to support the 
needs of children who are abused and neglected. We believe that 
strong partnerships at Federal, State, and local level are an 
essential tool in getting this accomplished. As has already 
been stated, we know that the key indicators of child 
protection have remained unchanged, with 40 percent of children 
substantiated cases not receiving the needed follow-up 
services. CPS service systems, responding to these children in 
the 50 States are funded by a variety of sources, including The 
Social Services Block Grant (SSBG). In 2004, 38 States spent 
$194 million in SSBG funds for CPS. We highlight this because 
SSBG, under the jurisdiction of this Committee, is threatened 
with potential reduction of $500 million in the President's 
proposed fiscal year 2007 budget. Such a reduction in funding 
would be devastating to CPS and other services. A CPS system 
that functions well, has a fully staffed and competent 
workforce. We cannot emphasize enough the need for a national 
child welfare workforce strategy. CWLA's vision for an optimal 
CWS encompasses a variety of services ranging from prevention 
and neglect to permanency and stability for children in out-of-
home care. Key ingredients include a family-centered approach 
that involves an entire family and shows greater effectiveness 
than those services targeting children or parents alone. A 
highly professional and stable workforce that includes a 
supportive work environment, supervisory mentoring, manageable 
caseloads, formal social work education, and so forth, that can 
provide workers with the knowledge and skills they need to 
assess cases. Prevention services and related services to help 
safely maintain children with their families and permanency and 
stability that nurture children, include kinship placements 
that are more stable and normalizing than other forms of care. 
After care and transitional services can help reduce re-entry 
rates with children, which are now at about 25 percent, 
especially for families where there are multiple complex needs 
and adoptive families and for youth exiting care.
    In regard to PSSF, the program supports four vital 
services, including basic support strength that strengthen the 
families, supports for families being reunified and families 
that we are trying to preserve and for the adoptive families in 
need of support. We believe that these services and families 
should continue to be the target of PSSF. CWLA supports the 
extension of the $40 million in mandatory funding, and we want 
to work with the Members of Congress to see that PSSF is fully 
funded at the $505 million level adopted by this Committee in 
2001. To truly reach the goal of safe and stable families, we 
must provide more support services that PSSF attempts to 
address. CWLA recognizes that the Members of Congress may see 
the $40 million as a way to address other child welfare issues. 
If so, we all strongly urge this as the first step in a 
comprehensive strategy to strengthen the workforce over the 
next few years. The draft legislation includes a workforce 
element tied to caseworker visits. CWLA supports regular and 
ongoing visitation as a critical part of a broader casework 
process that cannot work alone. To reach this visitation goal, 
each State should be assisted in implementing a long-term 
workforce strategy that sets goals around reduced workforce 
turnover, higher education level, adequate caseloads, initial 
and ongoing training, adequate supervision and partnerships 
with educational institutions. We urge the Committee to--the 
Subcommittee to draft legislation that allows flexible funding 
and planning that includes working with the States to develop 
outcomes that track progress toward workforce goals. It should 
be recognized that $40 million for 50 States may limit the 
progress we all seek to advance in achieving these goals. It 
will also be difficult to determine how this $40 million will 
supplement and not supplant current State efforts, since it 
will overlap with title IV-E administration, but we do 
highlight additional resources are needed.
    In your reauthorization, we also suggest that Congress--
that this Committee include recommendations being proposed by 
the National Indian Child Welfare Association, the National 
Congress of American Indians and the Association of American 
Indian Affairs. Their joint proposal would set the reserve 
amount for funding for tribal governments at three percent in 
both mandatory and discretionary funding. Consortium of tribal 
governments could also apply for funding, and we endorse an 
authorization of a tribal court improvement program. As a part 
of the application, States should submit information on how 
they intend to allocate their PSSF funding. Information 
submitted can be collected and included in an annual report by 
HHS. We also urge the Subcommittee to consider legislative 
language directing HHS to work with the States to determine how 
to best compile an annual report describing how funds are spent 
and how children and families are served. Like the SSBG report, 
this information can provide a stronger picture of why the 
funding is important. We commend the Committee for including 
the reauthorization of the mentoring program for children of 
prisoners in this legislation. Currently, there are some 218 
Federally funded mentoring sites serving thousands of children. 
It would be tragic for these children to have their mentoring 
disrupted or end prematurely, and we urge the Committee to 
allow provisions that would allow these efforts to continue. 
CWLA appreciates the Subcommittee's efforts to better align IV-
B part one, the CWS program, with promoting safe and stable 
families. This can add clarity to the understanding of funding 
sources, although it is unclear to the extent to which IV-B one 
funds are spent on adoption and foster care annually. CWLA 
appreciates the committee's efforts at updating the State plan, 
and we suggest including requirements to address 
overrepresentation of children of color in the CWS. As the 
legislation moves forward, we look forward to a continued 
dialog with the Members of the Committee and others. We hope 
that this serves as a building block for future efforts that 
can have--that can create a comprehensive reform for our 
children and families. Thank you very much.
    [The prepared statement of Ms. Spears follows:]
Statement of Linda Spears, Vice President, Corporate Communications and 
              Development, Child Welfare League of America
    Hello, I am Linda Spears, Vice President of Corporate 
Communications and Development of the Child Welfare League of America 
(CWLA). I am honored to submit comments on behalf of CWLA, and our 
nearly 900 public and private nonprofit, child-serving member agencies 
this afternoon. The attention given by the Human Resources Subcommittee 
of the Ways and Means Committee focusing on the child protective 
services system and the reauthorization of the Promoting Safe and 
Stable Families (PSSF) program further shows the intent to ensure that 
our children have the appropriate resources and services available to 
them.
    CWLA believes that as a country we must confirm our commitment to 
prevent child abuse and neglect and to support children who have been 
abused and neglected. We support strengthened partnerships between 
federal, state, and local governments and providers in the nonprofit 
and charitable communities in order to do a better job of protecting 
our nation's children.
IMPROVING THE CHILD WELFARE SYSTEM
Child Protective Services
    In 2004, an estimated 3 million children were reported as abused or 
neglected and received an assessment or screening to determine whether 
or not there was evidence of abuse or neglect. Approximately 872,000 
children were substantiated as abused or neglected. These numbers are 
similar to previous years. Another consistent pattern is that more than 
sixty percent of child victims were victims of neglect, while eighteen 
percent were physically abused and ten percent were sexually abused. 
Thirty percent of victims were age 3 or younger. We also know that 
1,490 children died from child abuse in 2004. Overall eighty-three 
percent of the time a parent or parents were involved in the abuse. 
Another consistent statistic from year to year is that of the children 
who have been substantiated as abused or neglected, nearly 40 percent 
do not receive follow up services.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration on 
Children Youth and Families, Child Maltreatment 2004, Washington D.C., 
U.S. Government Printing Office, 2006.
---------------------------------------------------------------------------
    The foundation on which child protective services (CPS) is 
established and what should always be the first goal of any CPS 
response is keeping children safe from child abuse and neglect. The CPS 
response begins with the assessment of reports of child abuse and 
neglect. If CPS determines the child is at risk of abuse and neglect or 
has been abused or neglected, CPS should ensure the child and his or 
her family receive services and supports from the public child 
protection agency and the community.
    CWLA believes the best ways to ensure children are safe from all 
forms of maltreatment are comprehensive, community-based approaches to 
protecting children and supporting and strengthening families. Public 
and private agencies, in collaboration with individual citizens and 
community entities, can prevent and remedy child maltreatment, achieve 
child safety, and promote child and family well-being.
    Child protective service (CPS) systems in the fifty states are 
funded by a variety of sources. In fact, funding goes beyond the two 
programs specifically targeted for today's hearing, the IV-B part 1 and 
IV-B part 2 programs. Consistently the Social Services Block Grant 
(SSBG) serves as a major source of funding with thirty-eight states 
spending $194 million in SSBG funds in 2004 for child protective 
services. These funds include some TANF dollars transferred into SSBG. 
We highlight this because SSBG, which is under the jurisdiction of this 
subcommittee, is threatened with a potential reduction of $500 million 
in the President's proposed FY 2007 budget, a thirty--percent reduction 
in funding that would be devastating to CPS and many other child 
welfare services. State CPS systems also draw from the Child Abuse 
Prevention and Treatment Act (CAPTA), but funding under the state 
grants part of that program is limited to $27 million and has never 
reached its full authorized funding level.
    A CPS system that functions well is one that has a fully staffed 
and competent workforce. When understaffed and overworked, this system 
of child protection will fail. CWLA cannot emphasize enough the need 
for a national child welfare workforce strategy that puts well trained 
and educated workers in place, keeps caseloads at manageable levels, 
and provides competent supervision and ongoing training.
    It is also important to note that CPS is only one part of the child 
welfare system and it cannot be viewed in isolation. If the efforts at 
reunification of a family fail, or the adoption fails, or services are 
not available for families and children who come into contact with the 
system, then we may find these very same children entering the system 
again. Children with a prior history of maltreatment are more likely to 
experience a recurrence of maltreatment than those who were not prior 
victims.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
The Need for Services
    CWLA's vision for an optimal child welfare system encompasses a 
continuum of services ranging from prevention of abuse and neglect to 
permanency and stability for children who experience out of home care. 
Key ingredients of this system are a family-centered approach, an 
ample, stable, and highly professional workforce, the availability and 
targeted application of services to prevent child abuse and neglect, 
maintaining families when maltreatment has occurred and child safety 
can be reasonably assured, and achieving permanency and stability for 
children who must experience foster care. These components are 
consistent with current research and with federal expectations 
associated with the Child and Family Service Review process.
Family Centered Approach
    Research in child maltreatment, juvenile justice, children's mental 
health, and parent education supports the effectiveness of 
interventions that involve the entire family over those targeting the 
individual parent or child alone.\3\ A family-centered approach engages 
families in addressing the problems that affect the care of their 
children. Such engagement has been linked positively to compliance with 
and completion of case plans.\4\
---------------------------------------------------------------------------
    \3\ Bethea, L. (1999). Primary prevention of child abuse. American 
Family Physician, 59(6). Available online at: http://www.aafp.org/afp/
990315ap/1577.html.
    Kumpfer, K. (April 1999). Strengthening America's families: 
Exemplary parenting and family strategies for delinquency prevention. 
University of Utah. OJJDP. U.S. Department of Justice. Available online 
at: http://www.strengtheningfamilies.org/
    \4\ Dore, M. M. & Alexander, L. B. (1996). Preserving families at 
risk of abuse and neglect: The role of the helping alliance. Child 
Abuse & Neglect: The International Journal, 20(4), 350-364.
---------------------------------------------------------------------------
Stable Professional Workforce
    Effective child welfare services are based on accurate differential 
assessments and require knowledge of human behavior, the factors 
underlying child maltreatment, and the way in which both risks and 
protective factors interact to produce an overall picture of a family's 
needs. Thus, it is not surprising that child welfare workforce research 
suggests the need for staff that have formal social work education,\5\ 
especially that obtained through specialized child welfare programs 
such as those developed through Title IV-E-supported agency-university 
partnerships.\6\ Studies further point to the importance of consistent 
mentoring by competent supervisors,\7\ and to a supportive and flexible 
organizational environment. All of these factors have been linked to 
reduced staff turnover, which recent research suggests is critically 
important both to minimize costs associated with frequent hiring and 
training \8\ and to improve outcomes for children and families. Greater 
amount of caseworker contact with children and parents has also been 
associated with better outcomes.\9\ These findings make it imperative 
that agencies maintain staff in sufficient numbers to provide 
manageable workloads that do not require caseworkers to sacrifice the 
provision of direct services in order to complete administrative tasks 
and documentation.
---------------------------------------------------------------------------
    \5\ Albers, E., Reilly, T., & Rittner, B. (1993). Children in 
foster care: Possible factors affecting permanency planning.
    Child and Adolescent Social Work Journal, 10 (4), 329-341.
    Booz-Allen & Hamilton, Inc. (1987). The Maryland social work 
services job analysis and personnel qualifications study. MD:Author.
    Dhooper, S., Royse, D. & Wolfe, L. (1990). Does social work 
education make a difference? Social Work, 35(1), 57-61.
    Ellett, A. J. (2000). Human caring, self-efficacy beliefs, and 
professional, organizational culture correlates of employee retention 
in child welfare. Unpublished doctoral dissertation, Louisiana State 
University, Baton Rouge, LA.
    Lieberman, A., Hornby, H., & Russell, M. (1988). Analyzing the 
educational backgrounds and work experiences of child welfare 
personnel: a national study. Social Work, 33 (6), 485-489.
    \6\ Huebner, R. (2003). Public Child Welfare Certification Program 
outcomes evaluation. Kentucky Cabinet for Families and Children, 
Frankfort, KY.
     Dickinson, N. & Perry, R. (2002). Factors influencing the 
retention of specially educationed public child welfare workers. 
Journal of Health & Social Policy, 15 (3/4), 89-104.
    \7\ Ibid.
    Rycraft, J. (1994). The party isn't over: The agency role in the 
retention of public child welfare caseworkers. Social Work, 39 (1), 75-
80.
    \8\ Graef, M. & Hill, E.L. (2000). Costing child protective 
services turnover. Child Welfare, 79(5), 517-533.
    United States Children's Bureau (2003). Relationship between 
caseworker visits with children and other indicator ratings in 2002 
cases. Available online at: http://www.acf.hhs.gov/programs/cb/
cwmonitoring/results/results/sld037.htm
    Potter, C.C.& Klein-Rothchild, S. (2002). Getting home on time: 
Predicting timely permanence for young children. Child Welfare, 81 (2), 
123-150.
    Flower, C., McDonald, J. & Sumski, M. (2005). Review of turnover in 
Milwaukee County: Private agency child welfare ongoing case management 
staff. Available online at: http://www.uky.edu/SocialWork/cswe/
documents/turnoverstudy.pdf
    \9\ Barth, R.P., Courtney, M., & Berry, M. (1994). Timing is 
everything: An analysis of the time to adoption and legalization. 
Social Work Research, 18 (3), 139-148
---------------------------------------------------------------------------
Prevention of Abuse and Neglect
    Studies have demonstrated the effectiveness or promise of several 
approaches to prevention of child maltreatment. Models such as Nurse 
Family Partnerships and Healthy Families have produced evidence that 
they positively impact a variety of outcomes for children and families, 
including prevention of abuse and neglect. Likewise, high quality pre-
kindergarten programs like the Chicago Child Parent Centers and Head 
Start that include parental involvement and supports have also 
demonstrated effectiveness.\10\ Independent studies have found that the 
financial savings achieved by the most effective of these approaches 
far exceeds their costs.\11\ Rigorous cost-benefit analyses conducted 
by the Washington State Institute for Public Policy showed cost savings 
for several pre-kindergarten and home visitation programs as well as 
for Parent-Child Interaction Therapy, a center-based intervention that 
provides direct coaching to parents as they interact with their young 
children.\12\
---------------------------------------------------------------------------
    \10\ Alexander, R., Baca, L., Fox, J., Frantz, M. & Huffman, L., et 
al. (2003). New hope for preventing child abuse and neglect: Proven 
solutions to save lives and prevent future crime. Washington, DC: Fight 
Crime, Invest in Kids. Available online at http://www.fightcrime.org/
    \11\ Ibid.
    \12\ Aos, S., Lieb, R., Mayfield, J., Miller, M., Pernucci, A. 
(2004). Benefits and costs of prevention and early intervention 
programs for youth. Olympia: Washington State Institute for Public 
Policy. Available online at http://www.wsipp.wa.gov.
---------------------------------------------------------------------------
    Several interventions that target older children and their families 
have also been demonstrated to have benefits in lessening children's 
problematic behavior and improving family functioning. Family-based 
therapeutic models such as Functional Family Therapy and Multi-Systemic 
Therapy have been rigorously tested in sites across the country and, 
despite some variation in findings, there is substantial evidence of 
their benefits to youth and their families.\13\
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
Maintaining Families
    Many children can be safely maintained in their families through 
the timely application of interventions that correctly target the 
underlying causes of maltreatment. A number of studies support the 
benefits of interventions that have a behavioral, skill-building focus 
and that address family functioning in multiple domains including home, 
school, and community. Cognitive behavioral models have been 
demonstrated to reduce physical punishment and parental aggression in 
less time than alternative approaches.\14\] The most effective 
treatment involves all members of the family and addresses not only 
parenting skills, but also parent-child interaction and a range of 
parental life competencies such as communication, problem solving, and 
anger control. Attention to immediate, concrete needs has also been 
identified as a key factor in supporting family engagement and positive 
outcomes.\15\
---------------------------------------------------------------------------
    \14\ Corcoran, J. (2000). Family interventions with child physical 
abuse and neglect: A critical review. Children and Youth Services 
Review, 22, 563-591.
    \15\ Corcoran, J. (2000). Family interventions with child physical 
abuse and neglect: A critical review. Children and Youth Services 
Review, 22, 563-591.
    Berry, M. (1994) Keeping Families together. In S. Bruchey (ed) 
Children in Poverty: Studies of the effects of single parenthood, the 
feminization of poverty, and homelessness. New York: Garland 
Publishing, Inc.
    Dawson, K. & Berry, M. (2002). Engaging families in child welfare 
services: An evidence-based approach to practice. Child Welfare, 81 
(2), 293-317.
---------------------------------------------------------------------------
Permanency and Stability
    A wealth of research demonstrates the importance of children being 
nurtured in a stable family environment, confirming the need to move 
those who must enter foster care into permanent living situations as 
quickly as possible. Recent studies suggest that, when children must 
leave their families, well-supported kinship placements have the 
potential to provide more stable and normalizing environments than 
unrelated family care.\16\
---------------------------------------------------------------------------
    \16\ Webster, D., Barth, R.P. & Needell, B. (2000). Placement 
stability for children in out-of home care. Child Welfare, 79 (5), 614-
631.
---------------------------------------------------------------------------
    Most children who enter foster care are able to return to their 
families of origin, often within less than one year.\17\ However, when 
that is not possible, alternatives such as adoption or subsidized 
guardianship can offer long term stability.\18\ Cost analyses of child 
welfare services have linked kinship care and subsidized guardianship 
to cost savings. One study \19\ found the cost of effecting an adoption 
for children in foster care to range from $6,000 to $28,539, or an 
average of $19,141, suggesting that this permanency alternative has the 
potential to achieve a substantial savings over long term foster care.
---------------------------------------------------------------------------
    \17\ Wulczyn, F. (2004). Family Reunification. The Future of 
Children, 14 (1), 95-113.
    \18\ Mandel, M., Harrington, D. & Orlin, M. (2001). The effect of 
subsidized guardianship on exits from kinship care: Results from 
Maryland's guardianship assistance demonstration project. Unpublished 
paper presented at the annual conference of the Association for Public 
Policy and Management, Washington, DC.
    Testa, M. (2004). When children cannot return home: Adoption and 
guardianship. The Future of Children, 14 (1), 115-130.
    \19\ Barth, R. (2002). Institutions vs. foster homes: The empirical 
basis for the Second Century of Debate. Chapel Hill, NC: University of 
North Carolina School of Social Work, Jordan Institute for Families. 
Available online at http://www.childrensrights.org/Policy/
policy_resources_EX_fostercare_institutions.htm
---------------------------------------------------------------------------
    While research supports the use of family care when deemed 
appropriate by a full assessment, group care is another placement 
option that may offer benefits for certain youth when used 
strategically, for a period of time indicated by ongoing assessment, 
and as part of a plan to maintain or rebuild family and community 
connections. However, family care, even in therapeutic foster care 
settings with multiple supportive services, tends to be substantially 
less expensive.
Aftercare and Transitional Services
    Data indicate that about 25 percent of all children who exit out-
of-home care will return at some point, often within one year. The 
likelihood of re-entry is especially great when children or parents 
have more numerous or complex needs or when they are exposed to more 
extreme environmental stressors.\20\ Although the likelihood of 
maltreatment recurrence and/or subsequent re-entry into foster care is 
undoubtedly related to decision-making and services offered prior to 
reunification, it strongly suggests a need for aftercare services.
---------------------------------------------------------------------------
    \20\ Wulczyn, F. (2004). Family Reunification. The Future of 
Children, 14 (1), 95-113.
    Festinger, T. (1994). Returning to care: Discharge and reentry in 
foster care. Washington, DC: Child Welfare League of America. Terling, 
T. (1999). The efficacy of family reunification practices: Reentry 
rates and correlates of reentry for abused and neglected children 
reunited with their families. Child Abuse & Neglect, 23 (12), 1359-
1370.
---------------------------------------------------------------------------
    The limited research in family reunification aftercare, indicates 
that it is most successful when it is initially intensive and includes 
the availability of concrete services \21\ and ongoing assessment of 
risk. The association of social isolation with failed reunification 
also suggests the importance of linking with extended family, extra-
familial social networks, and informal resources. Tapering off of 
services should be based on the family's needs rather than on an 
arbitrary time frame.\22\
---------------------------------------------------------------------------
    \21\ Maluccio, A. (2000). What works in family reunification. In M. 
Kluger, G. Alexander, & P.A. Curtis, What Works in Child Welfare (pp. 
163-171). Washington, DC: Child Welfare League of America.
    Walton, E., Fraser, M., Pecora, P. & Walton, W. (1993). In-home 
family-focused reunification: An experimental study. Child Welfare, 72 
(5), 473-48.
    Wulczyn, F., Zeidman, D. &Svirsky, A., (1997). Homebuilders: A 
family reunification demonstration project. In J.D. Berrick, R.P. 
Barth, & N. Gilbert, Child Welfare Research Review, Vol. II. New York: 
Columbia University Press.
    \22\ Terling, T. (1999). The efficacy of family reunification 
practices: Reentry rates and correlates of reentry for abused and 
neglected children reunited with their families. Child Abuse & Neglect, 
23 (12), 1359-1370.
    Kirk, R. (2001). Tailoring intensive family preservation services 
for family reunification cases. Phase 2: Field testing and validation 
of the North Carolina Family Assessment Scale for Reunification. 
Project report to the National Family Preservation Network and the 
David and Lucile Packard Foundation.
---------------------------------------------------------------------------
    Services during and after the adoption process are also an 
important part of the service continuum. Although the rate of adoption 
dissolution is quite low overall, research indicates that some 
placements may have greater needs for follow-up services and supports. 
One study reported that, while less than 30% of all adoptive families 
used post-adoption services other than informational resources, most 
families adopting through a public agency used some type of counseling. 
This finding was attributed to the larger number of special needs of 
children placed with these families. As in other types of child welfare 
intervention, family-focused approaches appear to be the most helpful 
in supporting adoption stability. Research suggests that adoptive 
parents may also value participation in support groups, access to 
literature and seminars, and concrete services like respite care, 
subsidies, and health benefits.\23\
---------------------------------------------------------------------------
    \23\ Barth, R., & Miller, J. (2000). Building effective post-
adoption services: What is the empirical foundation? Family Relations, 
49, 447-455.
    Barth, R., Gibbs, D., and Siebenaler, K. (2001). Assessing the 
field of post-adoption services: Family needs, program models,& 
evaluation issues. Chapel Hill, NC: Research Triangle Institute and the 
University of North Carolina School of Social Work.
    Berry, M. (1994). Keeping families together. In S. Bruchey (ed.) 
Children of poverty: Studies of the effects of single parenthood, the 
feminization of poverty, and homelessness. New York: Garland 
Publishing, Inc.
    Brooks, D., Allen, J., & Barth, R. (2002). Adoption services use, 
helpfulness, and need: A comparison of public and private agency and 
independent adoptive families. Children & Youth Services Review, 24, 
213-218.
---------------------------------------------------------------------------
    Services targeting youth who will exit foster care to independence 
are another important component of a continuum of care. Studies have 
identified four key elements: school completion, high-intensity 
supports over time, a work experience component, and the presence of a 
stable, caring adult \24\ as factors leading to successful transition 
of youth to work and independence. Youth have been shown to benefit 
from a plan based on systematic assessment, combined with focused 
skills development, involvement of caregivers as teachers, and re-
establishing or maintaining connections to birth/extended family and 
community.\25\
---------------------------------------------------------------------------
    \24\ Baker, A., Olson, D. & Mincer, C. (2000). The WAY to work: An 
independent living/ aftercare program for high-risk youth. Washington, 
DC: Child Welfare League of America.
    Dale, N. (2000). What works in employment programs for youth in 
out-of-home care. In M.P. Kluger, G. Alexander & P.A. Curtis (Eds). 
What works in child welfare (187-193). Washington, DC: Child Welfare 
League of America.
    \25\ Courtney, M.C. and Piliavin, I. 1998. Foster Youth Transitions 
to Adulthood: Outcomes 12 to 18 Months After Leaving Out-of-Home Care. 
Madison, WI: Institute for Research on Poverty, University of 
Wisconsin-Madison.
    Nollan, K.A. (2000). What works in independent living preparation 
for youth in out-of home care. In M.P. Kluger, G. Alexander & P. A. 
Curtis (Eds.) What works in child welfare ( 195-204). Washington, DC: 
Child Welfare League of America
---------------------------------------------------------------------------
CWLA POLICY RECOMMENDATIONS ON PROPOSED LEGISLATION
The Reauthorization of Promoting Safe and Stable Families
    Of most immediate importance for this Committee is the 
reauthorization of the Promoting Safe and Stable Families program 
(PSSF) beyond FY 2006. PSSF supports four vital services that address 
four different types of families in need: those in need of basic 
support services to strengthen the family and keep them whole, families 
being reunified, families we are trying to preserve, and adoptive 
families in need of support. As you review some of the key needs 
included in this testimony, the Subcommittee can see how the issues of 
prevention, aftercare, permanency and stability and maintaining 
families are all addressed by these categories.
    CWLA believes these services and families should continue to be the 
target for PSSF in a reauthorization bill:
    Family Support Services (FSS) were developed to respond to the 
concerns, interests, and needs of families within a community. Family 
Support Services are targeted to families with difficulties and 
concerns related to the proper functioning of the family and care of 
the children. The focus of the program is on prevention. The services 
address the need to improve the well-being of a child, family 
functioning, and the parent's ability to provide for the family, before 
they are in crisis. In order to reach families in need of assistance, 
family support programs work with outside community organizations such 
as schools and child welfare agencies. The aim is to provide temporary 
relief to families and to teach them how to better nurture their 
children. Involvement in these services is voluntary. Types of services 
include parent education, child care relief, and self-help groups.
    Reunification is the first permanency option states consider for 
children entering care. Yet, in many ways, it is the most challenging 
option to achieve in a plan-based, permanent way. We know that forty-
eight percent of, or 246,650, children in care on September 30, 2003 
had a case plan goal of reunification with their parents or other 
principal caretaker. At the same time, 151,770 children, or 55 percent 
of those children who left care in 2003, were returned to their 
parent's or caretaker's home.\26\
---------------------------------------------------------------------------
    \26\ Ibid.
---------------------------------------------------------------------------
    Successful permanency through reunification requires many things, 
including skilled workers, readily available supportive and treatment 
resources, clear expectations and service plans, and excellent 
collaboration across involved agencies. Reunification also requires 
culturally appropriate support and treatment services for families and 
the critical need for after care or post-permanency services to ensure 
that safety and permanency are maintained following reunification.
    Family Preservation Services (FPS) are comprehensive, short-term, 
intensive services for families delivered primarily in the home and 
designed to prevent the unnecessary out-of-home placement of children 
or to promote family reunification. The services are intended to 
protect a child in a home where allegations of child abuse or neglect 
have occurred, prevent subsequent abuse or neglect, prevent placement 
of a child, or reduce the stay for a child in out-of-home care. 
Families in need of family preservation services are usually referred 
by public welfare agencies. Services are provided within 24 hours of 
referral and the family's involvement is voluntary. These services 
respond to families on a 24-hour basis, including services such as 
family therapy, budgeting, nutrition, and parenting skills.
    Adoption support is an important need as the number of adoptions 
have increased. There is still more work to be done. Services may 
include information and referral, case management services, support 
groups and a range of other services. Of the 523,085 children in foster 
care in 2003, approximately 119,000 were waiting to be adopted, with 
68,000 of these children being free for adoption (parental rights had 
been terminated). Of the children waiting, 40% were black non-Hispanic, 
37% were white non-Hispanic, 14% were Hispanic, and 4% were of 
undetermined ethnicity. In 2003, the median age of children waiting to 
be adopted was 8.7 years; 3% of the children waiting to be adopted were 
younger than 1 year; 32% were ages 1 to 5; 28% were ages 6 to 10; 30% 
were 11 to 15; and 6% were 16 to 18.
Use Of $40 Million PSSF Increase
    CWLA supports the extension of the $40 million in mandatory funding 
that was included in the Deficit Reduction Act and we want to work with 
the Subcommittee and members of Congress to see that PSSF is at a 
minimum fully funded at the level of $505 million as adopted by this 
Subcommittee in 2001. We feel there a need for more. As indicated 
earlier in our testimony, forty percent of children substantiated as 
abused or neglected do not receive follow up services. We also feel it 
bears repeating that there is need for more reunification, adoption and 
other support services than PSSF attempts to address. To truly reach 
the goal of safe and stable families this country needs to go much 
further in its funding and priority of the entire child welfare system.
    CWLA recognizes that the Subcommittee and members of Congress see 
the $40 million in mandatory funding as an opportunity to address some 
additional issues in the child welfare field. If that is the decision 
of the Congress we strongly urge you to make this the first step in a 
comprehensive strategy over the next few years to more fully address 
the needs of these children.
    The draft legislation includes a workforce element tied to 
caseworker visits. CWLA supports regular and on-going visits to 
children in care. In the child welfare field visitation is not an 
isolated service or stand-alone intervention. Rather it is part of a 
larger case planning process. To reach this visitation goal we need a 
comprehensive strategy to strengthen the child welfare workforce.
    We would not want a system of care where too few workers with very 
high caseloads are simply meeting an outcome measure of numbers. Rather 
each state should be assisted in implementing a long term workforce 
strategy that sets goals around reduced workforce turnover, higher 
education levels, adequate caseloads, initial training and on-going 
training, adequate supervision and the proper partnerships with 
educational institutions and other partners in workforce development.
    For each state this will be different so we would urge the 
Subcommittee to craft legislation around such a flexible allocation of 
funding and planning that will work with states to develop outcomes and 
provide related data that can demonstrate progress toward a 
comprehensive workforce strategy or goals. Again, this is a long-term 
strategy that requires federal, state and local partnerships. It should 
also be recognized that $40 million for fifty states may limit the kind 
of progress we all seek in advancing this goal. In addition, it will be 
difficult to determine how this designation of $40 million will 
supplement and not supplant current state efforts since it will overlap 
with Title IV-E Administrative funding used for these critical purposes 
but we do highlight that additional resources are needed.
Possible Improvements
Access For Tribal Communities
    In your reauthorization, CWLA suggests that the Subcommittee 
include the recommendations being proposed by the National Indian Child 
Welfare Association, National Congress of American Indians and the 
Association of American Indian Affairs. Their joint proposal would set 
the reserved amounts of funding for tribal governments at 3 percent in 
both the mandatory and discretionary funding. A consortium of tribal 
governments could also apply for the funding and we endorse an 
authorization of a tribal court improvement program.
Better Data
    As part of the application process, states submit information on 
how they intend to allocate their PSSF funding. This information should 
be collected and included in an annual report by HHS. We also urge the 
Subcommittee to include legislative language that would direct HHS to 
work with states to determine how to compile an annual report that 
would provide information on how funds are actually spent and would 
include information on families and children served. The annual reports 
by HHS on the Social Services Block Grant have only been issued since 
1998, yet they have provided a stronger picture of why that funding is 
important to so many human service programs.
Mentoring of Children of Prisoners
    We commend the Committee for including the reauthorization of the 
Mentoring Children of Prisoners program in this legislation. Mentoring 
for this population is an effective way to engage at-risk children and 
youth, provides connections to caring adults, and perhaps most 
importantly, builds relations among family members during and after 
incarceration. We know there are many areas in the country today where 
children of prisoners are not able to access this mentoring service due 
to lack of availability. Expansion is necessary and the Committee is to 
be commended for focusing on this. We urge the committee to carefully 
consider the following issues as this new initiative is implemented.
    Currently there are 218 federally funded sites around the country 
where this mentoring is taking place, involving thousands of children. 
It would be tragic for these children to have their mentoring disrupted 
or ended prematurely. We urge the Committee to include provisions to 
allow these efforts to continue.
    Researchers and mentoring experts have concluded that children 
facing multiple developmental risks benefit more from mentoring than 
other children; however, they require a higher quality of mentoring 
program and are more likely to be adversely affected by poor quality 
mentoring. We urge the Committee to examine carefully the expertise and 
background of all potential national entities specific to mentoring 
children of prisoners. New trainings, techniques and curricula, have 
recently been developed. Whatever entity is chosen will need to be 
fully knowledgeable of these tools and prepared to make them available.
IV-B Part 1 Child Welfare Services
    CWLA appreciates the Subcommittee's efforts to better align the IV-
B Part 1, Child Welfare Services program with that of PSSF. This can 
add clarity to the understanding of funding sources although it is 
unclear to what extent IV-B 1 funds are spent on adoption, foster care 
and child care on an annual basis. In practical terms, since federal 
Title IV-E funds cover half or less than half of the children in foster 
care, it is also unclear that this change in statute will result in any 
increase in funding for services covered under IV-B part 1 or PSSF. 
Inevitably states must pick up the cost of foster care for children 
ineligible for IV-E by relying on other federal funds, state funds, 
local funds or a combination of all three.
    CWLA also appreciates the Subcommittee's efforts at updating the 
state plan requirements. In addition we suggest the requirement to 
include a description of efforts to address the overrepresentation of 
children of color in the child welfare system. These children represent 
African American/Black, Latino/Hispanic, American Indian/Alaskan 
Native, Asian, Hawaiian/Other Pacific Islander, or two or more races.
Conclusion
    CWLA appreciates the opportunity to offer our testimony and 
comments to the Subcommittee in regard to this reauthorization of 
Promoting Safe and Stable Families. As this legislation moves forward 
we look forward to a continued dialogue with the Subcommittee and 
Members of Congress. We also hope that this reauthorization serves as a 
building block for future efforts that will create a comprehensive 
reform that results in reduced numbers of children being abused and 
neglected and safer and permanent families for those children who do 
come into contact with the child welfare system.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Spears. Mr. Cross to 
testify.

 STATEMENT OF TERRY CROSS, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
                   CHILD WELFARE ASSOCIATION

    Mr. CROSS. Thank you, Mr. Chairman. My tame is Terry Cross. 
I am the executive director of the National Indian Child 
Welfare Association. I am here to testify on behalf of our 
organization and our membership. I have submitted formal 
written testimony, so I just want to make my oral comments to 
illustrate some key points from my testimony. First of all, I 
want to start with some thank you's to this Committee. First, 
to invite us here for the tribal viewpoint, for our 
organization's viewpoint is very much appreciated. Often no one 
hears the messages about our children who are left out of these 
kinds of programs. Chairman Herger, I want to thank you 
personally for every piece of legislation concerning child 
welfare that you have introduced in the last 2 years, that have 
had tribal provisions. It is a wonderful step forward. Very 
grateful for your leadership in that area. We want to thank the 
Committee for its role in helping make sure that the recent 
budget Deficit Reduction Act, including provisions that 
required State court improvement programs to consult with the 
tribes in their States. Another major improvement. We want to 
thank Representative Camp who has sponsored our title IV-E 
access bill for tribes. It hasn't gotten any action, but it--
once again, a representative from this Committee is paying 
attention to our children's needs. Also in the recent Budget 
Reduction--Deficit Reduction Act, the provision for the Tribal 
TANF-Child Welfare collaboration was a direct result of 
Representative Camp's work and this Committee's work, and we 
also thank you. We commend the Committee for this direction, 
and we think these things that I have just mentioned here in 
our thanks to you is part of a trend, a track that this 
Committee is on that is a very positive track for our children. 
In front of you today is a major opportunity to take a major 
leap forward to help protect our children because this really 
is about protecting children.
    I want to tell you about a family and the possible scenario 
of that family in three different situations. Family living in 
a rural area, depressed mom, five children, abandoned by a 
father, children--12 years old, the oldest; 18 months, the 
youngest. CPS worker is called into a home that can be 
described nothing less than filthy, unsafe for a child to be 
in. The caseworker looks at the situation, calls the family 
together, immediately conducts family group conference, talks 
about the need for this to change and says, I am going to find 
a foster home unless I come back and this situation has 
changed--but in the leaving, the caseworker leaves garbage 
bags, a shovel and broom, 6 gallons of water because the 
plumbing's not working, and comes back later in the afternoon 
with a wraparound team. The house is clean enough for the 
children to stay. Can stay--that family can stay together 
because there is a team of professionals who can make that 
decision and can protect those children in their own homes. 
Those children, if they were lucky, would live on the three 
affiliated tribes at Fort Berthold. They received this funding 
because they are large enough under the current formula. If 
they lived in the Karuk Tribe in Northern California, there 
would be no services for them. They would likely be placed in 
foster care with all of the ramifications we know about that. 
If these children lived in the Seattle area, the small tribes 
of Western Washington, they would not be able to receive these 
services. The consortia are not currently eligible to receive 
this funding. That leaves me with the recommendations. We 
recommend that the funding levels be increased for tribes from 
the current one percent for the mandatory and two percent for 
the discretionary funding to a full three percent. This would 
allow tribes across the country to have access to these funding 
and for children--for every child to stay at home with their 
family, to be able to receive the services. Part of this 
important program also could support tribal court improvement 
projects, like the State court improvement projects, because it 
is only with a collaboration between the courts and the child 
welfare program and mental health and substance abuse and all 
the other programs that these programs can be effected. The 
opportunity is here before us today, and I appeal to you for 
your compassion, for your good thoughts, for your care and 
concern that you have already demonstrated for our children. We 
ask that you devote the resources at this critical time when 
they have already been appropriated when there is already a 
chance for our children to be served at the same level as other 
children. I thank you for your time.
    [The prepared statement of Mr. Cross follows:]
   Statement of Terry Cross, Director, National Indian Child Welfare 
                     Association, Portland, Oregon
    Thank you for the opportunity to again appear before this 
Subcommittee on behalf of the National Indian Child Welfare 
Association. Our testimony will focus on reauthorization of the 
Promoting Safe and Stable Families Act. The recommendations that we are 
making are supported by the National Congress of American Indians, 
Affiliated Tribes of Northwest Indians and the Association of American 
Indian Affairs with whom we collaborate on this and other child welfare 
matters.
    Thanks also to the Subcommittee staff--both Majority and Minority--
who have met with us many times, giving us an opportunity to talk about 
tribal child welfare needs and about the federal child welfare statutes 
which have left out tribal governments and the children under their 
jurisdiction. The meetings have also informed us about big picture 
child welfare developments.
    Our primary recommendations on reauthorization of the Promoting 
Safe and Stable Families Act are:

    <bullet>  Increase tribal reserved amounts to 3% in both the 
mandatory and discretionary program, including the new $40 million if 
those funds are to be distributed on an allotment or formula basis.
    <bullet>  Allow tribal consortia to be eligible to apply for all 
program components.
    <bullet>  Authorize a tribal court improvement program ($2 million 
annually--competitive grant program) to ensure that tribal courts have 
access to funds to support court improvement work.

    Current law. Under the current Promoting Safe and Stable Families 
law, tribal governments receive a 1 percent allocation of mandatory and 
a 2 percent allocation of discretionary funds for a total of $5.2 
million in fiscal year 2006. About two-thirds of these tribes receive 
less than $40,000 from the Promoting Safe and Stable Families program 
and just over one-third receive less than $20,000.
    The current program requires tribal applicants to meet a 
population-based $10,000 threshold in order to be eligible for funding. 
In addition, tribes in the lower 48 states are not allowed to apply as 
consortia. Thus only 80 tribes--or about one third of all tribes in the 
lower 48--are able to meet the criteria to access this program. Tribes 
in Alaska, many of them small villages, are able to apply as consortia 
under an Alaskan Native non-profit corporation; there are ten Alaska 
Native grantees for the Promoting Safe and Stable Families program. 
Tribal courts, which have exclusive jurisdiction over tribal member 
children on their lands in most cases, are not eligible for any of the 
court improvement funding under this law. The Deficit Reduction Act of 
2005 has a new requirement for state court improvement projects to 
consult with tribal governments on the state projects, but this does 
not mandate sharing of any resources or funding.
    Mentoring Children of Prisoners. We support reauthorization of the 
Mentoring Children of Prisoners program, and note that a number of 
tribes have been awarded grants under this program. According to the 
Justice Department, 870 per 100,000 Indian adults were in a state or 
federal prison in 1997 compared to 629 persons per 100,000 adults 
nationally (Bureau of Justice Statistics, ``American Indians and Crime, 
1999). The DOJ reports that the American Indian proportion of all 
violent offenders entering Federal prison is 15 percent (A BJS 
Statistical Profile, 1992-2002 American Indians and Crime, December 
2004). Assisting these children is a crucial step in helping reduce 
their further involvement in the child welfare system and future 
involvement in the criminal justice system.
    The need. Tribal governments, just as state governments, are very 
concerned about the increasing number of children under their 
jurisdiction who are reported as abused and neglected. Child abuse and 
neglect carries a toll on not just the immediate children and families, 
but the entire community. Child abuse and neglect has been connected 
with risk for juvenile delinquency, poor school performance and mental 
illness. Small communities in rural areas, characteristic of many 
tribal communities, are especially hard hit, based on the lack of 
infrastructure and public services that assist governments to address 
this serious problem. Many of these children that are abused and 
neglected end up in some form of substitute care, either temporarily or 
permanently. Foster care services, while critically important, are one 
of the most expensive child welfare services and the incentives to 
reduce children entering into the foster care system are many. Tribal 
governments, such as the Three Affiliated Tribes in North Dakota, 
understand these incentives and used their Promoting Safe and Stable 
funding to promote systems reform that resulted in an almost 40% 
reduction in foster care placements. This kind of innovation is in the 
minds of many tribal governments, but the funding to implement these 
ideas is not always there.
    The Bureau of Indian Affairs 2003 Labor Force report shows a 
national average of 49% unemployment for Indian people living on or 
near reservations. Of those who are employed, 32% are still living 
below the poverty guideline. We know that poverty and unemployment are 
circumstances that pose risk for child abuse and neglect. Alcohol and 
substance abuse rates are also very high in tribal communities with 
estimates that up to 85% of tribal families that become involved in the 
child welfare system have some history of alcohol and/or substance 
abuse. Methamphetamine use is especially high in many parts of Indian 
Country as evidenced by available data and recent testimony by tribal 
witnesses at two Senate hearings. The great strain on tribal child 
welfare systems is also evident. We point out the testimony of Arlene 
Templer of the Confederated Salish and Kootenai Tribes at the April 25, 
2006 hearing before the Senate Finance Committee. Templer states:
    ``In the last four years we have placed over 30 meth affected 
children in the foster care system and the agency is experiencing 
tired, worn out caregivers who are now turning children back to us, 
before we can even achieve permanency for these needy children. The 
children are being turned back due to the high needs they have and the 
few supports we can offer. There are not funds for respite for 
caregivers; our departmental budget cannot afford it. There are no 
funds for specialized therapy, other than Medicaid. Caregivers are not 
trained to deal with the physical and mental health complications that 
the children present. In addition, caregivers are not trained to deal 
with the birth parents, when addictions and addictive behaviors are 
still present.''
    ``Children with meth effects have the following behaviors: head 
banging, constant crying, increased aggression towards siblings and 
caregivers, sensory integration dysfunction which result in slow and 
delayed gross and fine motor functions. The impact these children will 
have on our Nation's public schools will be devastating. They, like us, 
are not equipped nor funded to deal with these issues.''
    We also refer you to the testimony of Kathleen Kitcheyan, 
Chairwoman of the San Carlos Apache Tribe before the Senate Committee 
on Indian Affairs on April 5, 2006: ``Last year, there were about 500 
reports of child neglect and/or abuse reported to the Tribe's child 
protective services. About 80% of these cases involved alcohol or drug 
use, such as meth, by the parent. About 36% of reported cases of child 
neglect and/or abuse are repeat occurrences.'' She told the Committee 
that in 2004, 64 babies out of 256 born to San Carlos Apache tribal 
members were addicted to methamphetamine, and 24% of pregnant women at 
San Carlos tested positive for methamphetamine. The numbers were even 
higher in 2005. Kitcheyan testified that the Tribe's child protection 
caseworkers ``are responsible for more children than any person could 
possibly handle.''
    As a testament to Chairwoman Kitcheyan's statement, the Office of 
Tribal Services of the Bureau of Indian Affairs reported to us that 
they estimate each BIA or tribal social worker has a workload of at 
least 200 cases--involving child protection services (investigations of 
suspected child abuse and neglect), child welfare (out-of-home 
placements) and General Assistance (welfare assistance).
    Allowing tribes to apply as consortia is common in federal 
programs. Most tribal consortia are in states where there is 
preponderance of many small tribes, such as California and Washington. 
Among the programs administered by tribal consortia are the Child Care 
and Development Block Grant and the Temporary Assistance for Needy 
Families program. Consortia arrangements for very small tribes can 
maximize the use of funds by, for example, having a single accounting 
system, by jointly training social workers, using a common data system 
and offering services at a shared site. Pooling resources can expand 
services to tribal children who otherwise would not receive certain 
services and bring together diverse ideas and methods for delivering 
more effective services.
    Funding for tribal child welfare services are also in short supply. 
Tribal governments, unlike states or territories, are not eligible for 
direct funding from the federal government's two largest child welfare 
funding sources--Title IV-E and Title XX. While a small number of 
tribes have been able to develop mechanism for passing through these 
funds (70 tribal-state agreements under Title IV-E and four states that 
pass through Title XX funds) this is not a mandated activity. The 
Office of Inspector General for the Department of Health and Human 
Services in 1994 indicated that these pass-through arrangements are 
fraught with difficulty, and the surest method for ensuring that tribes 
benefit from these programs is direct funding.  Tribal governments also 
receive very littlefrom three other program--Title IV-B Child Welfare 
Services, Title IV-B Promoting Safe and Stable Families, and Child 
Abuse Prevention and Treatment Act. The funding that tribes receive 
under Title IV-B Child Welfare Services, while increased since 1993, 
still results in most tribes receiving grants of less than $10,000 per 
year. The Child Abuse Prevention and Treatment Act funds are 
competitive and only a handful of tribes ever receive any of these 
funds. Other sources of child welfare funding for tribal child welfare 
services come from the Bureau of Indian Affairs programs, such as 
Indian Child Welfare Act grant program and BIA Social Services. These 
programs are also discretionary and provide funding in very small 
amounts. The BIA Social Services funding is not even available to all 
tribal governments. Because of the small number of programs and amounts 
of funding that are available, spikes in need can easily overwhelm a 
tribal child welfare program. This can seriously compromise the ability 
to respond effectively and can eliminate the ability to seek reforms 
that can divert children and families from entering the system in the 
first place.
    James Bell and Associates published in 2004 two studies regarding 
the implementation of the Promoting Safe and Stable Families program by 
tribal governments, both of which are available on the Administration 
for Children and Families web site. One study focused on tribal child 
welfare resources. The other focused on the coordination and 
collaboration by and among tribes in the provision of social services 
and included case studies of twelve tribal programs. The study found 
that there was no single story of tribal Promoting Safe and Stable 
Families implementation. Tribal programs reflected unique tribal 
circumstances, including the presence of lack of other resources with 
which to combine with the PSSF funds. The studies found a significant 
amount of tribal collaboration on the provision of child welfare 
services--among a tribe's various agencies, between tribes, and between 
tribes and states. Among the common challenges among the tribal 
grantees were turnover of social services directors as tribal 
governments changed, lack of services for at-risk youth, and reliance 
on inconsistent, discretionary funding.
    As mentioned above, tribal courts do not receive funds from the IV-
B state court improvement project. These courts receive very limited 
federal funding from the BIA and DOJ, and no tribal court improvement 
funds specifically target child welfare proceedings. Tribal courts are 
the judicial bodies that provide governmental oversight over child 
welfare proceedings involving tribal children and families. These 
courts have similar functions as state juvenile courts, but are the 
only courts with jurisdiction over tribal children and families who 
reside or are domiciled on tribal lands in most cases. Tribal codes 
routinely provide for emergency removals, preliminary hearings, 
adjudicatory disposition and./or permanency hearings We request an 
authorization for a $2 million grant program for tribal courts under 
the Promoting Safe and Stable Families Act.
    Draft House Bill. This Subcommittee specifically asked for comments 
on the portion of the draft reauthorization bill that concerns the use 
of the $40 million in annual mandatory funding for the Promoting Safe 
and Stable Families Act enacted as part of the Deficit Reduction Act 
(PL 109-171). We appreciate that both the House and Senate are working 
to make the expenditure of these new monies as meaningful and effective 
as possible. The goal of achievingpermanencyfor children through, in 
part, increasing caseworker visitations with children in foster care is 
one we support. We also support and need use of funds fortribal 
caseworker retention, recruitment, training, and making appropriate use 
of technology.
    It appears that under the House draft tribal governments would 
receive only a one percent allocation of the new $40 million, or 
$400,000. While that could help some current tribal grantees expand 
additional services, it will do little reach the other goals of the 
program and likely will do little to enhance workforce issues for 
tribal child welfare programs. As mentioned earlier in out statement, a 
more effective approach would be to improve the base funding by 
increasing the mandatory and discretionary reserved amounts for tribes 
to three percent, which would bring in new tribes, provide services to 
children who currently don't have access to these service, and 
significantly enhance tribal efforts to address issues like workforce 
improvements.
    Conclusion. As we stated earlier, the goals of tribal governments 
with regard to their children are not much different than those of 
state governments. Improved well-being and less involvement in child 
welfare services describe some of the highest goals. The ideas for 
achieving these goals are out there, but the resources are not. 
Providing tribal governments with adequate, secure and flexible 
funding, such as the funding under the Promoting Safe and Stable 
Families program, is the key to success as tribes like Three Affiliated 
have found. We are also hopeful that this Subcommittee will again take 
up more comprehensive child welfare finance reform in the future and 
consider the needs of tribes as they have done in the past. We 
appreciate that Representative Camp has in the past introduced 
legislation that would, for the first time, allow tribes to administer 
the Title l IV-E Foster Care and Adoption Assistance Act programs, and 
that Senator Smith is the sponsor of such legislation in the 109th 
Congress. We also commend to you the Pew Commission on Children in 
Foster Care recommendations as a framework for child welfare finance 
reform and appreciate their attention to the long-neglected needs of 
Indian tribes.
    Thank you for inviting us to testify before the Subcommittee on 
these vitally important issues. Reauthorization of the Promoting Safe 
and Stable Families Act and is a unique opportunity for us to work 
together to safeguard and improve the lives of Indian and Alaska Native 
children and families. We look forward to working with you on this 
legislation and on broader child welfare reform legislation in the 
future.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Cross. Dr. Hymel to 
testify.

STATEMENT OF DR. KENT HYMEL, ON BEHALF OF THE AMERICAN ACADEMY 
                         OF PEDIATRICS

    Dr. HYMEL. Mr. Chairman, I am grateful for the opportunity 
to testify at this important hearing in response to abused and 
neglected children. My name is Dr. Kent Hymel, and I am proud 
to speak on behalf of 60,000 primary care pediatricians, 
pediatric medical subspecialists and pediatric surgical 
specialists of the American Academy of Pediatrics. Until 
recently, I sat on the Academy's Committee on child abuse and 
neglect, and I am president-elect of a professional society of 
physicians, specializing in child maltreatment issues. The 
Academy has a deep and abiding interest in the health care 
provided to children at every stage of the CWS. We have 
published numerous policy statements, clinical guidelines and 
research studies regarding child maltreatment. In 2004, an 
estimated 3 million children were alleged to have been abused 
or neglected and received investigations or assessments by 
child protective services agencies. Approximately 872,000 of 
these children were determined to be victims of child 
maltreatment. At any given time, approximately 540,000 children 
are in foster care. Most were placed there as a result of abuse 
or neglect at home. Children in foster care have higher rates 
of serious emotional and behavioral problems, chronic physical 
disabilities, birth defects, developmental delays and poor 
school achievement. These children warrant special attention in 
all aspects of their health care. Some require immediate health 
attention. Due to the abuse and neglect, many have never 
received well child visits or care, such as immunizations. A 
growing body of research indicates the majority would benefit 
from targeted long-term interventions. More details may be 
found in my written testimony about research that shows a 
startling correlation between levels of childhood trauma and 
adult health outcomes, including obesity, suicide, heart 
disease, substance abuse, alcohol abuse and much more.
    Pediatricians are uniquely positioned to prevent child 
maltreatment. We see children at regular intervals. However, 
pediatricians exist on the periphery of the Child Protection 
System. The average pediatrician reports cases of suspected 
abuse or neglect but receives little or no feedback from Child 
Protection System. Not only is this situation frustrating, but 
it fails to provide pediatricians with the information that 
could be vital to the child's follow-up care. Only about 200 
pediatricians in this country specialize in child maltreatment 
cases. This small cadre of physicians perform exam, serve as 
expert witnesses, treat patients, conduct research, teach, and 
on and on. We serve as a resource to our fellow health care 
providers and many others. I can tell you that we are spread 
very thin, isolated, and we find it difficult to communicate or 
collaborate. Over the past 3 years, the American Academy of 
Pediatrics has devoted time, effort and resources to the 
development of an initiative to bring the medical profession 
into full partnership in the prevention, diagnosis and 
treatment of childhood and neglect. We propose the 
establishment of a network, a regional consortia dedicated to 
the medical aspects of child maltreatment. To help child abuse, 
research, education and services or health care's network, 
would consist of virtual centers that link all of the medical 
resources on child maltreatment within a given region. Each 
consortium would be different, depending on the resources that 
already exist in that region. The Academy envisions that these 
consortia will link all medical providers who deal with 
maltreatment. Pediatricians, family practitioners, emergency 
physicians and others. The consortia themselves would form a 
nationwide network. The network would serve a number of 
critical roles. Communication, many practitioners are unaware 
of the resources that exist in their community, State or 
region. As a result, they may not know where it turn when they 
need to consult or gather information. Collaboration, those of 
us who specialize in the field, find it difficult to 
collaborate and compete effectively for dollars that are 
already available. One pediatrician may not see enough examples 
of a particular type to conduct a scientifically valid study, 
but three or four to collaborate to successfully assemble such 
a study. Education and workforce, at present, there are not 
enough pediatricians entering the field of child abuse 
pediatrics to replace those who are approaching retirement.
    Child abuse medicine is about to become the next boarded 
subspecialty of pediatrics later this year. This network would 
facilitate the creation and sharing of educational materials 
and successful programs as well as expand the field of trained 
professionals, both specialists and educated generalists. In 
summary, the Academy envisions the health care network to serve 
as a resource of social workers, CPS system, law enforcement, 
the judiciary and many of the other agencies and professionals 
who deal with these issues. The network could play a crucial 
role in improving children's lives as well as in reducing the 
massive health, education, governmental and other costs of 
child maltreatment. To make this enormous task a little more 
manageable, the Academy urges Congress to provide $10 million 
for the Centers for Disease Control and Prevention's National 
Center For Injury Prevention and Control to begin the health 
care's network. Mr. Chairman and Members of the Subcommittee, I 
deeply appreciate this opportunity to testify on behalf of the 
American Academy of Pediatrics. I will be ready to answer your 
questions when the time arrives. Thank you.
    [The prepared statement of Dr. Hymel follows:]
  Statement of Kent Hymel, M.D., Falls Church, Virginia, on behalf of 
                     American Academy of Pediatrics
    Mr. Chairman, I am grateful for the opportunity to testify at this 
important hearing on our nation's response to our abused and neglected 
children. My name is Dr. Kent Hymel, and I am proud to speak on behalf 
of the 60,000 primary care pediatricians, pediatric medical 
subspecialists, and pediatric surgical specialists of the American 
Academy of Pediatrics. Until recently, I sat on the Academy's Committee 
on Child Abuse and Neglect, and I am President-Elect of the Helfer 
Society, the professional society of physicians specializing in child 
maltreatment issues. I serve as Medical Director of the Pediatric 
Forensic Assessment and Consultation Team at Inova Fairfax Hospital for 
Children and am Associate Professor of Clinical Pediatrics at the 
University of Virginia. I'm a retired Air Force pediatrician, where I 
was the first U.S. Air Force medical consultant for child abuse and co-
founded the Armed Forces Center for Child Protection at the National 
Naval Medical Center.
    The American Academy of Pediatrics has a deep and abiding interest 
in the health care provided to children at every stage of the child 
welfare system. The Academy has published numerous policy statements, 
clinical guidelines, and studies regarding child abuse, neglect, foster 
care, and family support. In addition, the Academy has recognized the 
unique challenges faced by children in foster care by designating 
children in foster care as one of the five issues highlighted in our 
Strategic Plan for 2006-2007. A new Task Force on Foster Care will 
examine these issues holistically over the next three years and craft a 
multi-pronged strategy for the Academy to improve the health of 
children in foster care.
Overview of Child Maltreatment
    In 2004, an estimated 3 million children were alleged to have been 
abused or neglected and received investigations or assessments by State 
and local child protective services (CPS) agencies. Approximately 
872,000 children were determined to be victims of child maltreatment. 
Over 60 percent of child victims were neglected by their parents or 
other caregivers, making neglect the most common form of child 
maltreatment. About 18 percent were physically abused, 10 percent were 
sexually abused, and 7 percent were emotionally maltreated. In 
addition, 15 percent experienced ``other'' types of maltreatment based 
on specific State laws and policies. Some children are victims of more 
than one type of maltreatment.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2004 (Washington, DC: 
U.S. Government Printing Office, 2006).
---------------------------------------------------------------------------
    Sadly, these numbers are almost certainly only the tip of the 
iceberg. The majority of cases of abuse and neglect go unreported. In 
one major study sponsored by the Centers for Disease Control and 
Prevention, 25% of adults reported having been victims of physical and/
or emotional abuse as a child, 28% said they had been physically 
abused, 21% said they had been sexually abused, and 11% had been 
psychologically abused.\2\ These numbers have enormous implications for 
the short- and long-term health of these individuals, in addition to 
the massive human and economic toll they represent.
---------------------------------------------------------------------------
    \2\ Centers for Disease Control and Prevention. Adverse Childhood 
Experiences (ACE) study. http://www.cdc.gov/NCCDPHP/ACE/prevalence.htm.
---------------------------------------------------------------------------
    At any given time, approximately 540,000 children are in foster 
care, most of whom have been placed there as a result of abuse or 
neglect at home. Compared with children from the same socioeconomic 
background, children in foster care have much higher rates of serious 
emotional and behavioral problems, chronic physical disabilities, birth 
defects, developmental delays, and poor school achievement.\3\ 
Typically, these conditions are chronic, under-identified, and under-
treated, and they have an ongoing impact on all aspects of their lives, 
even long after these children and adolescents have left the foster 
care system.\4\ Some of these conditions are a direct result of the 
abuse or neglect they have experienced.
---------------------------------------------------------------------------
    \3\ Committee on Early Childhood, Adoption and Dependent Care. 
``Health Care of Young Children in Foster Care.'' Pediatrics, Vol. 109, 
No. 3, March 2002.
    \4\ Centers for Disease Control and Prevention. Adverse Childhood 
Experiences (ACE) study. http://www.cdc.gov/od/oc/media/pressrel/
r980514.htm.
---------------------------------------------------------------------------
    As a result of all these factors, children in the child protection 
system warrant special attention in all aspects of their health care. 
Some require immediate health attention due to abuse or neglect. Many 
have never received regular well-child care, such as immunizations. A 
growing body of research indicates that the majority would benefit from 
targeted, long-term interventions directed at their individual health 
care needs. A modest investment of resources at the earliest possible 
stages can often avert the need to spend far more later, not only in 
health care dollars, but also in education, law enforcement, and 
supportive services.
    Science is beginning to quantify the long-term effects of child 
maltreatment in stark terms. The Adverse Childhood Experiences study, 
sponsored by the Centers for Disease Control and Prevention and Kaiser 
Permanente, has examined the connection between childhood trauma and 
adult poor health status among over 18,000 middle-class adults. The 
results of this study are nothing short of shocking. Among those adults 
who had experienced the highest levels of childhood trauma--such as 
having been a victim of abuse or neglect, having had a parent die, or 
living in a home with mental illness or substance abuse--those 
individuals were:

    <bullet>  5 times more likely to have been alcoholic;
    <bullet>  9 times more likely to have abused illegal drugs;
    <bullet>  17 times more likely to have attempted suicide;
    <bullet>  3 times more likely to have an unintended pregnancy;
    <bullet>  2.5 times more likely to develop heart disease; and
    <bullet>  twice as likely to be obese.

    Based on these statistics, childhood trauma may be the leading 
cause of poor adult health in our nation. When childhood trauma goes 
unaddressed by society, children and youth may turn to self-medication 
in the form of drugs, alcohol, tobacco, promiscuity, or food. Each of 
these can produce a short-term improvement in an individual's 
perception of their mental state, but all have devastating long-term 
health consequences.\5\ The cumulative costs to government and society 
likely exceed hundreds of billions of dollars.
---------------------------------------------------------------------------
    \5\ Centers for Disease Control and Prevention. Adverse Childhood 
Experiences (ACE) study. http://www.cdc.gov/NCCDPHP/ACE/findings.htm.
---------------------------------------------------------------------------
Role of the Pediatrician
    Pediatricians are uniquely positioned to prevent child 
maltreatment. Pediatricians see most children on a regular schedule of 
well-child visits. The typical well-child schedule dictates visits at 
the ages of 1, 2, 4, 6, 9, 12, 15, and 18 months, as well as annually 
after the age of 2 years. This provides numerous opportunities to 
examine children thoroughly and observe their interaction with one or 
both parents, even if some visits are missed.
    In addition, pediatricians already discuss with parents many of the 
most common ``triggers'' for abusive events. Pediatricians talk to 
parents about how much their infant cries and offer strategies for 
coping. Many parents appreciate information about the developmental 
stages and needs of their children.\6\ A parent may punish a toddler 
for ``willfulness'' without understanding that the child does not yet 
comprehend the ``if-then'' consequences of their actions. The privacy 
of the doctor-patient relationship allows parents to discuss problems 
and issues with a physician that they might be reluctant to raise with 
a family member, neighbor or teacher.
---------------------------------------------------------------------------
    \6\ Olson, Lynn M. et.al. Overview of the Content of Health 
Supervision for Young Children: Reports From Parents and Pediatricians. 
Pediatrics, Vol. 113 No. 6 June 2004.
---------------------------------------------------------------------------
Pediatricians and the Child Protection System Today
    Today, pediatricians tend to exist on the periphery of the child 
protection system. The average pediatrician reports suspected cases of 
abuse or neglect, but receives little or no feedback from the child 
protection system. At the same time, pediatricians have little input 
into the structure or activities of child protective services. Not only 
is this situation frustrating, but it fails to provide the pediatrician 
with information that could be vital to the child's follow-up care. 
Privacy laws often prevent the sharing of information that a 
pediatrician could use to monitor a child's physical, emotional, and 
mental health in the wake of a substantiated report.
    While virtually all pediatricians report cases of child abuse and 
neglect over their careers, only about 200 pediatricians in our nation 
specialize in child maltreatment cases. This small cadre of doctors not 
only perform exams, but they also serve as expert witnesses, see and 
treat patients, perform research, and teach residents and medical 
students. These pediatricians often work in academic settings or with 
Child Advocacy Centers, and serve as a resource to their fellow health 
care providers, social workers, child protective services, law 
enforcement, the judiciary, and many others. As one of these providers 
myself, I can attest personally that we are spread extremely thin, 
isolated from one another, and often find it difficult to communicate 
or collaborate on even basic issues like best practices.
    It is important to note that pediatricians and other physicians are 
mandatory reporters in all 50 states. If a pediatrician suspects that a 
child is suffering from abuse or neglect, he or she is legally required 
to report that to the authorities.
The Health Child Abuse Research, Education and Services (CARES) Network
    Over the past three years, the American Academy of Pediatrics has 
devoted substantial time, effort and resources to the development of an 
initiative to bring the medical profession into full partnership in the 
prevention, diagnosis, and treatment of child abuse and neglect.
    We propose the establishment of a network of regional consortia 
dedicated to the medical aspects of child maltreatment. The Health 
Child Abuse Research, Education and Services (CARES) Network would 
consist of ``virtual'' centers that would link all of the medical 
resources on child maltreatment in a given area. Each consortium would 
be different depending on the resources that existed already in that 
region. These consortia will link all medical providers in a given 
region who deal with child maltreatment--pediatricians, family 
practitioners, emergency medical services, dentists, orthopedists, 
nurses, allied health professions, and others. The consortia themselves 
would form a nationwide network.
    The network would serve a number of critical roles in improving the 
prevention, detection and treatment of victims of child abuse and 
neglect. These include:

    <bullet>  Communication. Currently, health care providers who deal 
with child maltreatment are scattered and isolated. Many practitioners 
are unaware of the resources that exist in their community, state, or 
region. As a result, they may not know where to turn when they need to 
consult or gather information.
    <bullet>  Collaboration. Those of us who specialize in this field 
find it difficult to collaborate and compete effectively for the 
dollars that already exist. There is no structure for finding 
colleagues who are interested in similar types of research. One 
pediatrician may not see enough cases of a particular type to conduct 
scientifically valid research, but if three or four collaborated they 
could assemble a solid study. This is not possible given the current 
lack of communications and infrastructure.
    <bullet>  Education and Workforce. At present, there are not enough 
pediatricians entering the field of child abuse pediatrics to replace 
those who are approaching retirement. However, child abuse medicine is 
expected to become a boarded subspecialty of pediatrics later this 
year. There is already a desperate need for training programs, ranging 
from curriculum for medical schools to short training seminars for 
existing health care providers. This network would facilitate the 
creation and sharing of educational materials and successful programs 
as well as expanding the field of trained professionals, both 
specialists and educated generalists.

    As I stated earlier, we specialists cannot handle this problem 
alone--we need to bring the rest of the medical profession into 
partnership. The Academy envisions the Health CARES Network serving as 
a resource to social workers, the child protection system, law 
enforcement, the judiciary, and many other agencies and professionals. 
We went to great lengths, however, not to duplicate any existing 
programs. This proposal does not replicate the efforts of Child 
Advocacy Centers or the National Child Traumatic Stress Network. It 
includes no dollars for services or research. It purely establishes 
infrastructure to enable communication, collaboration, and the 
effective development of resources and materials. The Academy urges 
Congress to provide $10 million to the Centers for Disease Control and 
Prevention's National Center for Injury Prevention and Control to begin 
the Health CARES Network.
    In some areas of the nation, communities and states are making 
commendable efforts to prevent child maltreatment and intervene as 
early as possible when it is detected. New challenges sometimes arise, 
such as the current increase in foster care placements due to parents' 
methamphetamine addiction.\7\ Recent research is teaching us that the 
effects of abuse and neglect can be pernicious and long-lasting, but 
that early intervention can be highly effective. The American Academy 
of Pediatrics believes that the Health CARES Network could play a 
crucial role in establishing and advancing programs with proven success 
in preventing maltreatment and addressing its effects by integrating 
pediatricians and other health care providers closely into these 
efforts. My colleagues and I who specialize in child abuse pediatrics 
are happy to take on this extraordinary challenge on behalf of our 
nation's most vulnerable citizens. We just ask for your help to make 
this enormous task a little more manageable.
---------------------------------------------------------------------------
    \7\ National Association of Counties. The Meth Epidemic in America: 
Two Surveys of U.S. Counties: The Criminal Effect of Meth on 
Communities and the Impact of Meth on Children. July 5, 2005.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Subcommittee, I deeply appreciate 
this opportunity to offer testimony on behalf of the American Academy 
of Pediatrics. I stand ready to answer any questions you may have, and 
I thank you for your commitment to the health of the children of our 
nation.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Hymel. Mr. Atwood to 
testify.

   STATEMENT OF THOMAS ATWOOD, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, NATIONAL COUNCIL FOR ADOPTION

    Mr. ATWOOD. Chairman Herger and Members of the 
Subcommittee, founded in 1980, the National Council For 
Adoption, NCFA, is an adoption, research, education and 
advocacy nonprofit organization. On behalf of NCFA, I thank you 
for the opportunity to testify on the vital subject of 
improving Child Protective Services (CPS). NCFA applauds the 
Chairman's and the Subcommittee's ongoing attention to 
America's foster care and CWS. Your leadership in addressing 
this issue has helped to make important changes in child 
welfare policy and to prepare the way for other needed reforms. 
We thank you for your efforts to improve judicial processing of 
permanency decisions for children in foster care by authorizing 
funding for judicial training and case tracking in the Deficit 
Reduction Act of 2005, for example. Mr. Chairman, I have five 
points I would like to make for your consideration this 
afternoon: Point one, advancing the broad financing reform 
agenda. This hearing on the reauthorization of the PSSF, PSSF, 
takes place in the context of an ongoing policy discussion 
regarding the need for foster care financing reform. Across the 
political spectrum, there is a widespread consensus about the 
need for States to be able to direct their Federal financing 
more flexibly toward other child welfare strategies besides 
foster care maintenance. There have been several recent 
proposals to increase funding flexibility that would enable 
States to target resources toward prevention, rehabilitation, 
parent recruitment and adoption support services. NCFA 
encourages the Subcommittee to continue to lead in addressing 
this broad reform agenda. Point two, preserving and increasing 
PSSF's flexible funding. The widespread consensus on the need 
for flexibility suggests that when reauthorizing PSSF, Congress 
should be careful. It would be inconsistent with this consensus 
to impose specific directives on how States spend this one 
small source of flexible funding. We ask Congress to preserve 
PSSF's flexibility and increase its discretionary funding, even 
if possible to full funding, as the Administration has 
previously advocated. Other than national security and the rule 
of law, it is difficult to find a more worthwhile use of the 
Federal budget than to fund policies that effectively promote 
safe and stable families for vulnerable children. Point three, 
supporting families through post-adoption services, every 
family faces challenges but families who open their hearts and 
homes to children with a history of abuse or neglect often find 
themselves facing special issues requiring post-adoption 
services. The need for post-adoption services has increased 
over the life of PSSF because adoptions out of foster care have 
increased and because of the increased incentives for older 
child adoptions, older children often needing--being in greater 
need of post-adoption services. The failure to provide post-
adoption services can be a significant disincentive for 
adoption. When foster parents and other prospective adoptive 
parents consider the challenges they may face, they may be less 
inclined to adopt if they feel they cannot rely on the 
additional supports they need. Post-adoption services promote 
healthy children and families, and they save taxpayers money by 
minimizing disillusions and re-entries into care. However, 
there is very little funding for these services. Greater 
flexibility for title IV-E funding and increased PSSF funding 
would enable many more children and families to benefit from 
post-adoption services. Point four, prevention rehabilitation 
and concurrent planning. NCFA agrees with the idea that 
vulnerable children and at-risk families would be well served 
by increased availability of funds for preventive and 
rehabilitative services in order to support, preserve and 
reunify families whenever such a goal is realistic and safe. In 
promoting more preventive and rehabilitative services, it is 
prudent to note that an excessive attachment to the idea of 
family preservation was one of the problems that necessitated 
the Adoption and Safe Families Act 1997. This historical 
perspective reinforces the importance of concurrent planning. 
Concurrent planning makes sure that the child has a timely, 
healthy permanency option when reunification is isn't possible. 
It also advises parents of the seriousness of the their 
situation and the expectation that they must rehabilitate in 
order to maintain their parental rights and reunify with the 
child. Point five, and my most important point this afternoon, 
parent recruitment, a crucial neglected strategy. Adoptive and 
foster parent recruitment would seem to be a vital part of the 
adoption promotion that is called for in PSSF's purpose 
statement. Yet none of the four objectives contained within 
that statement address this crucial strategy for promoting safe 
and stable families. Parent recruitment is as important to 
child welfare strategy as prevention, rehabilitation and post-
adoption services and another compelling reason for greater 
flexibility in foster care financing. There are enough 
prospective parents in America to care for this current 
country's vulnerable children.
    With 55 million married couple households in America, there 
are more than 450 married couples for each child waiting to be 
adopted. The millions of qualified singles who could foster 
parent or adopt as well. There are three places of worship for 
each child waiting to be adopted, and all of America's major 
faiths exhort their believers to care for children in need of 
parents. Parent recruitment is especially urgent and 
challenging for older children. We must overcome the attitude 
of hopelessness that can undermine their prospects. If child 
welfare workers believe that adoption or guardianship is 
impossible for a particular youth, then it will be. Prospective 
parents need leadership, encouragement and education. State 
agencies need enough staff to recruit parents, process their 
inquiries and prepare them for their child. Financing policy 
must be reformed to allow the resources to flow to these vital 
responsibilities. See my written testimony for more detail on 
recruitment techniques and post-adoption services. In 
conclusion, Chairman Herger and Members of the Subcommittee, 
NCFA applauds and shares your commitment to ensuring that 
America's children are raised in safe, loving families. We look 
forward to continuing to work with you to promote safe and 
stable families for America's vulnerable children. Thank you.
    [The prepared statement of Mr. Atwood follows:]
  Statement of Thomas Atwood, President and Chief Executive Officer, 
          National Council for Adoption, Alexandria, Virginia
    Chairman Herger and Members of the Subcommittee:
    My name is Thomas Atwood, president and chief executive officer of 
the National Council For Adoption. On behalf of the National Council 
For Adoption (NCFA), I thank you for the opportunity to testify on the 
subject of improving child protective services, in the context of 
congressional consideration of the reauthorization of the Promoting 
Safe and Stable Families Program.
    The National Council For Adoption is an adoption research, 
education, and advocacy nonprofit whose mission is to promote the well-
being of children, birthparents, and adoptive families by advocating 
for the positive option of adoption. Since its founding in 1980, NCFA 
has been a leader in advancing adoption and child welfare policies that 
promote adoption of children out of foster care, present adoption as a 
positive option for women with unplanned pregnancies, reduce obstacles 
to transracial adoption, make adoption more affordable through the 
adoption tax credit, and facilitate intercountry adoption.
    NCFA applauds the Human Resources Subcommittee's ongoing attention 
to America's foster care and child welfare system. The Chairman's and 
Subcommittee's leadership in addressing this issue has helped to make 
important changes in child welfare policy, and to prepare the way for 
other needed reforms that we hope will be forthcoming. We also 
enthusiastically thank Congress for its efforts to improve judicial 
processing of permanency decisions for children in foster care, by 
recently authorizing funding for case tracking and for the training of 
child welfare judges and court administrators, in the Deficit Reduction 
Act of 2005.
Preserving and Increasing PSSF's Flexible Funding
    Other than national security and the rule of law, it is difficult 
to find a more worthwhile use of the federal budget than to fund 
policies that effectively promote safe and stable families for 
vulnerable children suffering neglect and abuse in their homes. When 
the family and the community cannot protect these children, it is a 
clear role of the government to do so. These young victims of neglect 
and abuse often must be removed from their families and households, and 
put in state care for their own protection. They are America's social 
responsibility, especially those whose parental rights are terminated, 
and they deserve America's best efforts to secure for them the loving, 
permanent families all children need.
    The Promoting Safe and Stable Families Program (PSSF), Title IV-B 
Subpart 2 of the Social Security Act, is an important part of the 
federal government's efforts to protect America's vulnerable children 
in at-risk families, both in and out of foster care. PSSF's purpose is 
``to enable States to develop and establish, or expand, and to operate 
coordinated programs of community-based family support services, family 
preservation services, time-limited family reunification services, and 
adoption promotion and support services to accomplish the following 
objectives:
    ``(1) To prevent child maltreatment among families at risk through 
the provision of supportive family services.
    ``(2) To assure children's safety within the home and preserve 
intact families in which children have been maltreated, when the 
family's problems can be addressed effectively.
    ``(3) To address the problems of families whose children have been 
placed in foster care so that reunification may occur in a safe and 
stable manner in accordance with the Adoption and Safe Families Act of 
1997.
    ``(4) To support adoptive families by providing support services as 
necessary so that they can make a lifetime commitment to their 
children.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Code 42, chapter 7, subchapter IV, part B, subpart 2,  
629. See also the Promoting Safe and Stable Families Amendments of 
2001, Public Law 107-133 (2002).
---------------------------------------------------------------------------
    This hearing on the reauthorization of the Promoting Safe and 
Stable Families Program takes place in the context of an ongoing policy 
discussion regarding the need for foster care financing reform. As you 
know, the largest piece of child welfare funding, Title IV-E of the 
Social Security Act, is largely restricted to foster care maintenance. 
The inflexible nature of IV-E funding limits states' ability to target 
resources toward prevention, rehabilitation, parent recruitment, and 
adoption support services. Across the political spectrum, there is 
widespread consensus about the need for states to be able to direct 
their federal financing more flexibly toward other child welfare 
strategies besides foster care maintenance. There have been several 
recent proposals to increase funding flexibility that would improve 
upon the current policy. NCFA encourages the Subcommittee to continue 
to lead in addressing this broad reform agenda.
    The widespread consensus on the need for flexibility suggests that 
when reauthorizing PSSF, Congress should be careful to protect the 
current flexibility in PSSF funding specifications. Although it is a 
relatively small amount of money compared with Title IV-E, Title IV-B 
is the most flexible source of funding for child welfare. States are 
allowed to direct PSSF funding where it is most needed, as long as the 
funded program serves the purpose outlined above. PSSF funding is 
directed toward programs that are under-served by other child welfare 
funding streams. PSSF objectives describe many of the very programs, 
which NCFA and other flexible-funding advocates seek to support through 
financing reform. Although Congress may wish to add new service 
standards for states, it would be inconsistent with this consensus on 
flexibility to impose specific directives on how states spend this one 
small source of flexible funding. Notwithstanding the current tight 
budgetary climate, we urge Congress to continue to increase PSSF's 
flexible funding, even to full appropriation of the discretionary 
funds, as President Bush's Administration has previously advocated.
Supporting Adoptive Families through Post-Adoption Services
    A crucial part of serving the ``adoption promotion and support 
services'' aspect of the PSSF purpose is post-adoption services. There 
are several reasons these services are a vital part of promoting safe 
and stable families and enabling adoptive parents to ``make a lifetime 
commitment to their children.'' First, every family faces challenges, 
but families who open their hearts and homes to children with a history 
of abuse or neglect often find themselves facing special issues. Many 
need extra support to: understand and anticipate the challenges they 
may face; obtain counseling or therapy for the child and family, in 
order to deal with emotional, behavioral, or mental health issues; have 
a respite from the stress of their special needs; and share and relate 
with other families who have been, or are going, through similar 
situations.
    There is an even greater need for post-adoption services today 
because of the substantial increase in the number of adoptions out of 
foster care, over the life of the PSSF program. In each of the last 
five years for which the Department of Health and Human Services has 
reported numbers, more than 50,000 children have been adopted out of 
foster care, compared with 31,000 in 1997, the first time PSSF was 
reauthorized. Moreover, older children adopted out of foster care, and 
their families, tend to have a greater need for services. With the 
greater concentration of older children we are presently experiencing 
in care, and with the extra efforts being made to place them for 
adoption, the need for post-adoption services will continue to grow.
    The failure to provide post-adoption services can be a significant 
disincentive to adoption. When prospective parents consider the 
challenges they may face, they will be less inclined to adopt if they 
feel they cannot rely on the additional supports they may need. Foster 
parents considering adoption would like to be able to count on the 
necessary support services they are utilizing in their foster care of 
the child. Indeed, too many parents report feeling abandoned after they 
adopt from the public system, while most parents whose families receive 
services report finding them beneficial.
    To varying degrees, states have employed a diverse assortment of 
post-adoption services, including:

    <bullet>  Education, training, and print and electronic resources 
on issues related to the adoption and parenting of children who have 
experienced abuse, neglect, and/or multiple placements
    <bullet>  Information about available services and subsidies for 
adoptive families
    <bullet>  Referrals to medical professionals, mental health 
professionals, counselors, education specialists, legal and advocacy 
services, and support groups
    <bullet>  Peer support groups of adoptive parents and families, for 
parents and teens
    <bullet>  Mentoring, ``buddy'' families
    <bullet>  Respite care, which provides temporary child care, inside 
or outside the home, to relieve parents and children from stresses 
resulting from special needs
    <bullet>  Recreation opportunities, camps for children, family 
retreats
    <bullet>  Ongoing case management
    <bullet>  Crisis management, crisis hotlines
    <bullet>  Screening, assessment, and treatment for at-risk 
children, and assistance in interpreting clinical information
    <bullet>  Family and individual counseling to address behavioral 
and emotional issues
    <bullet>  Mental health counseling for children with clinical 
conditions
    <bullet>  Residential treatment
    <bullet>  Drug treatment programs
    <bullet>  Registries, reunion counseling and assistance

    To summarize this list: education and referrals, support groups, 
respite care, treatment and counseling, and crisis management would 
seem to be essential concepts that a state's post-adoption services 
program should serve.
    States are providing post-adoption services using various offices 
and personnel. Some states use the same public-agency workers who 
oversee the adoption placements to serve the child and family post-
adoption, too. Some states assign these services to a specialized post-
adoption services office and staff within the public child welfare 
agency. Other states provide post-adoption services by working with 
networks outside the child welfare agency, such as private adoption and 
social service agencies, schools, community health centers, and child 
care agencies.\2\
---------------------------------------------------------------------------
    \2\ Steve Christian, NCSL Legislative Report, ``Post-Adoption 
Services: Issues for Legislators,'' Volume 27, Number 17, November 
2002.
---------------------------------------------------------------------------
    Congress is wise in providing for post-adoption services in the 
Promoting Safe and Stable Families Program. These services not only 
promote healthy children and families, they also save taxpayers' money 
by minimizing dissolutions and re-entries into care, which are more 
costly than the investment. Experience since PSSF's 2002 
reauthorization, however, suggests that present need for post-adoption 
services is much greater than what current funding supports. A 2002 
study reported that total federal and state spending (not including 
Title IV-E Adoption Assistance) on all adoption promotion and support 
services in FY 2001 was the modest amount of $205 million.\3\ What we 
hear from the field is, therefore, no surprise. Directors of private 
agencies that work with the public child welfare system frequently 
report to NCFA that there is very little funding available for post-
adoption services, and that what there is often gets spent before the 
fiscal year is over, thus leaving programs on hold for months. By 
increasing the availability of post-adoption services, greater 
flexibility for Title IV-E funding and appropriating more of PSSF's 
discretionary funding would substantially improve the lives of many 
children and their adoptive families.
---------------------------------------------------------------------------
    \3\ James Bell Associates, Analysis of States' Annual Progress and 
Services Reports and Child and Family Services Plans (1999-2001): The 
Family Preservation and Family Support Services (FP/FS) Implementation 
Study (Arlington, Va., 2002).
---------------------------------------------------------------------------
Prevention, Rehabilitation, and Concurrent Planning
    In recent years, many in the child welfare system have made 
concerted and thoughtful efforts to enable parents to rehabilitate 
themselves and reunite with their children, with some success. 
Promising family support, preservation, and reunification strategies 
include: individualized case planning; immediate, in-home crisis 
intervention; more effective family conferencing and counseling; 
placing children within their own communities; greater communication 
between children, families, child welfare workers, attorneys, and the 
court; inter-agency ``wraparound'' services; and real accountability in 
substance abuse and counseling requirements.\4\
---------------------------------------------------------------------------
    \4\ NCFA's primary focus is adoption, so we leave a more detailed 
reporting of preventive and rehabilitative programs to other witnesses.
---------------------------------------------------------------------------
    The Promoting Safe and Stable Families Program provides funding, 
though not enough, for services intended to enable parents to reform 
themselves and their households, in order to: (1) prevent children from 
needing to be removed in the first place and (2) enable the children to 
be safely returned to the family if they are removed. Many child 
welfare policymakers and advocates have rightly and persuasively argued 
that federal foster care financing should be made more flexible, so 
that states can direct more of their funding toward preventive and 
rehabilitative programs, such as those funded by PSSF. NCFA finds some 
arguments for financing reform somewhat heavily weighted toward 
prevention and rehabilitation, at the expense of adoption promotion and 
support services. But we concur with the idea that vulnerable children 
and at-risk families would be well served by an increase in the 
availability of funds for these services, in order to support, 
preserve, and reunify families, whenever such a goal is realistic and 
safe.
    As the child welfare system focuses more on prevention and 
rehabilitation, it is prudent to note that an excessive attachment to 
the idea of family preservation was one of the problems that 
necessitated the Adoption and Safe Families Act of 1997. At that time, 
some child welfare workers and judges, in effect, treated family 
preservation as a higher priority than the best interests of the child. 
Today, there seems to have been a genuine and widespread paradigm 
shift: Although there are exceptions, child safety, permanence, and 
well-being take priority over family preservation, throughout most of 
the child welfare system. Adoption is widely recognized as generally 
the best solution for children, when the court determines that their 
parents' parental rights must be terminated due to neglect or abuse.
    This historical perspective is therefore not meant to suggest that 
increased funding of preventive and rehabilitative services will lead 
to the reinvigoration of an ideology that raises family preservation 
above child safety, permanence, and well-being. But it is a reminder 
that child protection workers should err on the side of child safety 
when determining whether the ``family's problems can be addressed 
effectively'' with the child in the home (see PSSF objective 2, above). 
This history also reinforces the importance of concurrent planning. 
While it is appropriate in many or most cases to favor reunification as 
the initial case goal for a child needing state protection, alternate 
permanency plans, usually including foster care to adoption, should be 
considered and developed from the outset of the child's entrance into 
care. Concurrent planning not only provides a timely, healthy 
permanency option for the child when reunification is not possible, it 
also advises parents of the seriousness of their situation and the 
expectation that they must rehabilitate, in order to maintain their 
parental rights and reunify with the child.
Parent Recruitment: A Crucial, Neglected Strategy
    Adoptive and foster parent recruitment would seem to be a vital 
part of the ``adoption promotion'' that is called for in PSSF's purpose 
statement. Yet none of the four objectives contained within that 
statement address this crucial strategy for promoting safe and stable 
families. Adoptive and foster parent recruitment is a seriously under-
funded and neglected program in America's efforts to ensure loving, 
permanent families for the 518,000 children in foster care, 118,000 of 
them waiting to be adopted. Parent recruitment is as important a 
priority as prevention, rehabilitation, and post-adoption services, and 
another compelling reason for greater flexibility in foster care 
financing.
    There are enough prospective parents in America to care for this 
country's vulnerable children. With 55-million married-couple 
households in America according to the 2000 census, there are more than 
450 married couples for each child waiting to be adopted, and millions 
of qualified singles who could foster parent or adopt as well. There 
are three places of worship for each child waiting to be adopted, and 
all of America's major faiths exhort their believers to care for 
orphans. Effective outreach to communities of faith is a key strategy 
in recruiting families to serve at-risk children in many ways.
    Recruitment techniques can be: general, which uses a mass media 
approach with broad, positive messages crafted for a general audience; 
child-specific, which presents a particular child through the media or 
is aimed at relatives or people who already know the child; or 
targeted, which focuses on children and youth with a specific type of 
need, for whom particular prospective-parent demographics might be 
developed.\5\ Some recruitment techniques state agencies have been 
using are:
---------------------------------------------------------------------------
    \5\ Casey Family Programs National Center for Resource Family 
Support, ``Individualized and Targeted Recruitment for Adoption,'' 
March 25, 2003.

    <bullet>  Photolisting books, print materials
    <bullet>  Internet listings, such as www.AdoptUSKids.org and other 
agency listings
    <bullet>  Press kits, public service advertising
    <bullet>  Media programs and campaigns, such as ``Wednesday's 
Child''
    <bullet>  Booths and displays at local events
    <bullet>  Recruitment of family members
    <bullet>  Engaging adoptive and foster parents to recruit other 
parents
    <bullet>  Public-private partnerships with private agencies
    <bullet>  Outreach to faith-based communities, such as One Church-
One Child
    <bullet>  Concurrent planning
    <bullet>  Family group decision-making and mediation
    <bullet>  Youth involvement in identifying adults with whom they 
have developed emotional attachments
    <bullet>  Permanency teams for youth, consisting of youth, 
caseworker, and significant adults in the youth's life, such as 
relatives, former foster parents and counselors

    States are still learning how to recruit adoptive and foster 
parents; more experience and study will improve our understanding of 
what works. To give parent recruitment the priority it deserves, states 
should assign the responsibility for leading their recruitment efforts 
to a specific high-level manager and office.
    Parent recruitment is critical in permanency planning for all 
children in foster care, but it is especially urgent--and challenging--
for older children. In the most recent year for which we have 
statistics, 19,000 youth aged out of foster care without a permanent 
family to call their own. We must overcome the attitude of hopelessness 
that can undermine the prospects of older youth in foster care. If 
child welfare workers believe that adoption or guardianship is 
impossible for a particular child, then it will be. It becomes a self-
fulfilling prophesy of failure that ends in disaster for young people. 
Some states are developing creative programs to help transitioning 
foster youth make permanent connections and healthy transitions to 
adulthood, and to enable their peers still in care to achieve 
permanency before they too age out.
    Parent recruitment is an area where public-private partnerships can 
flourish. The public system already turns to private agencies to assist 
with services such as home studies and post-adoption services. Through 
public-private partnerships, private adoption agencies can also assist 
the already stretched public system by recruiting and training parents, 
and matching children with families. It is no secret that public 
agencies have a reputation for bureaucratic non-responsiveness, which 
discourages some prospective parents from inquiring about the process, 
or persevering in it. Using private agencies as contacts with 
prospective parents can help overcome those concerns and facilitate a 
smoother process.
    Prospective parents need leadership and encouragement in order to 
recognize their callings to adopt or foster parent. They also need 
education and training to prepare for the challenges they may encounter 
in parenting a child with special needs. Public-private partnerships, 
public communications, educational seminars, intensive casework, and 
the requisite agency staff to carry out these tasks are needed to 
recruit parents, process their inquiries and applications, and prepare 
them for their child. Financing policies must be reformed to allow the 
resources to flow to these vital responsibilities.
    Mr. Chairman, I respectfully I suggest that raising recruitment to 
the level of priority it should be will take leadership from the top. 
We can and must inspire an attitude of hope throughout our child 
welfare system that all children are adoptable. We can and must inspire 
our fellow Americans to live up to our country's responsibility to 
these children at risk.
    In conclusion, Chairman Herger and Members of the Subcommittee, the 
National Council For Adoption applauds and shares your commitment to 
ensuring that America's children are raised in safe, loving families. 
We look forward to continuing to work with you and the Subcommittee to 
promote safe and stable families for America's vulnerable children. 
Thank you very much for allowing me to testify.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Atwood. Now the gentleman 
from Colorado, Mr. Beauprez to inquire.
    Mr. BEAUPREZ. Thank you, Mr. Chairman. Ms. Ashby, first, if 
I might, if I am correct, Congress appropriated about $700 
million for these two programs last year. If a State does not 
utilize all of those funds in a given year, can they roll those 
to the next year or is it a use-it-or-lose-it situation?
    Ms. ASHBY. I don't know the answer to that. I am sorry. I 
don't know if these are no-year funds or not.
    Mr. BEAUPREZ. Would you get back to us?
    Ms. ASHBY. I certainly will. Yes.
    Mr. BEAUPREZ. Secondly, and maybe more importantly from my 
perspective, I noted I believe somewhere almost half of the 
moneys appropriated go to administrative overhead. I believe it 
is 44 percent. Is that normal? Is a good share of that really 
caseworkers' salaries, and it really is achieving the objective 
of helping children? Or is this--is this maybe because of what 
we have done in creating so many rules and hoops to jump 
through, is it just so top heavy and administratively weighted 
that that is necessary? Is it helping the kids?
    Ms. ASHBY. I think the percentage, or I know the percentage 
depends on how one defines administrative expenses, and we are 
currently working on a report for the Subcommittee, and we will 
be issuing that report by the end of June, and it will shed 
some light on what things are included in administrative 
expenses, and well, we will say more about that. Right now, I 
can just say that the percentage does depend on the definitions 
used, and it does vary across the States.
    Mr. BEAUPREZ. Even the States aren't consistent what they 
report as administrative overhead.
    Ms. ASHBY. That is correct.
    Mr. BEAUPREZ. I certainly hear the cry for more, more, 
more, but I want to make sure that more of what we are doing is 
actually helping kids and not just creating that ever-growing--
and a bureaucracy out there. If there is a way to achieve the 
former and less of the latter, I would be all for that. Judge 
Cohen, you mention methamphetamines and the problems it is 
creating. I am seeing that in my State. I am seeing that across 
society, but especially in the ramifications it is having for 
children and our families. Do you see a way of--in Iowa--and 
Colorado's not a whole lot different from Iowa in many ways. 
Tragically it is not just our urban areas. It is all across our 
State. Some of our smallest towns and smallest counties, most 
rural are the ones most affected. How do we head this off? It 
seems to be ever escalating, at least out my way. Is that what 
you are seeing in Iowa as well?
    Judge COHEN. Yes, it is. It is one of these issues I would 
first address with my magic wand if I had one. It is one of 
those issues I wish I had the magic answer. I can tell you that 
last year--or a couple of years ago perhaps--Iowa, like many 
States--Oklahoma, I believe, was the leader in this--locked up 
its pseudoephedrine products, and what that did was it 
drastically reduced the number of the mom-and-pop 
methamphetamines labs. Iowa, in fact, overtook California as 
the number of meth labs for a while, and now our labs are way 
down. This is good for children, of course, because in the 
backyards and garages and bathrooms of these homes, there were 
toxic laboratories going on, and you would see the HAZMAT guys 
come in in their Darth Vader costumes, and you know, picking up 
all of this toxic material with instruments and at the same 
time, you would see an 18-month-old sitting on the floor, 
slapping around or sucking on a battery. It was horrifying, the 
exposure to these children of these toxic materials, plus we 
were having labs blow up, and children were getting burned. 
Locking up the products was a wonderful step in reducing the 
lab problem. However, addicts are going to find their poison, 
and we have seen now a change in the use. We are seeing more 
pure--the crystal meth coming into our State. We are seeing 
more imports. We are seeing more IV use. The addiction is so 
compelling that the addict is going to have to feed it somehow. 
We know the drug court treatment works. We know treatment 
courts work. The Court Teams For Maltreated Infants and 
Toddlers is a treatment court. It has to be treatment, 
treatment, treatment, long-term, recognizing that relapse is 
part of treatment and being there with a support system is the 
thing that is working, but the resources are not there----
    Mr. BEAUPREZ. If I might beg the indulgence of the chairman 
for just a minute. What we are seeing--and I will cite one of 
my counties an example. In a 4-year period, a tripling of the 
number of cases of methamphetamines. Eighty percent of the 
children in child custody of one type or another in that 
county, one of our larger counties, we are talking about 675 
kids under the age of 12 are there because of drug and almost 
exclusively methamphetamines abuse in the home. It is 80 
percent of, the county law enforcement tells me 80 percent of 
their crime, identity theft, burglary, assault is drug related. 
I think until we get ahead of some of the sources of the 
problem that are driving children into foster care, we are only 
putting sand on the wound instead of healing the wound, and I 
think this is a major one. I think it is law enforcement. I 
think border security is a piece of this. I know that is a word 
we like to throw around this town right now, but 80 percent, I 
am told, of the illegal drugs in America today are coming 
across our southern border. Sadly, my largest city of Denver is 
in a direct line of the southern border. We have become a 
distribution hub, and that is not the kind of notoriety we are 
looking for, but I think it is law enforcement. I think it is 
education, education, education because you said it, it is an 
extremely and rapidly addictive. I do think that therapy has to 
be a piece of it as well. It is a major problem, and I think 
what we are all talking about here today is one of the very sad 
outgrowths and symptoms of a larger problem in society. I thank 
the Chairman and yield back.
    Chairman HERGER. I thank the gentleman from Colorado. 
Gentleman from Washington, Mr. McDermott to inquire.
    Mr. MCDERMOTT. Thank you Mr. Chairman. Ms. Spears gave a 
figure which I find startling, and in some ways troublesome, 
nearly 900,000 kids were found to be victims of child 
maltreatment. Only 40 percent receive follow-up. When I hear 
that figure, I kind of wonder from the judge's point of view 
and from your point of view and from your point of view, Dr. 
Hymel and Mr. Cross as well, what is missing that 40 percent of 
the kids are falling through the cracks, is it simply money? Or 
are there not professionals enough to deal with the caseloads? 
You folks can start anywhere you want, because you said you 
have got 28,000 docs retiring, or something like that.
    Dr. HYMEL. I wish we had 28,000 doctors working on child 
abuse. I think a big part of the problem is the disconnect 
between CWS and the primary health care providers. I recognize 
that privacy laws prohibit the reporters of suspected 
maltreatment, like myself, from getting substantive feedback 
regarding the outcome of a CPS investigation. When you limit 
that information or prohibit me from having that information, I 
can't arrange or provide the follow-up care for that family. 
Most of the Federal investment in child maltreatment is 
directed to child welfare or the judicial system, and to be 
quite honest, the families accused of suspected abuse view 
those two agencies, or the individuals representing them, as 
their adversaries at the moment the confrontation occurs.
    Mr. MCDERMOTT. You, who put them up--put them in their 
hands----
    Dr. HYMEL. Sometimes we face their wrath as well, but I 
think the primary care provider, who ultimately is tasked with 
maximizing the help outcomes of a child who has been abused, if 
brought into the loop, if informed about the outcomes of those 
evaluations, if provided an opportunity to have a greater input 
into the process can be a major untapped resource. I think that 
it is time for the health care system to become a bigger part 
of this response.
    Mr. MCDERMOTT. Do you have enough mental health 
professionals?
    Dr. HYMEL. No, sir. I am not knowledgeable about the 
details of that subspecialty and their numbers, and but I can 
tell you it is hard to find available appointments in a cost-
effective manner for the families who need it.
    Mr. MCDERMOTT. Judge, take a swing.
    Judge COHEN. The system has to work together and 
collaborate. We can bring people together to the table, and 
judges need to get off the bench and sit down at the table and 
convene because one thing we are really good at, when we invite 
people to come and see us, they usually come, and we need to 
listen to our community--usually. If they don't, they can be in 
big trouble, as they can before your body, but we need to sit 
down and learn from each other, and it can be done.
    Mr. MCDERMOTT. Is there a way to cover that disconnect 
between what the doctor who sends them in and then never ever 
finds out what happened, or is a cop brought in again to begin 
to pick up the pieces?
    Judge COHEN. Well, in my State, he would be a mandatory 
reporter. If there were a contested hearing about the facts of 
the case, whether or not the abuser or neglect occurred, he 
would certainly be called as--to testify as a witness. I think 
it is about half of the States child abuse and neglect cases 
are open to the public. My courtroom is open to the public. 
Anybody can come and sit and listen to a court proceeding 
unless I find, after hearing evidence, that the danger of harm 
to the child outweighs the public's right to know.
    Mr. MCDERMOTT. The doctor doesn't have time to come sit in 
the court. Does the caseworker have any responsibility or 
whatever to give any--I am trying to understand.
    Ms. SPEARS. Yes. I think it is complicated by the fact that 
many of the families, and this 40 percent really may not--may 
need services and may not need services from the child 
protective agency, although they may need services that are 
provided in the community. I think the doctor is a lot right, 
that these families need support services that are provided in 
a variety of manners, that may be outside the formal system or 
outside of the court system. May require stronger mechanisms 
for connectedness to community-based services. That do exist in 
some communities, family group conferencing, a variety of 
family support and family stabilization programs, community-
based child protection programs, create models of services that 
try to bring the doctor, the mental health professional, the 
family support worker, the childcare worker to the table to 
help those families. I think some of the dollars in this pool, 
in fact, support some of those services, and I suspect many 
other dollars do as well.
    Mr. MCDERMOTT. Where is the best example in the country of 
it working properly, or working as close to maximally as it 
can.
    Ms. SPEARS. There are a variety of places I would say it is 
working well. Allegheny County, Pennsylvania, is a place where 
it works quite well, where there is really good integration 
between what the formal child protection system does, what the 
court system does and what the community does to support 
families at all phases, both in front-end prevention services, 
in mental health and in adoption services, all the way through 
the end of the system to really try to do those things. They 
have done that by pulling community leaders together, adoptive 
families and kinship families and birth families together, and 
by pulling caseworkers together across all systems. They really 
have done it sort of top to bottom, up and down, from 
leadership all the way to kids in ways that integrate the way 
that that works; and it is one of the places where I see 
community-wide services doing that--not the only place though.
    Mr. MCDERMOTT. Could we get Mr. Cross for a moment?
    Mr. CROSS. Another good example is a tribe in Washington. 
They have been able to integrate their services at the tribal 
preschool, the substance abuse program, the mental health 
program and the child protection program all into one program 
that supports families. They have been able to do that because 
of their creative approach in turning the system around from a 
system that intervenes, primarily to a system that pays 
attention to child well-being from a public health perspective. 
I think that is one of the dilemmas here. These are very 
complex issues, and as long as we are confused about the 
difference between the need to intervene in a particular 
situation to protect a particular child and the well-being of 
all children--any child can be abused or neglected, given the 
circumstances in their life, with poor substance abusing, 
domestic violence, a history of depression, all of those things 
coming together and you have a situation ripe for disaster no 
matter who you are or where you live. We have to approach this 
thing from many different directions, in teams, with all of the 
people who are sitting at this table having a voice for each 
family.
    Chairman HERGER. The gentleman's time has expired. The 
gentlelady from Connecticut, Mrs. Johnson, to inquire.
    Mrs. JOHNSON. Thank you. For a number of years now we have 
held these hearings and we have seen some development of 
services locally, and certainly we have grown in our 
understanding of the importance of integrated services; case 
management and court teams are really impressive. We have begun 
to discuss, how do you foster an integrated, collaborative 
approach at the community level, because most communities in 
America are single-hospital communities, and if you look at 
where the hospitals are placed and the service areas of those 
hospitals and the pediatricians around them and the school 
systems around them and the social service child and family 
systems around them, it is hard to believe that we should 
continue to pursue, do we put more money in this service or 
more money in that service or more money in this team model or 
that team model. We have to find a way to incentivize 
communities to look at themselves. Now Head Start does some of 
this, the Free to Grow program that Columbia has developed on 
top of Head Start has had a profound effect on the Head Start 
programs because it has helped the human resource agencies, the 
cap agencies, which are long established but were also 
isolated. They talk to themselves, in their own base of people; 
and Free to Grow is the most recent model I have seen that has 
forced people beyond their own boundaries. How do we get 
ourselves--what kind of money do we put in the system to get 
communities to think collaboratively? Because a lot of this--my 
husband is a retired obstetrician, and the obstetricians and 
pediatricians used to say, they know what families are going to 
have trouble before they deliver the child. I have heard 
schools say this too, we know who is going to have trouble. Why 
is it we can't bring what we know about parenting education, 
about early signs of substance abuse, about not looking at the 
child, looking at abuse problems in the whole family, whether 
it is substance or violence or behavioral, and begin to focus 
on who can come to us with an integrated model and can show us 
how they are thinking together as a community and how they are 
reaching out, so the number we get in the court means we need 
very few court teams. I hate to put the money in to expand the 
court teams. One last comment along this line. For years I have 
tried to get us to think about the number of kids going into 
foster care, and it is declining. There are a lot of reasons 
why it is declining. It doesn't necessarily mean that things 
are getting better. Your money is declining. As the number of 
kids decline, your money declines. Your money is going to 
decline, and it is going to get harder to get foster parents. I 
know it is a nice thing to do, but lifestyles are working 
against this. As that declines, you lose resources. Yet if we 
freed up those resources, so that they could be used for 
prevention, and gradually shifted, we might have a handle on 
how to move forward. Now, I appreciate the worry about what 
happens if there is a surge, but frankly that is kind of a 
secondary problem if we get better services in place that are 
more logistic and effective. We need help in knowing, how do we 
stop reacting to this one thing. Medicare, we are looking at 
the medical home. We might--how does the pediatrician 
professional stay in the loop, be seen as the parent, as the 
center of help. I have tried to get grants for my Head Start 
programs because they have the trust of the families. If you 
could use them as the avenue through which you reach substance 
abuse or mental health help or something, we could do that. We 
are failing to go take what we know to get to where we know we 
need to be. Congress can't do this; we are way too far away. If 
you help us, we ought to be able to think of at least a few 
demonstrations and take a look. I appreciate your testimony. I 
appreciate the level of this testimony as to 5 years ago and as 
to 10 years ago, and we really are making substantial progress 
in our understanding of family dynamics and intervention, but 
we are not able to overcome the old divisions, the old turfs, 
the old organizations; and we are still pouring money into the 
administrative superstructure of a lot of different groups 
including--public school agencies that are here have a very 
limited context. We need to think this through, and we need you 
to help us come up with some demonstrations that we can really 
work on.
    Chairman HERGER. I thank the gentlelady. The gentleman from 
California, Mr. Stark, to inquire.
    Mr. STARK. Thank you, Mr. Chairman. Thank you for holding 
this hearing on your draft bill. My understanding is that it is 
still a work in progress, and I hope that all Members of the 
Committee can add their two cents worth, maybe even 2 million 
worth, and that we will do something to assist the witnesses 
and their agencies in providing better care. I just wanted to 
check, and the Chair might care to toss his comment in here, 
but I just wanted to make sure. Ms. Ashby, you have seen the 
bill, the draft bill?
    Ms. ASHBY. Yes, sir, I have.
    Mr. STARK. It is my hope--and with the Chairman's 
concurrence, I wanted your understanding--that there isn't 
anything in the bill that intends to apply the administrative 
cap to caseworker salaries. Mr. Chairman, I don't know. Was 
that how you would read it?
    Ms. ASHBY. I did not interpret it as doing that, no. It 
defines administrative costs as being more limited than 
currently is the practice, but it doesn't include caseworker 
salaries, I don't believe.
    Mr. STARK. Mr. Chairman, is that your understanding too? In 
the draft bill there is nothing that would limit the caseworker 
salaries, whatever you spend for that?
    Chairman HERGER. That is my understanding.
    Mr. STARK. Okay. That is great. I figured that those are 
the lowest paid of the people that we need on the front lines, 
and I just wanted to reassure myself at least that was the 
case. Ms. Spears, you have published standards. Do you want to 
comment on a requirement that mandated monthly visits? how do 
those fit into your best practice models, and does that do 
enough to assure what you guys would like to see as better 
outcomes?
    Ms. SPEARS. In an ideal world, no. I think it does help us. 
I think, for me----
    Mr. STARK. Does it go in the right direction?
    Ms. SPEARS. It tremendously goes in the right direction. I 
believe that worker visitation is an absolutely critical part. 
We have seen that it does improve outcomes for kids and 
families, and we believe it is a sound part of case practice. 
For me, having done the direct service work, having been an 
administrator in programs, and so forth, there a lot of roles 
that visitation serves and the needs for visitation varies in 
each and every case. Visitation is critical all across the 
casework perspective from the point in time that a family is 
first identified, where you are doing assessment and service 
planning and safety planning and risk calculation to keep kids 
safe, to helping children stabilize at home, to assessing their 
behavior and determining treatment needs, to looking at long-
term stability for a child. All of those things, and workers 
cannot do that without regular contact with the kids and 
without the skills; they need to know what to do when they have 
those visits. This isn't a social call, and it is not just 
playtime. It has a meaningful function in the casework delivery 
process for kids and families. We are very concerned that 
workers both don't have time and don't have skills all the time 
to do this. I once trained a group of workers probably a 
zillion years ago, but it was a mantra that has stuck with me, 
because I have heard it many times, that workers feel like 
often that the kid visit is the first thing to go when they are 
busy, because someone else in the family, someone else in the 
case, may in fact be available to supplement for their role. 
That may be true but they sometimes lose track of the 
importance of their role in visiting kids, or they don't 
necessarily know what to do with the visit.
    Mr. STARK. Thank you. I just wanted to thank Dr. Hymel and 
the American Academy for endorsing tirelessly and again our 
MediKids bills, which might provide the universal coverage that 
was written. If the Chair will indulge me 1 additional minute 
to be out of order here, it probably is apparent with everybody 
except the Chair that the Members of this Committee would be 
useless if it wasn't for our hardworking and dedicated staff. 
Sean McCluskie, who has worked here 7 years, started when Ms. 
Johnson was chairing this Committee and has worked tirelessly 
in all the areas of our jurisdiction; he has kept me out of 
trouble, he has been a valuable asset to, I think, even the 
majority staff. He is a knowledgeable guy, both a Ph.D. and a 
lawyer. We are losing him to the world of welfare reform and 
unemployment insurance for a while, but maybe some day we can 
get him back. Thanks. Stand up.
    [Applause.]
    Thank you, Mr. Chairman.
    Chairman HERGER. You are welcome. We all join in wishing 
the best to our colleague. Mr. Atwood, your testimony on page 
three points to a significant increase in the number of 
adoptions from foster care since the late nineties, rising from 
31,000 in 1997 to 50,000 today. Could you tell us why you feel 
that has occurred; and what role has the State use of Promoting 
Safe and Stable Families funds played in facilitating this 
change?
    Mr. ATWOOD. I think, first and foremost, you have to give 
credit to the Adoption of the Safe Families Act, which created 
the adoption incentives program and also made it--authorized 
the States to forgo family reunification under certain 
circumstances, aggravated circumstances. The incentives did 
much to motivate State agencies to place children for adoption, 
and I think you have to first look there for credit for that 
success. I think the PSSF also contributed to the extent that 
there has been funding of postadoption services, the provision 
of which is a comfort to people who are considering adopting, 
foster parents who are considering adopting and other people 
who are considering adopting. It appears to me that the 
adoption promotion and support services aspect of the PSSF 
could be more fully served in the implementation of the 
program. I cited in my oral testimony, and written, the lack of 
parent recruitment emphasis throughout the system. In fact, if 
you look at the purpose statement, it refers to adoption 
promotion and support services, yet if you look at the 
objectives, there is no sign of promotion, adoption promotion 
in the four objectives of the PSSF statement purpose--purpose 
statement. Parent recruitment would certainly fit under 
adoption promotion. I just bring that to the Committee's 
attention. I think that it is an underserved strategy 
throughout the system. When you look at the arguments that are 
made for flexibility, you hear prevention and rehabilitation, 
which are very good arguments and very worthy purposes for more 
flexibility, but so is parent recruitment and so is 
postadoption services. Both promotion aspects of Promoting Safe 
and Stable Families for adoption does not appear to me to be 
very well served, very fully served. The adoption--the 
postadoption services does receive attention, does receive some 
funding, but there, again, it is nowhere near. I am sure that 
is true for prevention and rehabilitation as well. I think that 
parent recruitment is--receives the least amount of attention 
on that list.
    Chairman HERGER. Do you see any other factors that have 
played a role in this increase in adoption?
    Mr. ATWOOD. Besides the Adoption and Safe Families Act and 
Promoting Safe and Stable Families, I think there has been a 
genuine and widespread paradigm shift within the child welfare 
community that family preservation is not always what is best 
for the child. One of the things that necessitated the Adoption 
and Safe Families Act was pockets in the system--was the idea 
in places in the system, in courts, in State agencies that 
family preservation must be achieved at almost all costs. There 
were horror stories, you will recall, back then about children 
who, it should have been clear to everyone, should have had 
their parents' parental rights terminated and been eligible for 
adoption; and who suffered as a result of this ideology, 
really, of family preservation. The Adoption and Safe Families 
Act addressed that, the CWS responded, and I think it is fair 
to say that there really has been--that has been taken to heart 
almost everywhere throughout the system. There are exceptions, 
but now, thankfully, the best interests of the child are 
weighted more highly than family preservation. I think that 
paradigm shift, if you will, is just simply more of a 
dedication throughout the system in placing children for 
adoption. People have that--they recognize adoption is very 
good for children when their biological parents cannot parent 
them.
    Chairman HERGER. Thank you, Mr. Atwood. Certainly our top 
priority still remains to try to assist these parents to be 
able to have healthy families for their children, but we all 
know that there are circumstances where, when this can't be 
done, we need to be moving as rapidly as we can to find good 
homes for these children, not have them go from, as we have 
seen examples of, 40, 50, 60 different foster care homes. I 
appreciate the work that all of you are doing. I want to thank 
each of those of you on our panel very much for your testimony. 
With that, I would like to ask our next panel to please be 
seated. On this panel we will be hearing from the Honorable 
Cari DeSantis, Secretary of the Delaware Department of Services 
for Children, Youth and Their Families, on behalf of the 
American Public Human Services Association; Daniel Hatcher, 
Assistant Professor of Law at the University of Baltimore 
School of Law; William Bell, President and Chief Executive 
Officer of Casey Family Programs; Richard Wexler, Executive 
Director of the National Coalition for Child Protection Reform; 
Ikeita Cantu Hinojosa, Associate Counsel for Legislative 
Affairs at the National Association of Social Workers; William 
Tower, President and Chief Executive Officer of the American 
Family Rights Association; and Heidi Goldsmith, Executive 
Director of the Coalition for Residential Education. Hon. Ms. 
DeSantis to testify, please.

 STATEMENT OF THE HONORABLE CARI DESANTIS, CABINET SECRETARY, 
 STATE OF DELAWARE DEPARTMENT OF SERVICES FOR CHILDREN, YOUTH 
  AND THEIR FAMILIES, ON BEHALF OF THE AMERICAN PUBLIC HUMAN 
                      SERVICES ASSOCIATION

    Ms. DESANTIS. Good afternoon, Chairman Herger, Congressman 
McDermott, Members of the Subcommittee. I am Cari DeSantis, the 
Cabinet Secretary for the Delaware Department of Services for 
Children, Youth and Their Families. I am also the Chair of the 
National Council of State Human Service Administrators. First, 
I would like to commend the Committee for working in a 
bipartisan manner to reauthorize the Title 4B programs, 
including Promoting Safe and Stable Families. As you are well 
aware, the CWS serves some of America's most fragile and 
troubled citizens, families in crisis and children who have 
been abused and neglected. When APHSA recently spoke with our 
members about the reauthorization of Promoting Safe and Stable 
Families, they overwhelmingly indicated that Title 4B is their 
most flexible source of dedicated Federal dollars to provide 
child welfare services. States would like to see the funds 
remain as flexible as possible, while continuing to be directed 
and meeting the goals of the four categories of Promoting Safe 
and Stable Families. This funding has allowed States to 
implement innovative and effective practices, because it 
affords States the flexibility to fund the critical services 
that the Federal entitlement program, title IV-E, cannot fund. 
For example, in Delaware our programs are offered through a 
network of local community providers that help to support our 
system-of-care approach to child welfare services.
    The community-based interventions address the four life 
stressors that may cause child maltreatment. These are the 
parental personality characteristics that are related to risk, 
child development and behavioral characteristics, stress and 
crisis in the family, and the absence of or inability to access 
resources and support. One unique service we have begun to use 
in Delaware to use IV-B funds is to provide intense services to 
youth in our juvenile justice system and their families. Many 
of these youth present with complex family issues and personal 
needs. Providers assist families of youths exiting our 
residential rehabilitation programs to establish support 
systems to help implement a plan that addresses their concerns 
and assures the safety and well-being of the youth upon their 
return home. We have also recently begun collaborating with 
faith-based organizations in Delaware to provide family 
consultation and support for the families at risk of child 
maltreatment. These families are often isolated and 
experiencing conflict and may be in need of basic support like 
food, shelter, rent and utilities assistance. Again, a true 
system of care fashioned this program and has a faith-based 
organization that works with the family to build on their 
existing strengths, provides consultancy, guidance and 
community support, as needed, and helps the family resolve 
their needs before a crisis lands the child in care. We urge 
that Congress act quickly on this reauthorization and that they 
appropriate the additional $40 million in mandatory funding 
provided in the Deficit Reduction Act. Additionally, we ask 
that States be given a full 2 years to spend these additional 
dollars, as they would have had if they had received them at 
the beginning of fiscal year 2006.
    Mr. Chairman, child welfare professionals courageously work 
in one of the most challenging professions in our country. 
Enormous responsibility is placed in the hands of caseworkers 
as they are expected to perform multiple interventions and make 
judgments that have the power to change a child's life. Their 
findings can determine whether a child is kept safe and 
protected or put at risk. We understand that with the intent of 
focusing the majority of 4b funds on services to families, the 
Subcommittee might consider capping administrative costs. If 
the decision to restrict the use of funds is made, we 
respectfully urge the Committee not to include caseworkers, who 
provide the actual services to children of families under that 
cap. In conclusion, States appreciate that title IV-B is the 
most flexible source of dedicated Federal child welfare 
funding. APHSA supports the reauthorization of the current $545 
million in title IV-B funding. On a closely related issue, we 
also urge this Subcommittee to reject the proposed $500 million 
cut to the SSBG program, a program that States rely upon as a 
key source of funding for child welfare services. Simply put, a 
reduction of $500 million in SSBG would mitigate any of the 
good that the additional $40 million in additional mandatory 
funds would produce. Over the past few years, Federal funding 
for child welfare has remained flat while State and local 
governments have increased funding for child welfare. We 
believe that a strong Federal-State partnership is essential to 
improving outcomes for children and families in the CWS. To 
that end, we urge the Subcommittee to consider fundamental 
reform of child welfare funding, including the reform of title 
IV-E.We look forward to continuing to work with the 
Subcommittee to assure a Federal financing construct that can 
help the States meet the needs of the most vulnerable children 
and families that we serve. I thank you for the opportunity to 
testify, and I am happy to answer any questions that you may 
have.
    [The prepared statement of Ms. DeSantis follows:]
     Statement of The Honorable Cari DeSantis, Secretary, Delaware 
    Department of Services for Children, Youth and Their Families, 
 Wilmington, Delaware, on behalf of the American Public Human Services 
                              Association
INTRODUCTION
    Chairman Herger, Congressman McDermott, and members of the 
subcommittee, I am Cari DeSantis, cabinet secretary of the Delaware 
Department of Services for Children, Youth, and Their Families. In this 
position, I am responsible for a variety of programs, including all 
statewide children's services, including mental and behavioral health; 
substance abuse; youth corrections; rehabilitation; home, community, 
and school-based programs; and residential treatment in addition to 
child welfare, which includes child abuse, neglect, dependency, foster 
care, adoption, and post-adoption services. I am also here today in my 
role as chair of the National Council of State Human Service 
Administrators, the policymaking body of the American Public Human 
Services Association (APHSA).
    APHSA is a nonprofit, bipartisan organization that has represented 
state and local human service professionals for more than 75 years. 
APHSA also houses the National Association of Public Child Welfare 
Administrators (NAPCWA), which was created as an APHSA affiliate in 
1983. NAPCWA works to enhance and improve public policy and 
administration of services for children, youth, and families, and is 
the only organization devoted solely to representing administrators of 
state and local public child welfare agencies.
    On behalf of APHSA and the state of Delaware, I want to take a 
moment to commend this subcommittee for recognizing the importance of 
the Title IV-B programs, including the Promoting Safe and Stable 
Families (PSSF) program, and for holding this hearing. We congratulate 
the members and staff of this subcommittee for their good-faith efforts 
in working in a bi-partisan manner to get these critical programs 
reauthorized. Child welfare has always been a bi-partisan issue and it 
must remain so to meet the challenges ahead. We look forward to working 
with you on these issues and on child welfare funding during this 
Congressional session and in the future.
    My testimony will primarily cover the position of the states on the 
reauthorization of the PSSF program.
BACKGROUND
    The child welfare system serves some of America's most fragile and 
troubled citizens--families in crisis and children who have been abused 
and neglected. It is estimated that child protective services (CPS) 
agencies received 60,000 referrals alleging child maltreatment each 
week. In 2004, state CPS agencies received an estimated 3 million 
referrals alleging child maltreatment involving approximately 5.5 
million children, with an estimated 872,000 found to be victims. As of 
September 2003, 523,000 children were in foster care, with 297,000 
entering in that year, and 119,000 children were awaiting adoption. 
Public child welfare agencies provide a broad array of services to 
these children and families, including prevention and family support 
services; early intervention and family preservation services; child 
protective services; foster care; and permanency and post-permanency 
services. Public child welfare agencies also work closely with other 
public agencies that often deal with the same population, including 
Temporary Assistance for Needy Families (TANF) and Medicaid agencies; 
domestic violence programs; substance abuse treatment agencies; housing 
agencies; and mental health programs.
FEDERAL FUNDING FOR CHILD WELFARE
    States have continually raised concerns that the current structure 
of federal child welfare funding does not adequately support the goals 
of safety, permanence, and well-being for children and families. While 
federal funding has remained flat, states have increasingly had to find 
sources of state and local funding to fill the gaps. The bulk of 
federal funding dedicated to child welfare is disproportionately 
directed toward funding out-of-home care--the very part of the system 
that agencies are seeking to minimize to achieve greater permanence for 
children. At the same time, even with the creation of Title IV-B 
subpart 2 in 1993 and its reauthorization in 2001, services that 
protect child safety and promote reunification and post-permanency 
supports remain under-funded by the federal government. When the Title 
IV-E financing structure was created, the assumption was that the 
flexible Title IV-B service funding would grow significantly--an 
assumption that remains unfulfilled.
    With the recent changes in the Deficit Reduction Omnibus 
Reconciliation Act of 2005 (DRA), Title IV-E has become even more 
restrictive. States are now explicitly limited in their access to Title 
IV-E costs for children placed in the care of a relative and in Title 
IV-E administrative costs for children who are at risk of entering 
foster care or who are placed in certain facilities. These limitations 
to Title IV-E funds, which are in addition to the eligibility criteria 
tied to family income and appropriate language in court documents, make 
the broad accessibility and flexibility in Title IV-B all the more 
important for states as they look to continue providing critical 
services to vulnerable children and families.
PSSF FUNDING
    Title IV-B was established in 1935 to provide a wide array of 
services for children who come to the attention of the child welfare 
system. In 1993, Congress established subpart 2 of Title IV-B, the 
Family Preservation and Family Support Services Program, as part of the 
Omnibus Budget Reconciliation Act (P.L. 103-66). This program provided 
flexible funding for services to prevent child abuse and neglect and to 
help families whose children were at risk of being removed. As part of 
the Adoption and Safe Families Act (ASFA) of 1997 (P.L. 105-89), 
Congress reauthorized the program. It was renamed the PSSF program and 
was expanded to include funding for time-limited family reunification 
services and adoption promotion and support activities.
    In 2001, Congress passed a five-year reauthorization and made 
amendments to PSSF (P.L. 107-133). The authorization level was 
increased from $305 million to $505 million. However, the increased 
amount was added as a discretionary component to the program. The 
mandatory funding level is $305 million, while the remaining $200 
million is subject to the annual appropriations process. The amendments 
also emphasized the importance of providing post-adoption services and 
substance abuse treatment. Congress has appropriated less than half of 
the $200 million in discretionary funding since the reauthorization 
allowed for these funds as of 2002. Discretionary funds have been 
appropriated at $70 million in FY 2002, $99 million in FY 2003, $99 
million in FY 2004, $98.5 million in 2005 and $89 million in 2006. The 
President's FY 2007 budget requested funding at the FY 2006 level, 
which included a one-percent across-the-board cut for all discretionary 
funding.
    Several set-asides are made before the PSSF funds are allocated to 
states. From the mandatory portion, $6 million is reserved for HHS to 
fund training, technical assistance, research and evaluation; $10 
million is reserved for state courts grants; and $3.05 million (one-
percent) is reserved for Tribes. From the discretionary portion, 3.3 
percent is reserved for HHS to fund training, technical assistance, 
research and evaluation; 3.3 percent is reserved for state courts 
grants; and two percent is reserved for Tribes. The remaining funds are 
then allocated to states based on a proxy measure of child poverty, the 
percentage of children in that state who receive food stamps. No 
federal eligibility criteria apply to children and families receiving 
services under either subpart of Title IV-B. The federal government 
provides a 75 percent match and states are required to provide 25 
percent. Any appropriated funds that are certified as unused by a state 
are reallocated to other states.
    In order to receive PSSF funds, states must submit a five year plan 
which outlines the goals to be achieved, specifies objectives that will 
be undertaken to achieve the goals, and describes how annual progress 
will be measured. States develop this plan in consultation with public 
and community-based organizations. This process has allowed states to 
engage and increase outreach to stakeholders which has led to more 
public input on the goals within a particular community.
    An additional $40 million in mandatory funds for PSSF was 
authorized in the DRA. The Congressional Research Service estimated 
that the additional funds, when allocated to states, would range 
anywhere from an additional $40,000 for Wyoming to $3.7 million for 
Texas. My state, Delaware, will receive an additional $80,000 if those 
funds are appropriated. I must note that to date, those dollars have 
not reached the states. However, the provision would appropriate the 
funds beginning in fiscal year 2007. Given that the DRA authorized the 
funds for FY 2006, we would like to see those funds appropriated as 
soon as the legislation is passed. Additionally, states should be given 
the full two years to spend the additional dollars as they would have 
had if they had received them at the beginning of FY 2006.
MANDATORY FUNDS
    The stability of the mandatory portion under PSSF over time has 
allowed states to rely on these funds to ensure on-going services and 
to allow local jurisdictions more flexibility in developing programs. 
We urge full funding of the program and see the additional $40 million 
as a step forward. The decrease in the discretionary portion of the 
funds over the last several years due to across-the-board cuts in all 
discretionary programs has not allowed for the same level of 
reliability and innovation with the funds.
FLEXIBILITY
    States realize that reducing the need for foster care by providing 
an array of supports and services for both biological and adoptive 
families will lead to improved outcomes for children. Title IV-B is a 
key funding source that has provided states with flexible funding to 
provide prevention, reunification, and adoption services. When APHSA 
recently spoke with our members about the reauthorization of PSSF, they 
overwhelmingly indicated that Title IV-B is their most flexible source 
of dedicated federal dollars to provide child welfare services. States 
indicated that they would like to see the funds remain as flexible as 
possible while continuing to be directed at meeting the goals of the 
four categories of PSSF--family preservation, family support, time-
limited reunification, and adoption promotion and support. Within the 
parameters of the four categories, states have seized the opportunity 
to structure and create programs to respond to the different needs in 
different communities. This funding has allowed states to implement 
innovative and effective practices such as family group decision 
making, post-adoption support networks, respite care, safe haven 
programs, and improved collaboration with counties and tribes.
    In Delaware, our PSSF programs are offered through a network of 
local community providers that help to support our system of care 
approach to child welfare services. The community-based interventions 
address the four life stressors that may cause child maltreatment. 
These are (1) parental personality characteristics related to risk; (2) 
child developmental and behavioral characteristics; (3) stress and 
crisis in the family; and (4) the absence of and inability to access 
resources and support.
    One unique service we've begun is to use IV-B funds to provide 
intense services to youth in our juvenile justice system and their 
families. Many of these youth present with multiple, complex family 
issues and personal needs as well as parental/child conflict. PSSF 
providers assist families of youth exiting our residential 
rehabilitation programs to establish formal and informal support 
systems to help implement a plan that addresses their concerns and 
assures the safety and well-being of the youth upon return home.
    We have also recently begun collaborating with faith-based 
organizations in Delaware to provide family consultation and support 
for those families at risk of child maltreatment. These families are 
often isolated and experiencing parent/child conflict and may be in 
need of basic sustenance supports, like food, shelter, rent and 
utilities assistance, etc. Again, in true system-of-care fashion, this 
program has the faith-based organization work with the family to build 
on existing strengths; provide consultation, guidance, and community 
support as needed; and help the family resolve their needs before a 
crisis lands the child in care.
INCREASED SAFE AND STABLE FAMILIES PROGRAM RESOURCES
    First, I must say that we appreciate that Congress provided an 
increase in the mandatory portion of PSSF funds in the DRA by $40 
million. However, these funds have not yet been appropriated. We urge 
the subcommittee to include these additional funds in the 
reauthorization of this program. Since we've seen that the 
discretionary portion of this program has not been fully funded and has 
diminished over time, the addition of these dollars in the mandatory 
portion is a step in the right direction. As has been discussed 
throughout my testimony, states, including Delaware, have been able to 
structure and provide unique and needed services due to the flexibility 
of the Title IV-B funds. We encourage that the funds, including any 
additional funds, remain as flexible as possible to help states 
continue to meet the diverse needs of individual communities.
    We realize that this subcommittee has expressed interest during 
hearings over the last several years in the Child and Family Services 
Reviews (CFSRs). States have worked in concert with the federal 
government during the first round of the CFSRs and will continue to do 
so as the second round begins. The Program Improvement Plans (PIPs) 
have taken and continue to take a significant amount of staff and other 
resources to achieve the agreed-upon outcomes for each state. Title IV-
B funds have been the most flexible source of federal funds that states 
have accessed to meet goals in their PIPs.
ADMINISTRATIVE COST REIMBURSEMENT
    As we've testified before, child welfare professionals courageously 
work in one of the most challenging professions in this country. The 
jobs performed by caseworkers have become more complicated as the 
challenges faced by families in the child welfare system have become 
increasingly complex. An enormous responsibility is placed in the hands 
of caseworkers as they are expected to perform multiple interventions 
and make judgments that have the power to change a child's life. Their 
findings can determine whether a child is kept safe and protected or 
put at risk.
    Child welfare systems throughout the country struggle to recruit, 
retain, and reward these dedicated professionals. In a survey of public 
agency administrators, APHSA found that the number-one issue in 
preventable turnover was that ``workloads are too high, demanding, or 
both.'' Systems, workers, and families face many barriers and 
constraints as they work to achieve safety, success, and positive 
outcomes. Economic and budgetary challenges, changes in the political 
landscape, complex social factors, and complicated demands can impact a 
child welfare system's ability to contain workloads. Systems are 
struggling, workers are struggling, and families are struggling.
    A supported, skilled, and stable workforce is crucial in child 
welfare practice given the tremendous impact caseworkers can have on 
the chances that vulnerable children and families have to overcome 
difficult life circumstances. Training, workload, risk of violence, 
supervision, and turnover present great challenges to providing the 
needed workforce supports in this field. According to the 2003 
Government Accountability Office report on Title IV-B, in FY 2002 
subpart 1 dollars were most frequently used to fund staff salaries, 
with almost half of those funds designated for the salaries of CPS 
social workers. The remaining funds went to support the work of social 
workers who provide ongoing case management, social work supervisors, 
and clerical support staff. Each of these individuals plays a key role 
in supporting the work that must be done to help children and their 
families. This is a critical allowable expenditure of these dollars, 
and states should be using these funds to support the very people that 
provide the services to protect children and support families.
    To our knowledge, inappropriate use or irregularities in the 
expenditure of Title IV-B funds for administration has not been found. 
Therefore, we don't see the need to limit the amount states can use to 
administer child welfare services. We can appreciate Congress' desire 
to ensure that the majority of Title IV-B funds are used for services 
to children and families. However, it is important to sustain that work 
by ensuring that a strong infrastructure, supported by administrative 
dollars, is in place. If Congress does intend to restrict the use of 
funds related to administration costs, we urge the subcommittee to 
ensure that caseworkers who provide the actual services to children and 
families are not restricted.
REAUTHORIZATION OF PROGRAM FOR MENTORING CHILDREN OF PRISONERS
    Although the child welfare agencies do not directly administer this 
program, states do appreciate the support provided by these funds to 
children who are often served under child welfare. Any efforts to 
better distribute and track the funds to ensure the provision of 
effective services would be supported by states.
CONCLUSION
    When children are at risk and come to the attention of the child 
welfare agency, the agency can provide services and supports to them 
and their families to mitigate their problems and prevent them from 
being removed from their families and communities. When children must 
come into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where that is not 
possible, find an alternative permanent placement expeditiously, while 
assuring their well-being in the interim. When children are adopted or 
placed in the custody of a legal guardian, the agency can provide 
support services to avoid disruption or dissolution of the adoption or 
guardianship. Title IV-B allows states to use federal funds for many of 
these types of services.
    States appreciate that Title IV-B is the most flexible source of 
dedicated federal child welfare funding. APHSA supports the 
reauthorization of the current $545 million in Title IV-B funding. We 
would like to see the entire amount reauthorized as mandatory, not 
discretionary, funding. Additionally, we urge the subcommittee to 
reject the proposed $500 million cut to the Social Services Block Grant 
(SSBG) program as it is a key source of funding for child welfare 
services. A reduction of $500 million in that program would mitigate 
the $40 million in additional mandatory funds and would hinder the 
ability of states to fund child welfare services.
    Over the past few years, federal funding for child welfare has 
remained flat while state and local governments have infused additional 
dollars to support this work. We believe that a strong federal/state 
partnership is essential to improving outcomes for children and 
families in the child welfare system. To that end, we urge the 
subcommittee to consider fundamental reform of child welfare funding--
including reform of Title IV-E. We look forward to continuing to work 
with the subcommittee to ensure a federal financing construct that can 
help states meet the needs of the most vulnerable children and families 
we serve.
    Thank you for the opportunity to testify, and I'm happy to answer 
any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you. Mr. Hatcher to testify.

     STATEMENT OF DANIEL HATCHER, ASSISTANT PROFESSOR LAW, 
             UNIVERSITY OF BALTIMORE SCHOOL OF LAW

    Mr. HATCHER. Thank you for this opportunity. My name is 
Daniel Hatcher and I am an assistant professor at the 
University of Baltimore School of Law and also a former legal 
aid lawyer from Maryland, where I represented hundreds of 
children in the abuse and neglect system, as well as adults in 
virtually all areas of civil poverty law. My testimony today 
will focus on an issue from my recent law review article, 
Foster Children Paying for Foster Care, which addresses how 
cash-strapped foster care agencies are converting foster 
children's Social Security benefits into a source of State 
funds by taking the children's Social Security benefits and 
applying them to cover State costs for which the children have 
no legal obligation. This use of foster children's Social 
Security benefits results in an incredible missed opportunity, 
an opportunity to use the children's own resources as a tool to 
improve planning for the children's current and future needs, 
and to encourage coordination of the children's own resources 
with other child welfare programs and services including IV-B 
and IV-E. Children of foster care can be eligible for two types 
of Social Security benefits, either SSI benefits because the 
children themselves are disabled, or old age, AOSDI benefits 
because their parents are either deceased or disabled 
themselves.
    Across the country the practice is occurring basically 
throughout the same process. Children who are eligible for 
Social Security benefits require payment through a 
representative payee to manage the funds. Children who are in 
foster care are having the State agencies appointed as a 
representative payee through virtually an automatic process, 
although the State agencies are the least preferred on the 
regulatory list of choices. Once an agency becomes a 
representative payee, they sidestep their fiduciary 
responsibilities to the child beneficiaries, again by taking 
those benefits and applying them to State costs rather than 
using them for the children's current and future needs. Some 
States have even used private contractors as part of this 
process, in which those private organizations assist the States 
in screening children for disabilities, applying for Social 
Security benefits and then taking a cut of the resulting 
benefits through a contingency fee process. The process raises 
legal and constitutional concerns as States are taking property 
of foster children and foster children are treated unequally. 
Essentially those who are disabled or who have dead parents are 
being forced to pay for their own foster care where other 
children are not. The State agency representative payees are 
also not meeting their legal fiduciary obligations to these 
children to exercise independent and individualized discretion 
in determining how the children's resources should be used.
    Also, I have been unable to find evidence that States are 
using the resources that are taken from the children to 
actually increase the funds available for child welfare 
services or whether they are simply taking the funds and adding 
them to the general State coffers. This practice is not only 
legally and constitutionally troublesome and simply unfair, but 
the practice again results in incredibly missed opportunity. 
The proposal I lay out in my written statement adds legislative 
guidance to stop the current State practice and ensure foster 
children's Social Security benefits are used as intended to 
help the foster children. Again, foster children, as we have 
heard, are having a tough time, both in care and when they are 
struggling to age out of foster care. The numbers don't look 
good for them. They need our help with increased funding and 
improved planning and coordination of child welfare programs 
and services, and their own Social Security resources used as 
part of better planning for their future. Thank you again for 
this opportunity.
    [The prepared statement of Mr. Hatcher follows:]
Statement of Daniel Hatcher, Assistant Professor of Law, University of 
              Baltimore School of Law, Baltimore, Maryland
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify. My name is Daniel L. 
Hatcher, Assistant Professor of Law in the University of Baltimore's 
Civil Advocacy Clinic. Recognized as a national leader in clinical 
education, the University of Baltimore School of Law provides as many 
as 200 students each year the opportunity to participate in a broad 
range of clinical programs and internships.
    In addition to my work at the University of Baltimore, I have 
direct experience representing clients involved with the child welfare 
system as a former attorney with the Maryland Legal Aid Bureau. I most 
recently served in a statewide position focusing on public benefits, 
and I previously worked as a staff attorney representing hundreds of 
children in abuse and neglect proceedings and adult clients in public 
benefits, housing, consumer and family law issues.
    My testimony will focus primarily on a proposal I have developed 
with congressional staff that results from my recently published law 
review article, Foster Children Paying for Foster Care.\1\ The proposal 
will improve the use of foster children's Social Security benefits as 
part of a Plan for Achieving Self Support that will be individually 
tailored for each child, and will encourage much needed coordination of 
the children's resources with other federally funded child welfare 
services.
---------------------------------------------------------------------------
    \1\ Daniel L. Hatcher, Foster Children Paying for Foster Care, 27 
Cardozo L. Rev. 1797 (2006).
---------------------------------------------------------------------------
Improved Coordination Between Federal Programs
    State child welfare agencies continue to be over-stretched and are 
unable to provide adequate services to children and families. Children 
involved with the child welfare system are therefore not doing well, 
resulting in enormous short-term and long-term societal costs. For 
example, the GAO surveyed several studies regarding the problems facing 
children after recently aging out of foster care and noted several 
findings: 40 % of the former foster children were dependent on public 
assistance or Medicaid; 51 % were unemployed; 25 % were homeless at 
least 1 night; and 27 % of males were incarcerated at least once.\2\
---------------------------------------------------------------------------
    \2\ United States Government Accountability Office (GAO), Foster 
Care: Challenges in Helping Youth Live Independently, GAO/T-HEHS-99-121 
(1999).
---------------------------------------------------------------------------
    Addressing the system failings will require increases in both 
federal and state funding for child welfare services. Federal programs 
such as the Child Welfare Services and Promoting Safe and Stable 
Families programs provide an important source of federal funds for 
supporting state child welfare systems. Increased funding in these 
programs is an important step, as are the suggestions to use funds to 
encourage at least monthly case worker visits. Along with ensuring 
frequent caseworker visits, it is also critically important to provide 
improved training and other mechanisms to increase not only the 
quantity but also the quality of caseworker services.
    Also, improvements are necessary such as those recommended by the 
Pew Commission on Children in Foster Care--including better 
coordination of child welfare system services with other federal and 
state programs.\3\ The following provides background for a proposal 
that would encourage such coordination.
---------------------------------------------------------------------------
    \3\ Pew Commission on Children in Foster Care, Fostering the 
Future: Safety, Permanence and Well-Being for Children in Foster Care 
(2004).
---------------------------------------------------------------------------
Foster Children's Social Security Benefits: Current State Practices
    Because state child welfare agencies are significantly under-
funded, they seek to maximize revenues from every available source. 
Unfortunately, the insufficient funding has led to a situation where 
the agencies are seeking resources from the very children they serve. 
State agencies are systematically converting Social Security benefits 
belonging to foster children into a source of state funds rather than 
using the benefits as a crucially needed resource in planning for the 
children's current and future needs.
    Child welfare agencies screen children in state care to determine 
those who are eligible to receive Social Security benefits because of 
the children's disabilities (SSI benefits) or because the children's 
parents are deceased or disabled (OASDI benefits). The agencies apply 
for benefits on the children's behalf, interject themselves as the 
children's representative payees, and then side-step their fiduciary 
obligations by taking the children's benefits to reimburse foster care 
costs for which the children have no legal obligation. Foster children 
are being forced to pay for their own care.
    It is understandable and desirable that state agencies seek to 
maximize funds available for child welfare services. However, the 
source of funds should not be the children. Further, when states take 
foster children's Social Security benefits, there are insufficient 
assurances that the converted funds are used to supplement and not 
replace other state spending on child welfare services.
The Story of John G.\4\
---------------------------------------------------------------------------
    \4\ Summarized from a recent New York Times story. See Erik 
Eckholm, Welfare Agencies Seek Foster Children's Assets, N.Y. Times, 
Feb. 17, 2006, at A1.
---------------------------------------------------------------------------
    John G. is a fifteen year-old foster child who inherited a habitat 
for humanity home with a $221 monthly payment. John receives Social 
Security survivor benefits (OASDI) that are more than enough to cover 
the mortgage payments. However, the state agency representative payee 
put the house at risk of foreclosure by refusing to use John's benefits 
to make the house payments, following instead its policy of taking all 
foster children's Social security benefits to pay state costs.
    John's attorneys challenged the practice, and the agency is now 
appealing a state court ruling that the agency must use John's benefits 
to pay the mortgage. If the state succeeds in its appeal, John will 
lose a home to return to when he ages out of foster care. Also, John's 
benefits left over after the mortgage payments could be conserved as 
part of a plan for his transition to independence. Several options are 
possible. For example, the benefits could be used to save for college 
or for vocational education and training. The benefits could be saved 
to purchase a car--now virtually a necessity for independent living. 
Or, the benefits could simply be conserved in a savings account that 
can serve as an emergency fund for the many unforeseen expenses that 
John will likely encounter.
A Plan for Achieving Self Support for Foster Children
    The current practice of state agencies taking foster children's 
Social Security benefits is occurring due to a lack of clear federal 
guidance. Therefore, such guidance should be provided through the 
following proposal:

    <bullet>  Issue: When state agencies claim foster children's Social 
Security benefits, a crucially needed resource is taken from children 
that could be used to improve their stay in foster care by helping with 
the children's disabilities and special needs and could be conserved to 
help the children in their transition to independence when they leave 
foster care.

    Solution: Clarify that state agency representative payees may not 
use foster children's Social Security benefits to reimburse or pay 
state costs rather than using the benefits for the children's current 
and future needs.

    <bullet>  Issue: Current law only allows individuals to have $2,000 
in resources in order to be eligible for SSI. For some foster children, 
saving the funds to help plan for the children's future transition to 
independence may be more beneficial than immediately spending the 
funds.

    Solution: Create a new plan for achieving self-support (PASS) 
program for foster children that encourages use of foster children's 
Social Security benefits to improve planning for the children's current 
and future needs, and that is exempt from the SSI resource limit. 
Clarify that representative payees for foster children must manage the 
children's Social Security benefits as a part of such a plan developed 
to best meet the current and future needs of each foster child.

    <bullet>  Issue: Foster care maintenance payments are currently 
counted as income for foster children in determining SSI benefit 
payments, resulting in a dollar-for-dollar reduction in foster 
children's SSI benefits.

    Solution: Ensure state agencies can receive full federal foster 
care funding (IV-E) for eligible foster children who are also eligible 
to receive SSI by excluding federal and state foster care maintenance 
payments from the determination of children's SSI payment amounts.

    <bullet>  Issue: Advocacy groups have expressed concern that if 
state child welfare agencies are not provided with the incentive of 
retaining foster children's Social Security benefits, the agencies will 
no longer apply for benefits for the children or screen the children 
for disabilities and special needs.

    Solution: (1) Require states to establish procedures to screen 
foster children for potential eligibility for Social Security benefits 
and provide assistance in the application and appeal process. (2) In 
addition to allowing state agencies to receive IV-E funding for 
eligible children, allow state agency representative payees to charge a 
monthly $25 administrative fee. (3) Also, require the Government 
Accountability Office to do a study three years after these provisions 
are enacted to determine if states have established successful 
procedures to screen foster children for potential eligibility for 
Social Security benefits and to provide the children assistance in the 
application and appeal process.

    <bullet>  Issue: State agencies are currently selected as 
representative payees through a virtually automatic process without an 
appropriate search for whether other more preferred representative 
payees may be available.

    Solution: Clarify that the notice regarding proposed representative 
payees must be provided to attorneys for children in foster care, and 
require that state agencies apply to become representative payees when 
no more preferred individual or organization is available.
    This proposal will ensure that foster children's Social Security 
benefits are used as intended--to help the children. Used in 
coordination with other child welfare programs and services, the 
benefits will provide a much needed resource to help meet the current 
specialized needs of foster children who are disabled or have deceased 
or disabled parents, and conserved benefits will be utilized in 
improved planning for the children's transition to adulthood and 
struggle for self sufficiency.

                                 <F-dash>

    Chairman HERGER. Thank you. Mr. Bell to testify.

   STATEMENT OF WILLIAM BELL, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, CASEY FAMILY PROGRAMS

    Mr. BELL. Chairman Herger, Ranking Minority Member 
McDermott and Members of this Subcommittee, thank you for this 
opportunity to appear before you today in support of 
reauthorizing the PSSF. I am William C. Bell, President and CEO 
of Casey Family Programs, which is the largest operating 
foundation in the country focused solely on foster care. In 
January of 2006, Casey Family Programs began to focus its 
attention on a strategy that we call 20/20. 20/20 is both a 
point in time and a benchmark from which this Nation can 
measure significant changes and progress within our child 
welfare systems and in our communities. We see the 20/20 
benchmark as a critically important reminder to us of the 
consequences we face as a nation if nothing changes over the 
next 15 years for the children in our care. Consider the 
following: If nothing changes between the year 2006 and 2020, 
nearly 14 million more children will be confirmed as abused or 
neglected, nearly 9 million more will experience foster care 
and approximately 300,000 children will age out of the foster 
care system into adulthood. Most troublesome is that 
approximately 22,500 children will die in this country from 
child abuse and neglect if nothing changes, and most of them 
before reaching their fifth birthday. These potential outcomes 
are unacceptable, and I know that each of us here today shares 
a commitment to ensuring that these outcomes never occur.
    The draft bill reauthorizing the PSSF clearly articulates 
your commitment in this area. At Casey, our 20/20 strategy 
targets two key outcomes: one, significantly reducing the 
number of children in foster care in the next 15 years; and 
two, reinvesting the savings to increase the opportunity to 
improve outcomes for vulnerable children. By the year 2020 we 
believe that it is possible to reduce the number of children in 
foster care to approximately 250,000 through increased 
reunification, increased adoptions, and prevention of 
unnecessary placements. We have seen this occur in States such 
as Illinois, California and New York, and it can happen across 
the country. A first step to achieving this goal is reflected 
in the increase in the mandatory portion of the PSSF by $40 
million. We support this Subcommittee's----
    Chairman HERGER. Mr. Bell, I apologize. Would you mind 
moving the microphone. Let's try moving that away from you. 
They are getting--I asked them if they could turn it down but 
they don't seem to be able to. I apologize for interrupting.
    Mr. BELL. Is that better? Or is that better?
    Chairman HERGER. That is better.
    Mr. BELL. We support the subcommittee's recommendation to 
focus these funds on strengthening the capacity of frontline 
caseworkers. During my tenure with New York City's 
Administration for Children's Services, I had the opportunity 
to help design a series of reforms that significantly reduced 
the number of children in foster care and the number of new 
admissions to foster care. Two key components in this effort 
were investing in our frontline workforce to improve the 
quality of frontline supervision and frontline casework; and 
secondly, a significant investment in the availability of 
family support and foster care prevention services in the 
communities where vulnerable families live. In addition to the 
$40 million increase in mandatory funding, I would also urge 
the Subcommittee to consider two other items: one, an increase 
in the target of the remaining discretionary funds in IV-B and/
or looking at an approach to reinvest savings that occur when 
the foster care system declines. The amount of appropriations 
is vitally important; however, money is not the only answer in 
changing outcomes for vulnerable children in America. We must 
also create an environment where staff can be successful in 
their efforts to keep children safe and help them become stable 
adults. There are a number of critical components that I would 
outline for you that I believe must be in place if we are going 
to see significant change in our CWS. One, there must be a 
commitment of political will necessary to sustain change; and 
the CWS must have the consistent powerful and focused 
leadership of the chief politician, whether this is the judge, 
this is the Governor, the board of supervisors, or the Mayor.
    In order to keep driving improvements forward, child 
welfare must be treated with the same level of attention and 
support as the police department, the fire department and our 
education departments. There must be competent executive and 
frontline leadership in our child welfare agencies. There must 
also be a clear plan of action for where we want to go and 
there must be clearly articulated principles and standards that 
guide our work in that direction. There must also be a 
continuous investment in frontline supervision and frontline 
casework. The frontline supervisors and caseworkers must 
believe that they have the backing of leadership if we are 
going to be successful, as opposed to being afraid of losing 
their jobs every time a tragedy occurs. We must develop and 
demand strong cross-systems collaboration and we must create 
data-driven accountability. Finally, we must have time. Systems 
don't change overnight. ACS was created in 1996 and by 1999 
things were virtually still the same, but we will all look at 
what occurred and suggest that significant improvement occurred 
in New York City, and it can happen around the country. 
Improving the lives of children in America is a long-term 
process. That can only be accomplished through the investment 
of collaboration, both public and private partners, and through 
government leadership. This Subcommittee's continued focus in 
this area tells our Nation that the health and well-being of 
our most vulnerable children is a priority both today, next 
week, and well beyond the year 2020. Thank you for this 
opportunity and I would be happy to respond any questions.
    [The prepared statement of Mr. Bell follows:]
Statement of William Bell, President and Chief Executive Officer, Casey 
                  Family Programs, Seattle, Washington
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to share Casey Family Programs' perspective on how to 
improve child protective services and on reauthorizing the Promoting 
Safe and Stable Families (PSSF) program. I am William C. Bell, 
President and Chief Executive Officer of Casey Family Programs, the 
nation's largest operating foundation serving the needs of children in 
foster care for over 40 years.
    Before sharing some experiences and recommendations, I want to take 
the opportunity to commend the Subcommittee on Human Resources for the 
leadership you have shown over the years in the broad areas of child 
welfare, child protection, foster care, and adoption assistance.
    As we move toward a more comprehensive and targeted approach to 
helping foster youth transition to adult success, I ask each of you to 
continue the focused and passionate leadership that results in 
improvements across jurisdictions for foster children in the areas of 
mental health, education, and employment, with the ultimate outcome of 
significantly reducing the number of children in America's foster care 
system.
    Without your continued leadership on a policy level; without your 
voice on behalf of these children, our ability to significantly alter 
this nation's child welfare landscape--for the good of abused and 
neglected children--will be hindered.
    In the past 40 years, Casey Family Programs focused its efforts and 
funding on permanency and transition issues to help prepare children 
for long-term success.
    That emphasis continues, but with a much sharper focus. Casey 
Family Programs is now marshaling our investments, our staff and our 
collective expertise on a strategy we call ``20/20.'' Simply put, 20/20 
is both a point in time--15 years from now--and a benchmark from which 
this nation can measure significant changes and progress within our 
child welfare system and our communities.
    We also see the ``20/20'' benchmark as a critically important 
reminder to us of the consequences we face as a nation if nothing 
changes over the next 15 years for our most vulnerable children.
    Consider the following: If nothing changes in our child welfare 
system between the years of 2006 and 2020:

    <bullet>  Nearly 14 million more children will be abused and 
neglected.
    <bullet>  More than 22,500 children will die of abuse and neglect, 
the majority before they reach their fifth birthday.
    <bullet>  Nine million more children will experience foster 
care.And more than 300,000 children will age out of foster care without 
adequate supports to successfully transition to adulthood.

    These numbers--and the negative impact they represent to so many 
young lives--are unacceptable.
    Over the next 15 years, Casey will invest $1.67 billion in our 20/
20 strategy to improve the lives of children in foster care and ensure 
successful transition to adult life. Through Casey's commitment, and by 
partnering with a wide range of national and local child-serving 
organizations, political and civic leaders, and many others, our 
investment and solutions will focus on the following:

    <bullet>  Reducing the number of children in foster care, and 
reinvesting the savings: On any given day in America, more than 500,000 
children live in foster care. We believe we can reduce that number by 
50% by the year 2020. We must then efficiently reinvest what we save to 
support vulnerable children at a federal, state and local level, and 
through public-private partnerships with organizations like Casey 
Family Programs.
    <bullet>  Education: Increasing significantly the high school 
graduation rates for youth in care and the number of youth who earn 
two--or four-year vocational or college degrees.
    <bullet>  Employment: Increasing the successful employment 
experience for youth while in care and after they have transitioned out 
of care.
    <bullet>  Mental health care: Improving mental health access for 
children in foster care and, ultimately, decreasing the number of youth 
who suffer mental health disorders; and increasing the number of youth 
through Medicaid coverage, up to age 25.

    Why does Casey Family Programs make this commitment of funds and 
agency resources? We are troubled by what the data currently tell us:

    <bullet>  The number of children who are confirmed as victims of 
abuse and neglect is still nearly 900,000 every year.
    <bullet>  Children of color continue to be over-represented in our 
child welfare and juvenile justice systems. Approximately 6 out of 
every 10 children in foster care in America is a child of color. We 
appreciate the leadership of Congressman Rangel in having the 
Government Accountability Office open a formal review into why children 
of color are overrepresented in the nation's child welfare system, 
which Casey Family Programs requested in our testimony last year before 
this Subcommittee.
    <bullet>  Youth aging out of foster care continue to struggle to 
build productive, successful adult lives, many without health care 
coverage or educational opportunity. As many as half do not complete 
high school. While about 20% pursue a vocational or college education, 
only about 3% actually complete a degree.
    <bullet>  The ratio of children-to-caseworker continues to be too 
high in many jurisdictions across the country. High turnover and 
training needs hinder our states' ability to ensure successful outcome 
measures for children in care.

    So action is essential.
    Every year in our country, more than 20,000 youth in foster care 
turn 18 and leave the system, often with little or no financial and 
family support. If we are to be successful on behalf of these children, 
we must find a way to provide them with lifelong connections with 
caring and supportive adults, who can help them transition to the 
workforce, achieve their higher education goals, and deal with the 
issues of life when they happen.
    We must put in place comprehensive policies rooted in permanency 
and reinforced by adequate funding, training, and essential relational 
and physical supports for children and youth in care. Without such 
policies and supports, we know from our research that a high percentage 
of these youth will suffer negative outcomes.
    For example, in 2005, Casey Family Programs published its Northwest 
Alumni Study, which examined outcomes for 659 adults, ages 20 to 33, 
who had been placed in care between 1988 and 1998.
    While the study documented many success stories, other results we 
saw were disturbing, particularly when examining issues regarding how 
foster youth transition to adulthood. The study showed that foster care 
alumni--in far greater proportion than the general population--suffered 
serious mental health issues, were far less likely to pursue and attain 
a college degree, and experienced difficult employment and financial 
situations that often led to unemployment, homelessness, and a lack of 
health insurance and medical benefits. More specifically, the Northwest 
Alumni Study reported that one in four foster care alumni suffered from 
Post Traumatic Stress Disorder--more than twice the rate for U.S. war 
veterans; one-third had household incomes at or below the poverty line, 
and more than one in five experienced homelessness after leaving care.
    Taken individually, any one of these areas could hinder a young 
adult's efforts to build a successful life. But when taken together, 
they present a nearly impossible set of obstacles for far too many 
foster youth. If we continue to fail to help this population enjoy the 
American dream, we will not just be failing them, but we will be 
failing the future of our communities in which they begin and live out 
their lives as adults.
    But we are not here today to talk about failing. We are here to 
talk about making the health and well-being of our most vulnerable 
children our No. 1 priority, and continuing to create and fund 
solutions that change the way America cares for this population.
    I want to focus the remainder of my testimony today on what Casey 
Family Programs believes are the critical areas of emphasis for 
improving outcomes for children in foster care, and providing specific 
recommendations to the Subcommittee regarding ongoing federal funding 
commitments that support vulnerable children, youth and families.
    Specifically, Casey Family Programs will focus on the following 
areas as part of our strategy to significantly improve the lives of 
children in foster care by the year 2020:
Education
    One path we know, without question, that can transform a young life 
is education. We know that many foster youth struggle mightily to 
finish high school, much less move on to vocational schooling or 
college-level degrees. One of my greatest concerns is that, if nothing 
changes in the next 15 years, current data tell us that only 9,000 of 
those 300,000 young people who will age out of foster care by the year 
2020 can expect to earn a college degree.
    A strong majority--70 percent--of teens in the foster care system 
have a desire to attend college. A recent study of 1,500 foster care 
youth in Casey Family Programs showed that nearly half attended some 
college, demonstrating that these youth will take advantage of 
opportunities for education when provided. But the reality is, as 
indicated through our Northwest Alumni Study, very few (3 percent) 
complete either vocational training or a college degree.
    The California Assembly Select Committee on Foster Care has taken a 
step in this direction with proposed legislation to provide former 
foster youth with a comprehensive package of educational services and 
supports, based on a model program developed in partnership with the 
philanthropic community.
    We must create better support and funding for allowing foster youth 
to remain with family placements beyond the age of 18, which encourages 
the development of lifelong relationships with foster parents and other 
supportive adults, and gives these youth longer-term housing solutions 
during difficult times, or times when they are completing high school 
GED programs, and vocational or college coursework. In addition, we 
must support programs that combine financial aid, housing and a variety 
of services and supports to ensure post-secondary education success. 
Specifically, we recommend requiring the Advisory Committee on Student 
Financial Assistance to provide recommendations for expanding access to 
youth in foster care--and those in kinship care--to federal financial 
aid. In addition, we also strongly encourage the TRIO and GEAR UP 
programs to make those youth in foster care and transitioning out of 
care a priority.
Employment
    Youth aging out of foster care are often underemployed with low-
incomes. New strategies supporting employment of transitioning youth 
combine traditional employment and training programs with necessary 
support services, such as counseling, peer support, child care, and 
transportation assistance.
    Youth in care with minimal or no job experience may benefit from 
collaborations that blend social services with workforce development. 
We can and should do a better job of connecting foster care youth to 
these programs, and we need to start in the early teen years, so young 
people have developmentally appropriate opportunities to systematically 
develop a strong work ethic and skills. The more preparation and 
training young people receive through education and pre-employment 
skills development, the better equipped they will be to achieve 
economic success.
    There are excellent examples across this country of public-private 
partnerships and programs that are providing critically important 
transition services to youth in care and those who have emancipated 
from the foster care system. By pooling resources among public 
agencies, community and non-profit organizations and the philanthropic 
community, we are bringing more and more support to these young people 
at time in their lives when they need it the most. But the needs of 
these youth continue to out-run the resources currently provided, so we 
ask the Subcommittee to continue supporting and encouraging these types 
of integrated programs and efforts in our communities.
Mental Health
    I think it is particularly critical to highlight the mental health 
needs of this vulnerable population. Casey's Northwest Alumni Study 
found that, compared to the general population, a disproportionate 
number of alumni (54%) suffered mental health disorders, especially 
post-traumatic stress disorder (PTSD), major depression, social phobia, 
panic syndrome, and generalized anxiety. In fact, we found the 
proportion of foster care youth with post-traumatic stress disorder to 
be double that of U.S. war veterans.
    If nothing else, this statistic should serve to remind us of the 
significant challenges these children face when they enter our system, 
and provide significant incentive for us to ensure they have a healthy 
transition to adulthood.
    Many youth, as they emancipate, enter jobs that do not provide 
health insurance or pay sufficient wages to allow them to purchase 
coverage independently. In addition, there is a national shortage of 
qualified providers who can help young people with the often unique 
developmental, mental health, and substance abuse issues some foster 
youth may face when transitioning from care.
    Overall, children in foster care often suffer from poor health and 
have much higher rates of chronic physical disabilities, birth defects, 
developmental delays and serious emotional and behavioral problems than 
children from the same socioeconomic background who are not in out-of-
home care. Although current federal cuts have provided additional 
challenges on this front, it is vital that federal policies give states 
the flexibility to connect youth leaving foster care to existing health 
programs such as Medicaid. Casey believes health care coverage through 
Medicaid, especially for mental health, needs to be available to these 
youth through up to age 25.
Caseloads
    Simply put, caseloads in many jurisdictions across the country are 
too high.
    It is a documented fact that dangerously high caseloads severely 
jeopardize the health and well being of the children in our care, and 
prevent front-line caseworkers from focusing on the highest-priority 
needs regarding permanence and transition for youth.
    During my tenure with New York City's Administration for Children's 
Services, I had the opportunity to help design a series of reforms that 
significantly reduced the number of children in foster care, and the 
number of new admissions into foster care, and began to show 
improvements in the quality of service exchanges with children and 
families.
    We defined as one of the critical and necessary elements of this 
reform process the investing in our workforce to improve the quality of 
the frontline supervision and caseworkers.
    We knew that staff could not be expected to adequately fulfill 
their responsibilities if they were not trained properly, did not 
receive appropriate supervision, did not have appropriate staffing 
support and resources, or if they were constantly afraid that their 
decisions would not be supported by ACS and New York City leadership.
    In short, how we support our front-line caseworkers is both a 
resource issue and a cultural issue within our child welfare 
departments. We are either providing our caseworkers with the resources 
and training they need--in addition to the confidence and backing they 
need to do their best work--or we're failing them and the children we 
place in their care.
Success Factors
    I would also like to share several critical foundational components 
that I believe must be in place in order for significant change and 
improvement to take occur in our child welfare system over the next 15 
years.
    Number 1: There must be a commitment of the political will 
necessary to sustain change. The child welfare system must have the 
consistent, powerful and focused leadership of the chief politician 
(whether it is the governor, a county elected official, or the mayor) 
in order to keep driving improvements forward. Child Welfare must be 
treated with the same level of support and attention as police, fire, 
and education.
    Number 2: There must be competent executive and mid-level 
leadership. If you want to improve outcomes on the front lines of our 
child welfare system, those in leadership positions must have the 
experience and expertise to ensure that strategies and vision can be 
translated into action.
    Number 3: There must be a clear plan of action and clearly 
articulated principles and standards to guide the work. Everyone--from 
the top of the organization to the frontline caseworkers--must have a 
clear understanding of the plan, processes and desired outcomes. This 
creates a culture of trust, of consistency, of action and, most 
importantly, of accountability.
    Number 4: There must be a reasonable and continuous investment in 
frontline supervision and frontline caseworkers. There must be a 
culture of support and success created with the people who are 
responsible on a daily basis for the health and well being of the 
children in foster care. These frontline supervisors and caseworkers 
must know that they have the confidence and backing of leadership in 
doing their work.
    Number 5: We must develop and demand strong cross-systems 
partnerships. Child Welfare systems cannot do this work alone. The 
system must work in tandem--with local communities, law enforcement, 
education, community-based organizations, philanthropic organizations 
and others--to build comprehensive programs that improve the lives of 
children in foster care.
    Number 6: We must create and enforce data-driven accountability, 
and publicly report on our outcomes. We must have accurate systems to 
measure child welfare outcomes and hold us accountable for improving 
the lives of children in foster care.
    Number 7: We need time. Systems don't improve overnight. We need 
time to get the right people in place, time to get the right resources 
aligned, time to test and make sure that we have the right systems and 
processes in place, time to form the right partnerships and 
collaborations, and time to see what is and isn't working.
Casey Recommendations to the Subcommittee
    To make the improvements we are discussing here toward better 
outcomes for children, the federal government needs to make reasonable 
and continuous investments in the range of child protective services it 
funds, and to retain a leading partnership role with the states and 
organizations such as Casey Family Programs.
    Over time, this Subcommittee and the Administration can foster the 
statutory links and collaborative efforts among legislative 
jurisdictions and federal agencies that are necessary to create the 
comprehensive strategy and steps to permanency that we propose for 
foster youth transitioning to adulthood.
    That is much easier said than done, but leadership from this 
Subcommittee and the Administration--along with other key policymakers 
at the state, federal and local levels--will continue to set the tone 
of the discussion and dialogue around how we care for the vulnerable 
children in this country.
    Meanwhile, we strongly support your efforts to keep stable and 
flexible funding options for the states to operate foster care and 
child welfare services. Capping or reducing funds now available to the 
states would slow their progress in improving outcomes and putting in 
place longer-term, comprehensive programs and systems. And it is 
important to begin now to improve funding for prevention and family 
services, which can include more flexibility in use of funding streams.
    Casey recommends that the foster care entitlement be continued and 
that more flexibility be added, particularly to assist relative (or 
kinship) caregivers and subsidized guardians, and to improve resources 
for preventive services to families. Specifically, our recommendations 
include the following:

    <bullet>  Preserve the Title IV-E entitlement funding structure. 
States' open-ended entitlement to administrative funds should also be 
maintained.
    <bullet>  Title IV-E funds should be made available to children 
requiring services in their homes, to help prevent out-of-home 
placements.
    <bullet>  Title IV-E funding eligibility should be adjusted for 
inflation. The federal eligibility link tied to AFDC eligibility as of 
1996 is outdated and burdensome to administer because children may need 
protection regardless of the financial circumstances of their 
biological family. Title IV-E funds should be made available to all 
children removed from their homes, including those placed with relative 
caregivers and in subsidized guardianships. The recent reversal of the 
Rosales v. Thompson court decision denies states IV-E reimbursement for 
children being cared for by relatives, highlights the need to remove 
artificial eligibility criteria for federal assistance to neglected and 
abused children removed from their homes. By maintaining and supporting 
extended-family connections, we are creating opportunities for 
permanency for far more children than are currently available through 
adoption.
    <bullet>  State child welfare systems should continue to be 
accountable for meeting federal standards ensuring child safety and 
well-being.
    <bullet>  State child welfare systems should be provided adequate 
resources to meet those standards. Federal administrative and training 
funds are necessary for states to provide a stable and well-trained 
workforce, the most critical resource in child welfare services.
    <bullet>  Mental health and rehabilitative services for the child 
welfare population should be explicitly authorized under Medicaid and 
State Child Health Insurance Program (SCHIP).
    <bullet>  Twenty-one years of age should be established for all 
states as the minimum age for youth to emancipate from care, allowing 
extended program funding and supports.
    <bullet>  Health care and mental health benefits for youth 
transitioning from foster care should be extended up to age 25.
    <bullet>  Title IV-B Child Welfare services funds should be 
significantly increased, to help states serve children within their 
family and community, and diminish incentives for removal of a child to 
foster care. Casey Family Programs supports increasing the entitlement 
authorization by at least $40 million.
    <bullet>  Chafee Program: The Administration needs to implement the 
data collection and state performance assessment processes that were 
authorized in the 1999 legislation. This program is the most critical 
resource for assisting youth aging out of foster care, and it is 
significantly under-utilized.
Looking Forward
    Improving the lives of children in foster care is a long-term 
process that can only be accomplished through partnership and 
collaboration, with both public and private investment, and federal and 
state alignment.
    When leadership, systems and investment are aligned, so many other 
positive pieces fall into place--such as cross-system support and 
sharing, accountability and data reporting, funding efficiency, systems 
innovation and, most importantly, improvement in the outcomes for our 
children.
    Yes, we strongly support reauthorizing the Promoting Safe and 
Stable Families (PSSF) program, and providing sufficient funding. This 
is consistent with Casey Family Programs' focus on reducing the overall 
number of children in foster care, and reinvesting the savings to 
ensure positive outcomes for America's most vulnerable children.
    But parallel to that we must have leadership--the kind that this 
Subcommittee continues to model for Congress, the Administration and 
our states.
    I'd like to conclude my testimony today with remarks from a foster 
care alumnus that continue to provide for me a laser focus on improving 
the lives of abused and neglected children in this country.
    What this young man said was this: He doesn't believe in the 
resilience of youth as our solution, he believes in you and me. He 
believes in our commitment to children in our communities, and he 
believes in our ability to make positive change happen for children in 
foster care.
    He said our children don't belong to our federal or state 
governments, they belong to you and me. And most important of all, he 
said, referring to himself and all children in foster care: ``We are 
all your children, and we need all of you to help.''
    And then he made one request--when it comes to children in foster 
care, he said, we must apply the ``Standard of Your Own Children.'' And 
that standard is this:
    ``If it's good enough for your own children, then it's good enough 
for any vulnerable child in America.''
    I urge each of us here today to apply that standard as we move 
forward with improvements in America's child welfare system. If it is 
not good enough for our children or the children of our family members, 
then it is not good enough for any vulnerable child in this country.
    I want to again thank Mr. Chairman and the Subcommittee members for 
the invitation to offer my remarks today. Casey Family Programs looks 
forward to continuing to work with each of you to make the health and 
well-being of our most vulnerable children our No. 1 priority.
    I'm happy to answer any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you. Mr. Wexler to testify.

   STATEMENT OF RICHARD WEXLER, EXECUTIVE DIRECTOR, NATIONAL 
             COALITION FOR CHILD PROTECTION REFORM

    Mr. WEXLER. Mr. Chairman, Members of the Subcommittee, 
greetings from the family-values left. My name is Richard 
Wexler, and I am Executive Director of the National Coalition 
for Child Protection and Reform, a nonpartisan, nonprofit child 
advocacy organization. Thank you for inviting me to testify 
today. With only 5 minutes, I am going on skip the boilerplate 
about what a wonderful organization we are. It is all in our 
written statement and on our Web site. Since I am about to say 
something nice about a plan from the Bush Administration, I do 
want you to know this. I am a lifelong liberal Democrat, 
noncountercultural-McGovernick, lapsed-card-carrying member of 
the ACLU. My board members include a former director of Housing 
and Homelessness for the Child Welfare League of America and a 
former legal director of the Children's Defense Fund. I take 
great pride in being part of the only organization, besides the 
sponsors singled out for thanks by Representative Miller in his 
remarks opening the Child Welfare Summit he helped to open in 
2002. The fact that one of the most important ways Congress can 
improve child protective services happens to come from the Bush 
Administration is no reason for my fellow liberals to reject it 
out of hand. Now that this fine idea has been embraced not only 
by Governor Jeb Bush of Florida and Governor Schwarzenegger of 
California, but also by Governor Jennifer Granholm of Michigan, 
I hope my friends on the left will reconsider and give the 
Nation's other Governors the same opportunity to help children 
if they choose to seize it.
    I refer to the Administration's child welfare program 
option, the proposal to take billions of dollars now reserved 
for holding children in substitute care and allow States to use 
that money for safe, proven alternatives as well. In 2003, 
Senator Clinton said the plan deserved careful consideration. 
It still does. One year ago this Subcommittee heard some of the 
shocking findings from a study of alumni of the Nation's foster 
care system conducted by Mr. Bell's organization and Harvard 
Medical School. Other findings are in his written testimony 
today. You didn't hear some of the worst. One-third of the 
alumni reported being abused by a foster parent or another 
adult in a foster home. When it came to their overall 
functioning as young adults, only 20 percent could be said to 
be doing well. I cannot fathom why some of my fellow liberals 
are so wedded to locking away billions of dollars and 
restricting those dollars to funding a system that churns out 
walking wounded four times out of five. Some might say that we 
can fix foster care if only we spent even more on it, but that 
alumni study found something else. Even if we could fix 
everything wrong with foster care, it would improve those 
rotten outcomes by 22.2 percent. The system still would churn 
out walking wounded three times out of five. Even so small an 
improvement is well worth the effort, but the real lesson of 
that study and 150 years of experience with substitute care is 
that the only way to fix foster care is to have less of it. To 
my friends on the right, if you are thinking orphanages, a 
century of research says their outcomes are even worse.
    It is a dangerous delusion to think that anything that 
happens in an institution with an endowment that rivals the 
gross domestic product of some Third World nations, where 
children are overwhelmingly sent overwhelmingly often by single 
parents or foster parents and where 77 percent of the children 
are not foster children at all, has anything to tell us about 
the norm, institutions where children are held by force of law 
with no choice and no parent to turn to when the so-called 
``house parents'' quit every year or two as the norm or when 
the whole place goes bad, as so many orphanages do not just in 
19th century England, but in 21st century America. Or has 
everybody already forgotten about Maryville? Or perhaps people 
feel the harm of foster care is tolerable because they assume 
whatever foster children came from must be worse. Sometimes 
that is true. Far more common than the sadistic brutes who make 
headlines, the horror stories, are families whose children are 
torn from everyone loving and familiar because a parent's 
poverty has been confused with neglect--parents like the mother 
who is desperate to keep her low-wage, job but can't find day 
care so she leaves her children alone when the sitter doesn't 
show; or the home rendered unsafe by Hurricane Wilma and yet 
they had their children torn from them until they provided, 
quote, ``a stable living environment.'' These kinds of cases 
are a large proportion of that 900,000 figure you heard. The 
caseworker who comes to the door may know that the answer is 
day care or rent subsidy, but often there is no money for day 
care and no money for rent subsidies. Thanks to an open spigot 
of Federal aid that covers a large part of the cost for every 
eligible child and enormous political pressure from a public 
that knows the horror stories, there is always money for foster 
care.
    In 1991, Senator Rockefeller's National Commission on 
Children found that children often are removed from their 
families, quote, ``prematurely or unnecessarily'' because 
Federal aid formulas give States, quote, ``a strong financial 
incentive'' to do so rather than provide services to keep 
families together. Of course the Administration plan won't fix 
all of that but it is a reasonable place to start. One final 
point. This hearing asks what works to protect children. 
Intensive family preservation services works. The very term 
family preservation was invented for this service. I single it 
out now because, contrary to what you may have heard, many 
studies find that when these programs rigorously follow the 
model of the first such program, Home Builders, in Washington 
State, they do indeed safely reduce the need for foster care. 
Thank you. I would be pleased to respond to any questions.
    [The prepared statement of Mr. Wexler follows:]
Statement of Richard Wexler, Executive Director, National Coalition for 
             Child Protection Reform, Alexandria, Virginia
    Mr. Chairman, members of the Subcommittee, thank you for inviting 
me to testify today. My name is Richard Wexler, and I am executive 
director of the National Coalition for Child Protection Reform, a 
nonpartisan, non-profit child advocacy organization dedicated to making 
the child welfare system better serve America's most vulnerable 
children.
    We are a very small organization, with no particular interest in 
becoming another big non-profit bureaucracy. But what we lack in size, 
we make up for in track record. To cite just one example: We were the 
only national child advocacy organization to predict the collapse of 
the Florida child welfare system--three years before it happened--
because we knew that the child welfare agency there was embarking on 
the same course that had led other states and localities to disaster, a 
course they now are trying to change.
    And we are proud to have been the only child advocacy organization, 
aside from the event sponsors, singled out for thanks by Rep. George 
Miller in his remarks opening the Child Welfare Summit he helped to 
organize in 2004.
    There is more about NCCPR, our distinguished board of directors, 
our funders, and our track record on our website, www.nccpr.org
    For now, though, I want to note only that I have gotten into the 
habit of referring to our organization as ``the family-values left.'' I 
am a lifelong-liberal-non-counter-cultural-McGovernick-lapsed-card-
carrying-member-of-the-ACLU. My board members include the former 
Director of Housing and Homelessness for the Child Welfare League of 
America and a former Legal Director of the Children's Defense Fund. Our 
Founding President is a former member of the National Board of the 
ACLU. I mention this because children never should be caught in the 
crossfire of a left-right debate. There are good ideas to be found at 
all points on the political spectrum, and when one emerges it should be 
embraced--without regard to where it originated.
    So the fact that one of the most important ways Congress can 
improve Child Protective Services happens to come from the Bush 
Administration is no reason for my fellow liberals to jerk their knees 
in opposition. But too often, they have done just that. Now that this 
fine idea has been embraced not only by Governor Jeb Bush of Florida 
and Governor Arnold Schwarzenegger of California, but also by Governor 
Jennifer Granholm of Michigan, I hope that my friends on the left will 
reconsider--and give the nation's 47 other governors the same 
opportunity to help their vulnerable children, if they choose to seize 
it.
    I refer to the Administration's Child Welfare Program Option, the 
proposal to take billions of dollars now reserved for holding children 
in substitute care and allow states to use that money for safe, proven 
alternatives as well.
    The story of one child and his mother explains why this change has 
the potential to be so important.
    This is what a single mother in the Bronx named Rose Mary Grant had 
to do every week for many, many months, just to see her 11-year-old 
son, Issa, as described in a keenly-observed story in the Westchester 
County, N.Y. Journal-News:
    ``Starting from her brick apartment tower, Rose walks a block to 
Gun Hill Road, takes the 28 bus to the subway station, catches the 5 
train to Harlem, makes her way down 125th Street, boards the Metro-
North train to Dobbs Ferry, and rides a shuttle--At each step, she 
places two metal crutches ahead of her and swings forward on two 
prosthetic legs.'' \1\
---------------------------------------------------------------------------
    \1\ Leah Rae and Shawn Cohen, ``Issa's story: a mother's love isn't 
enough,'' The Journal News, Westchester County, New York, October 28, 
2006.
---------------------------------------------------------------------------
     The journey would have been worth it, had there been something 
worthwhile at the end of the line. But there wasn't. Issa was 
warehoused at a ``residential treatment center.'' This is a form of 
care so utterly ineffective that even the head of the trade association 
for child welfare agencies, the Child Welfare League of America, had to 
admit that they lack ``good research'' showing its effectiveness and 
``we find it hard to demonstrate success.'' \2\ (He made these remarks 
in a pep talk to residential treatment providers, so it's not 
surprising that he went on to blame the lack of success on the fact 
that children weren't placed in RTCs soon enough).
---------------------------------------------------------------------------
    \2\ Shay Bilchik, ``Residential Treatment: Finding the Appropriate 
Level of Care,'' Residential Group Care Quarterly, Vol. 6 No. 1, 
Summer, 2005 (Washington: Child Welfare League of America).
---------------------------------------------------------------------------
    Issa is not paranoid, he's not schizophrenic, he's not delusional. 
The only label pinned on him is Attention Deficit Hyperactivity 
Disorder. Sometimes, at home, he was seriously out-of-control. But his 
handicapped, impoverished single mother couldn't do what middle-class 
and wealthy families do: find a good psychiatrist and hire home health 
aides. She couldn't do that because the federal government does almost 
nothing to help pay for such alternatives. But, in many cases, the 
federal government will gladly reimburse states between 50 and 83 cents 
for every one of the 86,000-or-more dollars it costs to keep children 
like Issa in his ``RTC.''
    Now consider another case, described in the cover story of the 
June, 2003 issue of the outstanding trade journal, Youth Today. EMQ 
Children and Family Services used to be just like the place that 
warehoused Issa. But 11 years ago, they admitted to themselves that 
what they were doing was not helping children. So they shut down 100 of 
their 130 beds and came up with far better alternatives for the 
children. They wound up helping more children at less cost and getting 
far better outcomes.\3\ Another institution, Youth Villages in 
Tennessee, won a national award for doing the same thing.\4\ Keep in 
mind that the children they helped in their own homes or foster homes 
are the very same children that the child welfare establishment--what I 
have come to call, ``the foster care--industrial complex,'' insists 
absolutely cannot be helped anyplace except in their institutions.
---------------------------------------------------------------------------
    \3\ Martha Shirk, ``The Gift of Wrapping,'' Youth Today, June, 
2003, available online at http://www.youthtoday.org/youthtoday/
a%20june2003/story2.html
    \4\ Bill Alexander, ``Radical Idea Serves Youth, Saves Money,'' 
Youth Today, June, 2001.
---------------------------------------------------------------------------
    But both Youth Villages and EMQ encountered the same problem: For 
years, even though their alternatives were better and cheaper, they 
couldn't get reimbursement from their states because of what Youth 
Today aptly characterized as opposition from ``the group home 
industry.'' EMQ almost went out of business.
    There are many cases that don't involve institutions at all, but do 
involve needless use of foster care. Here are a few:

    <bullet>  In Orange County, California, an impoverished single 
mother can't find someone to watch her children while she works at 
night, tending a ride at a theme park. So she leaves her eight-, six-, 
and four-year-old children alone in the motel room that is the only 
housing they can afford. Someone calls child protective services. 
Instead of helping her with babysitting or daycare, they take away the 
children on the spot.\5\
---------------------------------------------------------------------------
    \5\ Laura Saari, ``Checking Up on the Children,'' Orange County 
Register, Jan. 17, 1999, p.E1.

    <bullet>  In Akron, Ohio, a grandmother raises her 11-year-old 
granddaughter despite being confined to a wheelchair with a lung 
disease. Budget cuts cause her to lose housekeeping help. The house 
becomes filthy. Instead of helping with the housekeeping, child 
protective services takes the granddaughter away and throws her in 
foster care for a month. The child still talks about how lonely and 
terrified she was--and about the time her foster parent took her 
picture and put it in a photo album under the heading: ``filthy 
conditions.'' \6\
---------------------------------------------------------------------------
    \6\ Donna J. Robb, ``Child Abuse Charge Unfair, Group Says'' The 
Plain Dealer, March 11, 1998, p.1B.

    <bullet>  In Los Angeles, the pipes in a grandmother's rented house 
burst, flooding the basement and making the home a health hazard. 
Instead of helping the family find another place to live, child 
protective workers take away the granddaughter and place her in foster 
care. She dies there, allegedly killed by her foster mother. The child 
welfare agency that would spend nothing to move the family offers 
$5,000 for the funeral.\7\
---------------------------------------------------------------------------
    \7\ Nicholas Riccardi, ``Grandmother Blames County in Latest Death 
of Foster Child'' Los Angeles Times, June 15, 1999, p.B1.
---------------------------------------------------------------------------
    Contrary to the common stereotype, most parents who lose their 
children to foster care are neither brutally abusive nor hopelessly 
addicted. Far more common are cases like the ones above, cases in which 
a family's poverty has been confused with child ``neglect.''
    Why do states take children in these cases? There are many reasons, 
but back in 1991, one of the most distinguished groups ever to examine 
the issue, the National Commission on Children, chaired by Sen. 
Rockefeller, found that children often are removed from their families 
``prematurely or unnecessarily'' because federal aid formulas give 
states ``a strong financial incentive'' to do so rather than provide 
services to keep families together.\8\ That hasn't changed.
---------------------------------------------------------------------------
    \8\ National Commission on Children, Beyond Rhetoric: A New 
American Agenda for Children and Families, (Washington, DC: May, 1991) 
p. 290.
---------------------------------------------------------------------------
    Even the official journal of the Child Welfare League of America 
has reported that one-third of America's foster children could be safe 
in their own homes right now, if their birth parents just had decent 
housing.\9\ And that makes CWLA's opposition to flexibility that much 
more disturbing.
---------------------------------------------------------------------------
    \9\ Deborah S, Harburger with Ruth Anne White, ``Reunifying 
Families, Cutting Costs: Housing--Child Welfare Partnerships for 
Permanent Supportive Housing,'' Child Welfare, Vol. LXXXIII, #5 Sept./
Oct. 2004, p.501.
---------------------------------------------------------------------------
    Documentation for this, and other problems related to the 
widespread confusion of poverty with child ``neglect'' can be found in 
our Issue Papers at www.nccpr.org.
    Other cases fall on a broad continuum between the extremes, the 
parents neither all victim nor all villain. What these cases have in 
common is the fact that there are a wide variety of proven programs 
that can keep these children in their own homes, and do it with a far 
better track record for safety than foster care. Sometimes, these in-
between cases involve substance abuse. And that raises another 
question: Why even bother with parents--usually mothers--in these 
cases? But the reason to ``bother'' is not for the sake of the parents, 
but for their children.
    University of Florida researchers studied two groups of infants 
born with cocaine in their systems. One group was placed in foster 
care, the other with birth mothers able to care for them. After six 
months, the babies were tested using all the usual measures of infant 
development: rolling over, sitting up, reaching out. Consistently, the 
children placed with their birth mothers did better.\10\ For the foster 
children, being taken from their mothers was more toxic than the 
cocaine.
---------------------------------------------------------------------------
    \10\ Kathleen Wobie, Marylou Behnke et. al., To Have and To Hold: A 
Descriptive Study of Custody Status Following Prenatal Exposure to 
Cocaine, paper presented at joint annual meeting of the American 
Pediatric Society and the Society for Pediatric Research, May 3, 1998.
---------------------------------------------------------------------------
    It is extremely difficult to take a swing at ``bad mothers'' 
without the blow landing on their children. If we really believe all 
the rhetoric about putting the needs of children first, then we need to 
put those needs ahead of everything--including how we may feel about 
their parents. That doesn't mean we can simply leave children with 
addicts--it does mean that drug treatment for the parent is almost 
always a better first choice than foster care for the child.
    And every day we are seeing more evidence, most recently in 
research results from Washington State, that addiction to 
methamphetamine is just as treatable as any other addiction.\11\
---------------------------------------------------------------------------
    \11\ Bill Luchansky, Ph. D, Treatment for Methamphetamine 
Dependency is as Effective as Treatment for Any Other Drug (Olympia, 
WA: Looking Glass Analytics, December 2003) available online at http://
www1.dshs.wa.gov/word/hrsa/dasa/ResearchFactSheets/
LuchanskyMethFS1504.doc. See also: Martha Shirk, The Meth Epidemic: 
Hype vs. Reality, Youth Today, October, 2005, available online at 
http://www.youthtoday.org/youthtoday/oct05/story2_10_05.html
---------------------------------------------------------------------------
    That Florida study only hints at why avoiding foster care is so 
vitally important. Last year, one of the groups opposing flexibility 
did a fine job of conjuring up all the old stereotypes: In a series of 
cookie-cutter reports released in different states with little beyond 
the name of the state, and the state chapter of the issuing 
organization, changed, they sought to have readers infer that children 
are taken only from sadistic brutes or hopeless addicts, and always are 
placed in, to use the phrase they repeated over and over ``safe foster 
care.'' \12\ Please beware of such ``inference peddling.''
---------------------------------------------------------------------------
    \12\ e.g., Abandoning Ohio's Most Vulnerable Kids: Impact on Crime 
of Proposed Federal Withdrawal of Foster Care Funding Pledge: A report 
from Fight Crime: Invest in Kids Ohio, undated, 2005, Abandoning 
Oregon's Most Vulnerable Kids: Impact on Crime of Proposed Federal 
Withdrawal of Foster Care Funding Pledge: A report from Fight Crime: 
Invest in Kids Oregon, undated, 2005, Abandoning Iowa's Most Vulnerable 
Kids: Impact on Crime of Proposed Federal Withdrawal of Foster Care 
Funding Pledge: A report from Fight Crime: Invest in Kids, undated, 
2005, and Keeping the Promise of a Safe Home for Northern California's 
Children: The Impact on Child Abuse and Future Crime of Capping Federal 
Foster Care Funds: A report from Fight Crime: Invest in Kids 
California. (By the time they got to Rep. Herger's district, they 
changed the title, but it's essentially the same report).
---------------------------------------------------------------------------
    Most foster parents try to do the best they can for the children in 
their care, many are true heroes. Nevertheless, often, foster care is 
not safe. Sometimes it is not safe for the body; very, very often it is 
not safe for the soul.
    One year ago, a prominent foster care provider, Casey Family 
Programs, and Harvard Medical School released one of the most ambitious 
studies ever conducted of foster care alumni. Even as she spoke against 
flexibility, a representative from Casey Family Programs shared some of 
the alarming findings with you at a hearing last year. But the case for 
flexibility is apparent in some of the findings she didn't get to, that 
are even more shocking. Fully a third of the former foster children 
said they'd been abused by a foster parent or another adult in a foster 
home. (The study did not even ask about one of the most common forms of 
abuse in foster care, foster children abusing each other). Overall, 
when looking at a series of measures of how these young people were 
functioning, only one in five could be said to be doing well.\13\
---------------------------------------------------------------------------
    \13\ Casey Family Programs / Harvard Medical School, Improving 
Family Foster Care: Findings from the Northwest Foster Care Alumni 
Study, (Seattle, WA: 2005). Available online at http://www.casey.org/
NR/rdonlyres/4E1E7C77-7624-4260-A253-892C5A6CB9E1/300/
nw_alumni_study_full_apr2005.pdf
---------------------------------------------------------------------------
    I cannot fathom why some of my fellow liberals are so wedded to 
locking away billions of dollars and restricting those dollars to 
funding a system that churns out walking wounded four times out of 
five.
    Some might reply that we can ``fix'' foster care--if only we spent 
even more money on it. Perhaps that's why one leading opponent of 
flexibility was quoted in Youth Today as saying that ``reducing foster 
care caseloads should never be an end in itself.'' \14\ That comment 
was made by one of the finest child advocates I've ever known, one of 
the few people in Washington whose record over the years truly deserved 
the overused title, champion for children. But on that statement, we 
could not disagree more.
---------------------------------------------------------------------------
    \14\ ``Foster Funding Overhaul on the Way?'' Youth Today, 
September, 2004.
---------------------------------------------------------------------------
    Safely reducing foster care should be an end in itself, and it is a 
noble end, for it will spare thousands and thousands of children the 
emotional torment of separation from everyone they know and love.
    And there is no ``fix'' for that torment. That same alumni study 
used an elaborate mathematical formula to calculate how much better the 
rotten outcomes for foster children would be if everything about foster 
care were magically fixed. The answer: 22.2 percent. In other words, if 
you could wave a magic wand and make foster care perfect, it would 
churn out walking wounded three times out of five instead of four.
    That's worth doing. But the real lesson of that study, and 150 
years of experience with substitute care, is that the only way to fix 
foster care is to have less of it. And to my friends on the right: If 
you're thinking orphanages, a century of research says their outcomes 
are even worse.\15\
---------------------------------------------------------------------------
    \15\ Thirty-nine studies documenting these rotten outcomes are 
cited in Richard Wayman, Clinical Studies, Survey Review and Pediatric 
Research on Risks and Harm to Children and Youth Subjected to Large, 
Residential Institutions, a literature review available from NCCPR.
---------------------------------------------------------------------------
    Financial incentives at the federal, state and sometimes local 
level--plus the power of the ``foster care-industrial complex'' 
marginalize drug treatment, and housing assistance, and day care, and 
all the other safe, proven alternatives to substitute care--all the 
ways to fix foster care by having less of it.
    The Administration proposes to change that. I will not go into the 
details of the plan here--to the extent that we know them--the 
Subcommittee already is familiar with them. There are reasonable 
questions about this plan, involving arcane but important details you 
have heard about before. They fall under headings like ``maintenance of 
effort'' and ``eligibility lookback.'' And there is one part of the 
plan with which we disagree. For reasons discussed in more detail 
below, we oppose the use of TANF money for an emergency foster care 
fund, even though we believe such a fund would be used very rarely.
    Last year, one member of this subcommittee complained about the 
fact that there is a plan but no legislative language. That's a fair 
complaint. But that is also a reason to support the position originally 
taken by Sen. Clinton in a famous USA Today op ed column she co-
authored with Rep. DeLay: that the plan deserves ``careful 
consideration.'' \16\ Such consideration is, of course, impossible if 
the plan is rejected before one even sees legislative language. But in 
much of the child welfare community, the response to this proposal 
boils down to: ``Whatever it is, we're against it.''
---------------------------------------------------------------------------
    \16\ Sen. Clinton and Rep. DeLay wrote: ``President Bush has 
offered one proposal that deserves careful consideration. He wants to 
give states an option to change the way foster care is financed so they 
can do more to prevent children from entering foster care, shorten the 
time spent in such care and provide more assistance to children and 
their families after they leave the system.'' Hillary Rodham Clinton 
and Tom DeLay, ``Easing foster care's pain unites disparate 
politicians,'' USA Today, February 26, 2003.
---------------------------------------------------------------------------
    In some cases, that sounds like naked self-interest. Of course CWLA 
is opposed--their member agencies hold children in foster care. The 
Residential Treatment Center that held Issa so long and so needlessly 
is a prominent member--though I am pleased to report that in the years 
since I first raised this case in written testimony, that Center has 
hired a bold, visionary executive director who is trying to break with 
the agency's past.
    States and localities typically tell these agencies that their 
first job is to return these children safely to their own homes or, if 
that is not possible, find them adoptive homes. But if they do that, 
those same states and localities will stop paying them. The states say 
they want permanence, but they pay for limbo, reimbursing agencies for 
every day they hold children like Issa in foster homes or institutions.
    Agencies piously proclaim that they would never, ever hold a child 
in foster care just because their parents are poor. Similarly, it has 
been argued that the people in the system are simply too good and too 
decent to ever let money affect how they do their jobs.
    Most of the people in the system are good and decent--certainly 
they are not jack-booted thugs who relish destroying families. But we 
have seen over and over in all sorts of endeavors that lousy financial 
incentives can force good people to do bad things.
    Most doctors and hospital administrators are as dedicated and 
caring as people in child welfare. Yet it is now well-established that 
when hospitals are paid for every day they hold a patient they tend to 
hold patients too long. And when doctors are paid on a pure fee-for-
service basis, you are more likely to see unnecessary surgery. 
Conversely, a pure HMO arrangement can deny patients hospitalization 
and surgery they really need. There is an urgent need for balance--but 
what is indisputable is: Financial incentives matter.
    Why do some good, loving parents surrender their children to foster 
care when it's the only way to get mental health care? Not because 
they're evil. But because money leaves them no other choice. Financial 
incentives matter.
    Why did Sen. Rockefeller's National Commission on Children, which 
examined these issues so thoroughly, find that children were removed 
from their homes ``prematurely or unnecessarily''? Because, they found, 
financial incentives matter.
    Why did the Pew Commission on Foster Care zero in on how child 
welfare is financed as one of two key areas for reform? Because they 
realized financial incentives matter.
    Congress provides millions of dollars in bounties every year, 
payable to states that increase the number of adoptions over the 
pervious year's total. So Congress knows: Financial incentives matter.
    And to see how much they matter, one need look no further than 
Illinois, where changing financial incentives is the lynchpin of a 
reform effort that transformed that state's child welfare system from a 
national disgrace into a national model.
    In 1997, Illinois had 51,000 children in foster care--
proportionately more than any other state. Today, the foster care 
population in Illinois is under 18,000 \17\--and, proportionately, 
below the national average. At the same time, and this is most 
important, child safety has improved.
---------------------------------------------------------------------------
    \17\ See the Monthly Executive Statistical Summary published by the 
Illinois Department of Children and Family Services for the latest 
totals; previous editions document the total in 1997.
---------------------------------------------------------------------------
    If you thought that was all due to adoption, it's understandable. 
Since that's the part of the story that is most popular politically, 
for many year it was the part that state officials liked to tell the 
most. But the biggest changes in Illinois are that the state is taking 
far fewer children in the first place \18\--and it has changed 
financial incentives to get children back into their own homes faster.
---------------------------------------------------------------------------
    \18\ Ibid.
---------------------------------------------------------------------------
    Illinois no longer simply pays private agencies for each day they 
hold a child in foster care. Instead, they've switched to a system they 
call ``performance-based contracting.'' Agencies are rewarded for 
keeping children safely in their own homes or finding them adoptive 
homes. They are penalized for letting children languish in foster care. 
Once Illinois changed the payment system, lo and behold: The 
``intractable'' became tractable, the ``dysfunctional'' became 
functional, the foster care population plummeted and, independent 
court-appointed monitors found that child safety improved. Remember, 
these are the same children that those good, caring people said 
absolutely had to be in foster care, back when the financial incentives 
encouraged foster care.
    No one is harder on agencies than the lawyers who bring class-
action lawsuits to reform them. In Illinois, the lawsuit that 
transformed child welfare was brought by Ben Wolf of the Illinois 
Branch of the ACLU. Says Mr. Wolf:
    ``Performance contracting was the centerpiece of the reforms here. 
In conjunction with the retraining and restructuring of the front-end 
investigations and initial removal decisions, it was the key reason 
that our system was able, consistent with safety, to become so much 
smaller. Performance contracting was the principal reason that so many 
thousands of children were able to achieve permanency.'' \19\
---------------------------------------------------------------------------
    \19\ Personal communication.
---------------------------------------------------------------------------
    Some have argued that the very fact that Illinois managed to do 
this under the current system shows that there is no need to change 
federal financial incentives. However:

    <bullet>  Illinois is an exception. It required rare and 
extraordinary guts and imagination, combined with an unprecedented 
child welfare crisis--and the class-action lawsuit--before the state 
could summon the strength to fight its ``foster care-industrial 
complex'' and accomplish real reform.
    <bullet>  Illinois was among the first states to take advantage of 
waivers and among the most creative in their use. That option, of 
course, doesn't even exist at the moment.

    In order to accomplish its reforms, Illinois had to swim against 
the tide of federal policy as reflected by where the federal government 
puts its money. If we really want to change child welfare and improve 
the prospects of America's most vulnerable children, then the tide of 
federal policy needs to turn toward reform, so states that want to do 
better are swimming with the tide instead of against it.
    This doesn't mean that agency executives sit around a table 
clasping their hands and chortling with glee as they contemplate how to 
hold more children in foster care. It's much more subtle than that. 
Rationalization is powerful--it's easy to convince yourself that 
residential treatment really works when it doesn't, or that those birth 
parents are so awful that this child really could use a few more months 
in foster care anyway.
    A major study of child welfare in Milwaukee found that large 
numbers of children could be home if their parents just had decent 
housing. But caseworkers were, to use that favorite child welfare 
term--in denial--about it.
    According to the study: ``workers may simply not be in a position 
to provide assistance with housing due to a lack of resources. If this 
is true, they may tend to ignore housing as a problem rather than deal 
with the cognitive dissonance caused by the recognition that they 
cannot help their clients with this important need.''\20\
---------------------------------------------------------------------------
    \20\ Mark E. Courtney, et. al., ``Housing Problems Experienced by 
Recipients of Child Welfare Services,'' Child Welfare, note 9, supra., 
p.417
---------------------------------------------------------------------------
    Similarly, because funding has been so skewed toward foster care 
for so very long, those very good frontline workers who do recognize 
that, for example, housing might save a child from foster care often 
believe they have no choice. There's no money for housing--there's 
always money for foster care. As Dr. Fred Wulczyn, Research Fellow at 
the Chapin Hall Center for Children told this subcommittee last year: 
``Once funding is tied up in the foster care system, redirecting foster 
care dollars when it is advantageous to do so is difficult.'' \21\
---------------------------------------------------------------------------
    \21\ Testimony of Fred Wulczyn, Chapin Hall Center for Children, 
before the House of Representatives, Committee on Ways and Means, 
Subcommittee on Human Resources, Hearing on Federal Foster Care 
Financing, June 9, 2005, available online at http://
waysandmeans.house.gov/hearings.asp?formmode=printfriendly&id=2765
---------------------------------------------------------------------------
    Of course, financial incentives aren't the only incentives pushing 
needless foster care. There are the incentives caused by fear and 
loathing of birth parents--the false stereotypes that lead to 
assumptions that every child in foster care really needs to be there. 
There are the incentives caused by highly-publicized deaths of children 
``known to the system'' which can set off foster-care panics--huge 
spikes in needless removals of children--which only divert scarce 
resources from finding children in real danger and actually lead to 
increases in child abuse deaths. And there is the constant pressure of 
the foster-care industrial complex; agencies with their prominent 
boards of directors woven into a community's business and civic elite.
    For all of these reasons foster care is the path of least 
resistance. And that's the answer to another question raised by critics 
of flexible funding: Why don't states just use the flexible funding 
options they have now like TANF and the Social Services Block Grant? If 
some foster care is unnecessary, why are these dollars being used to 
fund it? Because it's easier, that's why. With all these incentives for 
needless foster care, it's urgent to create a counter-incentive--
something to make agency leaders think twice before encouraging a 
foster-care panic, for example. The Child Welfare Program Option plan 
does that. By making IV-E foster care maintenance funding flexible, it 
allows states to begin to build the infrastructure of prevention and 
family preservation that reduces needless use of foster care. With the 
demand for foster care reduced--and the savings generated by 
prevention, which costs less than foster care--states can begin to put 
their TANF and SSBG money back where it belongs, into safe, proven 
programs to support vulnerable children and families. (As discussed 
below, when it comes to TANF, I suggest a stick as well as a carrot).
    As I said, the misuse and overuse of foster care is rarely a 
conscious act. But sometimes, it is. Every once in awhile the mask 
slips.
    The mask slipped when a social worker who deals extensively with 
New York's private agencies stated in a sworn affidavit that ``I have 
been advised by a foster-care agency caseworker that her facility has 
imposed a three-month moratorium on discharges, because it was not 
receiving sufficient referrals to fill its beds.'' \22\
---------------------------------------------------------------------------
    \22\ Affidavit of Barbara Winter, M.S.W., C.S.W., Hauser v. Grinker 
Index #16409/89, Supreme Court of the State of New York, County of New 
York, June 6, 1990, p.20.
---------------------------------------------------------------------------
    The mask slipped when an agency in Maine told foster parent Mary 
Callahan why she couldn't adopt two foster children. The worker told 
her: ``Let's say we need 60 kids to make payroll and we only have 61. 
We wouldn't be talking adoption or reunification with anybody until we 
got our numbers up.'' \23\
---------------------------------------------------------------------------
    \23\ Personal Communication. See also, Bonnie Washuk, ``DHS must 
change, walkers insist,'' Lewiston (Me.) Sun-Journal, December 9, 2003.
---------------------------------------------------------------------------
    And the mask slipped last month in Michigan.
    Michigan is planning to make extensive use of the Family to Family 
program, which seeks to avoid foster care placement and, when such 
placement is necessary, keep children with their extended families, in 
their own neighborhoods. That way, they are surrounded by friends, 
teachers, classmates and loved ones, visiting is easier, and foster 
parents can act as mentors to birth parents. (Family to Family is an 
initiative of the Annie E. Casey Foundation which also helps to fund my 
organization, and should not, by the way, be confused with Casey Family 
Programs).
    But the Associated Press reports that late last month, 
representatives of private foster care agencies trooped up to Lansing 
to oppose the program, telling a legislative committee that children 
should continue to be placed with total strangers far from home, 
because the strangers lived in better neighborhoods with better 
schools.\24\ Apparently, the fact that this is exactly what we've been 
doing for about 150 years, with horrible results, did not faze them. 
The dreadful educational outcomes for foster children did not faze 
them. And neither did the fact that, while every child should get to go 
to a good school, it is obscene to suggest that a child should have to 
trade in his family for the privilege.
---------------------------------------------------------------------------
    \24\ David Eggert, ``Private homes criticize state's approach to 
foster care,'' Associated Press, April 26, 2006.
---------------------------------------------------------------------------
    So yes, most people in the system, especially on the frontlines, 
mean well. But it also is worth bearing in mind the words of one of the 
most distinguished experts in the field of child welfare and mental 
health, Dr. Ronald Davidson. Dr. Davidson is director of the Mental 
Health Policy Program at the University of Illinois at Chicago 
Department of Psychiatry. He's been a consultant to the successful 
reforms in Illinois and was instrumental in getting the main campus of 
the state's largest orphanage--once thought to be a model, but actually 
rife with abuse--effectively shut down.
    Says Dr. Davidson: ``Sadly, there is a certain element within the 
child welfare industry that tends to look upon kids in the way that, 
say, Colonel Sanders looks upon chickens . . .''
    You have undoubtedly heard and read a great deal about the 
``addiction'' problem in child welfare. But the biggest addiction 
problem in child welfare isn't substance-abusing parents, though that 
problem is serious and real. The biggest addiction problem in child 
welfare is politically powerful, old-line, well-established child 
welfare agencies with blue-chip boards of directors that are addicted 
to per-diem payments These agencies are putting their addiction ahead 
of the children.
    And the biggest ``enabler'' of this addiction is the federal 
government, with its ``open spigot'' of money for substitute care, and 
far, far less for anything other than substitute care.
    Breaking an addiction is extremely difficult. One first has to get 
past the addict's denial. So it's no wonder that so much of the foster 
care-industrial complex opposed the Child Welfare Program Option 
without even seeing it.
    And some of the opposition to this proposal has consisted of a 
shameful collection of fear, smear, and scare stories. At one point, 
one prominent opposition group even told its members that the plan 
would ``dismantle'' foster care. That's a great way to rally the base--
but it's flat wrong.

    <bullet>  First of all, this is not a ``block grant'' in any 
meaningful sense of the term. Under a block grant, several different 
funding streams are combined, states are allowed to use the money for 
any purpose covered by any of those funding streams--and, often, some 
money is cut from the total.

    In contrast, this plan involves only one portion of one funding 
stream--Title IV-E foster care funds. This money could be spent on 
prevention and adoption. But the other funding streams remain separate. 
Title IV-B funds for prevention, for example, cannot be used for foster 
care. This ``IV-B firewall'' is a crucial feature of the plan. Were IV-
B and IV-E to be combined, the ``foster care-industrial complex'' would 
grab the prevention money to use for more foster care. In fact, just 
such a shameful grab of funds intended to help families has occurred in 
the Temporary Assistance for Needy Families program, something I 
discuss below.
    Flexibility cannot be absolute. It must always be in the direction 
of helping the most vulnerable, not helping powerful special interests. 
The Administration plan recognizes this. In the absence of this 
firewall we would oppose the plan. Indeed, the lack of such a firewall 
is the fatal flaw in the much more tepid recommendations from the Pew 
Commission.

    <bullet>  Second, this plan not only does not cut funding, in some 
cases, funding may go up. Under this plan, states would receive the 
same, agreed-upon amount of money for each of the five years. In 
contrast, states that stick with the status quo will find that the 
proportion of foster care costs covered by the federal government will 
decrease, as a result of the ``eligibility lookback.''

    Furthermore, while some have criticized the five-year commitment 
that would be required of states that choose to take part in the plan, 
that same five-year commitment means the funding level is guaranteed. 
In contrast, the existing entitlement formula can be changed whenever 
Congress so chooses. So it is ironic indeed that critics argue that the 
Administration plan is more vulnerable to cuts because it is a so-
called ``block grant.'' In fact, it is the status-quo that is more 
vulnerable to cuts.

    <bullet>  And perhaps most important, this plan is strictly 
voluntary. Though states that opt in must stay in for five years, any 
state that feels it's not getting a good deal can walk away from the 
table and stick with the status quo. If the fine print matches the 
broad outlines, governors and child welfare leaders who have the guts 
and imagination to try something with so much potential to do so much 
good, should have the right to do so, without being held back by their 
timorous colleagues and a foster care establishment with a huge vested 
interest in the status quo.

    This year, three governors stepped forward. As I noted at the 
outset, those governors are Jeb Bush of Florida, Arnold Schwarzenegger 
of California, and Jennifer Granholm of Michigan. It would be hard to 
find three governors with more diverse perspectives. It's hard to 
imagine all of them agreeing on anything. Yet all three have realized 
that it is a crime against children to force them to be separated from 
everyone they know and love, just because that's the only way to get 
huge amounts of federal aid for their care. All three have decided that 
the flexibility embodied in the Administration proposal is the best way 
to help their state's vulnerable children. But all three had to go 
through a long, cumbersome waiver process to get this flexibility--a 
waiver process which, at the moment, no longer exists.
    If another governor wants to step forward to help her or his 
state's vulnerable children in the same way, why should she or he be 
denied that chance? More important, why should that state's children be 
denied the chance to escape the tragedy of needless foster care?
    As I said at the outset, there are reasonable questions about this 
plan. But because the plan is strictly voluntary, it doesn't have to be 
perfect to be worth offering to the states.
    Some of my friends on the left sometimes suggest that we should 
deny states this crucial flexibility in favor of this or that 
alternative bill. These alternative bills often have some very good 
provisions. Often, they would make fine additions to flexibility--but 
they are no substitute for it, because all of the proposals I've seen 
leave intact or even enhance the giant, open-ended, untouchable 
entitlement for substitute care. That is a waste of money. More 
important, it is a waste of children's lives. My friends on the left 
say ``spend more.'' The Administration plan says: ``spend smarter.'' We 
need to do both.
    I have spent all of this time discussing an area where there is not 
enough flexibility. Now I want to discuss an area where there has been 
too much: TANF.
    It should be among the bigger scandals in child welfare--though 
it's perfectly legal. But so far, I know of only one newspaper, The 
Hartford Courant, that has reported on it.\25\ Here's how it works:
---------------------------------------------------------------------------
    \25\ Colin Poitras, ``Child Care Funds Lacking,'' Hartford Courant, 
March 25, 2006.
---------------------------------------------------------------------------
    An impoverished single mother, desperate to keep her low-wage job 
leaves her children home alone because she can't find day care she can 
afford. She can't get day care because federal aid that might provide 
such day care has been transferred elsewhere. The children are taken 
away on a ``lack of supervision'' charge. They are placed in foster 
care. The foster parents and the bureaucracy supporting them, and the 
child abuse investigator, all are paid in part using the money diverted 
from low-income day care.
    It happens because the federal government allows some states to use 
TANF surplus funds to finance foster care and even child abuse 
investigations. The Courant reports that in Connecticut alone $129 
million in TANF money has been diverted from basic, concrete help to 
keep families together into the foster care system that tears them 
apart.
    Peg Oliveira, a policy fellow and early child-care expert for 
Connecticut Voices for Children told the Courant: ``Instead of using 
funds in a proactive way and helping families achieve self-sufficiency, 
they let things happen because they don't spend on child care and then 
try to fix it on the back end through [the child welfare agency].''
    For various arcane reasons, not every state is allowed to use TANF 
money for foster care. But nationwide, the Urban Institute estimates 
that $2.7 billion in TANF money was spent on child welfare services in 
the 2002 federal fiscal year. Furthermore, of the total amount states 
spent on out of home care, 28 percent of the money came from TANF--
again, a program created to help poor families become self-
sufficient.\26\
---------------------------------------------------------------------------
    \26\ Cynthia Andrews Scarcella, et. al., The Cost of Protecting 
Vulnerable Children IV (Washington,DC: The Urban Institute: 2004), 
available online at http://www.urban.org/UploadedPDF/
411115_VulnerableChildrenIV.pdf
---------------------------------------------------------------------------
    That's not always wrong. Some states use this money to help 
grandparents and other relatives provide kinship care.
    Ideally, that should not be necessary. My friends on the left are 
correct in pushing to eliminate barriers to using IV-E to pay relatives 
at the same rate as strangers. But until that happens, TANF is a 
legitimate source for such funding--because it supports families, and 
it supports an option that has consistently proven better for children 
and safer than what should properly be called ``stranger care.'' \27\
---------------------------------------------------------------------------
    \27\ University of Illinois Children and Family Research Center, 
Family Ties: Supporting Permanence for Children in Safe and Stable 
Foster Care with Relatives and Other Caregivers, available online at 
http://www.fosteringresults.org/results/reports/pewreports_10-13-
04_alreadyhome.pdf
---------------------------------------------------------------------------
     But other states, like Connecticut, actually use TANF to subsidize 
foster care with strangers and child abuse investigations. Congress 
should close the loophole that allows this.
    Two final points:

    <bullet>  First, it is reasonable to work to link funding to 
outcomes. But beware of any proposal that uses the Child and Family 
Services Reviews to measure those outcomes. It is not true that a bad 
scorecard is better than no scorecard, and the CFSRs are dreadful. The 
50-case sample size means state performance can appear to be improving 
when it's actually getting worse and vice versa. Some CFSR outcome 
measures actually reward poor performance and punish success in keeping 
families together. And that's only the beginning. There is more in our 
publication, The Trouble with CFSRs, also on our website, www.nccpr.org
    <bullet>  And finally, a word about one of the most important 
questions you've posed at this hearing: What services achieve improved 
child outcomes--or rather, make that four words: Intensive Family 
Preservation Services (IFPS). The very term ``family preservation'' was 
invented to describe this kind of program. The first IFPS program, 
Homebuilders<Register>, was invented in Washington State in the mid-
1970s. The program is discussed in detail in NCCPR Issue Papers 1, 10 
and 11, on our website.

    But while Homebuilders is a trademark, ``family preservation'' is 
not. Any child welfare agency can call anything it wants a ``family 
preservation'' program, even if it is nothing like the Homebuilders 
model. The biggest problem probably is ``dilution'' of the model--
agencies try to cut corners by taking the intensity out of Intensive 
Family Preservation Services. Another problem is the failure of many 
programs to follow the Homebuilders emphasis on concrete help to 
ameliorate the worst effects of poverty.
    And that has played into the hands of a child welfare establishment 
that is threatened by any alternative to foster care. There are several 
studies showing the effectiveness of Homebuilders-type programs. Some 
of them are summarized in our Issue Papers at www.nccpr.org But 
proponents of a ``take the child and run'' approach to child welfare 
ignore them, while trumpeting any evaluation of an alleged ``family 
preservation'' program that finds the program doesn't work--without 
drawing a distinction between the Homebuilders model and others.
    A new review of the literature draws that distinction. It was 
conducted by the Washington State Institute for Public Policy and it's 
available here: http://www.wsipp.wa.gov/rptfiles/06-02-3901.pdf
    The authors conclude: ``IFPS programs that adhere closely to the 
Homebuilders model significantly reduce out-of-home placements and 
subsequent abuse and neglect. We estimate that such programs produce 
$2.54 of benefits for each dollar of cost. Non-Homebuilders programs 
produce no significant effect on either outcome.''
    Of course, to fully realize those benefits, states need the 
flexibility to use money now restricted to foster care on safe, proven 
alternatives such a Homebuilders--which brings us back to where we 
started.
    Thank you Mr. Chairman and members of the Subcommittee. I would be 
pleased to respond to any questions.

                                 <F-dash>

    Chairman HERGER. Thank you. Ms. Hinojosa.

    STATEMENT OF IKEITA CANTU HINOJOSA, ASSOCIATE COUNSEL, 
  LEGISLATIVE AFFAIRS, NATIONAL ASSOCIATION OF SOCIAL WORKERS

    Ms. HINOJOSA. Chairman Herger and other distinguished 
Members, thank you for the opportunity to be here. The National 
Association of Social Workers, or NASW, is the largest 
membership organization of professional social workers in 
world, with over 150,000 members. NASW works to enhance the 
professional growth and development of its members, to create 
and maintain standards for the profession, and to advance sound 
social policies. The social work profession has a long 
tradition of involvement with the CWS, and we recognize the 
importance of reauthorizing the PSSF. Chairman Herger, we 
completely agree with your statement that we should do all that 
we can to help families receive services to prevent child abuse 
and neglect. Further, we are pleased about the additional $40 
million for the PSSF included in the House draft bill. The bill 
allows for use of funds to enhance caseworker visitation with 
foster care children; we know that increased client contact 
will yield better outcomes. However, we do caution that one of 
the challenges we hear from our social workers is the mounting 
administrative burden imposed by government. Agencies need 
access to technology to reduce such administrative time. That 
is why we are pleased to see that funds can be used to improve 
caseworker ability to access the benefits of technology. Child 
welfare positions are particularly stressful, often resulting 
in unreasonable caseloads and low pay. Consequently, it becomes 
difficult to attract and retain the most qualified employees, 
those with professional training and experience. We hope to 
work with Congress to identify solutions, and we offer the 
following recommendations:
    First, we recommend that Congress help establish a national 
caseload size. The Child Welfare League of America recommends 
the caseload ratio of 12 to 15 children per caseworker and the 
Council on Accreditation recommends caseloads not exceed 18 
children per caseworker, yet a national survey found that 
caseloads for individual child welfare social workers ranged 
from ten to 110, with workers handling on average 24 to 31 
children, each double the recommended number. We ask Congress 
to consider ways to establish a national caseload size. 
Methodologies for calculating average caseload sizes, taking 
into account State variations could be developed in 
consultation with NASW and other national organizations. An 
example of a benchmark measure could include increased 
percentages of caseworkers and supervisors with BSW and MSW 
degrees, and we offer additional benchmark measures in our 
written testimony. Second, we recommend that Congress improve 
education and training opportunities for frontline workers. 
Some social workers are able to take advantage of Federal 
assistance through the title IV-E and title IV-B programs, 
which upgrade the skills and qualifications of child welfare 
workers. While these programs serve a useful purpose and must 
be preserved, we know that these two programs alone cannot 
support the entire field of workers. A new national study from 
NASW assuring the sufficiency of a frontline workforce, a 
national study of licensed social workers, found that the 
supply of licensed social workers is insufficient to meet the 
needs of organizations serving families and communities. 
Congress should provide the 3.3 percent in discretionary 
funding to allow for research, training and evaluation of 
services in the CWS. We believe that valuable employment 
incentives, including pay increases, benefits, student loan 
forgiveness and promotional opportunities are essential for the 
development and retention of a highly skilled human services 
workforce. Third, we recommend that Congress strengthen the 
cultural competence of the child welfare workforce. Nationally 
and in most States, children of color, especially African 
American children, are overrepresented in the system. This 
disproportionate recommendation continues despite research 
indicating that there are no differences in the incidence of 
child abuse and neglect by racial and ethnic groups. We know 
from our workforce study that social workers' young clients are 
more likely to be children of color and to come from 
environments that are plagued by socioeconomic disadvantages. 
At each decision point culturally appropriate action or 
inaction can profoundly influence the trajectory of a child's 
life, yet there exists a shortage of both social workers of 
color and social workers with cross-cultural communication 
skills to reflect the communities they serve. We suggest that 
each State participating in the title IV-B and title IV-E 
programs include within their federally approved plan 
guidelines for strengthening the cultural competence of child 
welfare staff, specific steps to identify the existence of 
racial disproportionality at key decision-making points, if 
any--and such points are outlined in our written testimony--and 
increased resources both to enable social workers to enhance 
the recruitment and retention of potential foster and adoptive 
families consistent with the Multiethnic Placement Act (P.L. 
103-82), and to enable the hiring of culturally and 
linguistically appropriate staff to meet the needs of the 
community at competitive salary rates. As you can see, social 
workers are an integral part of the CWS, as is the PSSF. For 
the system to be improved, adequate supports must be in place 
and the program must be fully funded to its authorized level. 
Also, social workers who care for children and families must 
receive adequate salaries, appropriate training and manageable 
caseloads. Further, States must make diligent efforts to reduce 
the disproportionality of children of color in the CWS. This 
concludes my remarks. Thank you for the opportunity to speak 
with you today. I will be glad to answer your questions.
    [The prepared statement of Ms. Hinojosa follows:]
  Statement of Ikeita Cantu Hinojosa, Associate Counsel, Legislative 
            Affairs, National Association of Social Workers
    Chairman Herger and other distinguished members of the Committee on 
Ways and Means, we thank you for considering our statement as you 
prepare to reauthorize the Promoting Safe and Stable Families Program.
    The National Association of Social Workers (NASW) is the largest 
membership organization of professional social workers in the world, 
with over 150,000 members. NASW works to enhance the professional 
growth and development of its members, to create and maintain standards 
for the profession, and to advance sound social policies. NASW also 
contributes to the well-being of individuals, families, and communities 
through its work and advocacy.
    Social work is the largest and most important social service 
profession in the United States. Social workers help people function 
better in their environments, improve their relationships with others, 
and solve personal and family problems through individual, social, and 
psychological counseling and support.
    The most commonly reported practice areas of licensed social 
workers are mental health (37%), child welfare/family (13%) and health 
(13%).\1\ Social workers also work with older adults, adolescents, in 
schools, and in various other settings and populations.
---------------------------------------------------------------------------
    \1\ Whitaker, T. Weismiller, T. & Clark, E. (2006). ``Assuring the 
sufficiency of a frontline workforce: A national study of licensed 
social workers. Executive summary.'' Washington, DC: National 
Association of Social Workers. Available online at http://
www.socialworkers.org/resources/workforce/files/NASW_SWCassuring_3.pdf
---------------------------------------------------------------------------
    Ninety-one percent of NASW members hold master's degrees in social 
work and 92 percent maintain some type of license, certification, or 
registration in their state; 70,000 also hold advanced credentials from 
NASW.
Overview
    The social work profession has a long tradition of involvement with 
the child welfare system and welcomes the opportunity to participate in 
the process of reauthorizing the Promoting Safe and Stable Families 
Program (PSSF). The program, formerly the Family Preservation and 
Support Services Program, is an important flexible funding source for 
an array of services for families with children. We recognize the 
importance of this program given that in 2003, an estimated 2.9 million 
cases of child abuse and neglect were reported and referred for 
investigation to state and local child protective service agencies 
because family members, professionals, or other citizens were concerned 
about their safety and well-being. After follow-up assessments, 
officials were able to substantiate 906,000 of these cases.\2\ The 
program is also a critical component for reaching the goals of the 
Adoption and Safe Families Act (ASFA). It helps build capacity in 
states and communities so that services are available for children and 
families.
---------------------------------------------------------------------------
    \2\ U.S. Children's Bureau. (2005). Child maltreatment 2003: 
``Reports from the states to the national child abuse and neglect data 
system.'' Available online at http://www.acf.hhs.gov/programs/cb/pubs/
cm03/index.htm
---------------------------------------------------------------------------
Background on the Promoting Safe and Stable Families Program
    The PSSF program was created in 1993 and originally named the 
Family Preservation and Support Services Program. At that time, all 
funding was guaranteed or mandatory. PSSF was reauthorized in 1997 and 
renamed the Promoting Safe and Stable Families Program. Prior to this, 
at least 90% of the funds were used for family preservation and 
community-based family support services. The 1997 reauthorization added 
two additional service categories: time-limited reunification services 
and adoption promotion and support services to the existing family 
preservation and family support services. The Deficit Reduction Omnibus 
Reconciliation Act of 2005, passed in February 2006, provides a one-
year (FY 2006) increase in mandatory, or guaranteed, funding for PSSF, 
bringing the mandatory funding up to $345 million from the current 
level of $305 million.
    In addition to the mandatory funds guaranteed for PSSF annually, 
Congress also has the ability to approve up to $200 million each year 
in additional discretionary funds. In FY 2006, Congress approved $89.1 
million in discretionary PSSF funds, a decrease of nearly $9 million 
from the FY 2005 level--far short of the $200 million that Congress 
could have approved. Therefore, the net increase for PSSF funding in FY 
2006 will be slightly less than $30 million, bringing total funding 
(mandatory and discretionary) for the program from $403 million in FY 
2005 to $434 million in FY 2006.
    The bill also amends the current Court Improvement Project 
(currently funded as a set-aside of regular PSSF funds), which provides 
grants to states' highest courts to use to assess and improve their 
child welfare proceedings. The bill provides additional funding for two 
new grant programs--each funded at $10 million annually--aimed at 
strengthening the performance of courts on behalf of children who have 
been abused and neglected, including those in foster care and those 
waiting to be adopted.
    PSSF funds are used to provide time-limited reunification services 
to address the needs of children and families who are involved in the 
foster care system. Services are provided within 15 months after the 
child enters foster care. Reunification services for the child and 
family include counseling, substance abuse treatment, mental health 
services, assistance to address domestic violence issues, temporary 
child care, and transportation services. Social workers serve children 
and families in many of these capacities.
    Funds are allocated to states according to their relative shares of 
children receiving food stamps, subject to a 25% non-federal match. 
From annual mandatory funds, $6 million is provided for research, 
evaluation, and technical assistance to identify and expand on programs 
proven effective. The State Court Improvement Program receives an 
initial allocation of $10 million annually, with additional funds 
provided if Congress allocates funds in addition to the $305 million in 
mandatory funds. The law emphasizes the importance of using court 
improvements to promote the Adoption and Safe Families Act's goals of 
safety, permanence, and well-being.
    In addition to this reserved funding, if Congress opts to do so, 
the program could provide additional discretionary funds such as 3.3% 
for research, training, and evaluation; another 3.3% of discretionary 
funds could be available for state court improvement programs; and 2% 
of discretionary funds could be reserved for tribal governments.
    Chairman Herger, we completely agree with your statement in the May 
12 Committee's press release that ``It is important that we do all we 
can to help families receive services to prevent child abuse and 
neglect.'' Further, we are pleased about the additional $40 million for 
the Promoting Safe and Stable Families Program included in the House 
draft bill. The bill allows for the use of funds to enhance caseworker 
visitation with foster care children, especially in the home. We know 
that increased client contact will yield better outcomes. However, we 
do caution that one of the challenges we hear from our workers that 
strive for more visitation is the mounting administrative burden 
imposed by the federal and state governments. Of course we know that 
data is critical to informing and improving outcomes, but these 
processes can drain time from worker visits. Agencies need access to 
technology to remain current with these systems and to reduce 
administrative time. That is why we are very pleased that funds can be 
used to improve ``caseworker retention, recruitment, training, and 
ability to access the benefits of technology.''
    Child welfare positions are particularly demanding and stressful, 
often involving unreasonable workloads and low pay in comparison to 
jobs in other sectors that require comparable amounts of education and 
responsibility. Consequently, it becomes difficult to attract and 
retain the most qualified employees--those with professional training 
and experience. We hope to work with Congress to identify solutions to 
these complex problems and we offer the following recommendations:
Improve Education and Training Opportunities for Frontline Workers
    The public has high expectations for the child welfare system, as 
it should. Everyday, these agencies make life and death decisions for 
children and families with complex needs, striving to meet extensive 
legal mandates. We know that proper staff training is a critical 
component of this system. A number of studies have documented the 
critical connections between training, competency, and quality 
services.
    A report in the Journal of Education for Social Work found that 
workers with social work education were more effective in service 
delivery than workers with a Bachelor of Arts (BA) degree or other 
graduate degrees.\3\ The connection of workforce quality to family 
outcomes was further documented in a March 2003 report by the U.S. 
General Accounting Office which states, ``A stable and highly skilled 
child welfare workforce is necessary to effectively provide child 
welfare services that meet federal goals. [However,] large caseloads 
and worker turnover delay the timeliness of investigation and limit the 
frequency of worker visits with children, hampering agencies' 
attainment of some key federal safety and permanency outcomes.'' \4\ 
The issue of high caseloads will be addressed later in this document.
---------------------------------------------------------------------------
    \3\ Olsen, L. and W. Holmes. (1982). ``Educating child welfare 
workers: The effects of professional training on service delivery,'' 
Journal of Education for Social Work, 18(1).
    \4\ U.S. General Accounting Office. (March 2003). ``HHS could play 
a greater role in helping child welfare agencies recruit and retain 
staff.'' Washington, DC.
---------------------------------------------------------------------------
    It has been shown that a well prepared staff is more likely to 
remain in the field of child welfare, thus reducing worker turnover and 
increasing continuity of services with the family. Some social workers 
are able to take advantage of Federal assistance through the Title IV-E 
and Title IV-B programs of the Social Security Act. These funds are 
used to upgrade the skills and qualifications of child welfare workers 
through their participation in training programs specifically focused 
on child welfare practice. While these programs serve a useful purpose 
and must be preserved, we know that these two programs alone cannot 
support the entire field of child welfare workers. Specific 
recommendations to enhance Title IV-B and E will follow.
    A new national study from NASW, ``Assuring the Sufficiency of a 
Frontline Workforce: A National Study of Licensed Social Workers,'' 
shines a bright light on issues related to workforce retention.\5\ The 
study warns of an impending shortage of social workers that threatens 
future services for all Americans, especially the most vulnerable among 
us, children and older adults. Key findings include:
---------------------------------------------------------------------------
    \5\ Whitaker, T. Weismiller, T. & Clark, E. (2006). ``Assuring the 
sufficiency of a frontline workforce: A national study of licensed 
social workers. Executive summary.'' Washington, DC: National 
Association of Social Workers. Available online at http://
www.socialworkers.org/resources/workforce/files/NASW_SWCassuring_3.pdf

    <bullet>  The supply of licensed social workers is insufficient to 
meet the needs of organizations serving children and families;
    <bullet>  Workload expansion plus fewer resources impedes social 
worker retention; and
    <bullet>  Agencies struggle to fill social work vacancies.

    Recommendation: Congress should provide the 3.3% in discretionary 
funds to allow for research, training, and evaluation of services in 
the child welfare system. Also, greater investments are needed to 
provide social workers with professional development preparation and 
ongoing training opportunities, particularly in the area of cultural 
competence. We believe that valuable employment incentives, including 
pay increases, benefits, student loan forgiveness, and promotional 
opportunities are essential for the development of a highly skilled 
human services workforce.
Strengthen the Cultural Competence of the Child Welfare Workforce to 
        Improve Outcomes for Children
    Nationally, and in most states, children of color, especially 
African American children, are overrepresented in the system. Although 
African American children constitute 15% of the U.S. child population, 
they represent 34% of all children in foster care. White children, by 
contrast, represent 61% of the U.S. child population but 40% of 
children in foster care.\6\ This disproportionate representation 
continues despite research indicating that there are no differences in 
the incidence of child abuse and neglect by racial or ethnic groups.
---------------------------------------------------------------------------
    \6\ Casey Family Programs. ``Foster care fact sheets.'' Retrieved 
online http://www.fostercaremonth.org/FactsAndStatistics on May 10, 
2006.
---------------------------------------------------------------------------
    The child welfare workforce plays a critical role in ensuring that 
children and families of color receive quality services and that 
appropriate decisions are made to ensure the safety, well-being, and 
permanency of children. It is largely caseworkers and supervisors who 
make decisions regarding the placement of children in foster care and 
permanency outcomes for children. At each decision point, culturally 
appropriate action or inaction can profoundly influence the trajectory 
of a child's life. Social workers in child welfare are expected to be 
knowledgeable about cultural competency practices and standards as 
described in the NASW Standards for Cultural Competence (2001).\7\
---------------------------------------------------------------------------
    \7\ National Association of Social Workers. (2001). ``Standards for 
cultural competence in social work practice.'' Washington, DC: NASW 
Press.
---------------------------------------------------------------------------
    The child welfare workforce has a thirst and a need for cultural 
competence training. There are many workers that lack cross-cultural 
communication skills because of infrequent interaction with other 
cultures. Therefore, the importance of having workers that reflect the 
community they serve cannot be overstated. We know from our workforce 
study that social workers' young clients and their families face an 
array of challenges. These youths are more likely to be children of 
color and to come from environments that are plagued by socioeconomic 
disadvantages. Meanwhile, there exists a shortage of social workers of 
color to serve these families. In racial and ethnic diversity terms, 
the social work profession has not kept pace with the general 
population trends because of its inability to attract workers of color, 
resulting in a workforce that is not as diverse as the population they 
serve.\8\
---------------------------------------------------------------------------
    \8\ Whitaker, T. Weismiller, T. & Clark, E. (2006). ``Assuring the 
sufficiency of a frontline workforce: A national study of licensed 
social workers. Executive summary.'' Washington, DC: National 
Association of Social Workers. Available online at http://
www.socialworkers.org/resources/workforce/files/NASW_SWCassuring_3.pdf
---------------------------------------------------------------------------
    The aforementioned 2005 NASW workforce study of licensed social 
workers states that 89% of social workers desire additional 
training.\9\ Further, social workers in agencies in the public sector 
(which employs the greatest number of new social workers) were more 
likely to report limited training opportunities for new workers. It is 
critical that social workers in child welfare receive adequate training 
early in their careers and on an ongoing basis. Public policies must 
support agencies' ability to offer their staff additional training in 
cultural competence.
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    Recommendation: Given the demographic trends of children of color 
in the child welfare system, the need for more workers of color, and 
the need for child welfare worker training, particularly in cultural 
competence, we suggest that each state participating in the Title IV-B 
and Title IV-E programs include within their federally approved plan:

    <bullet>  Guidelines for developing and/or strengthening the 
cultural competence of child welfare staff;
    <bullet>  Specific steps that the state will take to identify the 
extent to which racial disproportionality exists at key decision-making 
points, if any (to include the following: substantiation of reports of 
child maltreatment, decisions to place children in foster care, 
decisions to seek termination of parental rights, and terminating 
parental rights and freeing children for adoption;
    <bullet>  A plan for addressing disproportionality at key decision 
points, when identified;
    <bullet>  Increased resources to enable social workers to enhance 
the recruitment and retention of potential foster families and adoptive 
parents consistent with the Multiethnic Placement Act; and
    <bullet>  Increased resources to enable child welfare 
administrators to hire culturally and linguistically appropriate staff 
to meet the needs of the community at competitive salary rates.

    The state's implementation of these plan requirements could be 
assessed through the Child and Family Service Review.
Establish a National Caseload Size
    The Child Welfare League of America recommends a caseload ratio of 
12 to 15 children per caseworker, and the Council on Accreditation 
recommends that caseloads not exceed 18 children per caseworker. 
However, a national survey found that caseloads for individual child 
welfare social workers range from 10 to 110, with workers handling on 
average 24 to 31 children, each double the recommended number.\10\ As 
was noted, high caseloads lead to increased worker turnover and reduced 
service capacity.
---------------------------------------------------------------------------
    \10\ Alliance for Children and Families, American Public Human 
Services Association, Child Welfare League of America. (2001). ``The 
child welfare workforce challenge: results from a preliminary study'' 
presented at Finding Better Ways, 2001, Dallas, Texas.
---------------------------------------------------------------------------
    Recommendation: We ask Congress to consider ways to establish a 
national caseload size. Federal policy incentives that encourage states 
and counties to improve their human services workforce by building a 
comprehensive and integrated continuum of services, fostering 
innovation in program design, and developing consistent leadership, are 
desperately needed. Federal statutes, policies, and funding streams can 
help make important and lasting improvements in the ability of social 
workers to meet the needs of the consumer. Methodologies for 
calculating average caseload sizes, taking into account state 
variations in the definitions and assignment of caseloads, could be 
developed by the Secretary of Health and Human Services in consultation 
with NASW and other national organizations. Benchmark measures could 
include: increased percentages of caseworkers and supervisors with BSW 
and MSW degrees, percentage reduction in caseworker turnover rates, and 
the development and adherence to a state plan that all supervisors in 
child welfare receive ongoing, consistent competency-based training on 
child welfare supervision and administration.
Conclusion
    Social workers are an integral part of the child welfare system as 
is the Promoting Safe and Stable Families Program. For the system to be 
improved, adequate funding and supports for the program need to be 
made, and the program must be fully funded to its authorized level of 
$505 million for FY 2007 through 2012. Also, social workers who care 
for children and families must receive adequate salaries, appropriate 
training, and manageable caseloads if the system is to be truly 
reformed. Further, states must make diligent efforts to reduce the 
disproportionality of children of color in the child welfare system.
    We look forward to partnering with you on this important 
legislative initiative. To discuss any of these issues in detail, 
please contact me. Thank you for considering our input.

                                 <F-dash>

    Chairman HERGER. Thank you. Mr. Tower to testify.

 STATEMENT OF WILLIAM O. TOWER, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, AMERICAN FAMILY RIGHTS ASSOCIATION

    Mr. TOWER. Thank you. Mr. Herger, Members of the board, I 
would like to thank you for inviting me here today. I believe 
that a comprehensive, integrated system of child welfare 
services that emphasizes prevention, and early intervention, 
requires a different approach to child protection. As presently 
constructed, the child protection system cannot support the 
values and principles described in the administration of child 
and family services framework. This is due in part to the fact 
that they are not family-centered. When we come down to the 
``waiver program'' that Los Angeles, California, has just 
approved, and several other States have begun to request and 
been granted, in order to make an assessment of family needs 
for provision of services while continuing to respond to cases 
of child abuse--and with this it provides in-home services to 
the family, services that were not available under the 
guidelines in the Federal funding as set forth in title IV-E. 
When we come to family support services, the existing system 
has the same services that the department has recommended to 
typically every parent. They are all sent for psychiatric 
evaluations, counseling, parenting classes, anger management 
classes. This is a routine set of services that the parents and 
children receive. Frequently, one adult member designated as a 
potential abuser is forced out of the home as part of the 
service plan. What needs to be done is that appropriate and 
meaningful services need to be put in place, not the same 
standard that can be used in all cases due to differing issues 
with each family. For example, if the children were removed due 
to unstable housing, then counseling, psychiatric evaluations, 
parenting classes and anger management classes are not 
appropriate. Help with the rent would be a more appropriate 
approach and maybe funding for some education. In this manner 
the parents would be able to make a better living and get back 
on their feet again. However, there is no funding in the 
budgets for this. There is funding for counseling, psychiatric 
evaluations, parenting classes, anger management classes, and 
this money is only there after the children have been removed. 
Nothing in the budget exists for preservation. Even with this 
there is no real funding for family services. The funding is 
earmarked for children services, not family services. Once 
again, there is a fault in the funding scheme. A brief history 
on reasonable efforts: In 1980, Congress passed the Adoption 
Assistance and Child Welfare Act (P.L. 96-272) which in it had 
a provision for a requirement of reasonable efforts that were 
required prior to the child being removed. Federal law requires 
State agencies to demonstrate that reasonable efforts have been 
made to provide assistance and services to prevent the 
unnecessary removal of a child from his or her home and make it 
possible for a child who has been placed out of home care to be 
reunified with his or her family.
    Under the Adoption and Safe Families Act of 1997, while 
reasonable efforts to preserve and reunify the family are still 
required, the child's health, safety and best interest 
constitute the paramount concern in determining reasonable 
efforts to be made. However, reasonable efforts have been 
reduced to a boilerplate statement on court orders that are 
usually typed by the very agency required to perform those 
services. This was the checks-and-balance system that Congress 
intended the court to use in certifying that the agency had 
performed their duties. However, this failed and there are no 
protections for the families and no consequences, or minimal 
consequences, for the agency's failure to fulfill this 
requirement. The bureaucracy is forever in a high state of 
flux. Caseworkers, attorneys general, commissioners, Governors 
and all employees in between are forever flowing through the 
system faster than they can adequately move up the effective 
learning curve. This learning curve, which has proven to be 
longer than the average turnover time of most positions, takes 
on a course of its own contrary to the intent of our Federal 
and State lawmakers. The majority of human and financial 
resources are eaten up with activities that have nothing to do 
with reasonable efforts for family preservation, but more to do 
with the daily task of managing chaos and cover-ups within a 
highly dysfunctional organization. I would like to challenge 
this Congress to set aside the time required to hear from the 
parents that would be able to make it to Washington and hear 
from your constituents what the system is really like and how 
it performs, to see how the system impacts the families it 
touches and how the funding under this bill works from the 
families' points of view in order to get a true measure of what 
is going on here. Thank you.
    [The prepared statement of Mr. Tower follows:]
  Statement of William Tower, President and Chief Executive Officer, 
       American Family Rights Association, Fair Oaks, California
Honorable Lawmakers, Guardians of the United States Constitution,
    The overwhelming majority of children and families needing the 
services of the child welfare system enter through child protection 
services (CPS).
    The current system of child protection services is seriously 
flawed:

    <bullet>  An army of individuals, primarily from the psychiatric 
professions.
    <bullet>  Two out of three reports are ``unfounded'' raising the 
possibility that it might be inappropriate to investigate them in the 
first place.
    <bullet>  Forty percent of the indicated reports are closed the 
same day they are indicated, without families receiving services to 
resolve their problems beyond the investigation itself.

    A comprehensive, integrated system of child welfare services that 
emphasizes prevention and early Intervention requires a different 
approach to child protection. As presently constructed, The Child 
protection system cannot support the values and principles described in 
the administration of child and family services Framework. This is due 
in part that they are not family--centered.
    Fortunately, the Congress has rightfully gone on record in favor of 
reform and is currently examining the option of receiving information 
about the system which gives CPS agencies the flexibility to respond to 
less serious cases of child neglect with
    ``The Waiver program'' that Los Angeles, California and several 
other states have begun to request and have been granted in order to 
make an assessment of family needs and the provision of services, while 
continuing to respond to cases of child abuse, and with this it 
provides in home services to the family, services that were not 
available under the guidelines and federal funding as set forth in 
title 4-E of the Social Security Act.
Family Support Services:
    The existing system has the same services that the Department has 
recommended typically every parent. They are all sent for psychiatric 
evaluations, counseling, Parenting classes and anger management 
classes; this is the routine set of services that the parents and 
children receive. Frequently, one adult family member, designated as a 
potential abuser, is forced out of the home as part of the service 
plan.
    What needs to be done is that appropriate and meaningful services 
need to be put in place. Not the same standard can be used in all cases 
due to differing issues with each family. I.e.: (if the children were 
removed due to unstable housing than counseling, psychiatric 
evaluations, parenting classes and anger management classes are not 
appropriate.) Help with the rent would be a more appropriate approach 
and maybe funding for some education. In this manner, the parents would 
be able to make a better living and get back on their feet again. 
However there is no funding in the budgets for this. There is funding 
for counseling, psychiatric evaluations, parenting classes and anger 
management classes after removal of the children, nothing in the budget 
exists for family preservation. Even with this there is no real funding 
for family services, the funding is earmarked for children services not 
family services. Once again there is a fault in the funding scheme.
The solution to Family Support Services is the Waiver program:

    <bullet>  With the waiver the funds can be used prior to removal 
and hence preservation of the family unit.
    <bullet>  As demonstrated by other states this will require close 
Congressional oversight. This would prevent the funding from being 
abused and funding streams have a check and balance system.
Brief history of Reasonable Efforts
    In 1980, Congress passed the Adoption Assistance and Child Welfare 
Act. The Adoption Assistance Act requires, in part, that states 
receiving federal monies under the Act make ``reasonable efforts'' to 
prevent the removal of children from their homes and, whenever 
possible, to reunify children placed in foster care with their 
families.
    In 1997, Congress passed the Adoption and Safe Families Act (ASFA), 
which modifies the reasonable efforts requirement by allowing 
exceptions to the requirement in certain situations and by using the 
same term--reasonable effort. ``Reasonable efforts'' has been one of 
the most hotly debated and confusing issues in the field of child 
welfare over the past three decades.
When Reasonable Efforts Are Required
    Federal law requires State agencies to demonstrate that reasonable 
efforts have been made to provide assistance and services to prevent 
the unnecessary removal of a child from his or her home, and make it 
possible for a child who has been placed in out-of-home care to be 
reunified with his or her family.
    Under the Adoption and Safe Families Act of 1997 (ASFA), while 
reasonable efforts to preserve and reunify families are still required, 
the child's health, safety and the Childs best interest, constitute the 
paramount concern in determining reasonable efforts to be made.
    However, Reasonable Efforts has been reduced to a boilerplate 
statement on the court orders that are typed by the very agency 
required to perform these services. This was the check and balance that 
Congress intended the Court to use in certifying that the agency had 
performed there duties. However this has failed in that there are no 
protections to the families and no consequences' or minimal 
consequences', for the agency's failure to fulfill this requirement
    Part of the problem is that, The Adoption Assistance Act contains 
no detailed definition of ``reasonable efforts.'' The Act makes clear, 
however, that reasonable efforts to prevent placement or to reunify a 
family must be made in each case, for every child receiving federally 
funded foster care maintenance payments under Title IV-E of the Social 
Security act.
The question for this Committee
    The question that needs to be asked--and answered, is what are the 
incentive issues and focus that drives the foster care system and best 
serves our Nation's children.
    The Federal Government gives incentives for the states to get 
children out of foster care by adoption to others ($6000 each) without 
any penalty or setoff for the number of new children entering the 
system.
    ``What incentive does the Federal Government give the states to 
reunify the families?''Or for that matter prevent them from coming into 
the foster care system in the first place?
    If the Federal Government gave incentives to the states for every 
child that went home more children would go home instead of to adoption 
wouldn't they??
    The states consistently say ``we don't get money for services from 
the Federal Government unless the children are in custody'' so little 
effort to prevent removal is made-unless it's free, or inexpensive. 
Also I've noticed an incredible number of parents are ``cured'' as soon 
as the Federal Money runs out.
    If the states had X number of dollars per child or ``unlimited 
cash'' for 12 months but then the states had to foot the bill (or a 
large part of the bill) for the time after 12 months until adoption is 
completed, the states would be less eager to let children ``hang out''/
``languish'' in long term foster care.
    The Federal Government does not pay money for children (families) 
receiving services until a court establishes ``jeopardy/jurisdiction''. 
What incentive do the states have to offer (pay for) services prior to 
jeopardy?
    And because adoption and reunification can occur at the same time 
the states tend to use the ``before jeopardy'' time to locate an 
adoptive placement (they get paid for this). In cases where a child is 
placed in a pre-adoptive foster care home, lauded as concurrent 
placement, it creates an environment where foster homes have a very 
specific interest in doing everything they can to make sure the child 
stays with them as opposed to reunifying with their biological 
families. Another result is that it allows the foster home to ``try 
out'' the family situation to see if the child ``fits in'' as though a 
child is some kind of pet to be adopted or rejected.
    If the States put as much effort into families the first 120 days 
as they do adoption assistance, there would likely be many families 
that would be ``cured'' within 120 days and jeopardy findings would not 
be necessary.
    If the Federal Government gave ``incentives'' for family placements 
equal or similar to adoptive placements perhaps the states would be 
more inclined to place with relatives. States will argue they do just 
that but the numbers just don't bear it out.
    In short the FEDERAL GOVERNMENT IS RESPONSIBLE, the ``incentives'' 
are all directed toward ``jeopardy'' and adoption.
What we need are ``incentives'' for reunification efforts
    If the Federal Government paid, as example, 100% (or even 110%) of 
family service costs prior to a jeopardy finding, and only 80% after 
the finding the states would be a little slower about bringing 
petitions to the court before working with the families to resolve the 
state's concerns.
    It is paramount that the Office of Inspector General conducts its 
own independent investigation, as child protection issues are too 
complex and politically sensitive to be done locally. Even our 
Washington delegation has been ineffective over the years in 
realistically addressing numerous child protective and foster care 
agency complaints received from their constituents, leaving the public 
vulnerable to civil rights abuses by the State.
    Congress had mandated a new pilot review program to be developed as 
a result of the Administration for Children and Families flagrant 
failure to prevent the states from ignoring their responsibilities. 
Their lack of properly policing child protective and foster care 
agencies has resulted in an unnecessary increase in the number of 
children in foster care while placing only a small number in relative 
care. This is also contrary to Congressional mandates to decrease the 
number of children in foster care by 10%/annum.
    An independent investigation of the states child protective and 
foster care agencies should uncover the bureaucratic failures and 
violations of law that has led up to the large volume of complaints by 
families. For example, caseworkers break laws, rules and regulations 
because their supervisors wrongfully guide their actions. Program 
Administrators take orders from the Director of child protection 
services, who in turn answers to a Commissioner appointed by our 
Governor's. Often Judges grant almost anything social services and 
child protective workers may request of the court. Especially at the 
initial hearing. This unfortunately all takes place under the laws of 
Confidentiality.
    This bureaucracy is forever in a high state of flux. Caseworkers, 
Assistant Attorney Generals, District Attorneys, Commissioners, 
Governors and all employees in between, are forever flowing through the 
system faster than they can adequately move up an effective learning 
curve. This learning curve, which has proven to be longer than the 
average turnover time of most positions, results in incompetence that 
leads to violations of well-founded law. The organizational culture 
takes on a course of its own, contrary to the intent of our Federal and 
State lawmakers. The majority of human and financial resources are 
eaten up with actives that have nothing to do with reasonable efforts 
or Family perseveration, but more to do with the daily task of managing 
chaos and cover-ups within a highly dysfunctional organization.
Among the recommendations:

    <bullet>  Require a Citizen Commission be set up to investigate the 
issues and hear the complaints of the families and citizens of the 
States.
    <bullet>  Require that said committee be comprised of knowledgeable 
citizens and not staffed with members of the agencies who are 
perpetuating the wrongs being brought to congress' attention.
    <bullet>  Pass along the findings of this commission to Congress as 
to inform Congress members of the findings and problems found within 
the system.
    <bullet>  Increase the use the waiver program with strict 
Congressional oversight.
    <bullet>  Enact enforcement of the Reasonable Efforts requirement 
of Pl 96-272.
    <bullet>  Separate the Ombudsman's position from the Health and 
Human Services control and give it the autonomy and teeth necessary to 
properly investigate and rectify abuses from the child protective 
system, including lifting the confidentiality blanket that allows the 
system to run rampant over the rights of the very families the system 
is supposed to be helping.

    I would like to challenge this Congress to set aside the time 
required to hear from the parents that would be able to make it to 
Washington, and hear from your constituent's, what the system is really 
like and how it performs. To see how this system impacts the families 
it touches and how the funding, under this bill works, from the 
families point of view in order to get a true measure of what is going 
on here.

                                 <F-dash>

    Chairman HERGER. Thank you. Ms. Goldsmith to testify.

 STATEMENT OF HEIDI GOLDSMITH, FOUNDER AND EXECUTIVE DIRECTOR, 
              COALITION FOR RESIDENTIAL EDUCATION

    Ms. GOLDSMITH. Mr. Chairman, Members of the Subcommittee, 
on behalf of the CORE, the Coalition for Residential Education, 
I want to express our deep appreciation for your openness to 
considering additional ways to serve children in the CWS and, 
specifically, for mandating proposed legislation to expand and 
strengthen the range of existing services to improve child 
outcomes. I thank you for that. These children deserve the 
best. They deserve what we want for our own children. My name 
is Heidi Goldsmith, and I am Founder and Executive Director of 
CORE, the Coalition for Residential Education, the national 
nonprofit organization that promotes residential schools for 
disadvantaged children and youth. For 13 years we have been 
helping communities across the country open new boarding 
schools for these children and strengthening existing ones, new 
boarding schools such as San Pasqual Academy in San Diego, 
which opened in 2001 specifically to serve adolescents in the 
foster care system. They just had their graduation last year 
and of their 23 graduates, 16 went on to college, five went 
into the military, and the other two got jobs. Those are the 
outcomes. Those are the kind of programs we represent. The 
number of developing and existing programs that want to serve 
children in the foster care system is growing slowly but 
surely, but it is growing and we need your help. Approximately 
23 percent of the students currently in our program are from 
the foster care system, another 12 percent of these children 
were homeless when they entered our programs.
    ``Residential education'' is an umbrella term; it 
encompasses boarding schools, residential academies and the 
newest iteration is residential charter schools. In these 
settings the children--they are education-focused settings; 
they basically serve healthy children from troubled homes--the 
students receive a quality education, live with positive adult 
role models, take advantage of after-school activities like 
sports clubs, the arts, community service, leadership programs 
and more. They learn social skills like conflict resolution. 
They gain a more positive sense of what their lives can be. 
Values and lessons learned are consistent 24 hours a day. What 
they learn in the dorms or in the family homes are reinforced 
in the schools and vice versa. Siblings in large sibling groups 
can remain together. The average length of stay, by design, is 
longer. It is 2 years or more, much longer than emergency 
shelter or group homes, which this option is often frequently 
mixed in with. These children see these places as their second 
home often and not yet one more short-term program to be rushed 
in and out of. As a result, there is a reduced number of 
placements for children in our programs; they go through fewer 
foster homes. Somebody mentioned earlier 40 to 50 homes. They 
go through much fewer because they can stay in these programs 
longer, and therefore their education is much more consistent 
and that leads to better outcomes in life. The prevailing 
philosophy and the proposed legislation contends children are 
best raised in safe, loving families, and we agree. The 
children we are talking about today do not come from such 
homes. What they need now is not what looks like a family, they 
need something that behaves like a safe, loving family, and 
that doesn't have to be just a regular, traditional, foster 
care family; it can be a larger setting. Residential schools: 
For instance, two-thirds of our children in the residential 
schools live with a married couple who live with six to ten 
boys or girls. Others live like they do in New England boarding 
schools.
    I urge you to add the residential education option as an 
alternative clearly and specifically available to judges, 
social workers and other child advocates, who are often 
desperate to find a good, wholesome placement for their kids. I 
contend residential education is a first and effective option 
which we need to expand. The effectiveness of residential 
education has not yet been evaluated, and I urge the evaluation 
of residential education, but we do have one statistic and that 
is our graduation rate. In 2005, we assessed our member 
programs: 79.5 percent of the 2,000 graduates went on to 
college, another five percent enlisted in the military. Pretty 
impressive. My second contention is residential education is 
cost-effective. On the surface, residential education is more 
expensive than traditional foster care. It is about $35,000 a 
year; that is for their education and their home living, 
counseling, after-school activities, et cetera. Compare that to 
where some of the children may end up in the juvenile 
facilities. In about half of most juvenile delinquency programs 
it is a third to a fifth of residential treatment programs 
where some of these children are often placed, because there 
are no other good residential placements for them. Another 
reason why this is extremely cost-effective for taxpayers is, a 
majority of the funding for these programs is private dollars. 
Some, like the Milton Hershey School, the Glenwood School in 
Chicago, they don't even want any funding, any public funding. 
We are in favor of a range of options. We are for family 
preservation, adoption and traditional foster care, but one 
size does not fit all. Parents who live in nice, safe 
neighborhoods often have the financial means to send their 
children with pride to residential prep schools. At-risk 
children deserve the same. If you will permit me one more 
moment. There is, however, a group that is trying to preclude 
these services. They have brought about consent decrees in 
Tennessee and Georgia precluding any children in foster care 
systems from entering our programs. I ask your assistance in 
stopping this by adding residential education clearly and 
specifically for children in the foster care system. Some cling 
to an old image of warehouses, orphanages, et cetera. That is 
not the case. I appreciate that the red light is on. Thank you 
very much for opening yourselves to this option for children.
    [The prepared statement of Ms. Goldsmith follows:]
    Statement of Heidi Goldsmith, Executive Director, Coalition for 
             Residential Education, Silver Spring, Maryland
    Mr. Chairman and Members of the Subcommittee,
    On behalf of CORE: the Coalition for Residential Education, let me 
express our greatest appreciation for your openness to considering ways 
to improve the lives of children in the child welfare system, and for 
mandating, in the proposed legislation, Section 422, Clause 4A, to 
``expand and strengthen the range of existing services . . . to improve 
child outcomes.''
    These children deserve the best. They deserve what we want for our 
own children.
    My name is Heidi Goldsmith. I am Founder and Executive Director of 
CORE: the Coalition for Residential Education, a national non-profit 
organization dedicated to promoting and assisting the development of 
residential schools for disadvantaged children and youth. For twelve 
years we have been helping communities across the country open new 
boarding schools and children's homes. Boarding schools such as San 
Pasqual Academy in San Diego, opened in 2001 through a public-private 
partnership that serves teenagers exclusively in the foster care 
system. CORE formed and guides an association among the approximately 
100 existing programs, created and urges adoption of a set of national 
quality standards for residential living, promotes the sharing and 
adoption of promising practices among the programs, and has begun a 
research agenda on these living and learning environments for young 
people from severely troubled homes.
    The number of new residential education programs in development, 
and existing programs now wanting to also serve children in the foster 
care system because it fits their mission to serve the neediest young 
people, is slowly but surely growing. Currently, approximately 23% of 
the students in our program are from the foster care system, and 
another 12% were homeless when they entered our programs. But we NEED 
your assistance to overcome the barriers we too often face.
    ``Residential education'' is an umbrella term for an out-of-home 
setting where a person both lives and learns. It encompasses boarding 
schools, ?prep' schools, residential charter schools, orphanages, 
children's villages, and youth academies serving basically healthy 
children from economically and socially disadvantaged homes. In these 
24-hour educational, future-focused settings students are fed, receive 
a quality education, live in a safe environment, and can take advantage 
of sports teams, computer clubs, arts, leadership programs, community 
service, and more. They learn social skills such as conflict 
resolution, have positive adult role models, and gain a positive sense 
of what their lives can be. Values and lessons learned are consistent 
24 hours a day--what is taught in the classroom is reinforced in the 
dorms or cottages, and vice versa. Siblings, even large sibling groups, 
can remain together. The average length of stay, by DESIGN, is over two 
years--much longer than an emergency shelter or group home. The 
children see these places as a ``second home,'' and not yet one more 
short-term program to quickly go in and out of. As a result, there are 
a reduced number of placements for children in the foster care system 
who are served in these settings, and their education is more 
consistent, leading to better life outcomes. Your leadership is needed 
to make this a more widely available option.
    The prevailing philosophy, and the proposed legislation, contends 
that children are best raised in safe, loving FAMILIES. Unfortunately, 
the children we are concerned about do not have these families. What 
they need now, though, is not what LOOKS like a family. What they need 
is what BEHAVES like a safe, loving family. They need both physical and 
emotional safety, stability, and positive adults to support and 
genuinely care for them. This is, I believe, the intent of those who 
drafted the proposed legislation. These elements are provided in 
quality residential education programs. I urge you to add the 
residential education alternative to the scarce choices available to 
children in the foster care system, especially older children. This 
option needs to be made clearly and explicitly available to judges, 
social workers, and other child advocates who are often at wits end to 
provide wholesome environments for these children. This would be wise 
policy and wise law.
    I contend that residential education is, first, an effective 
option, which we need to expand. Although the effectiveness of 
residential education for youth in foster care has not yet been 
evaluated formally, we have basic statistics: Despite the vast majority 
of the students coming from low income, and abusive/neglectful 
backgrounds, 79.5% of the 2005 graduates of CORE member programs 
enrolled in college, and another 5% enlisted in the military.
    My second contention is that residential education is a cost-
effective option. On the surface, residential education is more 
expensive than basic traditional foster care. It is approximately 
$35,000 per child per year, including their residential living, 
education, medical care, after-school activities, counseling, etc. This 
is less than half the cost of most juvenile delinquency facilities, 
where many of these kids are likely to end up without significant 
intervention. It is also a third to a fifth of the cost of residential 
treatment centers or psychiatric treatment programs, which are short-
term, intensive, and focus on the youth's pathology. Unfortunately, 
many children from abusive living situations are inappropriately placed 
in these settings because of the lack of these less restrictive, less 
expensive choices. The other reason this is an EXTREMELY cost-effective 
alternative for tax-payers is that the vast majority of the costs of 
caring for these children is paid by private donors. Billions ofprivate 
dollars are invested in these children through these settings. Many 
programs, such as the Milton Hershey School in Pennsylvania, Happy Hill 
Farm Academy in Texas, Oklahoma Baptist Children's Homes, and the 
Glenwood School in Chicago, don't accept a penny of public funds. In 
our most recent survey of residential education programs, we foundthat 
only 12% of the funding for our member programs came from public funds.
    We are in favor of a range of options, as we know one size does not 
fit all. We greatly support family preservation when it is in the best 
interest of the children to preserve the family, and when a reasonable 
intervention with the family is all that is needed. Our programs help 
families preserve ties with their children in a variety of ways. All of 
our members have programs to keep family members and guardians 
involved, because that is effective in helping the children. Many of 
the programs also run foster care programs, adoption programs, family 
preservation programs, and more. When children's home environments 
become healthy enough for them to return, they may do so. We are also 
in favor of adoption. I am a proud adoptive parent myself. 
Realistically, though, not all children in foster care whose parental 
rights have been terminated want to be, or are, adopted.
    Residential education programs were prevalent in the U.S. until the 
late 1960's. With the advent of ``deinstitutionalization,'' most were 
closed, or transformed into intensive residential ``treatment'' centers 
or juvenile delinquency facilities. Until seven years ago, most of the 
surviving 30 or so programs were funded under private auspices. Many 
still are entirely privately funded, such as the Milton Hershey School 
in Pennsylvania with a $7 billion endowment. Recently, there has been a 
dramatic resurgence of interest in opening new programs--both privately 
funded and through public/private partnerships, particularly 
residential charter schools. As with all charter schools, funds for the 
educational components come from existing public education dollars. 
Residential components are funded by a combination of existing public 
dollars and private donations.
    Parents who live in nice, safe neighborhoods and have the financial 
means often send their children, with pride, to residential preparatory 
(``prep'') schools. Children from abusive or neglectful homes rarely 
have that choice. Yet they need this choice most.
    This choice is especially appropriate for teenagers, which is one 
of the groups that the 2002 Child and Family Services Reviews found 
most lacking in appropriate or sufficient services. All of our programs 
serve teens. The majority also serve younger children. From a youth 
development standpoint, teenagers fit well into a peer group setting. 
At this age, they are busy defining themselves and separating 
themselves from their parents and home, building their own unique 
identity, finding a peer group, maturing, and structuring themselves 
outside of their family. Most youth begin to measure themselves against 
authorities in their lives. Removing a child from his/her home and 
placing him/her with another family is always a challenge. However, 
removing a teen and placing him/her with another family can be even 
more of a challenge. The teen already has trouble accepting 
``parental'' authority, as a natural part of human development. Now, 
he/she is forced to blend into the new family, with their unique norms 
and expectations, while the normal human development phase at this time 
of life is to separate from a family. It puts the foster family into a 
difficult situation: trying to work with a youth who is trying to 
separate from parents.
    In a residential education program, youth are put into peer groups, 
with adult models of identification who are not trying to compete as 
parents with the youth's own parents. Two thirds of our programs 
utilize married couples who live with six to ten youth in beautiful 
single family homes. Others use single Resident Assistants, as in many 
New England prep schools. Youth are worked with both as individuals and 
as part of a group. Independent living skills are taught and 
facilitated. Residential education programs continue to offer their 
young people support after graduation, through college scholarships and 
security deposits for apartments, continued adult contact with them, 
and homecomings. Many programs also offer alumni housing for the youth 
until they finish college or have saved enough from their first jobs to 
live on their own.
    Despite some of the public perceptions of ``institutions,'' 
residential education environments are safe, educative, and open young 
people's horizons. They encourage them to achieve as we would want our 
own children to achieve. Yet, some people oppose this option for 
children, clinging to old images of warehouses for children in England 
over a hundred years ago. What a loss to everyone if this perception is 
allowed to sway public policy. And in some cases, despite a complete 
lack of empirical data about the effectiveness or ineffectiveness of 
residential education, those promoting this old image are winning. 
Recently, consent decrees signed in Tennessee and Georgia have 
precluded children from foster care to be served in these settings. 
Dozens of residential education programs have been shut down as a 
result. Negotiations are now in the courts in Mississippi and Nebraska, 
and we expect the spread of lawsuits to continue.
    We need the law to be sufficiently specific to give clear guidance 
to the U.S. Department of Health and Human Services and to the States 
about what the overarching public policy is in this matter. Let us not 
leave it to opinion. Let us please be clear in the statute that there 
will be an expansion of competent, qualified, and cost-effective 
service options, including residential education. Our programs will 
work with the states to meet their reasonable requirements.
    I personally was inspired to make the residential education option 
available for at-risk youth in the U.S. after seeing Israel's 70-year 
old network of children and youth villages. There they tell the 
children, ``What your family cannot do for you, your community will.'' 
We can, and need to, do this here.
Legislative action is needed to:

    <bullet>  Recognize residential education as a distinct and valid 
designation for children in the foster care system, as separate from 
other short-term residential options such as emergency shelters, group 
homes, and treatment centers;
    <bullet>  Fund the study and evaluation of this re-emerging field; 
and
    <bullet>  Appropriate funds to jump start new residential schools, 
as was done with charter schools.

    Let us give these young people the opportunities they deserve. The 
residential education option for youth transcends partisan politics, as 
with charter schools. Thank you for your openness to considering 
additional options for children in the child welfare system. I believe 
you will find, as a result, improved outcomes for children--who are, 
after all, our future.

                                 <F-dash>

    Chairman HERGER. I thank each of you for your testimony, 
and I will turn to the questions. The gentlelady from 
Connecticut, Ms. Johnson, to inquire.
    Mrs. JOHNSON. I just thank you all for your input. It is 
very impressive, all the things that are going on out there. 
Mr. Wexler, I was amused at your testimony. We are from 
opposite sides of the aisle, but I have been trying to say what 
you said so eloquently for a long time and I hope that all of 
you will take really seriously the downward projectile, 
downward slope that Federal funding is on by formula. It is 
automatic. It is just going to happen. If we don't wake up, we 
can't capture those dollars. We do need to make some major 
turns in the system, and we need to find words that don't sound 
like ``block grant.'' We can't let this money keep drifting out 
of the system for all the wrong reasons. I appreciate some of 
the concrete suggestions you have given us today and hope we 
can move forward.
    Mr. WEXLER. I think that is a very important point. In 
Florida where they have just received one of the waivers to do 
it the way that the flexible funding option would allow, some 
of the agencies in Florida say we have to give back the money 
at the end the year because it is only usable for foster care; 
and if we do a good job and we don't put the children 
needlessly in foster care, then it just goes back, and we can't 
use it to build our infrastructure of prevention. Also, I think 
the point you make about the decline due to the technology term 
as eligibility look-back is very, very important. People talk 
about how you can cut a block grant. Well, if you don't take 
away a whole bunch more kids--and I hope nobody would do that--
it is automatically being cut now and it is in fact, if one 
were inclined to cut an entitlement, just as easy to do that. 
You just say instead of ``X'' cents on the dollar for each 
eligible child, you say ``X minus ten.'' It is really as easy 
to cut. Not only that, ironically one of the complaints about 
the flexibility plan is that it locks States in for 5 years. I 
don't think critics can have it both ways. You can't say on the 
one hand, Watch out, you are locked in for 5 years, and then on 
the other hand say, Your money is going to be cut. If you are 
locked in for 5 years that means you are guaranteed the Federal 
money for 5 years.
    Mrs. JOHNSON. Part of that is to try to prevent the decline 
that the declining number of cases will just simply carry with 
it. I don't understand why more States haven't taken advantage 
of the waiver, because they must surely see this and they are 
desperate for money to increase local services and they can see 
that those do discourage placement. I don't understand why once 
we put the waiver there more of you didn't stand up and do 
something about it. The only explanation I can think of is that 
you are just as tubularly oriented as services at the local 
level. It is all about pipelines and not about children.
    Mr. TOWER. Los Angeles, California, after they were granted 
that waiver, right to start with, they had a decline of over 
5,000 children in L.A. County alone. That shows you, that is 
proof in the pudding that the waiver system will work. I 
believe that what we need to do is take some of the money that 
we are saving on that end and put it into an incentive program 
not for how many children go into adoptive care, but how many 
children are reunified with their parents. There ought to be an 
award there greater than the one over here to adopt them, okay? 
It is where we should be spending our money. Let's put the 
family together, okay? Let's not just keep sheltering them so 
we can continue spending the Federal government's money through 
the adoption assistance and the continued funding streams.
    Mrs. JOHNSON. My understanding is if they have a waiver and 
they put fewer people in foster care, they don't lose the 
money, right.
    Mr. WEXLER. What Florida and Michigan and counties in 
California now have is basically roughly something very, very 
similar to the Bush Administration, flexible funding option. 
They get the money as a lump sum. They can keep using it for 
foster care if they want, but they can also use it for safe 
proven alternatives. By the way, that is the other key thing 
about the Bush plan. In effect, it is the ultimate waiver 
because it is purely and strictly voluntary for the States.
    Mrs. JOHNSON. Are those programs far enough along so we can 
do evaluations?
    Mr. WEXLER. No. We cannot do evaluations of the specific 
waivers just granted because they have literally been just 
granted. However, the experience of the State of Illinois, 
which swam against the tide and crafted its own system of 
reversing financial incentives, is striking. There was a time 
when Illinois had one of the worst systems in the country, 
51,000 children trapped in foster care on any given day. They 
changed the financial incentives, and lo and behold, the 
intractable became tractable, the dysfunctional became 
functional. Today there are fewer than 18,000 foster care 
trapped in foster care in Illinois, and most important, 
independent court-appointed monitors have found that the 
children are safer today, and the person who brought that 
lawsuit Ben Wolf, Illinois branch of the ACLU, said the 
linchpin, the key factor--not the only factor, but the key 
one--was changing the financial incentives.
    Mrs. JOHNSON. Thank you.
    Chairman HERGER. The gentleman from Washington, Mr. 
McDermott, to inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Mr. Bell, you had 
some experience in New York City before you came to Casey. Tell 
us how it worked and how you--what it took to make that program 
work. Casey didn't go get you because you were a failure in New 
York. They went to get you because you were making it work. I 
would like to hear what was going on there in that political 
system that made it work.
    Mr. BELL. One of the things I would say is that New York 
City also saw a significant reduction in a child welfare 
population, and it occurred, I would say, in spite of the fact 
that we were operating under a block grant in New York City, in 
New York State. I say in spite of the fact because New York 
City made significant financial contributions of its own 
resources into the CWS, and I would say that there are a series 
of reasons why the system changed. The first and foremost was 
the chief leader, the chief politician decided that he owned 
the issues of child welfare and that child welfare was just as 
important in his administration as the police department, just 
as important in his administration as the fire department and 
just as important as the education department, and resources 
and talent were contributed and invested in that arena. He also 
stood and spoke about the amount of time that it actually takes 
for a system to turn around. I said in my oral statement that 
ACS was created in 1996 in New York City and 1998, the system 
looked pretty much the same because it was that time period 
that we used to build a foundation for change. The foundation 
for change included investing in the frontline case staff.
    Mr. MCDERMOTT. What way? Paying higher salaries or sending 
them back for additional education or what?
    Mr. BELL. A combination of both of those things and others. 
One is we had a system where anyone with a degree in anything 
could become a child protective, child welfare caseworker, and 
it essentially meant you could have a banking degree, you could 
have an architectural degree, all wonderful degrees, but they 
are not human service degrees. The first thing we did was to 
pass a regulation that said, you must have a social work degree 
or a relevant human services discipline in order to become a 
caseworker. It also then focused on who could----
    Mr. MCDERMOTT. You supplied money for them to go do that?
    Mr. BELL. More than $600 million was added to the budget 
over the course of the first 6 years of reform in New York 
City.
    Mrs. JOHNSON. Would the gentleman yield?
    Mr. MCDERMOTT. Yes.
    Mrs. JOHNSON. Do you mean the $600 million was added for 
kids to go back and get degrees in social work?
    Mr. BELL. The entire reform package in New York City in 
which a portion of that was a scholarship program for 200 of 
our workers. We instituted a program that said there would be a 
hundred new applicants entering into the schools of social work 
in New York City, coming out of child welfare every year, and 
there would be a hundred continuing social work students coming 
out of child welfare with degrees that were being paid for by 
New York City. They were degrees that cut the gamut, degrees at 
Hunter College, which ran a couple thousand dollars and degrees 
at Columbia, which ran significantly more than a Hunter College 
degree, but the incentive was to get people who were trained in 
dealing with complex human issues. We also, in addition to the 
social work requirements, had requirements for supervision, and 
we essentially indicated that in order to be supervisor in the 
agency you needed to have at least 30 credits toward your 
master's or have a master's. Because of our union and civil 
service issues, we could not require a master's in social work 
to get the supervisory position, but we also changed a 
reporting process which essentially allowed social--supervisors 
to pass a court team and become a supervisor. We instituted a 
process where merit and performance became--who became 
supervisors in the system. The investment in the frontline in 
supervision basically changed who was interacting with the 
families on the frontline. We implemented--as we talked about 
increased salaries, but there was also a pay scale. We began to 
recognize one thing, you have to control how much work an 
individual has if you expect to get the quality outcomes. We 
reduced caseloads from over 30 cases per worker down to about 
13 cases per worker. Just for an example, if you have ten 
children on your caseload--and I applaud your movement to 
mandate 90 percent in child visits. I think it should be 100 
percent, and I think that every child should automatically 
expect that if they are in the care of the government, that the 
government is going to see them and make sure that they are 
okay. That then requires a commitment of resources to do that. 
If I had ten children on my caseload, not only do I have to 
have child visits, I also have to have parent contacts. I also 
have to talk to service providers. I also have to talk to the 
collaterals, like the doctor who was saying I don't hear back 
on what is going on in the cases. I have to talk to the 
schools. I have to go to court on those cases. I have to have 
supervision. I have to have training, and I have to have 
documentation. If we just simply looked at a caseload of ten 
children, that could add up to 80 hours per month in order to 
meet the needs of those ten children. If you then doubled that 
to a caseload of 20, that comes up to 145 hours. If you get to 
30, that takes you over 210 hours. There are only 160 work 
hours in a month, and those things that I just listed do not 
include lunch, do not include sick time, do not include 
personal family emergencies that might take a person away. One 
of the things we had to commit to in the city, we would stand 
behind workers and give them the opportunity to do a good job. 
You cannot expect the kind of outcomes we want for our children 
by giving someone 40 children to work with. The challenges in 
the city went from political will and leadership, competent 
leadership in the program investment in the frontline staff, 
data-driven accountability where we knew what was going on in 
every case and workers knew we knew what was going on in every 
case, and then having the time to engage cross systems because 
child welfare can't do it alone. You need the courts, you need 
the education, you need substance abuse, you need medical and 
having the community engaged. These children live in 
communities, and we have to have community residents engaged in 
the process of protecting their own children, and that is the 
picture of what we had to employ in New York City in order to 
be able to get the changes that we saw.
    Mr. MCDERMOTT. Thank you. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you very much. The gentleman from 
California, Mr. Stark, to inquire.
    Mr. STARK. Thank you, Mr. Chairman, and I would like to 
thank the panel for their work in preparing this for us, and I 
would like to engage Professor Hatcher in a couple of questions 
here because we have--we are trying to draft some legislation 
which perhaps would move toward solving some of the problems 
that you present in your testimony. Some of the things I would 
like to get your comment on, and this is the concept that maybe 
somehow these kids who got either Social Security benefits or 
SSI are rich kids. No way they are going to have the funds to 
get into Ms. Goldsmith's program at $35,000 bucks a year. They 
are going to get a couple hundred, $600 maybe tops.
    Mr. HATCHER. That is right.
    Mr. STARK. Yet we are dealing in a system where we deal 
here on this Committee, for instance, in the question of 
qualifying under Medicare, we don't deal in this Committee but 
we deal in the Congress under Medicaid, so if you are old and 
my kids want to shove me in a nursing home, they have got to 
figure out how to get rid of my savings account or I am going 
to qualify for Medicaid. We have a standard. You have to 
impoverish yourself to participate, and I want you to tell me 
if I am on the right track. I don't think that should apply to 
kids, and once I get into the nursing home and croak, the kids 
could--I don't need it anymore. Once the kids graduate from--
mature out of a foster program, as you point out, they maybe 
have needs for a car, a start to buy some clothes to go to 
work, to go get vocational training, what are they, 18, 
probably denied some of the support that you get out of living 
in a home with your parents and maybe needing some extra help. 
If a child went into the foster system say, and it had received 
a life insurance policy, benefits because their parents had 
some kind of small life insurance policy, wouldn't the courts 
set up a custodian or a trustee or conservator to manage that? 
Would the foster service be able to get ahold of those funds?
    Mr. HATCHER. Well, generally, yes. In most States there 
would be a guardianship, a guardian to set the property of the 
child.
    Mr. STARK. Would the guardians automatically have to turn 
that money over to the foster care system?
    Mr. HATCHER. No. In fact, if anybody else was the 
representative payee of the Social Security benefits, they 
cannot--and the Supreme Court has indicated this--they cannot 
be forced to pay over those Social Security benefits.
    Mr. STARK. I have to fill that out for my kids. The thing 
each Social Security--they want to know what I did with the 
money.
    Mr. HATCHER. Essentially, we are talking about children who 
are either--they are poor and disabled or they have parents who 
are now dead or disabled themselves, those parents worked 
enough quarters to pay into the system to earn Social Security 
benefits.
    Mr. STARK. Might also be old, I hate to tell you, but that 
doesn't happen all that often. At any rate, I guess what--and I 
would ask Ms. DeSantis, what did you do in Delaware under 
Governor Castle? Did he stop this practice of letting the State 
of Delaware take Social Security payments?
    Ms. DESANTIS. Yes. To my knowledge, that practice has been 
stopped in the State of Delaware.
    Mr. STARK. You are not suffering from it?
    Ms. DESANTIS. No, sir. We have a Governor who is very 
committed to supporting our children.
    Mr. STARK. I just want to establish here, these are not 
rich kids. Now, if every child who went into the system would 
have some kind of savings account to be added to through SSI or 
Social Security, I think that would be wonderful, but I don't 
know if we should penalize those children who are either 
unfortunate enough through disability to need it, certainly in 
that case we shouldn't take it away from them because obviously 
they need assistance to mature into an adult life. Let us just 
say the children who are fortunate enough for one reason or 
another to get SSA payments, as the illustration in your 
testimony, which I would commend to my colleagues, I am trying 
to establish that we should allow them to maintain that it 
isn't--not going to get rich on it, but it may help them to 
mature into a useful adult life. I hope that--are there any of 
you here who have run into this in other States where this is 
done? My time has expired, Mr. Chairman, but are there any 
witnesses who think we ought not to let the child hang onto 
their SSI or SSA payment? I dare you. See, Mr. Chairman, they 
all want--how do you like that? That is unanimous. If you and I 
can get together like that, we would have a hell of a bill, 
wouldn't we? Thank you. Thank you, Professor Hatcher, for 
taking the time to come here and explain this problem, and 
hopefully we can make a step to solve it.
    Chairman HERGER. Thank you very much. The gentleman's time 
has expired. Mr. Wexler, I think your testimony can be 
summarized on this one line from page four. Your testimony 
quotes, ``Safely reducing foster care should be an end in 
itself, and it is a noble end, for it will spare thousands and 
thousands of children the emotional torment of separation from 
everyone they know and love.'' For anyone on the panel who 
would care to respond to this statement and how States are 
working to reach this goal. Yes, Ms. DeSantis.
    Ms. DESANTIS. Thank you, Mr. Chairman. In the State of 
Delaware, we agree that the best place for children is in a 
loving family. That is not always the case, as we all can 
acknowledge. In our State--we are one of the handful of States 
that are lucky enough to have child mental health services in 
the same department under the cabinet level department with 
child welfare, and one of the things that we are doing, we have 
been doing over the past several years, is to work very closely 
with our child mental health experts to provide behavior and 
mental health assessments for every child that comes into 
foster care. This is a great step forward for the children who 
we know have been traumatized in some way or another. We are 
also working very closely with our colleagues in the 
communities with our faith-based organizations and what is 
called the 21st century Service Delivery Approach or a System 
of Care, which is an emerging practice that is--a lot of 
research has been done by Sheila Pry and folks at Georgetown 
University. It is a demonstration project that has been done 
around the country. We are doing very well with that, and we 
believe that engaging the entire community and raising our 
children in helping support the families and the children in 
care, these methods will go a long way toward reducing the 
number of children who need to be in out-of-home care. We have 
to keep in mind that it is not necessarily the number of 
children in care, but that it is the appropriate children that 
are in out-of-home care because we found--we also have in our 
department level--the juvenile justice children were also in my 
department, and we found that juvenile justice children who 
were dependent were treated differently than children in child 
welfare. By having that knowledge and being able to bring the 
child welfare expertise to the children coming out of the 
juvenile justice system, it has actually increased the number 
of children under the traditional child welfare numbers, but it 
has enabled us to embrace those children, provide most 
appropriate placements for them, and better placements and 
better services around that child and the family to a greater 
extent, and so I would keep in mind that we just not count 
heads but that we count outcomes when we are talking about 
children that need foster care or any kind of family care.
    Chairman HERGER. Anyone else wish--Mr. Tower?
    Mr. TOWER. Yes, Congressman Herger. Basically the removal 
of the children--okay, the way that the departments are doing 
it is they are traumatizing the children right from day one. 
They will storm a house with two caseworkers and a half a dozen 
police officers. They go in, they grab the children. I have 
seen and heard of cases where they maced an 8-year-old girl and 
handcuffed her and handcuffed her ankles because she was 
kicking and screaming, she didn't want to be taken away from 
her mother. Okay. The little girl went to the hospital with 
mace burns around her eyes. This is how--and this is what they 
are doing in some of these cases. This boils down to they are 
going in and using a bomb when a bullet would have done the 
job. Okay. If they went and talked with the parents a lot of 
times, the necessary--it wouldn't be necessary to remove the 
children. The parents would be willing to work with them, but 
the way that it works now is people are absolutely petrified to 
even let the department in the door of their house because they 
have gained the reputation that they storm in, they grab the 
children, and they run. From there on out, it is--someone made 
the analogy--I was sitting on a hearing Saturday in San Jose 
for CCHR, and someone made the analogy that this goes back to--
it is kind of like the movie where the little kid got sucked 
into the TV screen, the name of that movie was Poltergeist, and 
it was a fight forever more to get that little girl back out of 
that screen. You know? It covers how the system has been 
operating in a lot of cases.
    Chairman HERGER. Thank you. Mr. Bell.
    Mr. BELL. Chairman, a number of focus has been on looking 
at where the decision gets made to bring children into care, 
and so a lot of the reform has focused on what is happening 
with child protective investigators and how are they making the 
decisions that children should come into care and how are we 
equipping them to make better decisions. I think the first step 
that this is rooted in a community-based approach to care where 
we are targeting particular communities. In New York City we 
found that 18 of the 59 community districts produced 60 percent 
of the kids who came into foster care, and we targeted our 
efforts on looking in those 18 community districts to determine 
what was happening with families. We aligned our staff in those 
communities, same staff working in the communities. We 
contracted with a not-for-profit agency and assigned them 
solely to those communities so the communities had an 
opportunity to get to know the providers in that community and 
our child protective staff had to become accountable to the 
families that they were actually removing children from. We 
then equipped them with decision-making tools, like family 
group decisionmaking, which is a model that brings families in 
to sit down and talk with workers. We set up two approaches, 
one which was a pre-removal conference which said, I feel like 
something is going on in this family. What are my options? We 
said to the worker, your first option and only option doesn't 
have to be placement. Bring the family in, bring community 
supports with their family. Sit down with facilitators and 
social workers and determine how best to build on family 
strength, as opposed to children coming into foster care. We 
also set up a counterconference to that, which was a post-
removal conference, and we said in every situation where you 
have made this critical decision that a family had to be 
separated, within 72 hours of making that decision you needed 
to have the family sitting at a table with you and others to 
examine why that decision had to be made and what the 
alternatives might be in terms of getting those children back 
home quickly. We looked at data that suggested that we had 
children who were coming into care and 25 percent of them were 
going home in the first 90 days. So from our perspective, that 
may have suggested that those children didn't have to come into 
care in the first place. One major piece is looking at the 
decision makers and really supporting them and encrypting them 
with tools to maker better decisions. One of the things that we 
did I think was essential, we created what we call a Quality 
Case Practice Guide for Child Protection, which essentially 
defined what a quality child protective investigation looked 
like for everybody. There was one standard, and we didn't have 
different workers creating different standards when they were 
going into homes. We held everybody accountable to the same 
standards, and I think that has made a significant difference 
in reducing the number of kids coming into foster care.
    Chairman HERGER. Thank you. Mr. Wexler.
    Mr. WEXLER. We have an item on our website, 10 Ways To Do 
Child Welfare Right, which is a brief interview with contacts, 
and I also have a hard copy here that indicates the model 
programs that have been successful and also the model systems 
that have helped to make the dramatic transformations. I 
mentioned Illinois. New York City is on that list, thanks to 
the outstanding work of Commissioner Bell and those who 
proceeded and followed him. Another has already been mentioned 
here, Pittsburgh, Allegheny County, Pennsylvania. In fact, I 
don't know what the logistics are of moving an entire 
Subcommittee, but if you held a hearing there and brought 
together all the people who have made Pittsburgh a success, I 
think you would find all sorts of fascinating things about what 
really works. Drug treatment is crucial to success, 
particularly treatment programs in which parents are allowed to 
stay with their children. That is what we ought to do with the 
orphanages, make them residential drug treatment campuses where 
parents can live with their young children. That kind of 
treatment has the best record of success, and every day we are 
getting more and more indications that methamphetamine 
addiction is just as treatable as any other. Also, 
strengthening due process protections for families. An 
institutional provider of legal counsel for birth parents, 
which has been crucial to some of the other reforms in New York 
City, such as the outstanding bridge builders projects in the 
hybrid section of the Bronx, that kind of institutional 
provider would go a long way. You can see these things make a 
difference when you look at the extraordinary differences in 
how many children are taken away from State to State. There is 
no logical reason why Iowa should be taking away children at a 
rate seven times higher than neighboring Illinois, and yet that 
is what happens. There are vast disparities within counties in 
individual States. The one thing the successful programs have 
in common is that they emphasize safe proven programs to keep 
families together. The places that emphasize the take-the-
child-and-run approach fail time after time after time. 
Finally, since you quoted that section from my written 
testimony, I should explain why I felt compelled even to say 
that. Unfortunately, one of the groups that is leading the 
opposition to the flexibility plan, one of their leaders, an 
outstanding child advocate, someone who has been one of my 
heroes over the years but whom I strongly disagree with on this 
point actually said to the trade journal Youth Today that 
reducing the number of children in foster care shouldn't be an 
end in itself. I couldn't disagree more.
    Chairman HERGER. Mr. Tower.
    Mr. TOWER. Basically most of the problems in the Child 
Protection System could be summed up with a very simple phrase, 
the Department needs to do a proper, and the key here word here 
is ``proper,'' proper investigation prior to the removal of the 
children, and at that point reasonable efforts should come in. 
Okay, Congress never gave the States a definition of what 
constitutes reasonable efforts, and it is a flaw in the system 
because everybody has got their own little ways, and like 
California, you know, 58 counties, they interpret it 58 
different ways. Reasonable efforts should be mandatory, okay, 
that that finding be made before--because that is how they get 
the Federal funding. That statement has to be made. It is a 
judge's signature on a piece of paper, basically.
    Chairman HERGER. Right. Thank you. Gentlelady.
    Mrs. JOHNSON. We have a very--a modest piece of legislation 
before us that is at least bipartisan, but when I hear what you 
have done and what programs are out there and how successful 
they are, you know, if the waiver is too much for States to 
take on, you know, what is the next step? What else is it we 
could do? What changes could we make in this law or a 
combination of laws to open a window for States to think this 
way or to set different criteria? If we meet these criteria, we 
waive all of these other requirements in the law. You know, it 
seems to me over and over again, we have had--we have had a 
hearing here, I think about 2 years ago, that showed that none 
of the States were doing all the stuff we are asking them to do 
anyway. I think five States were doing everything we were 
asking. Maybe it was three. We have States putting in an 
enormous amount of effort into complying with stuff that 
doesn't seem to matter much anyhow and then we have other 
States doing remarkable things, paying for it themselves 
outside the system. Now, you all know the laws better than I 
will ever know them. You know the money flows better than I 
will ever know them. The best I can do is just waive the whole 
thing and do the--you know, and we will keep your money whole, 
but you know that didn't work. We need for you to think about--
at least I need for you to think about what else could we do? 
What is the criteria we could set? You meet this, you do this, 
and, you know, we will let your money cut, but also we will 
relieve you from all of this other stuff. See, I don't know the 
system well enough to make those trade-offs. Even when you know 
the system well enough, as I do in Medicare, it is still mighty 
hard to get the motion moving. I really invite you to pursue 
this. It has been a very excellent hearing, Mr. Chairman. I 
thank you and the staff on both sides of the aisle for getting 
two very good panels together. It is an issue we have kind of 
let lie fallow for a few years, and I see that you have really 
accomplished a lot. You know a lot more than we used to know, 
and I appreciate your expertise and your dedication. Thanks.
    Chairman HERGER. I thank the gentlelady, and I would like 
to thank each of our witnesses for taking the time to appear 
before us today. I would like to point out that Subcommittee 
Members may follow up with additional questions, and I would 
ask that you please reply to these questions forwarded to you 
in writing so that they may be included in the hearing record. 
I appreciate your help and comments on this issue. I look 
forward to working with all of you to improve our Nation's 
child protection programs. We know that finances are a 
challenge here in Washington, as they are in each of the 
States. Therefore, any ideas we have that we can work within 
the funding that we have to make the system work better 
certainly would be appreciated. With that, the Committee stands 
adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to Ms. Ashby, 
Judge Cohen, and Ms. DeSantis, and their responses follow:]

       Questions from Chairman Wally Herger to Ms. Cornelia Ashby

    Question: The 2003 GAO report notes on page 2 that states reported 
using Child Welfare Services funds primarily to staff and administer 
child welfare programs and serve families in the foster care system, 
while states reported using Promoting Safe and Stable Families funds 
primarily for prevention and support services for families at risk of 
child abuse and neglect. What accounts for the difference in how states 
use these funds? Does Federal policy drive state decisionmaking? If so, 
how?
    Answer: Federal policy accounts for differences in how states use 
Title IV-B funds in that the law requires states to spend a 
``significant portion'' of their Promoting Safe and Stable Families 
(PSSF) funds on the four service categories related to family 
preservation services, family support services, time-limited family 
reunification services, and adoption promotion and support services, 
while states do not have these restrictions on Child Welfare Services 
(CWS) funds. In fiscal year 2002, states reported spending more than 80 
percent of PSSF funds for family services in these four categories. 
States chose to also use over 14 percent of CWS funds on family 
services; however, nearly 45 percent were used to help pay for the cost 
of administering state child welfare programs, including caseworker 
salaries. One HHS regional official noted that CWS gives states the 
flexibility to address unexpected circumstances, while other regional 
officials noted that spending requirements under PSSF helped ensure 
states used some funds for family support and prevention needed to 
preserve families and keep children from entering foster care.

    Question: What do we know about the effectiveness of the services 
provided under the Child Welfare Services and Promoting Safe and Stable 
Families programs? Do they have an established track record of better 
protecting children or otherwise improving child wellbeing?
    Answer: Research on the effectiveness of services provided under 
CWS was limited, and HHS evaluations of two PSSF services showed no or 
little effect on children's outcomes. Our survey of states in 2002 
showed that none had evaluated the outcomes of their CWS services. 
Similarly, our literature review showed that few evaluations had been 
conducted, and evaluations that had been conducted produced mixed 
results. HHS evaluations of family preservation and family support 
services under PSSF showed no or little effect in reducing out-of-home 
placement, maltreatment recurrence, or improved family functioning 
beyond what normal casework services achieved. No similar large-scale 
evaluations of time-limited reunification services or of adoption 
promotion and support services have been made.

    Question: Last year, we provided states approximately $700 million 
in funding under these two programs. What happens to Child Welfare 
Services and Promoting Safe and Stable Families funds if states don't 
spend the money each year? Can states ``save'' funds from 1 year to the 
next? If states were allowed to carryover these funds for longer 
periods of time, is there any reason to believe we could expect better 
spending decisions?
    Answer: States may spend funds allocated to them under CWS and PSSF 
until the end of the fiscal year immediately following the fiscal year 
of appropriation, and HHS may reallocate any unspent funds to other 
states for spending in that same fiscal year before returning them to 
the Treasury. A cognizant HHS Deputy Assistant Commissioner said that 
during the last fiscal year, three states did not spend their entire 
CWS and PSSF allotments because they could not come up with the 
required state match or faced other state budget issues. This HHS 
official added that because the states did not release these funds in 
time to be reallocated and spent by other states within the fiscal 
year, the unspent funds were returned to the Treasury.

    Question: The intent of these funds is to support services that 
assist at-risk families, protect children from abuse and neglect, and 
prevent the unnecessary separation of children from their families. The 
GAO report found with regards to the Child Welfare Services program, 
nearly half the grant--44% of the funds were for program operations 
rather than for direct services to prevent abuse and neglect. Do you 
have any estimate as to what percentage of these administrative 
expenses are for caseworker salaries to provide supportive services 
versus other administrative costs that may not be applicable to the 
true intent of this program?
    Answer: States reported that about 40 percent of administrative 
expenses under CWS in fiscal year 2002 were for staff salaries 
supporting caseworker positions either in child protective services (29 
percent), or other offices (11 percent). The remaining 60 percent of 
administrative expenses were for administration and management (38 
percent) and salaries supporting other staff (22 percent) including 
those providing supervision of caseworkers and legal services.

     Questions from Chairman Wally Herger to Judge Constance Cohen

    Question: You mentioned that there has been widespread interest in 
communities outside of Des Moines, Iowa. Do you know if any States are 
currently using either Child Welfare Services funds or Promoting Safe 
and Stable Families funds to support Court teams?
    Answer: There certainly has been widespread interest among juvenile 
and family court judges in starting a Court Teams project for 
maltreated infants and toddlers; however, I know of no other states 
that are presently utilizing Child Welfare Services funds or Promoting 
Safe and Stable Families funds to support Court Teams. One Court Team 
in Texas received a small amount of support from the Court Improvement 
Project to attend a national judicial conference to learn about the 
needs of maltreated young children. Our Iowa Court Improvement Project 
will support attendance at the National Council of Juvenile and Family 
Court Judges Annual Conference for four judges. Our Court Improvement 
Project also provided funding for Iowa judges to attend a statewide 
interdisciplinary conference on May 17, 2006, in Des Moines. The event 
was a day-long training focused on issues involving maltreated infants 
and toddlers. Speakers included the founders of the original Court 
Team: Judge Cindy Lederman and Dr. Joy Osofsky. Judge Douglas Johnson, 
from Omaha NE, a current fellow with ZeroToThree, has received state 
funding for a project similar to Court Teams. The Nebraska State Patrol 
has funded his infant-toddler family drug treatment court. The model 
for the Court Teams approach in Judge Cindy Lederman's court in Miami-
Dade has received funding from the Department of Justice, but not from 
the state child welfare agency. From my work with the National Council 
of Juvenile and Family Court Judges, I can assure you that the concept 
of using a collaborative approach with a judge as the catalyst enjoys 
widespread support among judges. Increasingly, we are realizing the 
critical need to focus on ensuring the well-being of our youngest 
children in the system, who often carry the negative effects of abuse 
and neglect throughout their lives. Effective early intervention can 
forge a new path of positive outcomes for these children. Judges are 
ill equipped to understand and meet the needs of very young children 
without the ability to tap into the expertise of child development 
experts. I am aware of other judges who have been laying the groundwork 
in their states and are poised to utilize any funds made available to 
replicate the successful Court Teams project in their jurisdictions. 
They include Judge Douglas Johnson, Omaha, NE; Judge Peggy Walker, 
Douglas County, GA; Judge Richard Barron, Coos County, OR; Judge 
Brutinel, Yavapai County, AZ, and Judge Lou Trosch, Raleigh, NC, among 
others. The lead judges of the Victim's Act Model Courts are also a 
natural venue for expansion, as they have existing collaborations with 
the stakeholders in their respective communities.

    Question: Is there anything--other than competition among scarce 
resources--that keeps States from using more Federal fuds for this sort 
of coordination?
    Answer: 2. Competition among scarce resources, as you suggest, is 
the principle impediment to expanding the number of Court Teams. Each 
year we seem to be asked to do more with less. Caseloads continue to 
rise well beyond national standards. Everyone is concentrating on 
``putting out fires,'' and strategic planning often takes a back seat. 
For example, Iowa recently had to de-link child welfare and 
rehabilitative services for children so that they are separate services 
in order to comply with Medicare and Medicaid requirements. People are 
scrambling to meet deadlines to fix a system that was not really 
broken, taking time away from other responsibilities and opportunities 
to improve the system. I would surmise that the one of the primary 
reason states do not explore use of more Federal funds for coordinating 
Court Teams begins with a lack of awareness of the need. Exposure to 
the issue is the first step. Once a judge sees Dr. Osofsky's video of a 
depressed 6-month-old baby, or a 1-year-old whose face evidences sheer 
terror when his abusive mother walks in the room, that judge will begin 
to understand the critical need for information beyond the traditional 
training for the bench necessary to make decisions. Hence, the Court 
Teams model, with its track record of successful reunification, needs 
adequate financial backing to increase awareness among the judiciary. 
Our current project is committed to creating curricula for joint 
trainings and developing a clearinghouse of information. The Court 
Teams initiative is a judicial response based on our perception of how 
to most effectively carry out our responsibility to ensure the 
wellbeing of children. Community providers and joint stakeholders are 
generally responsive to calls for collaboration when they originate 
with a judge. Judges must be prepared to take a leadership role in 
system improvement. In many states, such as Iowa, judges are ethically 
restricted from fundraising and/or publicly promoting programming. 
Individual Iowa judges cannot pursue grants. Designating funding in the 
manner that supported the creation of Court Teams in Iowa, Mississippi, 
and Texas, is an effective way of growing this opportunity. In our 
case, ZeroToThree was the grantee for funds Congress designated to the 
Office of Juvenile Justice and Delinquency Prevention. Expansion of 
this funding would enable more states to become involved. In 
conclusion, effective, meaningful. and far-reaching improvements cannot 
occur if judges are not educated and empowered to collaborate. Model 
Courts and/or Court Improvement Projects could be invited to apply for 
competitive grants to expand the Court Teams across the country. And, 
if there were a portion of the Promoting Safe and Stable Families 
appropriation, or other appropriation, designated for expanding the 
number of Court Teams, preferably in jurisdictions with a record of 
collaborative success, such as the Model Courts, that money would be 
well spent.

        Questions from Chairman Wally Herger to Mr. Dennis Fecci

    Question: What have some of the States identified as effective and 
proven strategies to reduce the reliance on out-of-home care and 
prevent child abuse and neglect?
    Answer: The child welfare system provides different levels of 
assistance to families and children in crisis, based on their needs. 
Removing a child from home is an option only when necessary to protect 
a child's safety. Prevention, family support or early intervention to 
avoid removal %om home are the optimal means of assisting families and 
children in need of help. The child welfare system can provide 
intensive in-home services to f W e s whose situation does not require 
removal of the child; out-of-home services when a child must 
temporarily be removed from home to ensure safety; and continued 
services as needed to prevent re-entry into the system after the child 
has been reunified, adopted, or placed with a guardian. According to 
the latest available Adoption and Foster Care Analysis and Reporting 
System (AFCARS) data, during fiscal year 2003, more than half (55 
percent) of the children exiting foster care were reunified with 
parents or primary caretakers. In order to provide services to prevent 
removing a child from home or to expedite their return as soon as it's 
deemed to be safe, states have wed Title IV-B dollars to the extent 
allowable and we appreciate that this is the most flexible source of 
dedicated Federal child welfare funding. When Title N-B dollars are not 
sufficient, states have invested their own funds and used other 
strategies to continue providing these critical services to improve the 
lives of children and families.
    In Delaware, a number of strategies have been implemented. We 
believe that one of the most effective strategies in reducing 
unnecessary out-of-home placements and maintaining a child safely in 
the home is to have an adequate number of well-trained, fully 
functional caseworkers. To achieve the goal of a trained, motivated 
workforce, the Delaware Department of Services for Children, Youth and 
Their Families implemented several states. The State authorized the 
hiring of additional workers and mandated maximum caseload standards. 
The Department also established a trainee program that provides a 
rolling pool of trained workers ready to step into caseworker positions 
as they become vacant. The Department also increased training and 
provided pay incentives to Encourage workers to stay in the 
Investigation units. These measures have resulted in a reduction of 
staff turnover from some 48 percent in 1997 to about 16 percent over 
the past 3 years, and trending toward 12 percent to end FY06.
    At the same time, Delaware instituted timeliness of contact 
standards; increased funding for parent training; expanded services for 
low risk families; and strengthened outcomes-based prevention services. 
In addition, Delaware instituted a joint program with the Department of 
Education to place Family Crisis Treatment specialists (child welfare 
workers) in K-3 schools throughout the stale to identify and work with 
at-risk children and their families to prevent child abuse and neglect. 
This K-3 program is a proven effective early intervention.

    Question: Which States are investing their Child Welfare Services 
funds and Promoting Safe and Stable Families funds in services proven 
to reduce reliance on out-of-home care and prevent child abuse and 
neglect?
    Answer: Research in the field of child welfare is only beginning to 
provide information on which services meet the proven threshold. 
Additional Federal resources are needed to fully assess effectiveness 
of the variety of programs and services state and local agencies 
utilize to meet the greatly varying needs of the children and families 
they serve. As you're aware, Title IV-E waiver demonstration projects 
include a research component to assess the effectiveness of the 
services provided. However, waiver authority has expired and states 
will no longer haw the ability to test innovative ways to provide 
services. Waivers that have allowed states to use Federal h d s for 
subsidized guardianship, enhanced training, post-permanency services, 
and others have shown some effectiveness in improving outcomes for the 
children and families. Delaware uses Child Welfare Services IV-B, 
subpart 1 funds to help enhance the Department's child protective 
service continuum in contracted services in the areas of case 
management, legal services, patent aide and home-based services. Wrap-
around services provided include the System of Care principles of child 
centered and family focused, strength-based and community based, 
culturally respectful and seamless integration. Child welfare funding 
also targets child abuse and neglect prevention messages to engage the 
public in keeping children safe through early intervention methods. 
Title IV-B, subpart 2 Promoting Safe and Stable Families funds provide 
statewide early intervention community-based contractual support to 
deliver family preservation and family support services, agency 
staffing that provides time limited reunification services to families 
with children in placement, adoption promotion and support services.

    Question: Do you know of States with performance assessments in 
place to track whether the services they provide are achieving their 
intended goals as identified by the State?
    Answer: We are aware that states are assessing services based on 
outcome measures that are linked to state goals, PIP goals as well as 
goals outlined in the Child and Family Service Plan. The Delaware 
Department of Services for Children, Youth and Their Families (DSCYF) 
uses the Malcolm Baldrige performance excellence criteria to monitor 
its performance and improve service to our customers. We developed a 
Balanced Scorecard to measure performance in four perspectives: 
Financial Management, Customer Service, Process Management, and 
Employee Relations. The customer and Process measures are as follows:

    1. Percentage of Eligible Children with Integrated Service Plans
    2. Percentage of Children with 6 months of Community-based Services 
requiring more than 5 days in Out-of-Home Care in the following 12 
months.
    3. Percentage of Children Returned to DSCYF Services within 12 
months of Case Closure
    4. Percentage of Children in DSCYP Out-of-Home Care Additional 
measures at the agency level include timeliness of investigation and 
treatment contacts and the percent of safety reviews that meet 
criteria.

    Question: Do you have any data by State about how much of the 
Promoting Safe and Stable Families and Child Welfare Services funds are 
spent on administration, which would include administrative costs such 
as payroll management, computers, rent, pens, and so on?
    Answer: States do track and monitor administrative expenditures 
within Federally approved cost allocation plans. PSSF funds are also 
reported on standardized forms submitted to ACF. For PSSF, Delaware is 
to receive $763,292 Federal funding in FY 2006, with a required state 
match of $254,431. The state match is provided by coding a portion of 
the service contracts to State funds. Administrative costs of $29,052 
include non-salary costs of program administration, supplies and 
materials to support program advertisement, communication, education 
training and program management. Delaware is to receive $783,705 FFP in 
IV-B. subpart, for FY 2006. The required state match is $261,235. The 
match is provided using non-IV-E foster care payments to match the 
grant. $217,025 is used for administrative cost to include personnel 
charges and indirect costs, and so forth.

    Question: Is there any detailed documentation of how much States 
spend on child welfare programs using State funds? For example, do you 
know what States use for matching and drawing down Federal funds, and 
where those State funds come from? Has the State contribution to these 
programs, again using their own funds, been changing in recent years? 
How?
    Answer: States have been providing information on state level 
funding on child welfare programs to the Urban Institute for The Cost 
of Protecting Vulnerable Children report. The latest edition of that 
report, version V, indicates that the increase in total spending 
through FY 2004 was driven by increases in state and local spending 
rather than Federal spending. Detailed state-by-state data can be found 
in the appendices of the report which can be accessed at www.urban.org/
publications/311314.html. In the case of Delaware, state funding for 
child welfare has grown significantly over the past 6 years, both in 
absolute and in relative terms. In State Fiscal Year 2001, total child 
welfare spending, excluding salaries, was $1 5,094,800, of which 71.1 
percent or $10,726,000 were State dollars; Federal support accounted 
for less than 29 percent. The State's dollars come from Delaware's 
General Fund appropriations and the Children's Department's cost 
recovery efforts. For the upcoming State Fiscal Year 2007, estimated 
expenditures for child welfare services are $24,231,900 (up $9,137,100 
or 61 percent from State Fiscal Year 2001). State appropriations for 
child welfare services will constitute $18,633,900 or 76.9 percent of 
the total; the Federal share will be less than 22 percent, which 
results in a decline of 23 percent in the Federal proportional share of 
child welfare expenditures in Delaware. As costs continue to rise to 
meet the needs of more children, with more challenging and complex 
issues coming into the child welfare system in Delaware, an 
increasingly larger proportion of the burden of meeting these needs is 
falling to the state. In light of the timeframe given to respond, it 
was not possible to gather more detailed data from all states. However, 
I am confident that the Delaware information I have been able to 
provide will give the Subcommittee insight into how states utilize 
Title IV-B funds in addition to their own state funds.

                                 <F-dash>

    [Submissions for the record follow.]
          Statement of Mary Lee Allen, Children's Defense Fund
    The Children's Defense Fund (CDF) appreciates the opportunity to 
submit a statement for the hearing record to the Subcommittee on Human 
Resources of the House Ways and Means Committee on Proposals to Improve 
Child Protective Services. CDF is pleased that the Subcommittee held a 
hearing on ways to support and protect children through the Promoting 
Safe and Stable Families Program and we look forward to supporting 
efforts to reauthorize this important program for children.
    The Children's Defense Fund's Leave No Child Behind mission is to 
ensure every child a Healthy Start, a Head Start, a Fair Start, a Safe 
Start, and a Moral Start in life and successful passage to adulthood 
with the help of caring families and communities. CDF provides a strong 
effective voice for all the children of America who cannot vote, lobby, 
or speak for themselves. We pay particular attention to the needs of 
poor and minority children and those with disabilities. CDF educates 
the nation about the needs of children and encourages preventive 
investments before they get sick or into trouble, drop out of school, 
or suffer family breakdown. CDF began in 1973 and is a private, 
nonprofit organization supported by foundation and corporate grants and 
individual donations. We have never taken government funds.
    Consistent with its mission, CDF has had a long interest in and 
commitment to keeping children safe and in permanent families. More 
than 25 years ago, as the Adoption Assistance and Child Welfare Act was 
being considered, we recommended that states be allowed greater 
flexibility in the use of their new Title IV-E funds for prevention, 
after-care services, and adoption assistance, as well as for foster 
care. While Congress provided federal funds for the first time for 
adoption assistance, it did not do the same for prevention and after-
care services. CDF also pushed for a provision in the Act that allowed 
states to move unused foster care dollars to service programs to 
increase resources to keep children safe and out of care. CDF strongly 
supported the enactment of the Family Preservation and Support Services 
Program, another source of flexible funding, more than a decade ago in 
an effort to increase funds for preventing children from unnecessarily 
entering the child welfare system. We supported the program's 
reauthorization in 1997 and the additional uses of funds to promote 
permanency for children through reunification and adoption, as 
reflected in the change of the name of the program to Promoting Safe 
and Stable Families. We also supported the program's subsequent 
reauthorization in 2001. CDF is pleased to submit this written 
statement to reinforce the need for investments in prevention and 
permanence for children.
    The Promoting Safe and Stable Families Program remains the largest 
single federal funding source for services intended to prevent child 
abuse and neglect, support families, and prevent children's unnecessary 
placement in foster care when they can be kept safely at home. Program 
funds can also be used for post-adoption services that help prevent 
problems for children in adoptive families. However, currently funded 
at almost $400 million, $305 million in mandatory funds, the program 
still falls far short of what is needed to put meaningful prevention 
programs in place.
    CDF therefore was pleased to see the $40 million added to the 
Promoting Safe and Stable Families Program in the Deficit Reduction Act 
of 2005, plus an additional $20 million targeted for improvements in 
the courts to keep children safe. We thank the Subcommittee Members for 
their help in securing these increases for children. At a minimum, 
these funds must be preserved over the next five years. Such increases 
are especially critical given the cutbacks in the Deficit Reduction Act 
in Medicaid and other critical supports for children, especially those 
being raised by relatives, which are likely to put more children at 
risk of coming to the attention of the child welfare system.
    The challenge we face in providing appropriate services to children 
is exemplified in the help required by just one group of children. 
According to the Department of Health and Human Services' own child 
abuse and neglect data, 4 in 10 children who are abused and neglected 
get absolutely no service. While 60 percent of abused and neglected 
children are served, 40 percent are not. If Congress were to decide to 
increase funding enough to give each of these children even a very 
basic home visiting service, at an average cost of $3,000, they would 
need to add more than $1 billion a year to the Promoting Safe and 
Stable Families Program just to meet these children's needs. And such 
an investment would do nothing to improve the quality of care provided 
to the other 60 percent of the children, nor would it help to provide 
comprehensive family treatment for the up to 80 percent of the children 
in some states who come to the child welfare system from families with 
substance abuse problems.
    The challenges are significant but so are the opportunities if we 
use them correctly. In CDF's statement, we want to do two things:

    1.  Begin by urging the Congress to undertake a careful exploration 
in the 110th Congress of the best ways to reform child welfare 
financing more broadly so that the individual needs of children can be 
met appropriately. If we are serious about ensuring safety, permanence 
and well-being for children, we must have services and supports in 
place to address their special needs and the competence and capacity to 
connect children and families to those resources. That means making 
changes in the overall federal financing of child welfare so states can 
put in place the constellation of services and supports children and 
families need.
    2.  Make specific comments and recommendations on the 
Subcommittee's May 17th draft proposal for reauthorizing the Promoting 
Safe and Stable Families Program (Title IV-B, Part 2) and making 
changes in the Child Welfare Services Program (Title IV-B, Part 1). We 
applaud and support your efforts to move quickly to ensure that the 
funding increases are preserved for the Promoting Safe and Stable 
Families Program.
Returning to the Big Picture and Finishing the Job
    The Adoption Assistance and Child Welfare Act became law more than 
25 years ago. Children entering care then as infants may well now have 
children in foster care. Even children in foster care who were just 
leaving elementary school at the time the Adoption and Safe Families 
Act (ASFA) was passed in 1997 now may be parents themselves. Both of 
these laws include specific provisions to help reform the child welfare 
system and improve outcomes for children, but neither finished the job 
by investing in services to keep children safely out of care and to get 
them into permanent families promptly, once placed. Children can wait 
no longer.
    The urgency of finishing the job for children has never been 
greater. The needs of children and families have become more complex, 
as we better understand the challenges of substance abuse, mental 
health problems and domestic violence. We also know more about the 
long-term consequences, both for the individuals affected and for 
society, when children with multiple risks go untreated. The long-term 
costs are enormous both in human and fiscal terms. But even more 
importantly, we know so much more about what works and the steps needed 
to respond to the challenges facing the system than we did certainly in 
1980 when the Adoption Assistance and Child Welfare Act was passed, in 
1993 when the earliest version of what became the Promoting Safe and 
Stable Families Program was authorized, and even in 1997 when ASFA was 
enacted.
    Federal child welfare financing must be reformed to help better 
promote increased capacity in states and communities for:

    <bullet>  Prevention and early intervention services;
    <bullet>  Specialized services and treatment for families 
struggling with substance abuse, mental health problems and domestic 
violence;
    <bullet>  Promoting permanency strategies for children;
    <bullet>  Improvements in the child welfare workforce; and
    <bullet>  Increased accountability for children.

    There is evidence from around the country of strategies underway to 
increase capacity in each of these areas. We describe just some of them 
below.
Prevention and Early Intervention Services
    Getting help to children early before needs intensify can make an 
important difference. The Task Force on Community Preventive Services 
of the federal Centers for Disease Control and Prevention identifies 
home visiting programs as effective in preventing child abuse and 
neglect in families at risk of maltreatment, including disadvantaged 
populations and families with low-birth weight infants. There are 
several different models of home visiting programs that offer a variety 
of support to families with differing needs. The Nurse-Family 
Partnership is the home visiting program with the longest track record 
and most extensive evaluations. It serves low income at risk pregnant 
women bearing their first child to improve pregnancy outcomes, promote 
children's health and development, and strengthen families' economic 
self-sufficiency. It consists of intensive and comprehensive home 
visitation by bachelor degree level nurses throughout a woman's 
pregnancy and continues through a child's second birthday. A 15-year 
follow-up study of the program showed that the mothers and children who 
were provided a nurse home visitor had 79 percent fewer verified 
reports of abuse or neglect; 31 percent fewer subsequent births; 44 
percent fewer maternal behavior problems due to alcohol and drug abuse, 
and other positive findings. The cost of the program was recovered by 
the child's fourth birthday. The Nurse Family Partnership Program, 
which some states fund with their Promoting Safe and Stable Families 
dollars, clearly demonstrates the value of early supports before 
children come to the attention of the child welfare system. Other 
states also fund other home visiting programs, such as Healthy Families 
America, with Promoting Safe and Stable Families funds. Greater 
investments are needed.
    States and communities have also used Family Group Decision-making 
and Family Team Meetings of various types to link children and families 
to both formal and informal services early on before placement becomes 
necessary. In Wayne County, Michigan (Detroit), as part of the Family 
to Family Initiative, the county makes no removals of children without 
family team meetings. Family team meetings involve family members, 
friends and other community agencies working with parents and 
facilitators to identify needs and develop a plan of action to meet 
them. Through this program, families learn to access the supports they 
need to safely and appropriately care for their children. Eighteen 
full-time facilitators, hired with funds previously used for foster 
care, guide this process. More than 70 percent of the children referred 
for removal from their home to date in Wayne County have remained at 
home or with relatives after the family team meetings were held. For 
children who enter foster care, parent advocates then help parents of 
the children navigate the multiple systems they confront and teen 
advocates are trained and available to help when older youth are at the 
table and need peer support.
    The Court Teams for Maltreated Infants and Toddlers model, first 
developed in Miami-Dade County, Florida, and highlighted in testimony 
by Judge Constance Cohen at the Subcommittee's May 23rd hearing is 
another example of an early intervention service. The Court Teams focus 
on infants and toddlers when they first come to the attention of the 
abuse and neglect court. The court, with an expanded role in the 
community, engages a team comprised of representatives from multiple 
child serving systems and also from Early Head Start and other early 
childhood programs, as well as community representatives to work with 
the parents, many of who had been raised in the foster care system 
themselves. This often includes teaching a parent about the early 
childhood development needs of their child and basic parenting skills 
they may have never learned in their own home. Reports from the 
earliest projects show encouraging results, including progress in 
breaking the intergenerational involvement of families in the child 
welfare system.
Specialized Treatment Services for Children and Their Families 
        Struggling with Substance Abuse, Mental Health Problems, and 
        Domestic Violence
    Substance abuse, mental health problems and domestic violence 
frequently bring children to the attention of the child welfare system. 
It is estimated, for example, that 40 to 80 percent of the children 
entering care have substance abuse problems. The benefits of 
comprehensive family treatment for mothers with substance abuse 
problems who often have also been victims of violence have been well 
documented in recent years. Evaluations of family treatment by the 
Substance Abuse and Mental Health Services Administration in the 
Department of Health and Human Services (HHS) demonstrate significantly 
reduced alcohol and drug use, as well as decreased criminal behavior. 
Such treatment is also cost-effective. As former Secretary of HHS 
Thompson said, ``There's no question that treatment provides a second 
chance to mothers and children, and we need to do everything we can to 
give them that opportunity.''
    Dr. Nancy Young, who directs the National Resource Center on 
Substance Abuse and Child Welfare, testified before the Senate Finance 
Committee on April 25th, and highlighted comprehensive models of 
substance abuse treatment where child welfare agencies and the courts 
work together to meet the needs of families with substance abuse 
problems. She described Sacramento County, California, where 
comprehensive treatment efforts have resulted in improved outcomes for 
families and cost savings for the county as a result of a combination 
of reforms that have been put in place over the last twelve years. Dr. 
Young emphasized the importance of both comprehensive treatment and 
also comprehensive training to ensure workers understand substance 
abuse and know how to intervene with parents. She also talked about 
intervening early with families, making improvements in cross system 
information systems, giving priority access to treatment to families in 
child protective services, offering specialized treatment and recovery 
services for families, and making dependency drug courts available to 
families. Perhaps the best testament to the success of comprehensive 
family treatment at the Senate Finance Committee's hearing on 
methamphetamine and child welfare was the testimony of three parents, 
now in recovery, and one of their sons, all of who had been helped by 
comprehensive family treatment.
    Another important area needing attention to help keep children safe 
and out of foster care is maternal depression. Early attention to 
maternal depression has been found to have a positive dual-generational 
effect. A recent study published in the Journal of the American Medical 
Association reported that remission of maternal depression after three 
months of medication treatment was significantly associated with a 
reduction in the children's diagnoses and symptoms, whereas in the 
control group, the mental health problems of children of mothers whose 
depression was not treated increased significantly. The Invisible 
Children's Project (ICP), operating in several states, offers 24-hour 
family case management services to families where maternal depression 
is identified. These services include referrals and links to community 
resources, crisis service and advocacy, and support services including 
respite child care, parenting education, access to financial 
assistance, and supported education and employment as well as supported 
housing services. Case studies of the ICP program in New York found 
significant positive outcomes for families involved with the program, 
including reduced interaction with the child welfare system.
Promoting Permanency Strategies for Children
    Increased capacity also is needed to help move children to 
permanent families and keep them there. This means investments in 
expanded post-adoption services, as Thomas Atwood of the National 
Council for Adoption called for in his testimony at the Subcommittee's 
May 23rd hearing, but also increased investments in other post-
permanency services to assist children who are returned to their 
parents or placed permanently with other relatives.
    Federal funds under Title IV-E should be provided for subsidies for 
children who can be cared for permanently by legal guardians, or would 
otherwise remain in foster care. At least 35 states and the District of 
Columbia now have subsidized guardianship programs and Iowa and 
Virginia were awarded federal waivers in March 2006 to implement 
subsidized guardianship programs. A recent study by Generations United, 
All Children Deserve a Permanent Home: Subsidized Guardianship as a 
Common Sense Solution for Children in Long-Term Relative Foster Care, 
reported that roughly one-quarter of all children in foster care and 
about one-third of those in foster family homes are living in families 
headed by grandparents or other relatives and about 20,000 of them have 
lived there for a year or more. These grandparents and other relatives 
offer loving and stable homes for vulnerable children but are often not 
financially prepared to take on the responsibility of full-time care. 
Some relatives live near poverty themselves and/or live on a fixed 
income. Illinois' experience with subsidized guardianship under the 
Child Welfare Waiver Demonstration Program, the most comprehensive and 
rigorous of the evaluations to date, demonstrated that the availability 
of subsidized guardianship as a permanency option substantially 
increased the rate at which children exited from foster care to legally 
permanent homes. Positive outcomes were also found in terms of the 
children's sense of well being. The Kinship Guardianship Assistance 
Program in California also has had positive results.
Improvements in the Child Welfare Workforce
    Service improvements alone will not make a difference in outcomes 
for children unless there are qualified staff members, both line 
workers and supervisors, available to assist the children and families 
to access these services. There are many components to ensuring an 
effective child welfare workforce. CDF and Children's Rights, Inc. have 
convened over the last year a child welfare workforce policy 
improvement group intended to identify policy options to improve the 
child welfare workforce. While our work is still ongoing, it is clear 
that an effective child welfare workforce must know how to accurately 
assess and provide what children and families need, have adequate 
resources to support their work with children and families, and be 
connected to the communities and families with which they are working.
    The components of a framework for an effective child welfare 
workforce include improvements in pre-employment education and 
training, ongoing competency training and professional development, 
provision for supervision and mentoring of staff, and attention to 
leadership within agencies and systems. Adequate resources include 
having time to spend with children, caseloads that will allow workers 
to do their jobs well, and appropriate workplace supports. There must 
also be a supportive organizational environment and useful 
technological resources, safe and suitable working conditions, and 
equitable employment incentives. Timely and accurate data and 
information and practice-enhancing research and evaluation will also 
help staff do their work. Family and community connections lay a 
foundation for understanding, respect and knowing how to work within 
the cultural context in which children and families live. Workforce 
improvements in all these areas must be a part of any comprehensive 
federal child welfare reform efforts.
Increased Accountability
    Any federal restructuring in child welfare must include increased 
internal and external accountability for positive experiences and 
improved outcomes for children, youth and families. This means 
adherence to basic protections for children. It also means a data and 
tracking system that makes information on performance available to 
staff so that they can track and constantly improve outcomes for the 
children in their caseloads. The public must also know how public and 
private agencies and courts within cities and counties and across the 
state are performing and have a system in place for discontinuing care 
when goals for children are not being met. It is also important that 
the monitoring systems in place accurately document the activities 
underway in states.
    Nationally, the Child and Family Service Reviews have been 
important for raising the vigilance of states in overseeing their own 
activities in child welfare. In fact, a number of states have 
instituted their own periodic assessments, apart from the federal 
reviews. Before the second round of federal reviews gets fully 
underway, CDF urges the Subcommittee to hold joint oversight hearings 
on the reviews with the Senate and to recommend ways to fine tune them 
in accordance with the lessons learned from the first round of reviews.
    Many of the innovations highlighted above reinforce the major 
importance of four characteristics that are essential to forging better 
outcomes for children. First, there must be systems in place to get 
help to children and families earlier. This means reaching children at 
younger ages, but also reaching them when they first come to the 
attention of the system by frontloading resources to assess and address 
their needs comprehensively from the very beginning. Second, attention 
must be given to engaging children, families and communities in new 
ways. Informal as well as formal supports have a role in keeping 
children safe. Third, child welfare agencies must do business 
differently. There must be willingness to structure services so they 
are more responsive to the needs of families and children. Too often 
now families aren't asked what they need, nor is there the capacity to 
craft services that meet individual needs. And fourth, the dollars must 
reinforce the vision and the goals being sought for children. This 
means better utilizing existing resources but also making new 
investments in the areas discussed above. Relevant to this point, John 
Mattingly, Commissioner of the New York City Administration for 
Children's Services, noted in his written statement for the record at 
the hearing on May 23rd that New York City and state together increased 
funds last year for support services by $27 million to support both 
prevention and aftercare services. And now this year, 10 years into 
that city's child welfare reform efforts, the Mayor has invested an 
additional $16 million to strengthen child safety, much of it focused 
on staffing, training and supervision of child welfare workers but also 
law enforcement personnel, and attorneys to help respond appropriately 
to the rights and needs of the children. New investments and increased 
flexibility are essential if reforms are to occur.
Improving the Promoting Safe and Stable Families and Child Welfare 
        Services Programs
    CDF appreciates the Subcommittee's efforts to make revisions in 
both the Promoting Safe and Stable Families and Child Welfare Services 
Programs, two small but relatively flexible sources of funding for 
child welfare services. The challenge with both programs is that as 
they remain level funded, without even cost of living increases, states 
have little opportunity to expand the uses of the program funds and 
often have difficulty even maintaining existing activities.
New Recommendations for Improvements
    CDF recommends three new areas for improvement that are not 
currently addressed in the Subcommittee's draft proposal.

    <bullet>  Enhanced Reporting. CDF recommends that new reporting 
requirements be added to both the Promoting Safe and Stable Families 
Program and to the Child Welfare Services Program so we will know more 
about how these dollars are actually being used. It would be helpful to 
know in the case of the Promoting Safe and Stable Families Program, the 
dollars invested in each of the program's four purposes: family 
support, family preservation, time-limited family reunification, and 
adoption promotion, including post-adoption services; the specific 
types of services being funded under each; and, where possible, the 
evaluations of services that are underway. Reports on the intended use 
of funds are already submitted to the regional HHS offices and the law 
should specify that these reports be forwarded annually to HHS's 
national office and a report submitted to Congress on both planned and 
actual expenditures. Our recommendation for reporting on the use of 
funds under the Child Welfare Services Program expands on the 
recommendation made by the General Accounting Office in its 2003 study, 
Child Welfare: Enhanced Federal Oversight of Title IV-B Could Provide 
States Additional Information to Improve Services. GAO recommended HHS 
consider collecting data on states' uses of these funds. As GAO noted, 
such data could be used to facilitate federal oversight and analysis of 
how states spending correlates to child outcomes and to inform the 
design of alternative funding proposals intended to give states more 
flexibility in spending child welfare funds. States should be required 
to report on the number of children and families served and the nature 
of the services they received.
    <bullet>  Help for Children in Indian Tribes. CDF supports the 
recommendations of the National Indian Child Welfare Association 
(NICWA), the National Congress of American Indians, Affiliated Tribes 
of Northwest Indians and the Association of American Indian Affairs to 
help more Indian children benefit from the Promoting Safe and Stable 
Families Program. These are outlined in the testimony of Terry Cross, 
Executive Director of NICWA, at the May 23rd hearing. The amounts 
reserved for tribes should be increased to three percent in both the 
mandatory and discretionary portions of the Promoting Safe and Stable 
Families Program; tribal consortia should be able to apply for all 
program components; and a tribal court improvement competitive grant 
program should be established. These changes will help enable Indian 
and Alaskan Native tribes to better protect children and ensure them 
permanent families. The needs of children in Indian tribes must also be 
considered when the Subcommittee addresses broader child welfare 
financing reform, as Indian children in tribes have never benefited 
directly from Title IV-E funding.
    <bullet>  Availability of 2006 Funding. CDF is pleased that the 
draft appropriates $40 million for FY 2006, which the language in the 
Deficit Reduction Act does not seem to do. However, the draft states 
that those funds will be available on the date of enactment of this 
Act. Given that it is possible that final enactment could occur toward 
the end of the fiscal year, it is very important that the final bill 
language makes clear that funds will be made available through FY 2008, 
so states will have a two year period to obligate these funds as is the 
intent of current law. Current law, however, refers to the year in 
which funds are authorized and the subsequent year, which would not be 
sufficient if funds are not provided to states until the end of FY 
2006, especially given that these will be new funds with possibly new 
purposes.

    In closing, CDF has one last recommendation, responding to your 
query about the uses for the new $40 million.

    <bullet>  Use of New Mandatory Funding. CDF's first preference 
would be to allow states to divide their share of the new $40 million 
between prevention and permanence, the two major purposes of the 
Promoting Safe and Stable Families Program. Activities of this type are 
essential for improving outcomes for children but are not the major 
focus of other federal child welfare programs and are sorely 
underfunded. Therefore we recommend that the new dollars be invested by 
states to further gains in prevention and permanence.

    As noted above, CDF strongly agrees that improvements in the 
quality of the child welfare workforce are key to ensuring children 
remain in safe, permanent families. We believe, however, that $40 
million is insufficient, especially when divided up among all the 
states, to have a significant impact on workforce improvements. For 
example, twenty seven states would get less than $600,000 in 2006--not 
even enough to hire 20 workers with benefits. Connecticut would get 
$300,000, Colorado $350,000, and Maryland $430,000.
    If a decision is made to continue with a focus on workforce, we 
recommend that the $40 million be used for a competitive grant program 
and that states be required to target their grants on workforce 
improvements that will help further the purposes of the Promoting Safe 
and Stable Families Program. For example, funds could be targeted for 
training and the hiring of specialists to assist workers in doing 
careful assessments of children when they first come to the attention 
of the system so they could be referred appropriately for services. 
Staff training in Family Group Decisionmaking or other family team 
meeting approaches would help to divert families safely from the system 
by getting them the support they need to protect and care for their 
children. Another state might use its funds for training staff in 
screening for substance abuse or hiring experts to advise child 
protection and foster care staff about substance abuse and effective 
treatment approaches. Specialists in post-adoption services could also 
be hired.
    We also recommend that the Subcommittee set aside a portion of 
Title IV-E funds for five years to assist states to make the child 
welfare workforce improvements that are referenced in your revisions to 
both the Child Welfare Services and Promoting Safe and Stable Families 
Programs. Congress should require states to develop comprehensive child 
welfare workforce plans before applying for the funds, and then allow 
states to apply for federal funds to help them make progress toward 
goals in specific workforce areas. The framework for an effective child 
welfare workforce referred to earlier in this statement could be the 
outline of the plan, with specific goals articulated. CDF would like 
the opportunity to work with the Subcommittee in crafting such 
important provisions.
    CDF appreciates the opportunity to comment on steps that can be 
taken both immediately, with the reauthorization of the Promoting Safe 
and Stable Program and amendments to the Child Welfare Services 
Program, and longer term to improve safety and permanence for children. 
We support many of your recommendations and look forward to working 
together to finish the job for children.
    Thank you.

                                 <F-dash>

  Statement of the American Federation of State, County and Municipal 
                           Employees (AFSCME)
    The American Federation of State, County and Municipal Employees 
(AFSCME) represents 1.4 million state and local government and 
nonprofit employees, including many thousands in the child welfare 
system. Our child welfare members have the daunting task of 
investigating allegations of abuse and neglect, and recommending 
whether children should be removed from their homes. They provide 
ongoing protective services to families whose children are at risk of 
being removed due to abuse or neglect--helping to arrange for services 
ranging from substance abuse and mental health counseling to respite 
care to after school programs and doctor visits. They work with 
families and children who have been placed temporarily in foster care, 
moving as quickly as possible to reunify the family, or to terminate 
parental rights so that a child can become eligible for adoption, or to 
pursue other permanent-placement options. They recruit and train foster 
and adoptive parents. They develop case plans, conduct home visits, 
appear regularly in court, and produce detailed documentation of all 
their work.
    Unfortunately, child welfare caseworkers all too often do not 
receive the support they need to attain positive outcomes for at risk 
children and families. Caseloads and workloads are often two or three 
times larger than those recommended by the Child Welfare League of 
America; competency-based training and professional development 
opportunities are lacking; meaningful supervision and mentoring is too 
often unavailable; wages and benefits lag far behind other professions 
that require similar educational backgrounds but without the 
responsibility for the lives and well-being of vulnerable children; 
caseworkers risk violent encounters on a daily basis; and they are 
often unfairly blamed when a tragedy occurs despite their best efforts.
    AFSCME commends the Subcommittee for recognizing the importance of 
the Promoting Safe and Stable Families (PSSF) program within the child 
welfare system, and for holding the May 23rd hearing. State and county-
run child welfare programs depend on adequate federal funding to 
provide the wide array of services the PSSF program makes possible, 
including prevention of child abuse and neglect, provision of time-
limited family reunification services, and adoption promotion.
Federal Funding for Child Welfare
    AFSCME is alarmed that federal funding to protect vulnerable 
children has remained flat over the past several years, a significant 
cut when adjusted for inflation. Public child welfare systems across 
the country have experienced dangerous financial shortfalls, resulting 
in too large caseloads, too few home visits, difficulty in attracting 
and retaining child welfare caseworkers, and lack of services for at-
risk families.
    An Urban Institute study released just after the May 23rd hearing 
found that state and local governments are attempting to plug the 
funding gaps in child protective services--between 2002 and 2004, state 
spending increased six percent and local spending increased 10 percent, 
while federal funding was virtually unchanged. The study attributed 
overall growth in spending to higher expectations for the quality or 
comprehensiveness of services, a continued increase in adoption 
spending, and rising costs.
Title IV-E
    State and local governments cannot continue to sustain the burden 
of these necessary spending increases. Federal spending is not keeping 
pace and in some instances is moving in the wrong direction. For 
example, the Deficit Reduction Omnibus Reconciliation Act of 2005 (DRA) 
requires that Title IV-E funding become more restrictive, limiting 
federal matching funds for children placed in the care of a relative, 
and for administrative costs for children who are at risk of entering 
foster care. And, this is on top of Congress' failure to eliminate the 
antiquated ``look-back'' to Aid to Families with Dependent Children 
(AFDC) eligibility rules for Title IV-E financial eligibility. The 
result is that half or less than half of all children in out-of-home 
care are eligible to receive federal Title IV-E matching funds, with 
states inevitably picking up the cost of foster care for children 
ineligible for IV-E.  AFSCME concurs with the Casey Family Programs' 
recommendation that Title IV-E funds should be made available to all 
children removed from their homes, including those placed with relative 
caregivers and in subsidized guardianships, and that Title IV-E funding 
eligibility should be adjusted for inflation. We also agree that Title 
IV-E's entitlement funding structure must be preserved and that IV-E 
funds should be made available to children requiring services in their 
homes to help prevent out-of-home placements.
PSSF Funding
    The PSSF program (Title IV-B, subpart 2) is a key funding source 
for states to provide prevention, reunification and adoption services. 
It includes both mandatory and discretionary funding. Currently, the 
mandatory funding level is $305 million annually. While the DRA 
provides a one-year increase of $40 million for FY 2006, these funds 
have not yet been appropriated. Moreover, Congress has failed to 
appropriate the full $200 million in authorized discretionary funds--in 
FY 2006, Congress approved only $89.1 million, a decrease of almost $9 
million from the FY 2005 level. Therefore, assuming the $40 million DRA 
increase is appropriated, the net increase for PSSF funding in FY 2006 
will be less than $30 million, bringing total funding to $434 million 
this fiscal year, well below the authorized level of $505 million.
    We are pleased that the House draft reauthorization bill includes 
an additional $40 million in annual mandatory funding for PSSF, and we 
urge the Subcommittee to retain these additional funds. They will 
enhance caseworkers' ability to visit foster children in their homes. 
Also, states should be given the full two years to spend the additional 
funds as they would have had they been made available at the beginning 
of FY 2006. We strongly recommend that PSSF be fully funded at the 
level of $505 million as adopted by the Subcommittee in 2001 and that 
the entire amount reauthorized for PSSF be mandatory funding.
SSBG Funding
    The Social Services Block Grant (SSBG) serves as a major source of 
funding for states' child welfare systems, with 38 states spending $194 
million in SSBG funds in 2004 for child protective services. These 
funds include some Temporary Assistance for Needy Families (TANF) 
dollars transferred into SSBG. We highlight this because SSBG, which is 
under the jurisdiction of this Subcommittee, is threatened with a 
reduction of $500 million in the President's proposed FY 2007 budget. 
This represents a 30 percent reduction in funding that would devastate 
Child Protective Services (CPS) and other child welfare programs and 
services.
Supported and Stable Workforce
    The heart of the child welfare system is the caseworkers and 
supervisors who respond to crises, visit children and families in their 
homes, make judgments about where children can safely live, and do 
whatever is necessary to protect and improve the lives of these fragile 
families. Front-line workers cannot meet the high expectations placed 
on them without significant investments towards improving their work 
environments.
    Most importantly, caseloads (the number of cases per caseworker) 
and workloads (the amount of work required per case) must be 
reconfigured to a manageable level. The Child Welfare League of America 
recommends a caseload ratio of 12 to 15 children per caseworker. Very 
few child welfare programs adhere to this ratio, with many demanding 
that caseworkers carry caseloads two or three times as large while 
cases become more complex. This results in high stress for the 
workforce and reduced service capacity. In a survey of public agency 
administrators, the American Public Human Services Association (APHSA) 
found that the number-one issue in preventable turnover was that 
``workloads are too high, demanding, or both.'' AFSCME recommends that 
Congress establish a national caseload limit.
    Child welfare caseworkers are also underpaid in comparison to jobs 
in other sectors that require comparable education and responsibility. 
Many caseworkers have steep student loan repayments. Inadequate 
salaries and benefits lead to demoralization for those who remain in 
child welfare and an exodus for many out of the system to less 
stressful and more lucrative careers. AFSCME recommends that Congress 
use its option to provide an additional 3.3 percent in discretionary 
funds to allow for research, training, and evaluation of services in 
the child welfare system. We also urge a greater investment in 
caseworker training and student loan forgiveness. Regular pay increases 
and employer-paid benefits are essential to recruit and retain a stable 
and skilled workforce.
    We are unaware of any evidence that states have misused Title IV-B 
funds for administrative expenses. Therefore, we see no need to limit 
the proportion of federal funds states can use to administer their 
child welfare programs. While we agree that states should streamline 
their administrative costs as much as possible to maximize spending on 
services for children and families, a strong infrastructure is a 
prerequisite to a well-functioning, complex system. At a minimum, we 
urge the Subcommittee to exclude caseworkers from any funding 
restrictions.
    AFSCME's members who work in child welfare look to Congress to 
ensure that they have the support and tools they need to help 
vulnerable children and families. Mandatory, full funding for the PSSF 
program would be an important advance in the funding structure. 
Additionally, we urge the Subcommittee to appropriate the $40 million 
in additional mandatory funds allocated in the DRA of 2005, protect the 
entitlement structure for the Title IV-E program, and ensure rejection 
of the proposed $500 million cut to the SSBG program. Adequate, 
dependable federal funding is an important component in addressing the 
challenges facing the child welfare workforce and the child welfare 
system itself.
    We appreciate the opportunity to share our views on this subject of 
vital importance to our nation's children.

                                 <F-dash>

                                                  Waco, Texas 76708
                                                       June 6, 2006
Honorable Members of the House Ways and Means Human Resources 
Subcommittee U.S. House of Representatives

    Good day ladies and gentlemen, my name is Tim Brown and I am the 
Vice President of Community Services at the Methodist Children's Home, 
Waco, Texas 76708. We are a multi-service agency serving the needs of 
children and families in the Texas and New Mexico area. We are a 
private, non-profit, faith-based program established in 1890, and 
affiliated with the seven annual conferences of the United Methodist 
Church in Texas and New Mexico. We are accredited by, the Council on 
Accreditation, and the United Methodist Health and Welfare Ministries 
EAGLE Accreditation. We are members of C.O.R.E., the Coalition on 
Residential Education, 8403 Colesville Road, Silver Springs, Maryland 
20910. Heidi Goldsmith is the Executive Director of C.O.R.E., which is 
a Washington, D.C. based national non-profit organization representing 
residential education programs such as ours.
    We serve children and families by providing residential services 
with an on-ground school program, family based services, foster care 
and a college-vocational program. We only serve children and families 
who currently reside in states of Texas and New Mexico. We have offices 
located in Dallas, Tyler/Waco, Houston, San Antonio, Lubbock, Corpus 
Christi and Albuquerque, New Mexico. We receive 2500 inquiries for 
services annually.
    We offer a wide range of strength-based services to children and 
families in an effort to reclaim them from devastating emotional, 
psychological and physically challenging circumstances. Included in our 
service options are college and vocational training scholarships and 
opportunities. Our programs and services serve children and families on 
a longer-term basis with transitional support into adult living. Our 
children typically come to us as teenagers and do not return to their 
home of origin. The families are transient, jobless, homeless, and/or 
the children and youth reside with parents or relatives that are or 
have been incarcerated, drug-involved, experiencing a significant or 
terminal illness, experiencing mental health problems or have become 
aged or disabled and can no longer care for their child. Where 
possible, we work toward re-unification of children with their 
biological families. However, in many cases, these children have no 
functional biological family to return to. Thus, our goal is to assist 
them in their preparation for adulthood and with their successful 
transition into productive careers with promising futures.
    We are writing to offer support and praise for the inclusion of new 
language in proposed legislation (Section 422, Clause 4A of the 
Promoting Safe and Stable Families Act) that will ``expand and 
strengthen the range of existing services . . . to improve child 
outcomes'' under consideration by the House Ways and Means' Human 
Resources congressional subcommittee at this time. We would advocate 
that this proposed language be maintained and, if possible, 
strengthened to afford more children (such as the one's we serve) more 
options regarding their care, education and preparation for a 
productive future.
    We believe children, and others wishing to do well by them, such as 
judges, child advocates, social workers, policymakers, families and 
friends would support the inclusion of all viable options and choices, 
as eligible alternatives for these at-risk children and youth. Thus we 
would encourage committee members and others, to include and promote 
all viable choices and options for children and youth facing removal 
from their families of origin. Giving a child or a youth access to a 
dependable and caring individual whom they can count on as an advocate 
and mentor; and, a place to call home (or at least a safe harbor to 
anchor in) until the seas of life calm, and until they are educated and 
equipped to face life's storms that will surely come their way, would 
be a tremendous and gracious gift.
    Our program and many other similar residential education programs 
are strength-based and child-centered, offer continuing support to 
youth after the age of eighteen. Children and youth served by our 
agency are provided creative and exceptional, educational 
opportunities, and a safe environment. Our agency and others have been 
blessed with the ability to provide, at no cost to the child or family, 
post high school educational, vocational training and sheltered work 
options to graduating students.
    When children and youth come to our attention, they are typically 
representative of the 4% to 6% of those who have already been through 
the punitive (zero tolerance) phase dictated by the public school 
system. They are one to three years behind in their education when they 
leave public school and have forgotten a substantial percentage of what 
they did learn due to the social and emotional stressors that the have 
had to contend with during this developmental phase of their growth.
    We have discovered in serving these children that even though we 
are able to accommodate their needed educational acceleration in a 
structured environment, the delays still appear in their social and 
coping skills contributing to their lack of workforce readiness and 
successful post-secondary education functioning. Workforce readiness 
has been declining over the years as the knowledge base continues to 
grow exponentially. These special needs children and youth, while aging 
chronologically have not had the opportunity to keep up with their 
peers in society and consequently find themselves considerably behind 
when competing in the job force or performance in college.
    Inclusion of eligible options and alternatives for these young 
people in the proposed legislation would give them additional time and 
support necessary to be successful in their chosen fields of work or 
education. Simply obtaining a high school diploma at a particular age 
is not in and of itself a qualifier for workforce readiness and 
successful transition into adulthood. We would advocate for increasing 
eligible alternatives, choices and options for these children and we 
are appreciative of the subcommittee's efforts to make them available 
by drafting legislation that will do so.
                                                          Tim Brown

                                 <F-dash>

                                     Davidson, North Carolina 28036
                                                       May 23, 2006
    Improving Proctection for Children Beyond CPS
    The most helpful proposal to improve protection for children--as 
distinct from the failed ``child protective services'' (CPS) system--is 
to encourage and support nurture and rearing of children within natural 
families in spirit and in deed.
    ``A proper investigation from the beginning'' applies infinitely 
more to actions and consequences of CPS investigations on behalf of 
under-age Americans than to the rightly criticized methods of Aruba, 
cruise lines and other nations fumbling to ``find'' young adult 
Americans missing beyond our borders.
    SWAP (Social Work Again Proposal) was presented officially on July 
26, 1994 to the Health and Human Resources Subcommittee of then Gov. 
George Allen's Regulatory Review Committee in Richmond, Virginia.
    It distills what can be done to replace what CPS has become: a 
parapolice arm of the prosecution. Results of its faltering focus--
little interest in preserving natural family, the smallest but most 
vital building block of American society--were proved by Child and 
Family Service Reviews, failed by every state
    A crystallized version of SWAP follows:
    When families needing help do not ask, afraid it will hurt
    For children hurting in foster care whose cries are ignored
    Knowing not every child abuse report requires intervention
    A SOLUTION for elected representatives at all government levels

    1.  Return Social Services to traditional family-supportive 
practice.
    2.  Have trained law enforcement, using due process and standard 
rules of evidence, investigate. (No more 3rd party, financially--
interested hearsay to justify family-injuring interventions.)
    3.  ONLY if a child has no natural extended family willing or able 
to provide temporary housing should courts separate families.

    Making ``Paper Orphans'' of children--especially babies marketable 
for adoption and post-adoption subsidies--is an unworthy contemporary 
American practice. It is enabled by federal and state legislation and 
funding. It encourages needless out of home and family placement. 
Taxpayers are defrauded and never harmed children are traumatized. Lady 
Justice is strangled as good people, entering social work with concern 
for children and families, learn to practice a parapolice type child 
saving that hurts children, families, taxpayers and justice.
    There is a simple and right way to solve problems created because 
an adoption agenda and funding opportunities overshadowed best 
practice, Constitutional, and moral treatment of children and families. 
There is a just and rational way to return both science and common 
sense to child abuse investigations of the presumptively worst 
``crimes'' (if one has been committed wittingly and intentionally). 
SWAP is the answer.
                                                      Barbara Bryan
    First proposed officially 7/26/94 in Virginia to HHR Subcommittee 
of Gov. Allen's Regulatory Review Committee
                                 ______
                                 
    When there are reasons that a child cannot be reared in his or her 
home by one or both birth parents, and there are no relatives supported 
sufficiently (always less expensively than with strangers) to accept 
and keep the children close to grandparents and siblings, then open 
adoption should be the order of the day ``in the best interests of'' 
children already traumatized.
    If slowing the rampant removal and reallocation of children 
reported as abused or neglected cannot be achieved by restoring basic 
human and civil rights and Constitutional law to all dealings with 
America's parents, those children purported to benefit from continued 
funding under PSSF reauthorization will thank those who let it die in 
2006.
    More money for a program that has performed perversely for three 
decades for children and families is not a reasonable or fiscally sound 
solution.
Counterproductive Services
    Through many years I brought documented misfortunes to the 
attention of the appointed State Board of Social Services in the 
Commonwealth of Virginia at its public meetings, wherever they were 
throughout the Commonwealth and always at my own expense.
    There were times, on behalf of beleaguered and broken-hearted 
officially injured families, when I described CPS as 
``counterproductive services'' because it so often achieved the 
opposite effect assured under State law by its policies and 
regulations. That was because ``practice'' by agents with varying 
degrees of knowledge, skills and abilities, as well as mental health, 
often matched none of the above.
    Nevertheless, local agencies, the Central office of Department of 
Social Services, the Secretariat, ``family'' courts (most not courts of 
record) and up the ladder--and too well served by the Office of the 
Attorney General, both attorney for the errant agency as well as the 
Commonwealth's top law enforcer)--backed the errors. The sad seal of 
approval for local, hands-on child protection was given to agencies 
acting helpfully or ignoring a child to known battering in DeShaney.
    Why? Most state laws, although legal because they are statutory, 
also are extraconstitutional and known to be so. Amending State 
Constitutions, as Virginia did, to claim ``all laws are presumed to be 
constitutional'' is no help to children and families literally dis-
membered by agents of the state.
    The burden to overturn a CPS agency error, and with more difficulty 
an extra-constitutional State law, is on the injured and/or affected 
citizen, obligated to go childless (a presumptive perspective itself) 
to the U.S. Supreme Court with private resources. That person has a 
minuscule chance of ever having such a case heard to upend decades of 
allowed and funded CPS practice.
Anonymous Reporting
    Although the old ``evil empire,'' the USSR outlawed anonymous 
reports in 1984 because of their unreliability, the Act that launched 
CPS under CAPTA (Child Abuse Prevention and Treatment Act) more than 
three decades ago required states to accept and act on anonymous 
reports and to maintain Central Registries of those reports of 
suspicions. Our nation has criticized Third World countries for similar 
practices in the ``rule of suspect,'' only in CPS cases we legally take 
and hold the children until ``cooperation'' or a confession is 
forthcoming.
    No one wearing a black robe or sitting on a bench anywhere, and 
certainly not the U.S. Supremes who have penned the bitter words of 
DeShaney, wants to open the lid on the Pandora's box in which CPS 
buries its mistakes.
    With inferior resources to the purse and sword of the State, 
families often ``give up'' children, sometimes in exchange for promised 
health or mental health care, sometimes in the frequently vain hope 
they may be allowed to keep one or more of them, and sometimes only to 
learn per 1997 ASFA that subsequent newborns will be removed from the 
delivery room and handed over to pre-adoptive homes and there is 
financial incentive involved.
    What is the difference between a now denounced ill-conceived 
official policy of sterilization and constructive serial sterilization: 
taking away children, one by one, only after a mother has conceived, 
nurtured and given birth to them, if through actions of its CPS agents 
``the people'' and agents and courts are wrong as too often occurs?
    Feigning concern for children and ``family preservation'' while 
giving equal and often greater weight to testimony of pre-adoptive 
foster parents, even in the cases of wrongful removals that will not be 
repaired if ``Oh, well, the child has been there for 15 of the past 22 
months so we HAVE to terminate your parental rights,'' is a shell game 
practiced for decades and refined following ASFA
Legal Child Trafficking
    Anywhere else on the planet that kind of trafficking in children 
would be decried. America made it legal, major media glorify it and 
promote the practice in subtle and blatant ways by extolling adoption 
minus particulars on the origins of infant availabilities as the 
smallest prizes. Far from telling the whole story of what CPS has been 
allowed to do, glory stories are played up and errors and horrors 
suggested as aberrations with proposed solutions of the usual mantra: 
``More money, more workers, more training.''
    Multiple Response Systems (MRS) or ``differential response'' is CPS 
hiding behind a happy face mask. There are times when parents, most 
familiar with their own children and more protective than transient 
child protectors working under state laws purposefully disconnected 
from either State or U.S. Constitutional Law, should say ``No, thank 
you'' to ``parenting classes'' and other seeming ``services'' such as 
coerced anti-Fifth Amendment mental health evaluations.
    But, that makes them ``uncooperative'' re ``participation in 
services'' which ``documents'' a reason for proceeding with termination 
of parental rights.
    ``Preservation,'' sometimes redefined as finding or creating a 
``forever home'' somewhere with somebody, is a word meaning one thing 
to a natural parent trying desperately to liberate a child from system 
overreach and something quite different to CPS and State agents 
computing how many more children must be ``adopted out'' to exceed last 
year's quota to qualify for an agency federal bonus.
    Some tragic stories of agency-overloaded, if not we-just-can't-say-
no-to-the-child-and-the-check couples, also compute the fame (``Aren't 
they the most amazing and good-hearted people.'') and gain. The work as 
well as the rewards go up in bottom line value if the child arrives 
with the right labels of ``special needs'' and ``at risk,'' near 
guaranteed labels for a ``substantiated'' abused or neglected child, 
accurate or not.
    Government has been scammed enough through the years by CPS 
agencies to have HHS/IG auditors who know the whole truth and, 
prayerfully, have tried to convey it to large-hearted and level headed 
members of Congress.
Children and Taxpayers Cheated
    There was Contra Costa County's refusal to proceed with adoptions, 
even ones that natural parents approved, because money for various 
services but unshared with those who actually cared for the children 
could be used otherwise by the agency. There was the interesting 
exposure in Texas: labeling children along CPS and education lines and 
billing for counseling done by a psychologist in a distant state who 
never had a clue. Double-dipping against the taxpayers was simple and 
this was not by a white collar criminal in the private domain.
    Taxpayers paid all. Children did NOT receive the benefits. Families 
were hurt. Agents of the state and monitors at federal levels danced 
with each other while Government supposedly watchdogs Government to 
explain the effectiveness and efficiency of spending federal 
appropriations FOR THE CHILDREN.
    When CFSR auditors were stiffed in their initial efforts to gain 
supporting documentation for spending claims from Virginia's CPS and 
foster care (and just maybe the tiny ``preservation services'' lumped 
in under foster care and adoption), they went back and had essentially 
the same welcome and result. No one connected with CPS 
(``confidential'' and presumed to be on the side of angels) expects to 
be bothered or ever really held accountable.
    After all, the nice judge nearly always accepts CPS recommendations 
(if he/she likes remaining on the bench) and a stroke of a judge's pen 
immunizes all. Then there is that nice coverage from risk management 
and a taxpayer-provided lawyer in the form of an assistant DA, 
prosecutor, Commonwealth's attorney. Why keep and show HHS/IG auditors 
annoying (and evidentiary) paperwork?
    Why honor requests from Congress to prove that anyone really 
protected children or ``served'' them and preserved families when one 
is covered every which way by courts, free lawyers and is assumed by 
the public to be in there fighting ``for children?''
Served or Severed?
    IF members of Congress learned the language of child protection 
agencies and apparent ``child (as distinct from ``family'') advocates, 
the ones shamelessly covered by ``the United States,'' six other states 
and others defending government error at all costs (i.e., protecting 
tax coffers from taxpayers who know preventable error when they see 
it), they would welcome DeShaney redux as an illumination from the 
highest bench of the Judicial branch.
    In that decision, a justice speaks for ``poor Joshua,'' noting that 
Child protective services, or CPS the agency, is the sole ``support'' 
and help for known injured children. When its agents are allowed to 
ignore a battered child to death--with the blessing of even the U.S. 
Supremes--there are meanings shrouded in all the writings related to 
the quite often predictable travesty of a child death. Nothing truly 
``slipped through the cracks.''
    We hear post-homicide statements from NYC's CPC agency Commissioner 
(must be translated by the aware) that ``We have no reports'' on Lisa 
Steinberg or Nadine Lockwood or Elisa Isquierda. The actual meaning, 
among other possibilities is: (a) we declined to accept reports (we are 
required to investigate), (b) we never wrote down details of the calls 
we were planning to ignore anyway or (c) maybe they were written down 
but we've shredded them.
    There must immediately be returned to the nation, through rational 
choices and educated awareness of its elected representatives, a 
presumption in favor of birth and natural family in all but true orphan 
status for babies and children.
    Newborns should not be whisked from delivery rooms because a 1997 
federal law enables trafficking in tiny human flesh because a mother 
has ``lost'' prior children to the system. For all the families who've 
had children succumb serially to once-unidentified genetic disorders, 
for all who've seen children react to overloads of vaccines (5-9 shots 
at one time for many welfare or military children whose brains swell, 
retinal hemorrhages are caused and suddenly their parents are accused 
of becoming angry, violently shaking them, never mind the law of 
physics proves there MUST be accompanying severe neck injury), an 
official policy that creates trauma where often there provably was 
little or none prior to CPS ``intervention,'' MUST CEASE AND DESIST.
    So, someone goes to prison, a mother becomes childless, children 
are scattered from family and each other, and no one dares tell the 
whole story of overloads for some in situations, of too many shots at 
one time in relation to the current health status of a child, some of 
whom were preemies and given shots anyway by the ``chronological'' 
rather than gestational age.
Capital Punishment Equivalent
    Mistakes are made. More child protection reports than anyone 
chooses to believe are not supportable IF those accused received the 
courtesies given serial killers under justice system options that 
include a death sentence.
    Attorneys who bravely try standing between the feelings of the 
lowest line CPS worker and a never-abusive but about-to-be fractured 
family in purposely extraconstitutional courts (see pre-1899 comments 
about the first juvenile courts) correctly equate turning a family's 
child into a ``legal stranger'' by a judge's pen the civil (or 
supremely Uncivil) parallel of capital punishment under criminal 
justice. But, aren't child abusers even WORSE than murderers? So why 
are not they--and alleged ``evidence,'' too often state-purchased 
hearsay--under the most carefully scrutinized rules of solid evidence?
    Instead families have a choice: simply give up children--or watch 
them taken anyway under color of law--and maybe you get to live. What 
is life without the children that parents wanted, loved and for whom 
strong advocacy may have meant unwarily ``starting something''?
    That ``something'' may have been annoying a doctor, an educator, a 
professional with too many questions, quoting law or policy, or 
offering or challenging an opinion that did not match the child or what 
the parent knew of the child. For busy and annoyed and sometimes 
arrogant professionals a call to CPS to report ``suspicions'' has 
proved to be an almost guaranteed diversion and assurance any threats 
or costly or bothersome advocacy for a child will stop (``under color 
of law'').
    Never mind the child, truly ``in need of services,'' is now subject 
to removal by CPS and near instant pre-adoptive placement? Who cares 
that adopters will likely have to promise not to pursue similar 
advocacy, even after they learn what the parent/s always knew: the 
child needed help and parents went to the agency that promised it.
    Just as with Congressional interest in improving foster care, one 
can aim at ``improv(ing) child protective services,'' as one can 
attempt to reform or improve Frankenstein. The end result remains: a 
monster.
                                                      Barbara Bryan

                                 <F-dash>

            Statement of Donna M. Butts, Generations United

Introduction
    Generations United is the only national membership organization 
focused solely on promoting intergenerational strategies, public 
policies, and programs. Founded in 1986 by the National Council on the 
Aging, Child Welfare League of America, AARP, and Children's Defense 
Fund, GU has grown tremendously over the last twenty years and now has 
individual members, in addition to over 100 national, state, and local 
organizational members that represent more than 70 million Americans. 
GU serves as a resource for educating policymakers and the public about 
the economic, social, and personal imperatives of intergenerational 
cooperation. One of GU's core initiatives is its National Center on 
Grandparents and Other Relatives Raising Children, also known as 
grandfamilies.
    My testimony is about these ``grandfamilies'' or families in which 
grandparents or other relatives are primarily responsible for caring 
for children who live with them and the Promoting Safe and Stable 
Families Program (PSSF). While I will focus my statement on 
grandfamilies in the formal foster care system, it is important to 
remember that many children are raised outside any formal child welfare 
system and are in informal relationships.
    Generations United shares the goals and objectives of the PSSF 
program. The program recognizes the importance of having permanent 
family relationships. The program should seek, as it has in the past, 
to expand options for permanency to include a federal subsidized 
guardianship program. Federal subsidized guardianship is an innovative 
approach to expand permanency to children languishing in foster care 
with no plan for permanency. Subsidized guardianship provides the sense 
of ``forever'' that is so important to a child's future.
The Numbers
    Children who enter the foster care system fare better when placed 
with relatives. They experience fewer placements and less disruption 
while staying connected to their roots and culture. They are more 
likely to report that they feel loved. Currently about 530,000 children 
in the U.S. are in foster care. Of these, more than 125,000 live with 
relatives. All told almost six million children across the country are 
living in households headed by grandparents or other relatives, 
according to the 2000 U.S. Census. About 4.4 million of these children 
are in grandparent-headed households, and another 1.5 million live in 
households headed by other relatives, such as aunts, uncles, or 
siblings. Almost 2.5 million of these children have no parent present 
in the home.
Permanency
    The ultimate aim for the PSSF program is a permanent and healthy 
home for children. Research and the success of the program prove that 
part of having a safe and stable home is also having strong family 
relationships. As part of the program's reauthorization in 1999, it has 
sought to expand ways in which permanent placements can be found for 
children, including post adoption services. Adoption is an attractive 
option for permanency for many children. However, for children in the 
care of relatives in the formal foster care system adoption is often 
not an appropriate option. Adoption involves going to court and 
terminating parental rights and fundamentally changes the family 
structure which is simply unacceptable for some families, especially 
among Native American families. For those children in foster care for 
whom neither returning to home nor adoption are viable, subsidized 
guardianship is an important third option. Unfortunately there is no 
guaranteed federal funding for the program for all states to take 
advantaged of the benefits to children and families.
Subsidized Guardianship
    Subsidized guardianship programs solve two of the most significant 
challenges for grandfamilies, those of legal relationship and financial 
support. Access to services, like education, health care, and housing, 
can all vary depending on whether the child has a legal relationship 
with the caregiver. For this reason, legal issues are frequently among 
the top concerns for grandfamilies. Finding a legal relationship that 
suits the families' needs, and an affordable lawyer to help, can be 
difficult, if not impossible. What is commonly considered the most 
permanent of the legal relationship options--adoption--may not be 
attractive to relative caregivers. The process is often disruptive to 
family relationships, and in many cultures is unimaginable, because the 
grandparent, aunt, uncle or sibling becomes the ``parent'' in the eyes 
of the law. Grandma may not want to be ``mom,'' and forever change her 
adult daughter into her own child's ``sister.''
    In addition to legal concerns, financial assistance is an often 
cited need. In many states, financial supports for grandfamilies are 
severely limited, despite the frequent need for assistance to care for 
the children whose grandparents and other relatives did not plan to 
raise them. Financial assistance for families who need it can help a 
grandfamily stay together. It is most important for middle age 
caregivers who should be saving for their own retirement and older 
caregivers who are at risk of spending down assets meant to last their 
lifetime. Subsidized guardianship is one means of addressing the 
financial challenges for children exiting the foster care system.
    Through subsidized guardianship, children get a permanent, legal 
relationship with their caregivers, and receive much needed ongoing 
financial support. Thirty-five states and the District of Columbia, 
have such a subsidized guardianship program to provide safe, stable 
permanent homes for children. Several programs have been a model of 
compassionate, cost-effective policy that moves children out of foster 
care into safe, permanent families. Although subsidized guardianship 
programs are proven successful, these programs do not have a stable 
source of federal funding. The blue-ribbon Pew Commission on Children 
in Foster Care, a nationally renowned panel of child welfare experts, 
recommended that all states be allowed to use Title IV-E federal foster 
care funding for subsidized guardianship assistance for eligible 
children who leave foster care to live with safe, legal guardians.
    Subsidized guardianship should not be viewed as an impediment to 
adoption. In fact, an evaluation of the Illinois Title IV-E waiver 
program found that over five years, subsidized guardianship provided 
permanence for more than 6,800 children who had been in foster care, 
that discussing all permanency options actually helped to significantly 
increase the number of adoptions, and the children involved perceived 
guardianship as providing as much security as adoption.
Supports to Informal Relative Caregivers
    Part of the purpose of Promoting Safe and Stable Families Program 
is to help minimize the number of families that come to the attention 
of the child welfare system. Many children that are at a high risk for 
entrance into the child welfare system are also in the informal care of 
grandparents and other relatives. PSSF should look to increase supports 
to relative caregivers to prevent placements in foster care.
Conclusion:
    We appreciate the work of this committee to reauthorize the PSSF 
program. The program is a very important part of the mix of supportive 
services addressing the needs of children in foster care. We believe 
however that there needs to be further examination of the foster care 
system to assure that additional avenues of permanence are open for 
children. Subsidized guardianship should be one of the options 
available for children to enter into permanent relationships. Research 
and the success of Promoting Safe and Stable Families show how 
important family connections are to the health of children. Subsidized 
guardianship maintains those connections and limits children's 
interaction with the child welfare system. Subsidized guardianship 
should be open to children in every state with guaranteed federal 
funding. Thank you.

                                 <F-dash>
                                        Boston, Massachusetts 02215
                                                       May 23, 2006
    Dear Committee on Ways:
    CPS was originally designed to protect children and keep families 
together. Due to incentives driven by Federal Law, it now is a bill-at-
will child mental health system wherein involuntary commitment comes 
from child removal. Most of the CPS kids are labeled mentally ill and 
drugged for two reasons, 1. it gives money to the CPS residential 
centers and states get federally matching funds and 2. mental disorders 
are arbitrary and subjective since there are no medical tests that can 
be verified or proven fraudulent. The result is that the children are 
harmed, families are torn apart and the federal government is ripped-
off (which it deserves for allow such a corrupt system). Solutions: 1. 
Stop the federally matching funds for CPS, especially for mental health 
``services.'' Cap the funding back to the 1997 level prior to the 
adoption bonuses. This takes away state incentive to allow these poor 
kids to be put on three to five psychiatric drugs at a time, including 
antidepressants and antipsychotics that aren't approved for kids. 2. 
Repeal the Adoption law of 1997 as that's an incentive for states to 
remove kids from families which is exactly oppositeof the reason for 
CPS. If you cannot do 1. and 2. above, realize that you've created a 
monster and abolish this abusive system.
            Sincerely,
                                                         Kevin Hall

                                 <F-dash>

      Statement of Jim Denney, Sutter County Sheriff's Department,
                         Yuba City, California
    Mr. Chairman and Members of the Subcommittee on Human Resources:
    Thank you for the opportunity to submit this written testimony. My 
name is Sheriff Jim Denney and I have led the Sutter County Sheriff's 
Department in Yuba City, CA for the last seven years. I have been in 
law enforcement for 34 years, serving in a variety of roles including 
patrol, K-9, drug enforcement, felony investigations, and 
administration. I am also a member of the state executive board of 
Fight Crime: Invest in Kids California, an anti-crime organization of 
more than 300 police chiefs, sheriffs, prosecutors, and victims of 
violence. Nationwide, I work with more than 2,500 law enforcement 
leaders who have come together to take a hard-nosed look at what the 
research says works to keep kids from becoming criminals.
Overview of Recommendations
    My experiences on the frontline in the fight against crime have 
shown me that child abuse and neglect is too often only the first 
chapter in a tragic story of violence. The research confirms that 
although most abused and neglected children go on to lead productive 
lives, these kids are at greater risk of engaging in later violence. I 
am very pleased that your recent draft proposal for a bi-partisan 
reauthorization of the Promoting Safe and Stable Families program 
maintains the program's focus on child abuse and neglect prevention and 
provides additional federal resources to help ensure that kids are in 
the safest environment possible for their healthy development.
    Specifically, I applaud you for your recent draft legislation to 
reauthorize the Promoting Safe and Stable Families program, which 
includes:

    <bullet>  Preserving the focus on funding for up-front prevention 
in the core ``Promoting Safe and Stable Families'' program; and
    <bullet>  Increasing mandatory funding authorization levels by $40 
million annually to enable states and communities to better address 
child abuse and neglect.

    The draft bill would take important steps toward ensuring that 
children are safer--and as a result--our communities are safer in the 
long run.
    Because I understand that you have circulated the draft legislation 
with the intent to generate suggestions and ideas, I would also like to 
suggest one idea for a possible approach to targeting the $40 million 
in increased mandatory funding: in-home parent coaching, through 
language already included in the bi-partisan Education Begins At Home 
Act (H.R. 3628).
Child Abuse and Neglect: The Crime Connection
    Child abuse and neglect is widespread. Each year, 900,000 cases of 
child abuse and neglect are investigated and verified by state child 
protection systems. The Third National Incidence Study of Child Abuse 
and Neglect, a Congressionally mandated study, concluded that the 
actual number of children abused or neglected each year is three times 
the officially recognized number, meaning that an estimated 2.7 million 
children in America are abused or neglected every year. It is estimated 
that more than 2,000 children die from abuse or neglect each year, 
including 1,400 deaths that are officially reported to be the result of 
abuse or neglect.
    Sadly, such child abuse and neglect is often only the first chapter 
in a multi-generational story of violence. Severe abuse and neglect, 
particularly when they occur during the earliest months and years of 
life, can permanently injure children in ways that make them much more 
susceptible to engaging in violence. The best available research 
indicates that, based on confirmed cases of abuse and neglect in just 
one year, an additional 35,000 violent criminals and more than 250 
murderers will emerge as adults who would never have become violent 
criminals if not for the abuse or neglect they endured as kids.
Child Abuse and Neglect Prevention through In-Home Parent Coaching

        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    By the time law enforcement gets involved, it is too late to undo 
the damage that results from child abuse and neglect. After all, over 
half of the children who die from abuse or neglect were previously 
unknown to Child Protective Services, and children who survive abuse or 
neglect are dramatically more likely to engage in later crime and 
violence.
    Fortunately, there are effective, evidence-based prevention 
programs that are proven to reduce child abuse and neglect and later 
delinquency, helping to reduce the need for foster care placements.
    In-home parent coaching is one of the most research-proven 
successful and cost-effective child abuse and neglect prevention 
approaches available. For example, the Nurse Family Partnership (NFP) 
randomly assigned at-risk pregnant women to receive in-home visits by 
nurses starting before the birth of the first child and continuing 
until the child was age two. The nurses coached the expectant mothers 
in parenting and other skills and helped the mothers address their own 
problems. Rigorous research (randomized control trial research), 
originallypublished in the Journal of the American Medical Association, 
shows that children of mothers in the program had half as many 
substantiated reports of abuse or neglect. Children of mothers who 
received the coaching also had 59% fewer arrests by age 15 than the 
children of mothers who were not coached. Even the mothers who received 
the in-home parent coaching had 61% fewer arrests, demonstrating a 
multi-generational crime-reduction benefit. Additionally, the RAND 
Corporation found that NFP averages more than $18,000 in savings for 
every family in the program. A Washington State cost-benefit analysis 
produced similar results and found that reduced crime costs accounted 
for almost two-thirds of the savings.
    The Bush Administration has, through a variety of federal agencies, 
expressed strong support for such evidence-based in-home parent 
coaching programs. U.S. Department of Health and Human Services 
Assistant Secretary Wade Horn has cited the Nurse Family Partnership as 
``one example of the types of prevention programs that we know can 
work.'' NFP has also been identified as a model program by the 
President's New Freedom Commission on Mental Health, the Office of 
Juvenile Justice and Delinquency Prevention, National Institute of 
Justice, and the Substance Abuse and Mental Health Services 
Administration.
    Unfortunately, too many families do not yet have access to such 
high-quality prevention programs. In fact, the Nurse Family Partnership 
serves only 20,000 of the 500,000 eligible women nationwide. This 
inadequacy has led to numerous preventable foster care placements, and 
an unnecessarily large number of kids growing up to become violent 
criminals.
Promoting Safe and Stable Families Program's Focus on Prevention
    The Promoting Safe and Stable Families (PSSF) program, which is 
scheduled to be reauthorized this year, funds community-based services 
like in-home parent coaching that prevent child abuse and neglect. A 
September 2003 Government Accountability Office report (reiterated in 
the GAO 5/23/06 hearing statement before your Subcommittee) 
demonstrated that over 70% of funding from the flexible Title IV-B 
Child Welfare Services program is spent on child welfare system uses to 
help kids who have already been abused or neglected and only 10% is 
spent on family support/prevention and family preservation. In 
contrast, over 60% of funds from PSSF supports prevention and family 
preservation services and only about one-third is spent on child 
welfare system uses. Without funding specifically designated for 
upfront prevention services, as is now the case with PSSF, states are 
likely to decrease their investments in prevention. That is why I 
commend you on your recent draft legislation for PSSF reauthorization, 
which preserves the core program's focus on prevention.
Increased Promoting Safe and Stable Families Program Funding
    The discretionary component of PSSF is currently authorized at $200 
million per year. Despite the fact that the Administration had 
requested this amount, PSSF has never received more than $101 million 
per year in discretionary funding. The discretionary authorization 
should remain at $200 million a year and appropriators should meet that 
authorization level in Fiscal Year 2007. As you know, the Fiscal Year 
2006 budget reconciliation bill increased mandatory funding for PSSF by 
$40 million. Authorizing the additional mandatory funding for each of 
the next five years, as urged by the Administration in recent Senate 
Finance Committee testimony and as provided in your draft PSSF 
reauthorization bill, will help states and communities to improve their 
child abuse and neglect prevention approaches.
    If the increased funding were used to support monthly caseworker 
visits to kids in foster care, as proposed in the current draft House 
reauthorization bill, children's well-being and safety in placements 
could be more closely monitored, preventing additional abuse and 
neglect and later crime. If that is the approach taken in the final 
House PSSF reauthorization bill as it moves forward, I would certainly 
be supportive of the legislation. I also want to mention a possible 
alternative. The additional funding could be targeted toward programs 
that prevent initial abuse and neglect, such as in-home parent 
coaching. Such programs would lower the number of kids in foster care, 
so caseworkers would be better able to monitor the safety of the 
remaining children in care. For the $40 million to have the greatest 
``bang for the buck,'' it's difficult to find a better approach than 
in-home parent coaching, to stop child abuse and neglect BEFORE it 
happens.
    I urge you to consider targeting the $40 million per year in 
mandatory funding toward in-home parent coaching programs, as would be 
supported under the Education Begins at Home Act (H.R. 3628/S. 503). 
The Education Begins at Home Act has bi-partisan support in both the 
House and Senate. Representatives Davis (D-IL), Osborne (R-NE) and 
Platts (R-PA) introduced the bill in the House last summer and have 
since been joined by over 10 other Republican co-sponsors. In the 
Senate, Senators Bond (R-MO), Talent (R-MO) and DeWine (R-OH) 
introduced the companion bill last spring. The Education Begins at Home 
Act would provide grants from the U.S. Department of Health and Human 
Services to states for in-home parent coaching programs, to help new 
parents get the information, skills and support they need to promote 
healthy child development. If you decide to pursue this funding 
approach, I know that I and the other members and staff of Fight Crime: 
Invest in Kids stand ready to work with you on it.
Conclusion
    By strengthening the Promoting Safe and Stable Families program, 
increasing its funding and targeting new funding toward the in-home 
parent coaching programs, Congress would protect the safety of kids who 
have already been abused and neglected and prevent more kids from 
suffering abuse or neglect. These strategies will help to break the 
cycle of violence caused by child abuse and neglect and resulting 
increases in later crime as innocent child victims become the adult 
victimizers. I applaud you, Mr. Chairman and members of the 
Subcommittee, for your leadership on these critical issues, and your 
efforts on this important PSSF reauthorization.
    Thank you for this opportunity to present our views on how the 
House Ways and Means Human Resources Subcommittee can take steps to 
help reduce child abuse and neglect and later crime.

                                 <F-dash>

                                       River Edge, New Jersey 07661
                                                       May 23, 2006
Dear Honorable Members of the Ways and Means Sub-Committee on Human 
Services,

    I commend you for reaching out to the public for feedback on 
federal programs, their financing and the impact they have had on 
outcomes for children and families. Today I again need to focus on a 
too common result of your well intentioned ``aid'' to the states: 
DOMESTIC CHILD TRAFFICKING. This is an established practice by states 
to maximize short term financial gains from the federal government by 
shattering loving families in order to create new ``forever families.'' 
While my family was dragged through New Jersey's Child Welfare machine, 
I could not understand why my two young sons' best interest, the 
unwavering compliance of their loving, yet vulnerable, family were 
ignored. Not in America, I said. Not with the protections afforded each 
person by our justice system. Not with the billions of taxpayer dollars 
spent and countless words being thrown about: Human Services, 
Children's' Services, Family Services. How could this happen in the 
greatest nation in the world?
    I testified on January 28, 2004 before this committee, 
superficially recounting some of the systemic horrors of my family's 
plight, still hoping for a meaningful explanation, a legitimate reason 
for this senseless attack on our family. I left increasingly dismayed 
and unsettled, yet with enhanced awareness and resolve to seek and find 
answers. And, I did. In June of last year I gratefully accepted a Pew 
Commission on Children in Foster Care invitation to attend a DVD 
release event. To pointed questions, the Honorable Michigan Supreme 
Court Justice Maura Corrigan (also a member of the Commission) publicly 
acknowledged that states have been and continue to engage in the 
illicit profiling, selection and trafficking of children through their 
child welfare system to secure federal funding at the expense of those 
vulnerable children and their families. The Commission also 
acknowledged there are little teeth for state compliance in their 
superlative legislative recommendations.
    I resent that so few would speak the truth and no one put a name to 
an accepted practice that has gone on for decades. Well, ugly as it is, 
the appropriate term is DOMESTIC CHILD TRAFFICKING. We chide other 
nations for trafficking women and children. We pride ourselves as a 
country where all men are created equal and all have certain 
inalienable rights. We are involved in internationally monitoring, 
sanctioning, condemning and punishing others for treating human beings 
like commodities, yet our very states are practicing this daily, 
rewarded with federal dollars. The word ``hypocrisy'' comes to mind.
    Would a well intentioned parent be considered responsible if they 
gave an enormous allowance to a child without ensuring the monies were 
used within the guidelines set down? Is it responsible for the parent 
to continue to provide the allowance with the only understood 
stipulation being that the child does not end up as negative front page 
news? I think not. The enormity and lure of more will distort the 
child's view of the value of the intended purpose. It is irresponsible 
to knowingly continue to financially reward states for defiling the 
best interest of children and destruction of families.
    The media is saturated with competing advertisements by countless 
public and private agencies begging the public to foster parent or 
adopt children: each nibble could be a well rewarded hook into a 
federal income stream. Why else would they engage in costly media 
space? Where is the endless supply of children coming from? These 
agencies are making a fortune off of innocent children while the 
carcasses of their families churn through the bowels of state Child 
Welfare Machines: DOMESTIC CHILD TRAFFICKING.
    The very states that are claiming recruiting shortfalls of 
``Resource Families'' create their own shortages by turning a noble 
calling into nothing more than a transaction. Despite this cheapening 
of the role of foster and adoptive families, ethical and dedicated 
parents do not vocalize their condemnation of this practice for they 
are threatened by those perpetuating the corruption. The state 
appointed caretaker to my sons refers to us, their parents, as egg and 
sperm donors, knowing that my children love us. These state appointed 
nurturers brag about my children spending more than a year in 
[unsuccessful] ``disassociation therapy'' to attempt to break the 
undeniable bond they have with the family they know loves them. They 
have been punished and ridiculed for acknowledging their feelings and 
their roots. Resource Families with agendas other than the best 
interest of children (money, attention, personal character 
deficiencies, etc.) need to be ``outed'' before the children in their 
care are irreparably damaged and the reputation of the committed, 
dedicated majority gets further corrupted.
    My children are not commodities. My family has value beyond the 
price New Jersey has and continues to receive for my sons' now 
tragically mutated lives. ``Sold'' to a connected family, my children 
were severed from their loving parents, extended family and the very 
roots that they would build character, a spiritual foundation and a 
healthy self-esteem upon. These two young innocents' childhood and 
future were sacrificed for short sighted, fiscally driven principles 
practiced daily across our great nation.
    I have had the unfortunate pleasure of meeting and corresponding 
with many, many shards of families: parents, grandparents, children, 
and those who are being torn apart right now. From different regions, 
states, backgrounds, ages, ethnicities, vulnerabilities, we all share a 
fatal common thread--our familial death penalty was financed by the 
federal government through incentives offered to states. Hoping states 
will ``do the right thing'' without accountability is irresponsible at 
best. With all the sensational news headlines rising like pond scum in 
the media, I fear informed disengagement. An attitude of detachment 
towards DOMESTIC CHILD TRAFFICKING is a plague that is promises to 
destroy the future of our society, through the murder of vulnerable 
families. The federal government has a responsibility to ensure 
taxpayers that the monies entrusted to them are spent appropriately and 
responsibly to the betterment of society.
    DOMESTIC CHILD TRAFFICKING is the United States' holocaust. The 
family is the cornerstone of society and most directly responsible for 
the nurturing of our nation's future: our children. We need to take 
action now: I humbly ask you to stop financing the problem and join me 
in being part of the solution. Because of the prevalence and severity 
of the consequences, this issue begs a public hearing where it is 
acknowledged, given the attention it deserves and appropriate solutions 
realized. I look forward to hearing from you. Our future depends on 
this.
    Thank you for your genuine commitment,
                                                   Lisa E. Gladwell

                                 <F-dash>

              Statement of Alicia Groh, Voice for Adoption
    I want to thank the subcommittee for taking the time to hold a 
hearing on the issues facing the child welfare system, including the 
need to reauthorize the Promoting Safe and Stable Families program. 
Voice for Adoption (VFA) is very pleased to know that this committee is 
interested in examining the current status of the child welfare system 
and exploring the potential for improvements moving forward.
    As the members of this committee know, our child welfare system is 
charged with a set of incredibly complex, critical responsibilities. 
Balancing the interests and rights of birth families, children, 
relatives, and foster and adoptive parents is challenging enough, but 
the work is further complicated by varying timeframes that parents face 
for reunification efforts, welfare eligibility, and the time needed for 
rehabilitation. As in most systems, progress often comes slowly, but 
slow progress feels unsatisfactory when we are dealing with the lives 
of vulnerable children. Six months may seem almost negligible to an 
adult, but to a three-year-old child, six month constitutes a 
significant portion of her life. As we all work to improve the 
experiences and outcomes of families involved with the child welfare 
system, I hope that we will all keep in mind a child's sense of time, 
and feel a heightened sense of urgency to make things better for our 
most vulnerable children. These children need our child welfare system 
to work for them today.
    Voice for Adoption is a membership advocacy organization. We speak 
out for our nation's 118,000 waiting children in foster care. VFA 
members recruit families to adopt special needs children and youth. Our 
members also provide vital support services both before and after 
adoption finalization to help adoptive families through the challenges 
they often face. We, like the members of this committee, are dedicated 
to finding permanent, loving families for every waiting child in foster 
care. We are also dedicated to ensuring that those children continue to 
have their needs met after they find their permanent families.
    Over the past decade, the child welfare field has made significant 
progress in promoting adoption for children in foster care. An 
energized focus on providing permanency for youth in out of home care, 
as well as new laws and funding, helped drive dramatic increases in the 
number of waiting children who found permanent, loving families. 
Federal efforts to promote and support creative adoptive parent 
recruitment efforts, online photolistings of waiting children, and 
financial incentives for States to find more adoptive families have 
helped provide permanent, loving adoptive families to at least 50,000 
waiting children each year over the past five years.
    The success of these adoption efforts at the Federal, State and 
local level is wonderful, and I hope that the child welfare field 
continues to experience great success in finding adoptive homes for 
waiting children. The work cannot stop at the time an adoption is 
finalized, however. The recruitment and adoption promotion efforts must 
be matched by a strong commitment to ensuring that adoptive families 
are able to meet the needs of their children. As we all celebrate the 
increase in the number of children who are adopted, we need to support 
the individual families that make these adoptions possible. Real post-
adoption services are not just an important aspect of support for 
families after they have adopted; these services act in concert with 
recruitment efforts to reassure prospective families that they will be 
able to access the services they need to care for their children. Most 
children who are adopted from foster care have experienced abuse or 
neglect, and many spent years in foster care without stability and 
security. Many of these children received much-needed services while in 
foster care, and a child's challenges do not vanish when his adoption 
is finalized. Finding a permanent family can be a healing experience 
for a child, but adoption itself cannot heal all of a child's wounds. 
Adoption should never mean that a child loses the services and support 
that he needs in order to gain a permanent family.
    VFA's member organizations know from experience that many adoptive 
families struggle to find appropriate post-adoption services, 
especially mental health services, that can respond to the unique 
dynamics involved in adoption. Gaining access to high-quality mental 
health services can be challenging enough for any family, but adoptive 
families face an additional challenge trying to find service providers 
who understand how a child is affected by a history of abuse and 
neglect, experiences in foster care, and the process of joining an 
adoptive family. Even when adoptive families are fortunate enough to 
find adoption-competent service providers, they may face further 
hurdles because the providers are not covered by their insurance. We 
already ask so much of the families that adopt children from foster 
care; should we really demand that they spend their life savings in an 
attempt to help their children heal? Funding is certainly critical in 
ensuring that post-adoption services are available, but funding alone 
will not make service providers understand the issues that are unique 
to adoption. VFA strongly encourages Congress to support training and 
information that will enable providers to become well-informed about 
the issues that adoptive families and adopted children face.
    In recent years, there has been a noticeable growth in the 
intensity of discussions about reforming the child welfare system. 
Certainly, the current structure has many components that need to be 
improved in order to serve children better, particularly the Title IV-E 
eligibility criteria. VFA is hopeful that all of the debate about 
reforming the child welfare system will lead to thoughtful, well-
designed improvements that will truly improve the lives of children in 
foster care and the families that care for them.
Recommendations
Increase Funding for the Promoting Safe and Stable Families Program
    Federal funding for child welfare programs should acknowledge the 
complexity of the work that child welfare systems must perform. 
Flexibility is key in order for States to be able to provide the 
specific services and support systems that individual families need, 
but without sufficient resources, States are forced to choose between 
equally important support services. The four service categories within 
the Promoting Safe and Stable Families program all address high-
priority services for vulnerable families, and States need to be able 
to provide each category of service without jeopardizing another set of 
clients. Voice for Adoption encourages Congress to provide adequate 
funding both for the costs of caring for children in out of home care 
and adoptive placements and for providing needed services to birth, 
foster, adoptive, and kinship families. At a minimum, the program 
should be fully funded at its total authorized level. Funding for the 
program should be entirely mandatory; having the authorization split 
between mandatory and discretionary funding leaves the program 
vulnerable to smaller appropriations from year to year for crucial 
child welfare services. Child welfare funding is already too 
fragmented, so States need to be able to rely on a consistent amount of 
Promoting Safe and Stable Families funds in order to plan wisely and 
provide crucial services to families.
Ensure that Adoption Opportunities Funds Support Adoptive Families
    The Adoption Opportunities program provides an opportunity to 
target Federal funding consistently toward post-adoption support. In 
recognition of the essential role that post-adoption services play for 
adoptive families, a portion of the Adoption Opportunities grants each 
year should be aimed specifically at providing support and services to 
adoptive families. The need for post-adoption services is ongoing; the 
Adoption Opportunities grants should direct funds every year to provide 
post-adoption services to families that adopt children with special 
needs.
Establish Funding Specifically for Post-Adoption Services
    Voice for Adoption encourages Congress to establish a dedicated 
funding stream for post-adoption services, acknowledging the essential 
role that these services play in providing the stability that children 
need after being adopted from foster care. Adoptive families need to be 
able to access a continuum of services, including support groups, case 
management, and mental health services. Many children in foster care 
require multiple services and support systems to meet their medical 
need, to help them address their history of abuse and neglect, and to 
help them learn how to develop healthy family relationships. 
Prospective adoptive parents should not have to choose between 
providing permanency to a child or ensuring that the child's ongoing 
medical, educational, and mental health needs are met. Within existing 
funding streams, post-adoption services are pitted against other 
important child welfare services, forcing States to decide whether it 
is more important to recruit adoptive families or support them after 
they have adopted. Creating such a dilemma makes it harder for children 
to get their need for both permanency and stability met.
Increase Flexibility While Continuing Children's Entitlement to Federal 
        Support
    Current discussions about the child welfare system often emphasize 
the need for increased flexibility in how States spend Federal child 
welfare funds. Certainly, States need to be able to meet the specific 
needs of the children and families that they serve without being unduly 
constrained. Voice for Adoption encourages Congress to consider the 
idea of flexibility within the context of maintaining individual 
children's entitlement to Federal funding to support their care in 
foster and adoptive placements. Congress can give States increased 
flexibility for providing services and support structures without 
sacrificing the child-specific funding for the costs of foster care or 
adoptive placements. Vulnerable children should not be made more 
vulnerable as a result of efforts to provide increased flexibility to 
States.
Eliminate the Link to AFDC for Title IV-E Eligibility
    As this committee has heard from many other organizations, the 
Title IV-E program's link to the Aid to Families with Dependent 
Children program needs to be eliminated. Children who enter foster care 
need are all equally in need of government protection and support, 
regardless of the financial situation in the birth families' homes. 
Making Federal support of the costs of foster care and adoption 
assistance contingent on 10-year-old eligibility criteria for a program 
that no longer exists creates an unreasonable barrier to Federal 
funding, as well as an administrative burden for social workers who are 
serving our country's most vulnerable youth.
Conclusion
    The current funding structure requires States to develop a 
patchwork of funds in order to provide post-adoption services, and this 
patchwork is stretched thin trying to provide even basic services. More 
intensive services such as in-home therapy and residential treatment 
are often out of reach for the families that really need them. Adoptive 
families make a permanent commitment to their children, and VFA 
believes that Congress should make a commitment to providing ongoing 
support to help these families meet their children's needs. Adoption is 
a life-long experience, and children and families deserve support as 
the children move toward adulthood.

                                 <F-dash>

                                           Grants, New Mexico 87020
                                                       May 15, 2006
Dear Ways and Means committee,

    In regards to the advisory in respect to improvements to Children 
Services:
    My opinion is that all Federal funding needs to be stopped to all 
States regarding child protection. And that States should be forced to 
manage cases of child abuse/ and false allegations against parents, on 
their own.
    As long as the Federal government funds Child protective services, 
the Federal government ``is a party'' to the destruction of the 
families that are being annihilated, and injured as a consequence of 
Children services involvement. In many cases in which there was no 
justifiable cause for action to be taken against the family.
    The money that is now being paid to Children Services should 
instead be paid to the injured parties, parents and children that have 
been harmed by Children Services.
    Twelve years ago my four year old daughter was raped and sodomized 
in foster care. To this day no agency and no organization has ever 
investigated the inappropriate removals of my daughter. Nobody has ever 
investigated her victimization in foster care, and the failure of the 
Children service organizations to get her the necessary medical care, 
and diagnosis. If there was an investigation ``it did not involve me 
and my input into the actual facts and what occurred.'' Therefore her 
perpetrators (two grown men and a woman) go unpunished.
    Children services and the police regularly invent false scenarios 
in support of each other, and so does the medical community. State 
psychologists write biased and unprofessional evaluations about parents 
in support of Children service cases against parents. Frequently, those 
reports are done by psychologists who use Children services as their 
only income source. If the psych reports aren't written to the 
specifications of Children services, and in support of the agency, that 
doctor might be out of a job. Parents and others witnesses that are in 
support of the falsely accused are misquoted in case-notes written by 
case-workers. False information is filed against parents and mis-truths 
are told to the courts. The facts are twisted. Parents are denied a 
jury trial, because there are no formal criminal charges. At times 
evidence is conveniently removed from case notes when those notes could 
reveal corruption, mistruths, lies, or false allegations, and malicious 
accusations against the parent. There are cases in which parents aren't 
told why the child is being removed, and when there was no abuse or 
neglect, parents are called mentally ill, and paranoid because ``the 
parent does not understand what the purpose of the removal is.'' Normal 
reactions from a parent are regularly twisted into a mental health 
issues by the organization.
    We would expect the above mal-treatment from a Dictatorship, or a 
Communist Country.
    What I have described above occurs in the United States every 
single day in Children Services offices across the country. I have been 
speaking with people about their child protective cases for 12 years 
now, and there are similar incidents regarding human rights violations 
in almost all cases that I have learned about, as described in the 
paragraphs above.
    In order for society, and the government to know the real truth it 
would take oral testimony, the individuals involved, and a trial to 
come to the truth, involving individual cases.
    As things are, there is no organization or investigative agency to 
oversee Children services. Parents that go to the F.B.I. are told that 
the F.B.I. does not investigate Children services. Parents that go to 
their U.S. representatives, are looked upon as the trash heap of 
society, and ignored. It is always assumed that the parent is guilty 
even when there is no actual evidence that a parent harmed a child.
    My family has been destroyed (three children). My daughter might 
never have children as a result of the rapes in a Middlesboro, Kentucky 
foster home. Both she and I will carry a life-time of scars as a result 
of Children services inappropriate removals of her, due to false 
allegations against myself. And my daughter never received victim 
assistance, after being a victim of horrific sexual abuse while in 
foster care. At the very least the government owes that innocent child 
something.
    How can it ever be justified ``to take a child from their own 
family (innocent family or guilty family) and place that child with 
abusers``? How can it be O.K. for an agency to terrorize a family for 
years without any proof, and without real evidence that the parents 
have ever done anything wrong to the child?
    Our government is oppressive and cruel, and allows our most basic 
human rights to be regularly violated under the auspices of Children 
Services. The United States is no longer a Democracy, the U.S. 
constitution means nothing apparently, and this country has lost all of 
my respect.
            Sincerely,
                                                     Gail D. Haymon

                                 <F-dash>

                                             Walton, Kentucky 41094
                                                       May 16, 2006
    Please for the children of all the states stop the CPS, DCFS, and 
all other agencies from hurting and putting our children in harms way. 
This is the United States not a another country that can not help their 
own? Or is it. CPS is like the gestapo. Through lies,intimidation, and 
lawyers that are not ethical, children are being abused and it is so 
disgusting here in USA. All states. If YOU would ever have to deal with 
them YOU would know. Hope you do not, please stop their abusive POWERS. 
Granted some do care, and help SHOW me them! PLEASE. Show a child that 
has benefit from being removed from parents/parent. Show me a child 
that is complete in the system.
            Sincerely
                                                       Helen Holder

                                 <F-dash>

 Statement of Joe Kroll, North American Council on Adoptable Children, 
                          St. Paul, Minnesota
    I have to start by saying how proud I am of the progress that has 
been made in this country in the last 30 years. When our organization 
was founded in 1974, few people were paying attention to the foster 
children who were languishing in care, and adoptions of foster children 
older than two were rare.
    Policy and program changes at the state and local level, guided by 
the passage of the Adoption and Safe Family Act and the creation of the 
Promoting Safe and Stable Families program, have made a world of 
difference to the nation's most vulnerable children. Children's time in 
foster care has been reduced, more than 330,000 children have been 
adopted, and adults have finally started to look at the system through 
the eyes of the child. Each year for the last five years, 50,000 
children have left the insecurity of foster care for the permanence and 
stability of a forever family.
    The progress has been remarkable, but there is much more to be 
done. More than 118,000 children are still waiting for a permanent 
family.\1\ Many others are consigned to long-term foster care, with no 
one even seeking a family for them. Each year, 20,000 young people age 
out of care with no legal family connection and an uncertain future. 
Many have limited education and poor employment prospects. Too many end 
up homeless, incarcerated, and physically or mentally ill.
---------------------------------------------------------------------------
    \1\ Maza, P. (November, 2003). Who is adopting our waiting 
children? Presentation given at AdoptUSKids National Adoption and 
Foster Care Recruitment Summit, Washington, DC.
---------------------------------------------------------------------------
    I would like to focus my remarks today in two areas that would 
significantly reduce the number of foster children who never find a 
permanent family: (1) supporting expanded permanency options and (2) 
providing additional post-permanency support.
Support Expanded Permanency Options
    You might be surprised to hear the director of an adoption 
organization touting other permanency options, but we at the North 
American Council on Adoptable Children (NACAC) are committed to 
achieving each child's best interests. In most cases that means keeping 
a child with his birth family or reunifying that family as quickly as 
possible. In other cases, it means finding a grandparent, aunt, uncle, 
or another long-term, committed caregiver to provide legal 
guardianship. And, of course, for thousands of foster children adoption 
is the best option.
Provide Support to Birth Families
    The Green Book states: ``It is generally agreed that it is in the 
best interests of children to live with their families. To this end, 
experts emphasize both the value of preventive and rehabilitative 
services and the need to limit the duration of foster care 
placements.'' \2\ Federal funding, however, does not reflect this 
priority. Currently, 90 percent of federal funding can be used by 
states only after Title IV-E-eligible children have entered foster care 
or been adopted.\3\
---------------------------------------------------------------------------
    \2\ U.S. House of Representatives, Committee on Ways and Means. 
(2004). 2004 green book:
Section 11--child protection, foster care, and adoption assistance. 
[Online]. Available: http://
frwebgate.access.gpo.gov / cgi-bin / multidb. cgi ? WAISdbName = 108 _ 
green _ book + 2004 + Green + Book + % 28108th + Congress % 29 & 
WAISqueryRule = % 28 % 24 WAISqueryString % 29 + AND + % 28repttype % 
3D % 24sect + OR + repttype % 3D % 24 sect 1 + OR + repttype % 3D % 
24sect2 % 29& WAISqueryString = duration + of + foster + care + 
placements & WAIStemplate = multidb _ results.html & Submit. = Submit & 
WrapperTemplate = wmprints _ wrapper.html & WAISmaxHits = 40. 
[Retrieved May 7, 2006.]
    \3\ In FY 2006 the appropriation for Title IV-E foster care and 
adoption assistance programs is $6.48 billion while the funding for 
Title IV-B Parts 1 and 2 (Safe and Stable Families Program) is only 
$721.7 million.
---------------------------------------------------------------------------
    Since so much federal funding is for children who have entered 
care, states do not have sufficient resources to invest in birth family 
support and reunification. In recent years, we have seen the percentage 
of foster children who reunite with their birth families go down--from 
62 percent in 1998 to 55 percent in 2003.\4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services. (2005). AFCARS 
report #10 (Preliminary FY 2003 estimates). [Online]. Available: http:/
/www.acf.dhhs.gov/programs/cb/stats_research/afcars/tar/report10htm 
[Retrieved February, 2005].
---------------------------------------------------------------------------
    Children can reunify with their birth families when parents get 
needed support. In Nashville recently, I met Melissa, a mother who was 
addicted to drugs. She was at risk of losing her son Marley when she 
found an innovative drug treatment program that keeps parents and 
children together, rather than placing children away from their 
families in foster care. Melissa explains how hard it would have been 
for Marley to enter care rather than staying with her during treatment: 
``The pain of his mother being sick and gone . . . I know that would 
have been devastating. He would have gone through things he shouldn't 
have to. None of it was his fault. To be able to heal with him while I 
was healing--that was just a beautiful thing.'' Melissa is now a proud 
soccer and Cub Scout mom who loves her new job as a private duty 
certified nurse technician.
    Annie was a meth user whose son Jory entered foster care in Oregon. 
She tried conventional drug treatment programs--like those offered to 
most birth parents--but they were not successful. It wasn't until she 
found a comprehensive program that she was able to recover from her 
addiction and become a good parent to Jory. The program provided 
shelter, parenting support, and case management to help her form a more 
healthy relationship with Jory. ``It was a very structured place,'' 
Annie explains. ``They had a parenting person and a manager on-site. . 
. . I had to have a plan and a goal sheet showing what I was going to 
accomplish while I lived there.''
    Today, clean for five years, Annie serves as a mentor to other 
mothers who are trying to overcome their addictions. ``[My experience 
gives me] a more realistic approach with parents. It is rewarding and 
empowering, especially when people get their kids back,'' says Annie.
    A recent survey of child welfare administrators found that 
substance abuse and poverty are the most critical problems facing 
families being investigated for child maltreatment.\5\ In some areas, 
substance abuse is an issue for one-third to two-thirds of the families 
involved in child welfare.\6\ Unfortunately, only 10 percent of child 
welfare agencies report that they can find drug treatment programs for 
clients who need it within 30 days.\7\ Almost no drug-addicted parents 
can access drug treatment programs with a mother-child residential 
component, and few are able to participate in comprehensive programs 
that address issues of parenting and housing along with substance 
abuse. For families dealing with poverty and housing issues, support is 
also hard to come by. As the National Center for Child Protection 
Reform notes, ``Three separate studies since 1996 have found that 30 
percent of America's foster children could be safely in their own homes 
right now, if their birth parents had safe, affordable housing.'' \8\
---------------------------------------------------------------------------
    \5\ National Center on Child Abuse Prevention Research. (2001). 
Current trends in child abuse prevention, reporting, and fatalities: 
The 1999 fifty state survey. Chicago: Prevent Child Abuse America.
    \6\ U.S. Department of Health and Human Services. (1999). Blending 
perspectives and building common ground: A report to congress on 
substance abuse and child protection. Washington, DC: U.S. Government 
Printing Office.
    \7\ U.S. Department of Health and Human Services. (1999). (See 
complete citation above.)
    \8\ National Coalition for Child Protection Reform. (2004). Who is 
in ``the system'' and why [Online/ea. Available: http://www.nccpr.org/
newissues/5.html [May 7, 2006].
---------------------------------------------------------------------------
    Recommendations: Currently, for every dollar that the federal 
government spends on family preservation and post-permanency support, 
nine dollars are spent on IV-E children who are in foster care or who 
have been adopted from care. The federal government must significantly 
increase its investment in Title IV-B Parts 1 and 2, and provide states 
with increased flexibility in how they spend federal child welfare 
monies.
    In addition, if states successfully reduce the use of foster care, 
they should be able to reinvest federal dollars saved into preventive 
and post-permanency services. Currently, when states reduce the number 
of IV-E eligible children in foster care, the federal government 
reduces its payment to the state. We recommend that the federal 
government provide states with an amount equal to the money saved in 
Title IV-E maintenance payments, training, and administration. This 
would provide an incentive to keep or move children out of care, while 
also beginning to address the vast imbalance in federal funding.
    Investing in at-risk families has been shown to work. Using a IV-E 
waiver, Delaware demonstrated that investing in substance abuse 
treatment had positive outcomes for children: the project's foster 
children spent 14 percent less time in foster care than similar 
children who did not participate in the waiver, and total foster care 
costs were reduced.\9\ Certain counties in North Carolina used a 
federal child welfare waiver to cut down on out-of-home placements by 
investing in court mediation, post-adoption services, intensive family 
preservation services, and other interventions.\10\
---------------------------------------------------------------------------
    \9\ U.S. General Accounting Office. (2002). Recent legislation 
helps states focus on finding permanent homes for children but long-
standing barriers remain. Report to Congressional Requestors. [Online]. 
Available; http://www.gao.gov/new.items/d02585.pdf. [Retrieved May 7, 
2006].
    \10\ Usher, C., Wildfire, J., Brown, E., Duncan, D., Meier, A., 
Salmon, M., Painter, J. & Gogan, H. (2002). Evaluation of the Title IV-
E waiver demonstration in North Carolina. Chapel Hill, NC: Jordan 
Institute for Families, University of North Carolina.
---------------------------------------------------------------------------
Implement Federally Supported Subsidized Guardianship
    About one-quarter of foster children are cared for by grandparents 
or other relatives.\11\ Right now, almost 20,000 of these children 
cannot return to their birth families and have been with their 
relatives for at least a year.\12\ These stable, loving kin families 
are a perfect permanent resource for many foster children, but the 
children remain stuck in foster care simply because adoption is not the 
right choice for their family.
---------------------------------------------------------------------------
    \11\ Generations United. (2006). All children deserve a permanent 
home: Subsidized guardianships as a common sense solution for children 
in long-term relative foster care. Washington, DC: Author.
    \12\ Children and Family Research Center. (2004). Family ties: 
Supporting permanence for children in safe and stable foster care with 
relatives and other caregivers. Urbana-Champaign, IL: School of Social 
Work, University of Illinois at Urban-Champaign.
---------------------------------------------------------------------------
    For families such as these, guardianship is the right permanency 
option. Des Moines resident Helen has been caring for her nine-year-old 
grandson Cordell for many years and is committed to him forever. 
Adoption, however, is not the right choice for Cordell. Helen explains, 
``He has enough problems without his aunts and his mother becoming his 
sisters. That's like a bad rap song.'' Helen is no opponent of 
adoption. She has adopted four other foster children, but knows that in 
Cordell's case guardianship would provide the permanence he needs 
without rearranging family boundaries. At the same time, Helen needs 
assistance to help meet Cordell's significant special needs. Iowa's 
recently approved waiver allows only children older than Cordell to 
receive government-supported guardianship.
    Seven years ago in New Mexico, Annabelle and Gilbert became foster 
parents to their nephew Vernon. After a few years, Annabelle and 
Gilbert were able to become Vernon's permanent legal guardians through 
a waiver program run by the Navajo Nation. Culturally, guardianship was 
the right decision for this family but Annabelle and Gilbert needed 
financial support to make a permanent commitment to Vernon. Now a 
teenager, Vernon is a true member of the family. He helps when Gilbert 
fixes thing around the house, and hands him the right tools as they 
work together. ``I like to work in Gilbert's garage with him fixing up 
cars and things. I can fix flat tires and fix my bike,'' says Vernon.
    Jackie Hammers-Crowell, a panelist here today, spent 10 years in 
foster care without ever finding a legally permanent family. Her birth 
mother was mentally challenged and was unable to care for Jackie. 
Jackie stays in contact with her mother, however, whom she describes as 
``the world's best cheerleader.'' Jackie never wanted her mother's 
rights terminated, but would have liked a permanent family. She 
explains, ``Subsidized guardianship may have kept me with my extended 
birth family, saved the state money, and kept my mom's parental rights 
from being needlessly, hurtfully terminated against our wills.''
    For children like Cordell and Jackie who remain in foster care, 
daily life is unnecessarily complicated--they cannot sleep over a 
friend's house without social worker approval. They cannot receive 
routine medical care without the government getting involved. A 
grandfather caring for his grandchildren as a foster parent recounts 
the unnecessary burden on his family and on the system: ``A social 
worker comes out to our house every month. The children are 
embarrassed, maybe a little ashamed, that they are in foster care, and 
I am worried that a judge who doesn't know us is making decisions about 
them.''
    Recommendation: Federal waivers have proven the efficacy of 
subsidized guardianship. While waivers allow states to experiment with 
needed innovations, they are temporary. We now need subsidized 
guardianship to be an approved permanency option, included in the Title 
IV-E program like adoption assistance. Children in stable foster 
placements with relatives and other committed caregivers would benefit 
from greater federal support for guardianship, allowing children to 
leave care, eliminate costly caseworker visits, and reduce unnecessary 
court oversight. A federally supported guardianship program could help 
almost 20,000 children leave foster care to a permanent family right 
now. Thousands more could be served each year.
Expand the Incentive Program
    While recent changes in the adoption incentive program placed 
needed emphasis on the adoption of children over age nine, states are 
still not rewarded for increases in reunification or guardianship. As a 
result, the incentive program is one-sided and may have a perverse 
effect--because there are incentives for only one form of permanence, 
states may be tempted or guided to choose one permanency option over 
another that might be in child's best interest. A 2002 Government 
Accountability Office report found that one of states' primary concerns 
about the program was that it might convey the impression that adoption 
was the best plan in all cases.\13\
---------------------------------------------------------------------------
    \13\ Congressional Research Service. (2004). Child welfare: 
Implementation of the Adoption and Safe Families Act. [Online]. 
Available: http://www.pennyhill.com/aboutcrs.php.
---------------------------------------------------------------------------
    Recommendations: The federal government's goal--and each state's 
goal--should be to achieve the best permanency option for a particular 
child in as short a time as possible. The incentive program should be 
expanded to reward states for safe reunification, guardianship, and 
adoption--all permanency goals that work for children.
    States should also be required to reinvest incentive funds in post-
permanency services and should be permitted a longer time, perhaps up 
to three years, to spend the funds. Typically, states are awarded 
incentive funds in the last days of the fiscal year, and have only 
until the following September 30 to spent them. A longer time to spend 
the money costs the federal treasury nothing, but allows for thoughtful 
program development and implementation.
Increase Available Post-Permanence Support
    In 1997 Congress passed the Adoption and Safe Families Act, and 
between 1998 and 2004, more than 330,000 foster children were adopted 
into loving, caring families. But adoption is not a giant eraser. 
Children who have been abused or neglected--and who have bounced from 
foster home to foster home--do not emerge unscathed.
    As Babb and Laws detail, children adopted from foster care face a 
variety of special needs: mental illness, fetal alcohol spectrum 
disorder, attention deficit hyperactivity disorder, emotional 
disabilities, attachment disorder, learning disabilities, mental 
retardation, speech or language impairments, AIDS or HIV, and other 
severe physical disabilities.\14\ Groze and Gruenewald agree that 
``[f]amilies face enormous challenges and strains in adopting a 
special-needs child.''\15\
---------------------------------------------------------------------------
    \14\ Babbs, A., & Laws, R. (1997). Adopting and advocating for the 
special needs child: A guide for parents and professionals.  Westport, 
CT; Bergin & Garvey.
    \15\ Groze, V., & Gruenewald, A. (1991). Partners: A model program 
for special-needs adoptive families in stress. Child Welfare, 70 (5), 
581-589.
---------------------------------------------------------------------------
    While adoptions doubled from 1997 to 2004, post-adoptive services 
failed to keep pace. More people are adopting more children, and the 
children are often older, have been in care longer, and face daunting 
special needs. The Center for Advanced Studies in Child Welfare notes 
that older children and children with disabilities are at highest risk 
for adoption disruption.\16\ Few states or counties have the 
comprehensive services necessary to meet parents' needs as they raise 
children who have been abused and neglected and have resulting physical 
and emotional special needs.
---------------------------------------------------------------------------
    \16\ Center for Advanced Studies in Child Welfare. (1998). CASCW 
practice notes #4: Post-adoption services. [Online]. Available: http://
ssw.che.umn.edu/img/assets/11860/PracticeNotes_4.pdf [Retrieved: May 7, 
2006].
---------------------------------------------------------------------------
    The government has a moral obligation to make a long-term 
commitment to adoptive and guardianship families who take into their 
homes foster children who have languished in care for far too long, 
many of whom are older and have multiple special needs. These children 
carry their histories of turmoil with them. Below we present two key 
avenues for post-permanence support.
Protect and Expand Adoption Assistance
    Adoption assistance (or subsidy) is a critical support to families 
who adopt children with special needs from the foster care system. 
Subsidies help strengthen these new families and enable many foster 
parents to adopt children already in their care by ensuring that they 
do not lose support as they transition to adoption.
    Sean and Alissa from Iowa adopted two children with serious medical 
needs. When they learned adoption assistance would help offset medical 
costs, Sean explains, ``It took the weight off and moved us from 
thinking, ?Can we financially make it work?' and put the focus back 
where it should be--?Can we love and care for this child? Do we have 
the love and commitment to parent this child?' That was never in 
question!''
    Currently, the federal government shares in a portion of adoption 
assistance costs only for children whose birth family income is below 
the 1996 Aid to Families with Dependent Children income standards. In 
contrast, states are obligated to provide protection to every abused or 
neglected child, regardless of family income. Unfortunately, a funding 
system that ties adoption assistance to outdated income guidelines has 
resulted in a system in which far fewer children are eligible for Title 
IV-E federal support. From 1999 to 2003, the average monthly number of 
foster children receiving IV-E maintenance payments dropped from about 
53.5 percent to 46 percent.
    As a result, states and localities must share a greater burden for 
foster care and adoption. In some states, this has severely limited the 
amount of funding that can go to prevention or adoption support. Recent 
Missouri legislation requires rapid federal action on this issue. In 
2005, as allowed by federal regulations, Missouri enacted legislation 
that would have instituted a means test for state-funded adoption 
assistance agreements. As a result, more than 1,000 existing adoption 
assistance agreements would have been terminated. Although a federal 
district court found the law unconstitutional on May 1, the state is 
appealing the ruling and the law could still be enacted. Such short-
sighted policies will relegate more children to foster care, rather 
than helping them leave care to a permanent family.
    A recent study by Barth et al. suggests that such adoption 
assistance cuts are not cost-effective: ``[C]uts in subsidy amounts 
could reduce the likelihood of adoption and ultimately increase costs 
for foster care.'' \17\ In contrast, an upcoming study suggests that a 
small increase in adoption assistance would result in increased 
adoptions, again saving money in the long run by reducing higher foster 
care costs.\18\ The federal government needs to invest more in adoption 
assistance, thereby helping children achieve better outcomes and saving 
government funds.
---------------------------------------------------------------------------
    \17\ Barth, R., Lee, C., Wildfire, J., & Guo, S. (2006). A 
comparison of the governmental costs of long-term foster care and 
adoption. Social Service Review, 80 (1). 127-158.
    \18\ Hansen, M., & Hansen, B. (2006). The economics of adoption of 
children from foster care. Child Welfare, forthcoming. In R. Barth et 
al. A comparison of the governmental costs of long-term foster care and 
adoption. Social Service Review, 80 (1). 127-158
---------------------------------------------------------------------------
    In the long run, adoption--even well-supported adoption--saves 
money. The Barth et al. study demonstrates that the 50,000 children 
adopted each year save the government from $1 to $6 billion, when 
compared to maintaining those children in long-term foster care. 
Savings result from reduced administrative costs, medical courts, court 
expenses, compared to the costs of seeking adoptive families and 
providing adoption assistance.\19\
---------------------------------------------------------------------------
    \19\ Barth et al. (2006). (See complete citation above.)
---------------------------------------------------------------------------
    Recommendations: Since 1988 NACAC has advocated for an elimination 
of the link between birth parent's income and eligibility for Title IV-
E adoption assistance. It makes no sense to tie a child's eligibility 
to the financial status of parents whose parental rights have been 
terminated. State and federal assistance should be required to ensure 
support after adoption for every abused and neglected child--not just 
every child born into a poor family. As proposed by Senator Jay 
Rockefeller, the Adoption Equality Act of 2005 (S. 1539) would extend 
Title IV-E adoption assistance to every child with special needs 
adopted from foster care. Such legislation would also save states money 
currently spent on costly income-eligibility determinations. The 
savings could then be invested in supporting families after permanency 
or preventing foster care placements in the first place.
    Adoption assistance is designed to help an adoptive family meet a 
child's needs without creating an undue financial burden on the family. 
Therefore, a program in which the federal government provides support 
to all children with special needs adopted from foster care must 
maintain the federal prohibition against using the adoptive family's 
income to determine eligibility.
Fund More Intensive Post-Permanency Support
    While adoption assistance is a critical support for children 
adopted from foster care, it is often not enough. Frequently, adopted 
children have serious mental health and other disabilities that place a 
tremendous burden on their new families. A recent Illinois study found 
that families seeking help for adoption preservation were facing issues 
related to anger, antisocial behavior, attachment disruption, and 
family instability.\20\
---------------------------------------------------------------------------
    \20\ Children's Bureau Express. (2006). Benefits of adoption 
preservation services. [Online]. Available: http://
cbexpress.acf.hhs.gov/printer_friendly.cfm?issue_id=2006-05&prt_iss=1 
[Retrieved May 3, 2006].
---------------------------------------------------------------------------
    We at NACAC have met far too many families who are deeply committed 
to their adopted children, but are unable--or barely able--to meet 
their children's mental health needs.
    Brenda and Bob from Maryland adopted two sisters several years ago. 
The girls have serious mental health problems that the Gates struggle 
to meet. Their oldest daughter is in residential treatment and may 
remain there indefinitely. The financial strain is great, as is the 
emotional drain. Brenda notes, ``If you haven't lived with children who 
have emotional issues, you can't imagine it. They bring you into their 
storm. You cannot stay out of it. Fortunately my husband and I are very 
strong people,'' Brenda adds, ``We are committed to our children. We're 
holding on, but sometimes we don't know what we're holding on to.''
    Heather from New Mexico adopted Chris from foster care at age nine. 
At that time, Chris had been in several foster placements, including a 
group home. Heather explains, ``Chris attended over 11 different 
schools by the time he hit the second grade. He couldn't really read or 
write; he was in special education and had ADHD.'' Unfortunately, after 
a few years ago, Chris's behavior escalated--he began stealing and 
lying, and then seriously injured his younger sister. Heather helped 
get Chris into a psychiatric hospital and then residential treatment.
    Chris is coming home, but Heather knows that he and the rest of the 
family will continue to need extensive, often expensive support. 
Heather worries about their future. ``When these kids get older, they 
need lots of services and they're just not there. Just getting a 
psychiatrist was a huge struggle,'' Heather explains. The family 
receives $620 a month in adoption subsidies, but that barely covers 
basic costs. The family pays $500 a month for private tutoring and 
close to $995 a month for family therapy. They are looking for ways to 
cut family expenses, such as moving to a smaller house.
    A mom from Minnesota has seen first-hand the devastation caused by 
a lack of post-adoption services. Several years ago, Alice's adopted 
daughter Jane (not her real name) began to have serious behavioral 
problems due to attachment disorder, fetal alcohol spectrum disorder, 
and an appalling history of abuse and neglect. Alice tried the therapy 
that was covered by her medical assistance, but Jane needed more 
intensive residential treatment and the county would not pay for it. 
Alice couldn't afford the care, and Jane's behavior got more out of 
control and even violent. Eventually, Alice had no choice but to seek 
emergency shelter care for her daughter. The county filed child abuse 
charges against Alice because she wouldn't take her daughter home where 
she knew she was unsafe and unprotected. Alice was forced to surrender 
her daughter back into foster care where Jane finally received the 
residential treatment Alice had been seeking all along. In the 
meantime, Jane had been sexually exploited and exposed to illegal drugs 
and even more traumatized by the instability. Rather than providing 
help upfront, the system put a vulnerable teenager and her mother 
through hell.
    Post-adoption and post-permanency supports cut down on the risk of 
disruption and dissolution. Most adoptions succeed, but as many as 10 
to 25 percent of public agency adoptions of older children disrupt 
before finalization, and a smaller percentage dissolve after adoption 
finalization.\21\
---------------------------------------------------------------------------
    \21\ National Adoption Information Clearinghouse. (2006). 
Postadoption services: A bulletin for professionals.  [Online]. 
Available: http://naic.acf.hhs.gov [Retrieved May 2006].
---------------------------------------------------------------------------
    Recommendations: Funding of Title IV-B must be increased, and the 
new funding should cover post-permanency support. Currently, good post-
adoption programs are providing basic information, support, training, 
and other services to families in many areas. It is not enough. More 
resources are needed for adoption-competent mental health services and 
case management programs that will ensure that children with difficult 
histories and current mental health and behavior problems do not 
needlessly return to foster care or devastate their new families. If we 
want adoption and guardianship to be truly permanent, we must find the 
resources to provide in-depth, sometimes intensive support to these 
permanent families. It is far more economical--let alone humane--to 
provide these services now to ensure that children don't return to 
foster care.
Conclusion
    The last several years have shown us that when we have the 
political will and the resources we can ensure that tens of thousands 
of children find a permanent, loving family--with their birth families, 
relative caregivers, or adoptive parents. It is time for us now to do 
what is right and expand our investment to reach even more children. We 
cannot rest on our laurels and ignore the children remaining in foster 
care or the families who have opened their hearts and homes permanently 
to foster children.
    Andrea, an adoptive parent from Pennsylvania, said at a recent 
NACAC forum, ``Although parenting has been extremely difficult and 
challenging at times, my husband and I know that adopting our three 
beautiful children was worth it. The sadness we so vividly saw in their 
eyes the day they moved into our family is rarely, if ever, seen as 
they continue to grow emotionally.''
    Andrea's story shows us how foster children with special needs--
even those with behavioral challenges--do better in a forever family. 
Yet families and children need services and support so that adoption 
and other forms of permanence, such as subsidized guardianship, can 
last a lifetime. Melissa of Tennessee and Annie from Oregon teach us 
that birth parents can heal and parent their children given the right 
treatment and supports. We need to be partners with these parents and 
provide an expanded continuum of funding and services. Children will be 
better off and, in the long run, so will our society.

                                 <F-dash>

 Statement of Frank J. Mecca, County Welfare Directors Association of 
                   California, Sacramento, California
    The County Welfare Directors Association of California (CWDA) 
appreciates the opportunity to submit testimony for the record 
regarding child protective services. CWDA has long advocated for 
changes to the federal child welfare financing structure in order to 
better serve abused and neglected children and their families. We 
welcome the Committee's interest in improving the child welfare system 
and hope that our testimony adds an important local perspective to the 
discussion.
    Each of California's 58 counties operates a child welfare program, 
under state oversight and in accordance with federal and state rules 
and regulations. Not only do those programs depend upon revenues 
generated by each county, but a large share of child welfare financing 
depends upon state and federal funding streams. In California, this 
intergovernmental partnership is reflected in the State's budget. For 
foster care placement, administration, eligibility and county 
licensing, the Governor's revised budget includes a total of $1.7 
billion, including $675 million in county funds, $426 million from the 
State's General Fund and $588 million from the federal government. For 
child welfare services, including investigations, family maintenance, 
permanent placement and other related activities, the State receives 
$718 million from the federal government, and contributes $436 million 
in State General Fund dollars. Counties provide $181 million toward 
these efforts. CWDA recognizes that these investments must be used in 
the most effective manner possible to achieve better results for 
children and move them more quickly into safe, permanent homes.
    At the state level, CWDA is taking a leadership role in improving 
the child welfare system by working on a bipartisan basis with the 
California Assembly, Senate and Schwarzenegger Administration to 
implement a number of child welfare initiatives.
Our statement makes the following key points:

    <bullet>  California and county agencies are making progress 
through a statewide performance system based on the federal Child and 
Family Services Review system, but more must be done.
    <bullet>  The federal financial partnership is critical to our 
efforts, but more flexibility is needed in the use of those dollars.
    <bullet>  CWDA supports the ability of the State and its county 
members to use waivers testing the ability to use federal foster care 
funds in a more flexible manner. We continue, however, to support the 
fundamental principles that the IV-E program remain an entitlement.
    <bullet>  Possible efforts at the federal level to improve the 
child welfare system include providing federal funding for 
guardianships; increasing supports to youth emancipating from foster 
care; and, a greater focus on recruiting and training caregivers.
State Child Welfare Initiatives
    Since 2001, California has built on the model started with the 
federal Child and Family Services Reviews (CFSRs) by initiating a 
statewide system improvement effort recognizing that local communities 
are in the best position to assess their strengths and needs and 
jointly develop strategiesto improve and achieve child safety, 
permanence and well-being. Known as the Child Welfare System 
Improvement and Accountability Act (AB 636), the law established a 
comprehensive approach to oversight and accountability which measures 
and monitors the performance of every county's child welfare services 
system.
    This landmark state legislation shifted the entire child welfare 
system from focusing on process to focusing on results, probably the 
biggest single change in state child welfare practice in decades. Each 
county's performance is now measured and monitored on a range of 
outcome measures related to child and family safety, permanence and 
well-being. The purpose is to require continuous improvement in each 
county, promote interagency partnerships and enhance the public 
reporting of outcomes. AB 636 requires:

    <bullet>  Quarterly data reports for each county, measuring 
performance on several outcomes related to child safety, permanence and 
well-being.
    <bullet>  County peer reviews that use qualitative information not 
measurable through data to identify both best practices and areas for 
improvement.
    <bullet>  County self-assessments, undertaken with a broad group of 
community stakeholders, that analyze current practices and performance.
    <bullet>  County-specific system improvement plans that detail the 
steps each county will take to improve its child welfare performance, 
guide implementation of these changes and monitor results.

    These requirements are the basic building blocks for broader reform 
efforts. The AB 636 outcomes and accountability system recognizes that 
while our communities may have different needs, counties can learn from 
one another. This is why the law provides for peer case reviews, a 
process in which teams of workers from other counties, along with state 
staff, cross county lines to review case files. The teams target areas 
where a county has self-identified a need for improvements and help 
design strategies to boost performance in those areas.
    While much remains to be done, progress has been made. California's 
counties are partnering with their communities and the State to enhance 
children and family services. California recently released the 
following snapshot of the status of children in the child welfare 
system:

    <bullet>  There are 9.6 million children in California age 0-18 (as 
of 2004).
    <bullet>  492,000 children are referred to child welfare services 
annually (as of July 2005).
    <bullet>  There are slightly more than 81,000 children in foster 
care (as of October 2005).
    <bullet>  The likelihood of children entering foster care for the 
first time is decreasing. Between 2001 and 2004, there was 6.4 percent 
reduction in the number of children entering foster care for the first 
time.
    <bullet>  The recurrence of child abuse or neglect is decreasing. 
Between 2001 and 2004, the percentage of children who experienced a 
second incident of abuse or neglect within six months of a previous 
incident declined by 12.4 percent.
    <bullet>  When children enter foster care, they are exiting more 
quickly. Between 2001 and 2004, the proportion of children who returned 
home within 12 months after entering foster care increased by 14.4 
percent. For those children unable to return home, the proportion of 
children adopted within 24 months of entering care increased by 56.7 
percent.
    <bullet>  Since 2004, there has been a 20.5 percent reduction in 
the number of children placed in foster care.

    In addition, 11 counties in California are working to develop and 
field-test a series of targeted improvements to child welfare programs 
and practices, using the recommendations from a state-wide stakeholder 
group that met from 2000 through 2003. These counties are working with 
the State on three strategies:

    <bullet>  Developing a standardized approach to assessing the 
safety of children, and the potential risk to their safety if they 
remain in their homes, when the county receives a call regarding child 
abuse or neglect.
    <bullet>  Improving county response to reports that do not meet the 
standards for abuse or neglect, but may be headed down that road in the 
absence of early intervention.
    <bullet>  Promoting permanent family connections for current and 
former foster youth and helping these youth become healthy, successful 
adults.

    Governor Schwarzenegger and the Legislature agreed to appropriate a 
small amount of funding in the current fiscal year to help counties 
implement these and other changes identified through their local AB 636 
self-assessment processes. We are hopeful that these funds will be 
added to in the coming year, though the final budget package has not 
yet been agreed upon.
    One of the most important things for Congress to recognize is that 
state funds for improvement efforts do not stretch as far as they could 
because of our inability to use federal Title IV-E dollars for many of 
the activities that would better serve children and families. In 
California, we exhaust our limited Title IV-B allocation in the first 
quarter of each fiscal year, so these funds also are not available for 
improvement efforts. This places the state in the position of having to 
bolster the federal program with state-only dollars in order to 
implement improvements that are generally seen as effective best 
practices within the social work field but are not supported by the 
existing federal funding streams.
How to Improve the Child Welfare System
    Based on our counties' experiences in administering California's 
child welfare system, CWDA has a few principles it wishes to share for 
the record that would improve child protection systems.

    <bullet>  Maintain Title IV-E Funding and Allow States to Use Funds 
More Flexibly

    Maintaining the federal commitment to a stable, dependable funding 
source is critical for states as they invest in the very programs that 
the Child and Family Services Reviews encourage them to create and 
expand. Investments by all the partners--states, counties and the 
federal government--are needed if we are to prevent abuse and neglect, 
intervene appropriately in families where abuse and neglect are 
occurring and achieve timely, permanent solutions for children.
    Title IV-E administrative funds support the social workers who form 
the system's foundation. These workers serve as the day-to-day contact 
with children and families, foster families, the court system, 
community agencies, and other partners. They work to ensure the best 
result for children and families in their caseload. Key to the system's 
success is regular, quality contact among all of these parties. The 
CFSR outcome measures depend in large part on social workers' ability 
to accurately assess the needs of children and families and figure out 
how to address those needs through the development and implementation 
of a comprehensive case plan. Funds for placement services and 
administrative activities are therefore fundamentally intertwined.
    Enabling states and counties to use Title IV-E funds in a more 
flexible manner would lead to measurable system improvements. Allowing 
the use of Title IV-E to pay for substance abuse and mental health 
treatment, for example, would improve access to these oft-needed 
services for parents and children. Parental substance abuse is 
estimated to be a factor in two-thirds or more of foster care cases. 
Similarly, up to 85 percent of children in foster care exhibit 
significant mental health problems. Currently, states and counties must 
piece together these services from an array of funding, and treatment 
is not always readily available. Allowing Title IV-E dollars to be used 
for these activities would help reunify families more quickly and 
create stronger, healthier children.
    At the end of March, California and the U.S. Department of Health 
and Human Services announced the successful negotiation of a Title IV-E 
Waiver Demonstration Project. The demonstration project will give up to 
20 counties the opportunity to use their federal foster care funds more 
flexibly. Implementation of this five-year waiver will occur in the 
coming fiscal year, with counties opting into the waiver based on the 
final terms and conditions, which are currently under negotiation, and 
their individual analyses of benefits, costs and risk.
    Under the waiver, federal funds may be used to provide prevention 
services to keep children with their families. This will enable county 
social workers to engage families before a crisis and may help to avoid 
removing children from their homes. Counties will also be able to 
reinvest savings in preventative programs that will keep children out 
of foster care.
    While CWDA supports the ability of our member counties to take 
advantage of the waiver, we continue to support the entitlement nature 
of Title IV-E funding and we also continue to advocate for greater 
flexibility in the use of Title IV-E funds for all states and counties, 
regardless of their waiver status. Given the budget pressures at all 
levels of government, the waiver will give participating counties 
funding for preventive services that they may not otherwise be able to 
access. However, not every county will benefit from the waiver. 
Therefore, it is crucial to both maintain the federal commitment to 
funding for child welfare services, and also enable states and counties 
to use these funds more flexibly in order to improve services for 
children and families.

    <bullet>  Increase Funding and Access to Title IV-B Funds

    Counties use a patchwork of numerous programs, including funding 
from the substance abuse, mental health, education, and medical care 
systems to serve children and families in the child welfare system. 
Counties also use Title IV-B funding, an allocation that is more 
flexible than Title IV-E but also much smaller, and capped at a finite 
annual amount for each state. Although Title IV-B funding can be used 
for a wide range of activities to protect and reunify families, it is 
an insufficient allocation that most California counties exhaust in the 
first three months of each fiscal year.
    CWDA welcomes the Subcommittee's bipartisan approach to 
reauthorizing PSSF. We support the Subcommittee's draft provision to 
continue on an annual basis the additional $40 million in mandatory 
funds for the Promoting Safe and Stable Families (PSSF) program as 
authorized in the Deficit Reduction Act. We urge Congress to 
appropriate those funds as soon as possible and provide states two 
years to spend the funds as they would have otherwise had in the 
beginning of FY 2006.
    CWDA also urges the Subcommittee to maintain the flexible nature of 
the program. While CWDA supports increased resources to support monthly 
caseworker visits, it urges that the Subcommittee authorize the new 
funding as part of the overall program, rather than earmarking it for 
specific purposes. At the state level, CWDA has made reducing social 
worker caseloads its top legislative priority this year.
    CWDA welcomes the potential $40 million increase, but more federal 
resources are necessary. Further increasing the amount of funding 
provided through Title IV-B would assist counties and states in 
providing the types of services allowable under the existing rules for 
this funding source, including expanded investments in prevention, 
reunification and family support services. In California, a Title IV-B 
expansion would support ongoing child welfare system reform initiatives 
at the local level, developed through the county-specific AB 636 
Outcomes and Accountability process, and facilitate implementation of 
the State's overall Program Improvement Plan (PIP).

    <bullet>  Provide Federal Funding for Guardianships

    About 40 percent of all children first entering foster care in 
California live primarily in a relative care placement. Research 
indicates that these children are more likely to be placed together 
with their siblings, less likely to have move from one foster home to 
another and more likely to maintain family relationships and avoid 
homelessness when they turn 18 than children who are placed with non-
relatives.
    CWDA strongly supports federal financing of guardianships. Due to 
the success of California's ground-breaking KinGAP program created in 
1998, about 16,000 California children are today living in safe, 
loving, permanent homes with relatives and have been able to leave the 
formal foster care system. Participants receive monthly subsidies equal 
to the amount they would have received as foster parents, with a 
sliding scale based on regional costs and the age of the child. KinGAP, 
however, cannot assist non-relatives who assume guardianship of 
children, because of TANF funding rules. The use of TANF dollars, which 
are increasingly scarce, to fund KinGAP also places the program in 
danger of future cutbacks.
    CWDA supports federal legislation to include guardianships as an 
allowable activity in the Title IV-E maintenance funding stream, and to 
enable children placed into guardianships to retain IV-E eligibility, 
with the maintenance subsidy payable to the guardian. Continued receipt 
of IV-E funding would be consistent with the federal Adoption and Safe 
Families Act of 1997 (ASFA), which contains provisions aimed at 
promoting adoption and permanent placement for children removed from 
their homes due to abuse or neglect.

    <bullet>  Promote and Support Local Innovation

    Family to Family is one example of a program that is getting 
individual neighborhoods involved in the safety and well-being of 
children and families. This initiative was begun by the Annie E. Casey 
Foundation and involves targeted efforts to bring neighborhood leaders, 
community- and faith-based organizations together with local child 
welfare agencies to strengthen the network of families available to 
care for abused and neglected children in their own communities. As of 
June 2005, 24 of California's 58 counties were participating in the 
initiative, with additional county involvement planned in the future.
    Other programs are being implemented on a similarly limited scale, 
such as family group conferencing, parent mentor programs, intensive 
transitional programs for emancipating youth, caregiver recruitment and 
retention programs and services to families and children post-adoption 
in order to address service needs that arise after the children have 
left formal foster care. Counties are doing what they can to implement 
these programs with as many families as possible, within existing 
resources. A number of counties invest their own general fund dollars 
to offset the lack of adequate state and federal resources--about $100 
million a year, on average, above what they would otherwise be required 
to spend. However, all of these promising practices are labor- and 
resource-intensive, and additional funding is needed to replicate 
programs throughout a given county and expand the most promising 
statewide.
    Due primarily to the lack of funding for broader-scale efforts, the 
most promising changes to date have generally been limited in scope, 
sometimes targeting individual neighborhoods, other times limited to a 
few social workers who are given smaller caseloads so they can spend 
more time working closely with families, extended family members, and 
children. A hallmark of these strategies is that they typically involve 
not just the local child welfare agency, but other county agencies, 
community-based organizations, the philanthropic and business 
communities, and the families and children we are serving.

    <bullet>  Increase Assistance to Youth Emancipating From Care

    The challenges to youth aging out of foster care are well 
documented. While California has several existing programs for these 
youth, ranging from independent living programs to transitional housing 
programs, funding is not sufficient to serve all youth who would 
benefit from these programs. Independent living programs help foster 
youth learn such basic skills as how to apply for college or a job, how 
to balance their checkbook and do the laundry. CWDA estimates that it 
would take $5,000 per youth, per year to fund ``best practice'' 
standards developed in 2001 at the direction of the California 
Legislature. As of last summer, however, counties receive less than 
$1,000 per eligible youth in their annual allocations. Federal funds 
for the Chafee independent living program are capped and must be 
supplemented by the state and counties. Individual counties often seek 
additional funding and donations from their local communities, 
businesses and philanthropy, to supplement their programs. The quality 
and scope of each program, therefore, depends on the local resources 
available to each county.
    On a broader scale, employment and higher education opportunities 
should be more readily available for our emancipating youth. CWDA 
supports efforts to provide financial assistance to support these youth 
until they are at least 21, not necessarily as dependents of the 
juvenile court but by giving them comprehensive aftercare services, 
supportive housing, education and employment assistance. The current 
Title IV-E structure limits federal funding for youth over 18 to those 
who will be able to graduate from high school by age 19. All other 
youth over 18, regardless of their level of need, must either leave the 
system or be supported solely with non-federal funds. We believe the 
federal government should reconsider these rules and offer states 
greater flexibility when children with special needs are nearing the 
age of emancipation.

    <bullet>  Recruit Caregivers to Provide Safe, Loving, Permanent 
Homes

    While social workers see children in foster care as often as 
possible, their caregivers see them every day. For children who cannot 
be reunited with their parents, nothing is more important than finding 
them a loving, permanent home, preferably with a relative or extended 
family member, or with an adoptive parent or foster home. While these 
families are the cornerstone of an effective child welfare system, more 
must be done to recruit, train and support caregivers.
    CWDA has urged the state to initiate a formal recruitment campaign 
to find more quality caregivers statewide. Prospective and current 
caregivers need better training and support, including providing 
respite care and paying them more appropriate rates. Federal support 
for these efforts is necessary in order to achieve the best possible 
results for children who must be removed from their homes due to abuse 
or neglect.

    <bullet>  Enhance the Federal CFSR Outcome Measures and Methodology

    States and counties welcome a focus on outcomes. The safety, 
permanence and well-being outcomes we are required to measure through 
the federal CFSRs are important. The data used for the Safety and 
Permanency Profiles and the National Standards come from the National 
Child Abuse and Neglect Data System (NCANDS) and the Adoption and 
Foster Care Analysis and Reporting System (AFCARS). Currently, neither 
of these data sources is longitudinal; each year's file only includes 
data about the children receiving services during that year, and data 
are not linked across years. Therefore, the outcomes it is possible to 
measure are limited.
    Using longitudinal data, such as the entry cohort data compiled by 
Dr. Barbara Needell at the Center for Social Services Research at the 
University of California--Berkeley, makes it possible to track children 
from their entry into the system throughout their entire child welfare 
experience, and enables more comprehensive outcome measurements. The 
California outcomes and accountability system has done just that, 
building on the federal outcomes by adding measures that are based on 
longitudinal data to complement the point-in-time measures used by the 
CFSRs.
    We point out this key difference between the federal CFSR and 
California's outcomes and accountability system because it is an 
important consideration as Congress identifies ways to improve the 
federal review system, including whether and how to change policy and 
practice in ways that may be driven by the states' CFSR data. It is 
important to understand the limitations of the CFSR state profiles and 
national standards so that these data do not, in and of themselves, 
drive changes in policy and practice that may not be best for children 
and families.
Conclusion
    The County Welfare Directors Association of California appreciates 
the opportunity to provide written comments on federal financing of 
child protection programs. Thoughtful and well-structured reforms are 
vital to protecting children, achieving permanent living arrangements 
for them as quickly as possible, and enhancing the well-being of 
children and their families.
    CWDA urges the Subcommittee to continue to work in a bipartisan 
fashion on the reauthorization of the Promoting Safe and Stable 
Families program. It is our hope that this approach will also continue 
in other legislative efforts to strengthen the entire child welfare 
system. County directors know that much more work needs to be done. We 
are partnering with the State on a non-partisan basis on a number of 
child welfare initiatives and welcome a similar intergovernmental 
partnership at the federal level.
    States and counties need an enhanced and more flexible federal 
partnership to improve the safety, permanence, and well-being of 
children and families. CWDA stands ready to work with members of the 
Human Resources Subcommittee to achieve those goals.

                                 <F-dash>

                          National Indian Child Welfare Association
                                             Portland, Oregon 97201
                                                       May 31, 2006
Honorable Wally Herger
Chairman
House Committee on Ways and Means
Subcommittee on Human Resources
B-317 Rayburn House Office Building
Washington, DC 20515

Dear Representative Herger:

    Please accept this letter for the record of the above-captioned 
hearing.
    The Association on American Indian Affairs is an 84 year old Indian 
advocacy organization located in South Dakota and Maryland and governed 
by an all-Native American Board of Directors. Our current projects 
focus to a considerable extent in the areas of cultural preservation, 
youth/education, health and federal recognition of unrecognized Indian 
tribes.
    We have been involved with Indian child welfare issues since the 
1960s. In fact, our work in the field and studies that we prepared were 
catalysts for the enactment of the Indian Child Welfare Act in 1978. 
Since then, we have worked actively to promote the implementation of 
that Act and to empower Indian tribes to provide quality child welfare 
services to Indian children and families under their jurisdiction. To 
that end, we have worked closely with Indian tribes around the country 
and with national organizations such as the National Congress of 
American Indians and the National Indian Child Welfare Association.
    We wholeheartedly endorse the recommendations submitted by the 
National Indian Child Welfare Association at the May 23rd hearing, 
namely an increase in the tribal allocation to 3%, allowing tribal 
consortia to apply for funding, and authorizing a tribal court 
improvement program--recommendations that are also supported by the 
National Congress of American Indians. We have attached a fact sheet 
explaining the reasons why these proposals make sense, are critical to 
Indian children and families and should be adopted.
    We would like to add just one additional thought. The draft bill 
that has been circulated by the Committee focuses upon workforce 
issues--it seeks to ensure that child welfare programs have adequate 
capacity to visit families and provide them with the help and 
assistance that they need. Currently, grants to tribes under the 
program are very small--\2/3\ are less than $40,000, almost half are 
less than $20,000. Thus, the current grants often do not provide enough 
for a tribe to hire a full-time staff person. Moreover, many tribes do 
not even qualify for the program at present. An additional allocation 
of $400,000--which is the amount that tribes would receive under the 
current formulas--will help a little, but will not make much of an 
impact on the ability of tribes to hire and retain full-time qualified 
staff. An increase to a 3% allocation for both the mandatory and 
discretionary programs and allowing tribes to meet the statutory 
threshold by applying as consortia will make a significant difference 
in tribal capacity, however. Thus, we believe that such an increase is 
essential if the laudable goals of this legislation are to be realized 
by Indian tribes, children and families.
    We appreciate your interest in ensuring that the Safe and Stable 
Families Act benefits Indian children and families, and appreciate the 
accessibility and thoughtfulness of your staff in regard to these 
issues. Thank you for the opportunity to submit this testimony and for 
considering the information that we have provided.
            Sincerely,
                                                      Jack F. Trope
                                                 Executive Director

                                 ______
                                 

TRIBAL AMENDMENTS FOR PROMOTING SAFE AND STABLE FAMILIES ACT 
        REAUTHORIZATION
May 15, 2006
    Proposal from the National Indian Child Welfare Association, 
National Congress of American Indians and the Association on American 
Indian Affairs:

    <bullet>  Increase tribal reserved amounts to 3% in both the 
mandatory and discretionary program
    <bullet>  Allow tribal consortia to be eligible to apply for the 
program
    <bullet>  Authorize a tribal court improvement program ($2 million 
annually--competitive grant program) to ensure that tribal courts have 
access to funds to support court improvement work.

    Rationale:

    <bullet>  Tribes are the primary service providers for children 
living on the reservation and, in general, have exclusive jurisdiction 
over these children.
    <bullet>  Less than 30% of the tribes in the Lower 48 have 
qualified for Title IV-B, Subpart 2 funding (approximately 80 tribes 
have received funding) and almost half of them have received grants of 
less than $20,000. Tribal governments receive very few dollars from 
other federal child welfare sources and are not eligible for Title IV-E 
or Title XX funding.
    <bullet>  Risk factors for child abuse and neglect, such as poverty 
and alcohol and substance abuse, are very high in most tribal 
communities. Placement rates of tribal children in foster care are 2-3 
times higher than the national average and even higher in some areas. 
Methamphetamine use is particularly acute on many reservations with the 
American Indian and Alaskan Native population showing incidence rates 
that are higher than that of other ethnic and racial populations; this 
places additional strain on tribal child welfare systems.
    <bullet>  Other programs provide for larger reserved amounts for 
tribes; for example, the Violence Against Women Act provides for a 10% 
set-aside and the Head Start reauthorization bills currently being 
considered by Congress providing for a 3.5 to 4 % allocation.
    <bullet>  Many tribes form consortia for a variety of purposes, 
including the provision of child welfare services. These child welfare 
consortia improve administrative and service efficiencies, while 
bringing services to tribal children and families who otherwise might 
not receive these services.
    <bullet>  Tribal courts are the judicial bodies that provide 
governmental oversight over child welfare proceedings involving tribal 
children and families. These courts have similar functions as state 
juvenile courts, but are the only courts with jurisdiction over tribal 
children and families who reside or are domiciled on tribal lands in 
most cases. Tribal courts in general receive very limited federal funds 
and no court improvement funds target child welfare proceedings.
    <bullet>  The Deficit Reduction Act provided for a $40 million 
increase for Title IV-B, Part 2 and it is expected that this will be 
incorporated into the reauthorization bill; thus, an increased tribal 
allocation will simply result in a larger percentage of the increase 
going to tribes than would have been the case--it will not result in 
any reduction of funding to states.

    How Will Outcomes for American Indian and Alaskan Native Children 
Improve If Recommendations Are Adopted?

    <bullet>  The number of tribal governments operating services 
authorized under this program will increase significantly. Tribal 
children and families will have access to new or expanded services in 
these new tribal grantee communities and existing grantees will be able 
to enhance their services.
    <bullet>  Systems reform, a primary goal under this program, will 
become more attainable for many tribal governments. The current grant 
amounts make this goal unrealistic, but adoption of the recommended 
increases in tribal reserved amounts will help tribes make systems 
changes that will improve services and outcomes, such as reducing the 
number of children in foster care. Allowing tribal consortia to apply 
will also support more efficient services as small tribes pool their 
resources.
    <bullet>  Approximately 10-15 tribal courts a year will be able to 
plan and make improvements to their juvenile court process, ensuring 
that their oversight function is improved and tribal children have 
improved outcomes. This will include improved collaboration with other 
entities that have a role in child welfare services, development of new 
or expanded data collection, improved advocacy for children through 
tribal court appointed special advocate program enhancement, and 
development of model tribal juvenile codes and procedures that can be 
replicated in other areas of Indian Country.

                                 <F-dash>

             Prevent Child Abuse America, Chicago, Illinois

    Prevent Child Abuse America thanks the Chairman and the other 
distinguished members of the Subcommittee on Human Resources of the 
U.S. House Committee on Ways and Means for this opportunity to provide 
the organization's perspective on proposals to improve child protective 
services. I hope this testimony will be of assistance to the 
Subcommittee as it considers the reauthorization of Promoting Safe and 
Stable Families (title IV-B, Subpart 2 of the Social Security Act). 
This is a program that, among other things, provides funding to 
services that seek to ameliorate risk factors associated with child 
maltreatment, thereby preventing abuse and neglect before they occur. I 
will also take this opportunity to share with the Committee Prevent 
Child Abuse America's views on the importance of the Social Services 
Block Grant to the child welfare continuum, including services that 
protect children by supporting and strengthening families.
About Prevent Child Abuse America
    Since 1972, Prevent Child Abuse America has been building 
awareness, providing public education and encouraging hope in the 
effort to prevent the abuse and neglect of our nation's children. 
Working with our 43 chartered and provisional statewide chapters and 
415 Healthy Families America sites nationwide, we provide leadership to 
promote and implement prevention efforts at both the national and local 
levels.
    Our vision imagines a culture (and a cultural attitude) wherein the 
well-being of children is universally understood and valued and where 
raising children in surroundings which ensure healthy, safe and 
nurturing experiences is supported by the actions of every individual 
and every community.
    This is a generational vision in which it becomes the norm for all 
parents and caregivers to seek and accept qualified support regarding 
the knowledge and skills required for effective parenting and child 
development; and for the general public to become educated and engaged 
in supporting the well-being of children.
The Scope of Child Abuse and Neglect
    According to the most recent data from the U.S. Department of 
Health and Human Services (HHS), an estimated three million children 
were reported to have been abused or neglected during FY 2004; 
approximately 872,000 of these children were determined by state child 
protective services (CPS) agencies to have been substantiated victims 
of child maltreatment. In addition, nearly 1,500 children died as a 
result of abuse or neglect, a statistic that has changed little in 
recent years.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2004 (Washington, DC: 
U.S. Government Printing Office, 2006).
---------------------------------------------------------------------------
    In one of the more troubling details from the HHS report, child 
welfare agencies report that over 40 percent of maltreated children 
received no services following a substantiated report. That figure 
alone is a source of great alarm and should initiate immediate action. 
But this is by no means new information. HHS's Child Maltreatment 
reports dating back to 1998 consistently note that between 40 percent 
and 45 percent of child victims receive no services after maltreatment 
is substantiated.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Archived reports retrieved online at: 
http://www.acf.hhs.gov/programs/cb/stats_research/index.htm.
---------------------------------------------------------------------------
The Consequences of Child Maltreatment
    Child maltreatment has devastating long-term consequences for 
children, families, and communities. Children who are victims of abuse 
and neglect suffer higher rates of school failure, feelings of 
worthlessness, aggressive behavior, detention, and incarceration.
    To address the consequences of abuse and neglect, billions of 
dollars are spent each year in out-of-home care, health and mental 
health care, special education, juvenile justice, and adult crime. In 
2001, Prevent Child Abuse America released a study that looked at the 
cost our nation incurs every year as a direct or indirect result of 
child abuse and neglect.\3\ Using data from HHS, the U.S. Department of 
Justice, the U.S. Census Bureau and other sources, we determined a 
conservative estimate of the nationwide cost resulting from abuse and 
neglect of $94 billion annually; or $258 million every day. Of the $94 
billion total annual cost of child abuse and neglect, $24.4 billion 
counts as a direct cost--i.e. those costs associated with the immediate 
needs of abused or neglected children.
---------------------------------------------------------------------------
    \3\ Prevent Child Abuse America. Total Estimated Cost of Child 
Abuse and Neglect in the United States--Statistical Evidence. 2001
---------------------------------------------------------------------------
    In contrast, very little federal money is dedicated to preventing 
harm to children before it occurs. This is not to imply that the costs 
of services for treatment and intervention are too high or that the 
services themselves are not essential; rather, it is to note that there 
is a tremendous imbalance between what is invested on the front end to 
prevent abuse and neglect before it happens and what is spent as a 
consequence after abuse or neglect has occurred. This is analogous to 
avoiding routine automotive oil changes that subsequently often result 
in much higher cost engine repairs.
The Importance of Promoting Safe and Stable Families
    Promoting Safe and Stable Families (PSSF) provides the largest 
federal funding source dedicated to prevention and family support 
services in child welfare. HHS estimates that PSSF funded preventive 
services for almost one-third of the children reported by the state 
child welfare agencies as receiving those services in 2004.\4\ If 
adequately funded, PSSF could help states and local communities address 
many factors that lead to child abuse and neglect. The program's 
flexibility allows states and localities to determine the best use of 
the dollars to meet the unique needs of their communities.
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2004 (Washington, DC: 
U.S. Government Printing Office, 2006).
---------------------------------------------------------------------------
    When Congress established the first iteration of PSSF in 1993, 
federal funding was made available solely for family preservation and 
family support services. When reauthorized in 1997, Congress added two 
additional purposes: time-limited family reunification and adoption 
promotion and support. HHS specified that states must spend 20 percent 
of their allotments on each of the four categories, or provide a 
``strong rationale'' for doing otherwise. The name of the program was 
changed to Promoting Safe and Stable Families (PSSF), and the mandatory 
funding level was increased incrementally to $305 million in FY 2001.
    While all four categories of the program provide vital support to 
children and families, the two original categories of family support 
services and family preservation services focus on prevention and are 
of particular importance to Prevent Child Abuse America.
    Family support services can target foster and adoptive families, 
and can also be geared more towards families that are not yet in crisis 
as a way to prevent child abuse and neglect before it occurs. These 
services are typically provided by community-based organizations and 
may include: home visiting programs; programs to improve parental 
relationships; and early developmental screening for children.
    Home visiting is just one example of a family support service with 
proven positive outcomes for children and families. Healthy Families 
America is a national home visiting program model designed to help 
expectant and new parents get their children off to a healthy start. A 
recent randomized control evaluation of Healthy Families New York found 
positive outcomes, including a reduced incidence of child abuse or 
neglect for the at-risk mothers and infants who participated in the 
program. The study found that Healthy Families New York mothers 
experienced better childbirth outcomes than control mothers and were 
less likely than control mothers to report neglecting their children 
and reported committing fewer acts of severe physical abuse, minor 
physical aggression, and psychological aggression against their 
children.\5\
---------------------------------------------------------------------------
    \5\ New York State Office of Children and Family Services, Bureau 
of Evaluation and Research, Albany, N.Y.: Center for Human Services 
Research, University at Albany. Evaluation of Healthy Families New York 
(HFNY): First Year Program Impacts. February 2005.
---------------------------------------------------------------------------
    Family preservation services are designed to keep families together 
and avoid the need to place children in foster care. These services are 
generally targeted towards families already known to the child welfare 
system and can include: intensive family preservation services; respite 
care to provide temporary relief for parents and other caregivers; 
services to improve parenting skills; and infant safe haven programs.
    In 2001, during the most recent reauthorization of PSSF, Congress 
set the capped entitlement funding level at $305 million through FY 
2006 and added a $200 million discretionary grant subject to annual 
appropriations, placing the total authorized funding for PSSF at $505 
million. Unfortunately, PSSF has not been fully funded since the 
discretionary grant was authorized. The combined mandatory and 
discretionary funding level for FY 2005 totaled just $403 million. As 
of this testimony, funding for FY 2006 is unclear. In FY 2006, Congress 
appropriated $89 million in discretionary funding, a $9 million 
decrease from the previous year. The Deficit Reduction Act of 2005 
(DRA) included a much needed $40 million increase to PSSF mandatory 
funding, but that funding has not been allocated to date. Prevent Child 
Abuse America appreciates the Committee's commitment to providing the 
$40 million in additional funding for PSSF in FY 2006 and beyond.
Protect the Social Services Block Grant
    One cannot discuss child protective services without acknowledging 
the largest source of federal funding for CPS, the Social Services 
Block Grant (SSBG). SSBG makes up 12 percent of all federal child 
welfare spending and is a significant source of funding for child abuse 
prevention, foster care, child care, and adoption assistance. HHS 
reports that SSBG funded preventive services for 29 percent of the 
total child recipients of preventive services in 2004.\6\ In FY 2004, 
38 states used almost $200 million in SSBG funding to provide child 
protective services to over one million children. In that same year, 37 
states used $332 million in SSBG funds for foster care services 
provided to more than 542,000 children. States often use SSBG to pay 
foster care costs for the board and care of children not eligible for 
federal Title IV-E foster care assistance.
---------------------------------------------------------------------------
    \6\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. Child Maltreatment 2004 (Washington, DC: 
U.S. Government Printing Office, 2006).
---------------------------------------------------------------------------
    Despite the many critical services that SSBG makes possible, 
funding for the block grant has been chipped away over the past decade 
from a high of $2.8 billion a year to its current authorized level of 
$1.7 billion a year. States are finding it increasingly difficult to 
make up for these cuts, particularly as they begin to feel the impact 
of cuts to child welfare and other social services funding enacted in 
the DRA. As this Committee is aware, the Administration's budget 
request for FY 2007 proposes to further cut SSBG by $500 million. If 
enacted, this 30 percent cut will result in the reduction or 
elimination of critical services and programs.
Prevent Child Abuse America's Policy Recommendation
Promoting Safe and Stable Families Reauthorization
    As the Committee considers ways to strengthen PSSF through 
reauthorization, Prevent Child Abuse America offers the following 
recommendations:

    <bullet>  Ensure that family preservation and family support 
efforts remain program priorities and continue to require that states 
spend at least 20 percent of their PSSF allocation on each of those 
purposes. Investing in positive outcomes for children and families 
through evidence-based family support and family strengthening programs 
can and do lead to fewer incidences of child abuse and neglect.
    <bullet>  Provide all PSSF funding as a capped entitlement totaling 
at least the current authorized level of $505 million. PSSF has been 
authorized at $505 million--with $305 million of that mandatory, and 
$200 million subject to annual appropriations--since 2001, but has 
never been fully funded despite the President's request to do so in 
previous years. Last year, appropriators cut PSSF discretionary funding 
by nearly $9 million. If fully funded, PSSF would promote expansion of 
family support services in communities across the nation and provide 
more intensive help for families in crisis.
    <bullet>  Allow states to use the additional $40 million provided 
by the DRA for the four designated purposes of PSSF. As discussed 
earlier in the testimony, the need for additional funding for the child 
abuse prevention and other services supported by PSSF is great. Yet 
Congress has never fully funded PSSF at its authorized level of $505 
million. It is our hope that, until Congress fully funds PSSF, any 
increase designated for PSSF be directed towards the four existing 
purposes.
    <bullet>  Examine PSSF reporting requirements. Some have suggested 
that state's reporting requirements should be improved and data on how 
PSSF funding is used made more readily available to the public. We 
welcome a broader discussion on this important issue.
The Social Services Block Grant
    As the Committee considers ways to improve child protective 
services, Prevent Child Abuse America recommends the following:

    <bullet>  Ensure that SSBG funding for FY 2007 remains at minimum 
at the current authorized level of $1.7 billion. SSBG is a mandatory 
capped entitlement under the jurisdiction of this Committee, yet the 
Administration is proposing that the $500 million cut take place 
through the appropriations process. We appreciate past efforts by the 
Committee to protect SSBG from cuts, and we hope that Committee members 
will take an active role in ensuring that SSBG not be cut during the 
appropriations process.
Conclusion
    Promoting Safe and Stable Families and the Social Services Block 
Grant are two of the most significant resources for child abuse 
prevention services and child protective services. I appreciate the 
opportunity to share Prevent Child Abuse America's views on how to 
strengthen these programs to ensure that our nation's communities are 
best able to provide safe, healthy, nurturing environments for 
children. I look forward to working with the Committee as you develop 
PSSF reauthorization proposals, and supporting Committee efforts to 
protect SSBG from proposed cuts.

                                 <F-dash>

                                       Happy Hill Farm Academy/Home
                                              Granbury, Texas 76048
                                                       June 6, 2006
House Ways and Means
Human Resource Subcommittee

To Whom It May Concern:

    As the Founder of Happy Hill Farm Academy/Home, I strongly endorse 
the proposed language contained in Section 422, Clause 4-A, which says, 
to ``expand and strengthen the range of existing services . . . to 
improve child outcomes.'' That is why my wife and I, 32 years ago, 
launched a residential education program for at-risk children that has 
touched the lives of 1,000's of kids that probably would have ended up 
in juvenile jails throughout Texas. Their ``outcomes'' have been 
dramatically improved.
    Thank you, as a Committee, for your willingness to consider the 
inclusion of schools in your legislation.
    Happy Hill Farm Academy/Home serves socially and academically 
disadvantaged boys and girls--regardless of their religion, race, 
national origin, or gender--children are given the opportunity to live, 
work, and study in a year-round residential school/farm setting. A 
balance is taught between the spiritual, academic, and practical 
aspects of life in order for the students to prepare themselves 
effectively to assume their role in society as productive citizens 
while engaged in their chosen professions.
    Happy Hill Farm Academy/Home is part of a growing movement for 
developing residential schools for at-risk children. There is an acute 
need for such programs for at-risk young people from low socio-economic 
backgrounds where they can learn to trust others, believe in their own 
futures, and take responsibility for their lives. To quote Heidi 
Goldsmith, Founder of the Coalition for Residential Education: ``The 
primary obstacles to creating residential education programs are money, 
myopia,and myths.''
    The cost, by comparison, is not really a problem. Residential 
education is inexpensive when compared to the social costs of 
neglecting the needs of socially disadvantaged young people. 
Residential education is half the cost of a Texas juvenile detention 
center, here the majority of these at-risk young people are headed. 
Neglecting the long-term benefits offered, and the long-term costs that 
may otherwise result, is a dangerous form of social myopia. The myth 
that residential education programs are ``institutional'' environments 
where youth are kept against their will, or without their parent(s)'s 
or guardian(s)'s consent, provides a further unsubstantiated obstacle. 
Admission to Happy Hill Farm Academy/Home requires the parent(s)'s or 
guardian(s)'s consent.
    Most families desperately need to have their child in an 
environment where they can be given another chance in life. Students 
who gain admission are required to maintain a satisfactory level of 
academic achievement and appropriate citizenship to remain in the 
program.
    Since Happy Hill Farm Academy/Home works almost exclusively with 
indigents, more than 1,000 applicants had to be turned away last year 
due to lack of available beds.
    Where there is high-quality foster care available, and where 
siblings can remain together, foster care may be best for some 
children, especially younger children. But foster care alone is 
insufficient. Additional options are needed for at-risk children. 
Residential schools need to be available for other children, 
particularly children ages nine and older. The reality is that there 
aren't enough foster homes for the more than 600,000 children currently 
in the foster system. What looks like a family is not necessarily what 
children need. Children need to live in a setting that behaves like a 
family and provides them with consistent love from caring adults, as 
well as stability and satisfaction of their psychological needs.
    Based on the founding family's personal philosophy and experiences 
in business and ministry, financial and spiritual policies were put in 
place at the outset which have guided Happy Hill Farm Academy/Home for 
its first 31 years and will guide the future projected advancement. 
Happy Hill Farm is undergirded by strong moral and spiritual roots. No 
State or Federal funds (welfare or juvenile justice system) are 
accepted. Happy Hill Farm Academy/Home runs independently with private 
donations underwriting, the entire program for indigent boys and girls.
    A 266-acre working farm--donated initially to the non-profit 
corporation by the Shipman family--would constitute the initial campus. 
An additional, 200-plus acres would be added a few years later, 
bringing the campus to approximately 500 acres. From the beginning, the 
children were heavily involved in an active 4-H program. Animals--
horses, cattle, sheep, goats, pigs, chickens, and an assortment of dogs 
and cats--were an important part of the vocational programs. The 
animals, garden, orchard, and the farm crops supplied much of the 
foodstuffs during the formative years.
    A commitment to comply with all appropriate State laws governing 
education and child care was made at the founding of Happy Hill Farm 
Academy/Home. The Farm is licensed by the Texas Department of Family 
and Protective Services and is affiliated with the Texas Association of 
Private and Parochial Schools, Texas Non-Public Schools, and the 
Coalition of Residential Education. Happy Hill Farm Academy is a Texas 
private school (grades K-12) accredited by the Southern Association of 
Colleges and Schools.
    Happy Hill Farm is open to children from throughout the country. 
There are students from north, south, east, and west Texas, but the 
majority are from a seven-county area known as the Dallas/Fort Worth 
Metroplex.
    Happy Hill Farm Academy/Home serves troubled, hurting children . . 
. children with a broad range of behavioral and academic problems . . . 
children who are experiencing emotional instability often due to family 
trauma. Some children are from backgrounds of abuse and neglect. For 
whatever reasons, all are unable to live and study in more traditional 
family and community settings. Happy Hill Farm is not a correctional 
institution nor a prep school. The Farm is an interdenominational, 
residential school that provides very specialized help for children who 
need another chance in life.
    Happy Hill Farm Academy graduates continue to need assistance, 
which comes in the form of grants and aid, college jobs, and the Happy 
Hill Farm College Scholarship Fund. Eighty percent of current graduates 
are attending colleges and junior colleges throughout the State. The 
military still offers a unique opportunity for Happy Hill Farm Academy 
graduates and, at this writing, Farm graduates serve in every branch of 
the military services.
    In conclusion, let me again urge the maintenance of the language of 
inclusion for a broad range of services for children, including 
residential education. This is an important, effective option for at-
risk boys and girls.
            Sincerely,
                                                  C. Edward Shipman
                                                            Founder

                                  <all>

</pre></body></html>
